    Report No. SPO-2009-001           October 24, 2008




               Special Plans & Operations


Assessment of Arms, Ammunition, and Explosives Control
and Accountability; Security Assistance; and Sustainment
        for the Afghan National Security Forces
General Information

Forward questions or comments concerning this assessment and report and other
activities conducted by the Office of Special Plans & Operations to:

                            Special Plans & Operations 

                     Office of the Assistant Inspector General 

                          for Special Plans & Operations 

          Office of the Inspector General for the Department of Defense 

                               400 Army Navy Drive 

                          Arlington, Virginia 22202-4704 

                                         or 

                              E-mail: spo@dodig.mil


An overview of the Office of Special Plans & Operations’ mission and organization
and a list of past evaluations and future topics are available at
http://www.dodig.mil.




To Report Fraud, Waste, and Abuse

Contact the Office of the Inspector General for the Department of Defense hotline
at (800) 424-9098, E-mail at hotline@dodig.mil or write:

                                Defense Hotline
                                 The Pentagon
                                Washington, D.C.
                                  20301-1900
                              INSPECTOR GENERAL


                             DEPARTMENT OF DEFENSE


                              400 ARMY NAVY DRIVE


                         ARLINGTON, VIRGINIA 22202-4704





                                                                         October 24, 2008

MEMORANDUM FOR DISTRIBUTION

SUBJECT: Report on the Assessment of Arms, Ammunition, and Explosives
         Accountability and Control; Security Assistance; and Sustainment for the
         Afghan National Security Forces (Report No. SPO-2009-001)


        We are providing this final report for your information and use. We performed
this assessment in response to requests from the Secretary of Defense and the Chairman,
Joint Chiefs of Staff.

       For purposes of this report, we request the following additional comments and
information within 30 days of the report publication date.

               From the Deputy Secretary of Defense, comments on new
               recommendation W.4.
               From the Under Secretary of Defense for Policy management comments
               on recommendation H.

               From the Defense Security Cooperation Agency, management comments
               on recommendations G.3 and G.4.

               From the Joint Staff, comments on new recommendation W.5.

               From USCENTCOM, comments on new recommendation W.1 .b and re­
               directed recommendation W. 1.e.

               From the U.S. Air Force, a re-evaluation of their non-concur to
               recommendation S.2, based on the Assessment Response.

               From the Combined Security Transition Command-Afghanistan, a re­
               evaluation of their non-concur to recommendations E.1, J.1, P, and U
               based on the Assessment Response.
         We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Kenneth P. Moorefield at (703) 604-8742 (DSN 664-8742) or Mr. Robert M.
Murrell (703) 604-9074 (DSN 664-9074). We will provide a formal briefing on the
results, if management requests. See Appendix H for the report distribution.




                                         Thomas F. Gimble
                                         Principal Deputy
DISTRIBUTION:

SECRETARY OF DEFENSE
DEPUTY SECRETARY OF DEFENSE
SECRETARY OF THE ARMY
CHAIRMAN OF THE JOINT CHIEFS OF STAFF
UNDER SECRETARY OF DEFENSE FOR POLICY
UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF FINANCIAL
  OFFICER
COMMANDER, U.S. CENTRAL COMMAND
COMMANDER, U.S. JOINT FORCES COMMAND
ASSISTANT SECRETARY OF DEFENSE FOR HEALTH AFFAIRS
COMMANDER, U.S. ARMY MATERIEL COMMAND
ASSISTANT SECRETARY OF THE ARMY (MANPOWER AND RESERVE
  AFFAIRS)
ASSISTANT SECRETARY OF THE NAVY (MANPOWER AND RESERVE
  AFFAIRS)
ASSISTANT SECRETARY OF THE AIR FORCE (MANPOWER AND RESERVE
  AFFAIRS)
DIRECTOR, DEFENSE SECURITY COOPERATION AGENCY
SURGEON GENERAL OF THE ARMY
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
SURGEON GENERAL OF THE NAVY
SURGEON GENERAL OF THE AIR FORCE
COMMANDER, COMBINED SECURITY TRANSITION COMMAND­
  AFGHANISTAN
COMMANDER, U.S. ARMY MATERIAL COMMAND LOGISTICS SUPPORT
  ACTIVITY
               Department of Defense Office of Inspector General
Report No. SPO-2009-001

Project No. D2008-D000IG-0141.001                                       October 24, 2008

                            Assessment of 

    Arms, Ammunition, and Explosives Accountability and Control; 

            Security Assistance; and Sustainment for the 

                  Afghan National Security Forces 


                                Executive Summary 


Who Should Read This Report? Personnel within the Office of the Secretary of
Defense, the Joint Staff, the U.S. Central Command and its subordinate commands in
Afghanistan, the Military Departments, and the North Atlantic Treaty Organization-
International Security Assistance Force (NATO-ISAF) who are responsible for property
accountability and control, the Foreign Military Sales (FMS) program supporting
Afghanistan, and the development of the logistics and medical sustainment bases within
the Afghan National Security Forces (ANSF) should read this report.

Background. The DoD Office of Inspector General performed an assessment of the
control and accountability of Arms, Ammunition, and Explosives (we did not include an
evaluation of explosives in our assessment) in Iraq in September and October 2007. The
results of that assessment and recommendations for corrective actions were published in
DoD IG (DoD Inspector General) Report No. SPO-2008-001, “Assessment of the
Accountability of Arms and Ammunition Provided to the Security Forces of Iraq,” July 3,
2008.

The Inspector General assembled an assessment team in February 2008 to determine the
status of the corrective actions being implemented for the accountability and control of
arms, ammunition, and explosives being transferred to the Iraq Security Forces.

Before returning to Iraq, the assessment team visited Afghanistan in April, 2008 to assess
issues involving the accountability and control of Arms, Ammunition, and Explosives,
the responsiveness of U.S. FMS processes supporting ANSF, and the development of
logistics sustainment capability for ANSF, to include a related issue on building the
Afghan military health care system and its sustainment base.

Results. The report’s results are separated into four parts: Arms, Ammunition, and
Explosives; FMS; Logistics Sustainability; and Medical Sustainability.

        Arms, Ammunition, and Explosives. The mission of the Arms, Ammunition,
and Explosives logistics supply chain is to provide an effective end-to-end system that
delivers materiel to the warfighter, while maintaining the security and safety of the
materiel and the public. Inherent in this mission is the requirement to implement
procedures and mechanisms throughout the supply chain that ensure accountability and
control of Arms, Ammunition, and Explosives while enabling mission execution.



                                            i
        However, the assessment team found that the Combined Security Transition
Command-Afghanistan (CSTC-A) had not issued implementing instructions or
procedures governing the accountability, control, and physical security of Arms,
Ammunition, and Explosives the U.S. is supplying to ANSF. Further, CSTC-A had not
clearly defined the missions, roles, and responsibilities of U.S. training teams and senior
mentors involved in advising ANSF and the Afghan Ministries of Defense and Interior on
the accountability, control, and physical security of U.S.-supplied Arms, Ammunition,
and Explosives. Moreover, the CSTC-A had not accurately recorded the serial numbers
of weapons that were to be issued to ANSF and did not report these serial numbers to the
DoD Small Arms Serialization Program.

        While the CSTC-A continued to make progress on weapons accountability, they
need to issue command policy guidance and implementing instructions or procedures for
the accountability, control, and physical security of Arms, Ammunition, and Explosives.
Further, it is critical that the CSTC-A develop a formal mentoring strategy with detailed
implementing guidance for mentoring ANSF and the Afghan Ministries of Defense and
Interior on the accountability, control, and physical security of U.S.-supplied Arms,
Ammunition, and Explosives. In addition, the CSTC-A needs to ensure that serial
numbers and associated information in its data systems used to track the weapons are
accurate, and report the serial number information to the DoD Small Arms Serialization
Program.

        Foreign Military Sales. The FMS program has historically functioned primarily
as a peacetime security assistance program. However, the U.S. is using the FMS
program as the principal means to equip, expand, and modernize ANSF during wartime
conditions. To be successful in executing this strategic decision, the $7.4 billion FMS
program in Afghanistan needs to be fully supportive of the wartime equipping
requirements of the CSTC-A and ANSF. Responsive support beyond the norm is
essential for rapid ANSF force generation, replacement of combat losses, and force
modernization.

        Commanders noted that progress has been made in improving the FMS program
responsiveness. However, FMS case processing time standards were developed in
peacetime and were still inadequate for meeting the wartime train and equip requirements
of the CSTC-A and ANSF. Further, the CSTC-A security assistance office was not
adequately staffed with sufficient numbers of personnel and those personnel that were
assigned did not possess the requisite rank, security assistance skills, and experience
required to successfully execute the mission. As a result, the ability of the FMS program
and the CSTC-A security assistance office to responsively and effectively accomplish the
mission may have been impaired.

       A wartime standard for FMS case processing times should be established to
support U.S. strategic objectives in Afghanistan. In addition, the number of personnel in
the CSTC-A security assistance office and the rank level of its leadership should be
increased to be commensurate with the mission, size, and scope of the FMS program in
Afghanistan.


        Logistics Sustainability. The ability of ANSF to operate independently relies on
developing adequate logistical support for fielded military and police units. This support
includes standardized logistics policies and processes; a logistics organization that is able
to procure, receive, store, distribute, maintain, and re-supply its forces; maintenance of a
sufficient logistical infrastructure; and support of professional logistics training and


                                             ii
mentoring activities. The CSTC-A has responsibility for helping ANSF build these
capabilities and develop logistics sustainability.

However, the various U.S. plans for development of ANSF logistics sustainment were
not clearly linked in a single integrated plan, did not provide a time-phased, conditions-
based approach for accomplishing end state objectives, and generally did not identify a
specific person or office responsible for the execution of specific tasks. Moreover, it was
not clear the extent to which the Afghan Ministries of Defense and Interior and ANSF
were directly engaged in the process of planning the establishment of their own logistics
sustainment base.

There were insufficient numbers of logistics mentors assigned to ANSF. The CSTC-A
had not prepared or issued a strategy to its mentors advising the Ministry of Defense,
General Staff, and Ministry of Interior logistics organizations for achieving a sustainable
logistics capability.

A single, integrated logistics sustainment plan should be developed in coordination with
the Afghan Ministries of Defense and Interior and ANSF that links tasks, milestones, and
metrics, and identifies specific accountable offices of primary responsibility for each
action. Further, it is critical that a formal mentoring strategy with detailed implementing
guidance for achieving ANSF logistics sustainability also be developed. Moreover,
logistics mentors need to receive the requisite training to successfully execute their
mission.

        Medical Sustainability. Independent, effective ANSF operations depended on
an ANSF health care delivery system that provides acceptable field-level combat casualty
care, evacuation of casualties, restorative surgery and rehabilitation, and long-term care
for disabled ANSF personnel. A sustainable ANSF health care system depended on an
integrated Afghan civil-military-police health care system, where civilian clinical
services, medical education, and medical logistics supported ANSF needs. The
complexity of medical stabilization and reconstruction challenges in Afghanistan called
for a robust U.S. interagency and international effort to assist deployed medical personnel
in developing and implementing a detailed, multi-year strategy and reconstruction plan.

However, lack of coordinated long-term planning and engagement by the U.S. Central
Command, the CSTC-A, the NATO-ISAF, and the U.S. Mission-Afghanistan limited the
development of key Afghan civilian health care system capabilities needed to support
ANSF. Further, there was confusion among the ANSF medical leadership as to the
policy and strategy on integration of Afghan military and police medical functions into a
common ANSF medical corps, or even whether this was a desirable goal.

Moreover, many U.S. and NATO-ISAF medical mentoring teams were not fully manned,
particularly those assigned to work with the Afghan police, and the development of
ANSF medical personnel was seriously hampered by the mentors’ inadequate training.
Comprehensive pre-deployment training and in-country orientation programs would
significantly boost the effectiveness of medical mentoring personnel. Moreover,
restrictive personnel practices for U.S. Navy and U.S. Air Force medical personnel
assigned to the CSTC-A reduced its ability to relocate them to meet changing work
requirements in Afghanistan. In addition, specific, prioritized medical objectives that had
been synchronized with the appropriate levels of ANSF medical leadership had not been
developed for providing mentoring support to ANSF.

An integrated Afghan civil-military-police health care system may not develop upon
which a sustainable ANSF health care system must depend. The lack of an effective
                                            iii
ANSF health care system would require prolonged combat casualty care assistance by the
U.S. and other NATO-ISAF member countries to ANSF, as well as delay its ability to
operate independently.

The U.S. Central Command, in coordination with U.S. Mission-Afghanistan, Afghan
medical leadership, NATO-ISAF, and multiple interagency and international partners,
needs to develop a comprehensive, integrated, multi-year plan to build a sustainable
ANSF health care system. DoD and NATO-ISAF medical mentoring teams need to be
fully resourced with adequately trained personnel, and supported by an interagency reach
back capability that coordinates all U.S. government health sector reconstruction
activities in Afghanistan.

See the four parts of the report for detailed discussions of the observations and
recommendations.


                             Recommendations Table

      Office of Primary Responsibility                       Recommendations
                                                   W.4
Deputy Secretary of Defense


Under Secretary of Defense for Policy              H.1, H.2, H.3


Assistant Secretary of Defense for Health
                                                   W.2.a, W.2.b
Affairs



Assistant Secretary of the Army (Manpower          G.4
and Reserve Affairs)


Assistant Secretary of the Navy (Manpower          G.4
and Reserve Affairs)


Surgeon General, Navy                              S.1


Assistant Secretary of the Air Force               G.4
(Manpower and Reserve Affairs)




                                             iv
                   Recommendations Table (continued) 


      Office of Primary Responsibility                  Recommendations

Surgeon General, Air Force                   S.2


                                             A.1, A.2, E.2, G.1.a, G.1.b, G.2, K.1, L,
U.S. Central Command                         R.1, W.1.a, W.1.b, W.1.c, W.1.d, W.1.e



Joint Staff                                  G.2, G.4, L, R.1, W.5



                                             B.1, B.2, B.3, C.1.a, C.1.b, C.1.c, D.1.a,
                                             D.1.b, E.1, F, I.1, I.2, J.1, J.2, K.2.a,
Combined Security Transition Command-
                                             K.2.b, M.1, M.2, M.3, M.4, N.1, N.2,
Afghanistan
                                             N.3, O, P, Q, R.2, S.3.a, S.3.b, T.1, T.2,
                                             T.3, T.4, U, V.1, V.2, V.3, W.3.a,
                                             W.3.b

Army Materiel Command, Logistics Support     C.2, D.2
Activity

Defense Security Cooperation Agency          G.3, G.4




                                         v
This Page Intentionally Left Blank
                         Table of Contents

Executive Summary 	                                                            i


Background 	                                                                   1


Objectives	                                                                    2


Observations and Recommendations
  Part I - Arms, Ammunition, and Explosives                                    3

     Introduction                                                              5     

     A. U.S. Central Command - Guidance for the Accountability, Control, 

           and Physical Security of Arms, Ammunition, and Explosives           6

     B. Combined Security Transition Command-Afghanistan - Guidance for 

           the Accountability, Control, and Physical Security of Arms, 

           Ammunition, and Explosives                                         11 

     C. Combined Security Transition Command-Afghanistan - Recording 

           Small Arms and Light Weapons Serial Numbers                        15 

     D. Combined Security Transition Command-Afghanistan - Reporting 

           Small Arms and Light Weapons Serial Numbers                        20 

     E. Combined Security Transition Command-Afghanistan - Guidance for 

           Captured and Otherwise Obtained Weapons                            23 

     F. Afghan National Police - National Weapons and Ammunition Depot        27 

  Part II - Foreign Military Sales                                            29 

     Introduction                                                             31 

     G. Foreign Military Sales – Personnel 	                                  32 

     H. Foreign Military Sales – Performance 	                                40 

  Part III - Logistics Sustainability                                         45 

     Introduction                                                             47     

     I. 	 Combined Security Transition Command-Afghanistan - Planning for 

            Logistics Sustainability                                          48 

     J. 	 Afghan Ministry of Defense - Logistics Command Visibility over 

            Equipment Provided to the Afghan National Army Fielded Force      55 

     K. Combined Security Transition Command-Afghanistan - Logistics 

            Mentoring Strategy, Training, and Coordination                    61 

     L. Combined Security Transition Command-Afghanistan - Staffing for 

            Logistics Training Teams                                          67 

     M. Afghan Ministry of Defense Transportation – Central Movement 

            Agency Maintenance Management                                     71 

     N. Afghan Ministry of Defense Transportation – Central Movement 

            Agency Driver Training                                            76 

     O. Afghan National Army - Logistics Specialty Training 	                 79 

     P. Afghan Ministry of Interior - Logistics Guidance 	                    82 

     Q. Afghan Ministry of Interior - Logistics Specialty Training and

            Acquisition Training                                              84 

                     Table of Contents (cont’d)
  Part IV – Medical Sustainability                                               87 

     Introduction                                                                89 

     R. Coalition Medical Mentor Training                                        90 

     S. Utilization and Staffing of U.S. Medical Mentors                         95 

     T. Combined Security Transition Command-Afghanistan - Coordination 

           of Medical Mentoring Activities                                      102 

     U. Afghan National Army - Medical Logistics                                108 

     V. Afghan National Security Forces - Integrated Medical Corps              111 

     W. Development of Afghan Civilian Health Care System Capabilities to 

           Support the Afghan National Security Forces                          119 

Appendixes
     A.   Scope, Methodology, and Acronyms                                      135 

     B.   Summary of Prior Coverage                                             139 

     C.   Glossary                                                              143 

     D.   Organizations Contacted and Visited                                   149 

     E.   Organizations Supporting the Train and Equip Mission in Afghanistan   153 

     F.   United States Code and DoD Policies                                   155 

     G.   Foreign Military Sales Process in Afghanistan                         161 

     H.   Management Comments                                                   163 

     I.   Report Distribution                                                   219 

Background
           The DoD Office of the Inspector General performed an assessment of the
           accountability and control of Arms, Ammunition, and Explosives (AA&E) 1 in
           Iraq in September and October 2007. The results of that assessment and
           recommendations for corrective actions were published in DoD IG Report No.
           SPO 2 -2008-001, “Assessment of the Accountability of Arms and Ammunition
           Provided to the Security Forces of Iraq,” July 3, 2008.

           The scope of the initial assessment in 2007 was expanded to assess issues
           involving the accountability and control of AA&E in Afghanistan, the
           responsiveness of U.S. Foreign Military Sales (FMS) processes supporting the
           Afghan National Security Forces (ANSF) and the Iraqi Security Forces (ISF), and
           the development of logistics sustainment capability for ANSF and ISF, to include
           a related issue on building the Afghan and Iraqi military health care system and
           its sustainment base. The results of the September 2007 Afghanistan visit was not
           included in the July 3, 2008 report, which dealt solely with Iraq. Rather, that
           work has been incorporated into this report, documenting the results of both the
           2007 and 2008 Afghanistan assessments.

           Initiation of the 2007 Iraq Assessment. DoD Office of Inspector General
           efforts regarding the accountability and control of U.S.-purchased AA&E
           provided to ISF was triggered by a December 2005 DoD Hotline complaint and
           other information that a senior U.S. Army officer received illegal gratuities from a
           DoD contractor. This had evolved into extensive and ongoing DoD criminal
           investigations involving millions of dollars in bribes and a number of U.S.
           military officers, noncommissioned officers, civilian officials, and DoD
           contractors.

           While investigating these complaints, investigators from the Defense Criminal
           Investigative Service and the U.S. Army Criminal Investigative Division raised
           further concerns about the accountability, control, and loss of weapons provided
           to ISF by the U.S. Government. These concerns were reinforced by a Special
           Inspector General for Iraq Reconstruction audit report, followed by a Government
           Accountability Office audit report, which indicated accountability and control
           problems with particular weapons provided to ISF in Iraq.

           In December 2006 and January 2007, the DoD Office of Inspector General
           received allegations from the Turkish National Police and the Turkish Ministry of
           Defense that weapons and explosives the U.S. supplied to ISF were finding their
           way into the hands of insurgents, terrorists, and criminals in Turkey.

           After being briefed on that situation, the Secretary of Defense, the Chairman of
           the Joint Chiefs of Staff, and congressional leadership requested that the DoD
           Inspector General send a team to Iraq. The team was to review the accountability
           and controls over AA&E provided to ISF that were currently in place at the time
           of our assessment. The DoD Inspector General organized and deployed an
           assessment team to address the issue and review AA&E accountability.


1
    We did not include an evaluation of explosives in our assessment.
2
    DoD IG, Office of Special Plans and Operations.

                                                      1

    Public Laws. Congress also provided approximately $15.4 billion to the Iraq
    Security Forces Fund and approximately $11.7 billion to the Afghanistan Security
    Forces Fund through Public Laws 109-13, 109-234, 109-289, 110-28, and
    110-161. These Public Laws define the train and equip mission performed in Iraq
    and Afghanistan. The laws specified that the Iraq Security Forces Fund and the
    Afghanistan Security Forces Fund funds be used to provide funding; equipment;
    supplies; services; training; facility and infrastructure repair, renovation, and
    construction for the security forces of Iraq and Afghanistan.

    Initiation of the 2008 Afghanistan Assessment. At the request of the Secretary
    of Defense and the Chairman of the Joint Chiefs of Staff, the Inspector General
    assembled a second assessment team in February 2008 to determine the status of
    the corrective actions being implemented for the accountability and control of
    AA&E in Iraq as a result of the recommendations in the July 3, 2008, report. A
    decision was made to include Afghanistan in this assessment in order to build on
    the work done during the September 2007 visit to Afghanistan.

Objectives
    The announced overall objective of the Afghanistan assessment announced on
    April 4, 2008, was to determine whether the controls over the distribution of
    conventional military arms, ammunition, and explosives provided to the security
    forces of Afghanistan were adequate.

    Subsequently, we revised the objectives for this phase of the assessment to:
       •	 Determine whether security assistance processes were responsive to
          Afghanistan Security Forces equipment requirements. Specifically, we
          examined the organizational structure and processes used to execute
          security assistance programs during wartime operations using pseudo
          Foreign Military Sales cases for Afghanistan.

       •	 Assess whether the Afghanistan Security Forces logistics sustainment base
            was being effectively developed. Specifically, we examined the status and
            effectiveness of planning to develop a sustainable Afghan logistics base.
    After the announcement of this phase of the assessment, a decision was made to
    examine an additional but related issue concerning mentoring and building the
    Afghan military health care system and its sustainment base.

    Appendix A discusses the scope and methodology related to the assessment
    objectives and a list of acronyms used in this report. Appendix B provides a
    summary of prior coverage related to the assessment objectives. Appendix C
    provides the definitions of terms used in this report. Appendix D provides a list
    of the organizations contacted and visited during the assessment. Appendix E
    discusses the organizations involved in the train and equip mission that supports
    Afghanistan.




                                         2

             Part I 

Arms, Ammunition, and Explosives 





                3

This Page Intentionally Left Blank




                4

Introduction
           The “Department of Defense Strategic Plan for the Distribution of Arms,
           Ammunition, and Explosives,” (AA&E Strategic Plan) May 2004, was developed
           to improve the oversight, management, control, safety, and security of AA&E
           across the entire DoD logistics chain. 3

           The Challenge. The AA&E Strategic Plan states:
                    The Department of Defense faces a significant challenge as it seeks to
                    protect and safely test, acquire, produce, store, transport, maintain, and
                    dispose of its arms, ammunition and explosives (AA&E) while it
                    effectively meets the requirements of warfighters for timely supplies of
                    AA&E worldwide. Meeting these demands must be effective and
                    efficient in the face of an ever-changing and growing threat
                    environment. Terrorists, or other individuals or entities pursuing their
                    own agenda, seek to exploit the vulnerabilities of the United States and
                    use our nation's AA&E and conveyances in ways never conceived
                    before.
           The Scope. The scope includes selected activities in the testing, acquisition,
           production, storage, issue, transportation, receipt, and disposal of AA&E-from
           origin to final destination. It focuses on the distribution process and the
           interaction, integration, and interoperability of these logistics chain activities.
           The AA&E Strategic Plan encompasses the requisite safety, security, and
           accountability provisions dictated by national, international, state, and local laws
           and regulations, host nation agreements, and DoD policies.

           The Mission. The mission of the AA&E logistics chain 4 is to provide an
           effective end-to-end system that consistently and quickly delivers AA&E materiel
           to the warfighter, while maintaining the security and safety of the materiel and the
           public. Inherent in this mission is the requirement to implement mechanisms to
           rapidly and properly act and respond to threats or incidents that could
           compromise the mission, safety, or security of AA&E during the distribution
           segment of the overall logistics chain.

           The Strategic Vision. The strategic vision is an effective and efficient
           worldwide logistics chain that meets warfighters’ demands for AA&E where and
           when needed while protecting against security threats, limiting exposure to the
           public, and minimizing the potential for safety mishaps.

3
    The DoD AA&E logistics chain comprises a partnership of commercial and internal DoD (organic)
    capabilities, assets and infrastructure, business processes, and technologies. While this [AA&E Strategic]
    plan does not specifically address actions involving tactical in-theater movement of AA&E, it is the
    responsibility of the theater combatant commander to implement AA&E safety and security measures
    commensurate with his mission and the threats and risks within his assigned geographic area of
    responsibility (see DoD 5100.76-M, Physical Security of Sensitive Conventional Arms, Ammunition, and
    Explosives,” August 12, 2000).
4
    In the context of the AA&E Strategic Plan, the logistics chain encompasses traditional distribution
    functions involving the issue, storage, packaging, transportation, and receipt of materiel. It also
    encompasses those functions that potentially affect the distribution process to include testing,
    procurement, and production of materiel and subsequent processes, such as demilitarization and disposal.
    It also encompasses the separate logistics and transportation sectors within the DoD portion of the
    Federal Government Critical Infrastructure Protection structure.

                                                        5

Observation A.
            U.S. Central Command – Guidance for
            the Accountability, Control, and Physical
            Security of Arms, Ammunition, and
            Explosives
            The U.S. Central Command (USCENTCOM) had not clearly defined the
            procedures for the accountability, control, and physical security of U.S.­
            supplied AA&E to ANSF.

            This occurred because USCENTCOM had not issued written procedures
            for its area of responsibility fully addressing the accountability, control,
            and physical security of U.S.-supplied AA&E delivered to or transported
            through Afghanistan and subsequently provided to ANSF.

            Further, USCENTCOM had not issued written procedures to coordinate
            the efforts of the Combined Security Transition Command-Afghanistan
            (CSTC-A) and the rotating Combined Joint Task Forces operating in
            Afghanistan addressing the accountability, control, and physical security
            of U.S.-supplied AA&E to the ANSF.

            As a result, the accountability, control, and physical security of AA&E
            may not be properly managed; the misplacement, loss, or theft of AA&E
            may not be prevented; and the efficient delivery of AA&E to ANSF may
            not occur.

Applicable Criteria
     U.S. Government and DoD policies and procedures that apply to the
     accountability, control, and physical security of property are outlined below.
     Specific requirements cited in these guidance documents are discussed in
     Appendix F.

     Accountability and Control for U.S. Government Property. Title 40 United
     States Code (U.S.C.), section 524 requires accountability and control over U.S.
     Government property.

     Accountability and Control for DoD Property. DoD Instruction (DoDI)
     5000.64, “Accountability and Management of DoD-Owned Equipment and Other
     Accountable Property,” November 2, 2006, provides policy and procedures for
     DoD-owned equipment and other accountable property and establishes policy and
     procedures to comply with 40 U.S.C. section 524.

     Department of Defense Strategic Plan for the Distribution of Arms,
     Ammunition, and Explosives, (AA&E Strategic Plan) May 2004. The DoD
     has four overarching strategic AA&E distribution goals as outlined in the AA&E
     Strategic Plan.


                                          6

   •	 Security: Seamless integration of AA&E security business rules across
      the entire logistics chain based on current assessments of the threat, risk,
      and vulnerability. This goal focuses on policies, responsibilities,
      procedures, business rules, required actions, and information awareness to
      keep AA&E in the custody of only those with specific authorization and
      quickly identify and respond to situations or incidents of actual or
      potential compromise.
   •	 Safety: An AA&E distribution system that minimizes public exposure and
      advances safety awareness within DoD and its industry partners. This
      goal focuses on policies, responsibilities, procedures, business rules,
      required actions, and information awareness to keep the public and those
      who use or handle AA&E as safe as possible from the inherent dangers
      associated with exposure to explosive materiel.
   •	 Accountability and Visibility: Complete accountability and visibility for
      AA&E throughout its life cycle. This goal focuses on policies,
      responsibilities, procedures, business rules, required actions, and
      information awareness to ensure AA&E can be located, identified, and
      tracked throughout the logistics chain, with clear responsibility for
      ownership, handoffs, and performance.
   •	 Effectiveness and Efficiency: An effective and efficient distribution
      system that meets warfighter time-definite AA&E materiel requirements.
      This goal focuses on policies, responsibilities, procedures, business rules,
      required actions, and information awareness to accomplish the AA&E
      distribution mission with the fewest resources (dollars, inventory, people,
      and infrastructure) possible while meeting the warfighters’ requirements
      for materiel when and where it is needed.

Sensitive Equipment Items. DoD 4100.39-M, “Federal Logistics Information
System,” Volume 10, Table 61, November 2007, defines sensitive items.

Physical Security of Arms, Ammunition, and Explosives. DoDI 5100.76,
“Safeguarding Conventional Arms, Ammunition, and Explosives (AA&E) and the
AA&E Physical Security Review Board,” October 8, 2005, outlines the
authorities, responsibilities, and functions relative to the formulation of
worldwide uniform policy, standards, and guidance for the physical security of
conventional AA&E in the possession or custody of the DoD Components.

DoD 5100.76-M, “Physical Security of Sensitive Conventional Arms,
Ammunition, and Explosives,” August 12, 2000, prescribes minimum standards
and criteria for the physical security of DoD sensitive conventional AA&E and
prescribes minimum standards and criteria for the physical security of DoD
sensitive conventional AA&E, including non-nuclear missiles and rockets.

DoD 5200.08-R, “Physical Security Program,” April 9, 2007, implements
DoD policies and minimum standards for the physical protection of
DoD personnel, installations, operations, and related resources, to include the
security of weapons systems and platforms.

Memorandum, Under Secretary of Defense for Intelligence, “Department of
Defense Inspector General (DoD IG) Assessment of the Accountability of Arms
and Ammunition Provided to the Security Force of Iraq (Report SPO-2008­
001/Project D2007-D000IG-0239.000),” August 27, 2008, issues clarification on

                                     7

           the physical security of AA&E while under U.S. control until formal transfer to a
           foreign nation.

U.S. Central Command Guidance
           USCENTCOM issued a memorandum, “[US]CENTCOM Weapons and
           Munitions Accountability Awareness,” July 3, 2008, to address issues cited in a
           draft of DoD IG Report No. SPO-2008-001, “Assessment of the Accountability of
           Arms and Ammunition Provided to the Security Forces of Iraq,” that had been
           issued March 18, 2008. The purpose of the USCENTCOM memorandum was to
           reiterate existing guidance related to weapons and munitions control within its
           area of responsibility. We commend USCENTCOM in issuing this guidance.

           However, the memorandum did not cite other DoD guidance applicable to the
           accountability, control, and physical security of AA&E. The USCENTCOM
           memorandum cited the following DoD guidance:
                   •	   DoDIG Report D2007-D000IG -0239.000 [the draft report],
                        Assessment of the Accountability of Munitions Provided to the
                        Security Forces of Iraq [now final DoD IG Report No. SPO-2008­
                        001, “Assessment of the Accountability of Arms and Ammunition
                        Provided to the Security Forces of Iraq,” July 3, 2008]
                   •	   United States Munitions List (Part 121 of Title 22, Code of Federal
                        Regulations)
                   •	   DoD 5100.76-M Physical Security of Sensitive Conventional
                        Arms, Ammunition, and Explosives (AA&E)
                   •	   DoD 4500.9 Part II Defense Transportation Regulations (DTR)
                        Cargo Movement
                   •	   DoD 5105.38-M, Security Assistance Management Manual
                        (SAMM)

           The USCENTCOM memorandum should provide as references those DoD
           guidance documents that are discussed in Observation A of this report (as shown
           under Applicable Criteria). Further, the USCENTCOM memorandum should
           provide as reference, the DoD guidance document that is discussed in
           Observations C, D, and E of this report that concerns the Small Arms and Light
           Weapons Serialization Program and the accountability of captured, confiscated,
           abandoned, recovered, and turned-in weapons - DoD 4000.25-M, “Defense
           Logistics Management System,” Volume 2, Chapter 18 (“Small Arms and Light
           Weapons Serial Number Registration and Reporting”), Change 5, March 25,
           2008. 5 Additionally, the USCENTCOM memorandum should cite:
               •	 DoDI 5100.76, “Safeguarding Conventional Arms, Ammunition, and
                  Explosives (AA&E) and the AA&E Physical Security Review Board.”

               •	 DoD 5200.8-R, “Physical Security Program.”


5
    This is one of several guidance documents that implements DoD Directive 4140.1, “Supply Chain
    Materiel Management Policy,” April 22, 2004.

                                                      8

       •   DoDI 5200.8, “Security of DoD Installations and Resources.”

    In addition, we believe that a reissued USCENTCOM memorandum should more
    clearly emphasize the accountability for AA&E; the accountability, control, and
    physical security of U.S.-supplied AA&E moving into and within the
    USCENTCOM area of responsibility but not yet delivered to a port of entry in
    Iraq and Afghanistan; the Small Arms and Light Weapons Serialization Program;
    and the accountability of captured, confiscated, abandoned, recovered, and
    turned-in weapons. The memorandum should be more directive in nature rather
    than a memorandum on awareness.

    We also believe that guidance issued within the USCENTCOM area of
    responsibility should govern the delivery of AA&E:
        •	 Purchased through ASFF or,
        •	 Obtained through formal FMS programs or other U.S. funding sources or,
        •	 Obtained through capture, confiscation, abandonment, recovery, or turn-
           in.
    Guidance should be finalized and formalized. The guidance should be issued in
    writing by a formal memorandum or fragmentary order that specifies the
    procedures requiring compliance and contains the name(s), title(s), signature(s),
    and date(s) showing the approval of authorized official(s), as applicable.
    Documents that must be used by the Government of the Islamic Republic of
    Afghanistan (GIRoA) personnel should be translated into the applicable local
    language.

Recommendations
    A. We recommend that the Commander, U.S. Central Command issue formal
    guidance:

           1. Governing the accountability, control, and physical security of arms,
    ammunition, and explosives under U.S. control from the point of entry into and
    transport through the U.S. Central Command area of responsibility until formal
    handover to the Afghan National Security Forces.

            2. Coordinating the efforts of the Combined Security Transition
    Command-Afghanistan, the rotating Combined Joint Task Forces operating in
    Afghanistan, and any other applicable command components to provide
    accountability, control, and physical security of arms, ammunition, and explosives
    under U.S. control from point of entry into and transport through Afghanistan
    until formal handover to the Afghan National Security Forces.

    Management Comments to Recommendations A.1 and A.2. USCENTCOM
    concurred with recommendation A.1 and A.2, noting that they will revise current
    guidance (CENTCOM LTR, date 03 July, 2008) from an awareness memorandum
    to a format more directive in nature which applies to all components within the
    AOR, including Afghanistan. CENTCOM will also coordinate with CSTC-A to
    ensure local procedures coincides with new/existing guidance for the physical
    control of Arms, Ammunition, and Explosives (AA&E). Although the revised
    guidance will be directive in nature, it will allow component commanders the

                                        9

ability to apply more stringent policies and controls, specifically regarding the
accountability, control, physical security, and final disposition of captured,
confiscated, abandoned, recovered, and turned-in weapons held by U.S. forces,
Afghanistan National Security Forces, and law enforcement organizations.

Assessment Response. The management comments meet the intent of
recommendation A.1 and A.2.




                                     10 

Observation B. 

                   Combined Security Transition
                   Command-Afghanistan – Guidance for
                   the Accountability, Control, and Physical
                   Security of Arms, Ammunition, and
                   Explosives
                   CSTC-A had not clearly defined the procedures for the accountability,
                   control, and physical security of U.S.-supplied AA&E to ANSF.

                   Further, CSTC-A had not clearly defined the procedures for the missions,
                   roles, and responsibilities or clearly coordinated the efforts applicable to
                   U.S. training teams and senior mentors 6 involved in training, advising,
                   and mentoring the Afghan Ministry of Defense (MoD), the Afghan
                   Ministry of Interior (MoI), and subordinate ANSF organizations on the
                   accountability, control, and physical security of U.S.-supplied or ANSF-
                   procured AA&E

                   This occurred because CSTC-A had not issued written procedures for its
                   area of responsibility addressing the accountability, control, and physical
                   security of U.S.-supplied AA&E delivered to or transported through
                   Afghanistan and subsequently provided to ANSF.

                   As a result, the accountability, control, and physical security of AA&E
                   may not be properly managed; the misplacement, loss, and theft of AA&E
                   may not be prevented; and the efficient delivery of AA&E to ANSF may
                   not occur.

Applicable Criteria
           U.S. Government and DoD policies and procedures that apply to the
           accountability, control, and physical security of property are outlined below.

           Accountability and Control for U.S. Government Property. Title 40 U.S.C.,
           section 524 requires accountability and control over U.S. Government property.

           Accountability and Control for DoD Property. DoDI 5000.64, “Accountability
           and Management of DoD-Owned Equipment and Other Accountable Property,”
           November 2, 2006, provides policy and procedures for DoD-owned equipment
           and other accountable property and establishes policy and procedures to comply
           with 40 U.S.C. section 524.

           Memorandum, “CENTCOM Weapons and Munitions Accountability

6
    U.S. training teams were ETTs and PMTs. ETTs trained, advised, and mentored ANA organizations at
    the Corps and below levels and PMTs trained, advised, and mentored ANP organizations below the
    ministerial level. Senior mentors advised and mentored at the ministerial level.

                                                   11 

    Awareness,” July 3, 2008, reiterates existing guidance related to weapons and
    munitions control within the USCENTCOM area of responsibility.

    Sensitive Equipment Items. DoD 4100.39-M, “Federal Logistics Information
    System,” Volume 10, Table 61, November 2007, defines sensitive items.

    Physical Security of Arms, Ammunition, and Explosives. DoDI 5100.76,
    “Safeguarding Conventional Arms, Ammunition, and Explosives (AA&E) and the
    AA&E Physical Security Review Board,” October 8, 2005, outlines the
    authorities, responsibilities, and functions relative to the formulation of
    worldwide uniform policy, standards, and guidance for the physical security of
    conventional AA&E in the possession or custody of the DoD Components.

    DoD 5100.76-M, “Physical Security of Sensitive Conventional Arms,
    Ammunition, and Explosives,” August 12, 2000, prescribes minimum standards
    and criteria for the physical security of DoD sensitive conventional AA&E and
    prescribes minimum standards and criteria for the physical security of DoD
    sensitive conventional AA&E, including non-nuclear missiles and rockets.

    DoD 5200.08-R, “Physical Security Program,” April 9, 2007, implements DoD
    policies and minimum standards for the physical protection of DoD personnel,
    installations, operations, and related resources, to include the security of weapons
    systems and platforms.

    Memorandum, Under Secretary of Defense for Intelligence, “Department of
    Defense Inspector General (DoD IG) Assessment of the Accountability of Arms
    and Ammunition Provided to the Security Force of Iraq (Report SPO-2008­
    001/Project D2007-D000IG-0239.000), August 27, 2008, issues clarification on
    the physical security of AA&E while under U.S. control until formal transfer to a
    foreign nation.

U.S. Training Teams and Senior Mentors
    CSTC-A had not clearly defined the procedures for the missions, roles, and
    responsibilities or clearly coordinated the efforts applicable to U.S. training teams
    and senior mentors involved in training, advising, and mentoring MoD and MoI,
    and subordinate ANSF organizations on the accountability, control, and physical
    security of U.S.-supplied or ANSF-procured AA&E.

    Further, CSTC-A had not coordinated the efforts of the Embedded Training
    Teams (ETTs) and the Police Mentoring Teams (PMTs) in training, advising, and
    mentoring ANSF in its efforts to account, control, and physically secure U.S.­
    supplied or ANSF-procured AA&E.

Combined Security Transition Command-Afghanistan
Guidance
    Guidance should be finalized and formalized. The guidance should be issued in
    writing by a formal memorandum or fragmentary order that specifies the
    procedures requiring compliance and contains the name(s), title(s), signature(s),
    and date(s) showing the approval of authorized official(s); as applicable.

                                         12 

    Documents that must be used by the GIRoA personnel should be translated into
    the applicable local language.

    We also believe that guidance issued within the CSTC-A area of responsibility
    should govern the delivery of AA&E:
       • Purchased through ASFF or,
       • Obtained through formal FMS programs or other U.S. funding sources or,
       • Obtained through capture, seizure, donation, or turn-ins.

Recommendations
    B. We recommend that Commander, Combined Security Transition Command-
    Afghanistan issue formal guidance:

           1. Governing the accountability, control, and physical security of arms,
    ammunition, and explosives under U.S. control from the point of entry into and
    transport through the Combined Security Transition Command-Afghanistan area
    of responsibility in Afghanistan until formal handover to the Afghan National
    Security Forces.

    Management Comments to Recommendation B1. CSTC-A concurred, noting
    that, in coordination with USCENTCOM, they will develop appropriate guidance
    development for CSTC-A AOR. Once arms, ammunition and explosives arrive at
    Kabul, Afghanistan International Airport (KAIA) and are downloaded from the
    aircraft, coordination is made in accordance with the updated Standard Operating
    Procedures for Weapons Transactions to transfer responsibility of transporting the
    assets to the appropriate Depot. Once items arrive at the depot, the SOP for
    “Weapons Transactions” further outlines the required process to ensure reception,
    serialization, and entry into the official stock record account system to transfer
    ownership to the ANSF.

    Assessment Response. The management comments meet the intent of
    recommendation B.1.

           B.2. We recommend that Commander, Combined Security Transition
    Command-Afghanistan issue formal guidance describing the missions, roles, and
    responsibilities applicable to U.S. training teams and senior mentors involved in
    advising and assisting the Ministry of Defense, the Ministry of Interior, and
    subordinate Afghanistan National Security Forces organizations on the
    accountability, control, and physical security of U.S.-supplied or Afghanistan
    National Security Forces procured Arms, Ammunition, and Explosives.

    Management Comments to Recommendation B.2. CSTC-A concurred, noting
    that formal MoD guidance exists in Decrees 4.0, 4.2 and 4.6. MoD Decree 4.0 is
    currently in rewrite, the updated document will contain more fidelity for all
    processes including weapons processing and accountability. The Solar Year 1387
    Work plan was approved and published in February 2008. CSTC-A Arms,
    Ammunition and Explosives Standard Operating Procedure is in draft and will be
    published in October 2008. MoI Logistics Policy was approved in July 2008 and
    is currently being printed and disseminated for the Afghan National Police (ANP)
    implementation. CSTC-A is currently coordinating with Task Force Phoenix J3

                                        13 

regarding a logistics course for ETTs and PMTs. The course would highlight
MoD Decree 4.0, 4.2, and 4.6 which outline accountability, control and physical
security of MoD arms, ammunition and explosives. The course would also
highlight MoI Policy 4.0 which addresses MoI logistics and describe mentor roles
and responsibilities.

Assessment Response. The management comments partially meet the intent of
recommendation B.2. While the MoD and MoI actions described are steps in the
right direction and were presumably developed with assistance and coordination
with U.S. mentors, CSTC-A still needs to issue formal guidance that will
institutionalize the mission, roles, and responsibilities of U.S. training teams and
senior mentors. We request that CSTC-A provide a copy of this formal guidance,
once published, for our evaluation.

         B.3. We recommend that Commander, Combined Security Transition
Command-Afghanistan issue formal guidance coordinating the efforts of the
ETTs and the PMTs to advise and assist the Afghanistan National Security Forces
in its efforts to account, control, and physically secure U.S.-supplied or ANSF-
procured Arms, Ammunition, and Explosives.

Management Comments to Recommendation B.3. CSTC-A concurred, noting
that they had issued FRAGO 08-047, Command and Control Realignment of
CSTC-A ANSF Logistics Advisors which align command and control of ANSF
logistics mentors across Afghanistan. MoD and MoI Integrated Process Teams
were established and meet weekly with representatives from national level
logistics organizations, tactical level units and the CSTC-A staff to address
logistics issues and ensure a common operating picture for all echelons.
Additionally, CSTC-A and TF Phoenix have initiated a bi-weekly newsletter
(Logogram) to inform mentors at all echelons, highlight policy changes and
increase coordination. CSTC-A Arms, Ammunition, and Explosives Standard
Operating Procedure is in draft and should be published October 2008.

Assessment Response. The management comments partially meet the intent of
the recommendation. We request that CSTC-A provide a copy of the Arms,
Ammunition, and Explosives Standard Operating Procedure, once it is published,
for our evaluation.




                                     14 

Observation C. 

            Combined Security Transition
            Command-Afghanistan - Recording
            Small Arms and Light Weapons Serial
            Numbers
            CSTC-A had not accurately recorded the serial numbers of weapons that
            were to be issued to ANSF in its official Stock Record Inventory System.

            This occurred because data input controls and quality assurance reviews
            were not in place to ensure weapons serial numbers were accurately
            recorded in the CORE Information Management System (IMS) and any
            subsidiary systems. The process did not comply with the requirements of
            DoD 4000.25-M, “Defense Logistics Management System,” Volume 2,
            Chapter 18, Change 5, March 25, 2008, and Army Regulation 710-3,
            “Inventory Management Asset and Transaction Reporting System,” March
            25, 2008.

            As a result, weapons serial numbers were erroneous, incomplete,
            duplicative, or missing and could not be accurately reported to the DoD
            Small Arms/Light Weapons (SA/LW) Registry.

Applicable Criteria
     U.S. Government and DoD policies and procedures that apply to the
     accountability, control, and physical security of property are outlined below.

     Accountability and Control for U.S. Government Property. Title 40 U.S.C.,
     section 524 requires accountability and control over U.S. Government property.

     Accountability and Control for DoD Property. DoDI 5000.64, “Accountability
     and Management of DoD-Owned Equipment and Other Accountable Property,”
     November 2, 2006, provides policy and procedures for DoD-owned equipment
     and other accountable property and establishes policy and procedures to comply
     with 40 U.S.C. section 524.

     Sensitive Equipment Items. DoD 4100.39-M, “Federal Logistics Information
     System,” Volume 10, Table 61, November 2007, defines sensitive items.

     DoD 5100.76-M, “Physical Security of Sensitive Conventional Arms,
     Ammunition, and Explosives,” August 12, 2000, prescribes minimum standards
     and criteria for the physical security of DoD sensitive conventional AA&E and
     prescribes minimum standards and criteria for the physical security of DoD
     sensitive conventional AA&E, including non-nuclear missiles and rockets.

     Small Arms and Light Weapons Serialization Program. DoD 4000.25-M,
     “Defense Logistics Management System,” Volume 2, Chapter 18 (“Small Arms
     and Light Weapons Serial Number Registration and Reporting”), Change 5,

                                         15 

           March 25, 2008, 7 addresses DoD Components responsibility for inventory
           management of SA/LW and other activities involved in the shipment, registration,
           or receipt of SA/LW. It also provides procedures for reporting SA/LW serial
           number data between the DoD Components and the DoD SA/LW Registry.

Combined Security Transition Command-Afghanistan
Inventory Management System
           The CORE IMS was an off-the-shelf system purchased specifically for inventory
           management of ANSF equipment. A contractor, MPRI, Inc., 8 maintained the
           CORE IMS for CSTC-A as its official Stock Record Inventory System for all
           ASFF equipment, to include weapons. The CORE IMS was a basic inventory
           program that records inventory receipts for Afghan National Army (ANA)
           national-level depots, quantities of equipment stored at those depots, and
           equipment issued to ANA. The CORE IMS data included:
               • Item nomenclatures/descriptions
               • National Stock Numbers
               • Quantities received, on-hand, and issued
               • Dates of receipts and issues
               • Item costs
               • Identification of ANA units issued equipment
               • Weapon serial numbers
           The CORE IMS was initially placed into service in Afghanistan in 2006, but did
           not initially include weapons serial numbers. According to MPRI, Inc. weapons
           manager, weapon serial numbers were retroactively entered into the system
           beginning in August 2007.

           For foreign made weapons, serial numbers included foreign symbols, such as a
           country identifier, not found on U.S. computer keyboards. CORE IMS operators
           used an asterisk as a replacement symbol and then entered the remainder of the
           serial number into the records. This practice did not comply with DoD
           4000.25-M (paragraphs C18.2.2. and C18.2.3.) and Army Regulation 710-3
           (paragraphs 2-10.b., 2-13. and 2.15.).


The CSTC-A CJ4 was aware of the Army Regulation 710-3 requirement to track by
serial number the weapons being transferred to ANSF. He indicated that such procedures
were in place and being followed. However, he was unable to provide a CSTC-A
document establishing such a policy or procedures.




7
    Implements DoD Directive 4140.1, “Supply Chain Materiel Management Policy,” April 22, 2004.
8
    MPRI, Inc. (originally Military Professional Resources Inc. – now a wholly owned subsidiary of L-3
    Communications) is a training, simulation, and government services company.

                                                     16 

U.S. Chain of Custody for Controlled Inventory Items
     According to DoDI 5000.64, controlled inventory items include property with
     characteristics that may require them to be identified, accounted for, secured,
     segregated, or handled in a special manner to ensure their safekeeping and
     integrity. DoD 4100.39-M and DoD 5100.76-M include AA&E as controlled
     inventory items.

     An unbroken chain of custody for AA&E needs to be maintained throughout the
     logistics supply chain, to include shipping, handling, delivery, receipt, storage,
     and issuance processes. The main objective of a chain of custody is to ensure that
     AA&E are tracked through the process between procurement and delivery to the
     ultimate recipient and that the AA&E received by the ultimate recipient are in the
     same condition, type, and count as originally shipped.

     A chain of custody requires that every transfer of goods from organization to
     organization be documented by authorized individuals and that those records
     contain evidence for the entire chain of custody process.

     The chain of custody process that provides weapons to ANSF should require that
     serial numbers of weapons be recorded at the point off formal handover to ANSF
     to strengthen U.S. and ANSF accountability and control. We believe this is
     necessary to provide specific accountability of receipt of weapons delivered to
     ANSF by the U.S. and facilitate ANSF establishing a chain of custody for the
     U.S.-provided weapons.

     In addition, a chain of custody by serial number would enable U.S. forces and
     GIRoA law enforcement agencies to obtain serial numbers for weapons found to
     be missing, lost, or stolen to identify the last accountable entity for those
     weapons. This information would provide a starting point for investigative
     officials to trace weapons and determine the cause of the loss.

Recommendations
     C.1. We recommend that Commander, Combined Security Transition Command-
     Afghanistan:

            a. Issue formal procedures governing data input controls and quality
     assurance reviews to ensure weapons serial numbers are accurately recorded in
     the CORE Information Management System and any subsidiary systems for
     weapons to be and already delivered to the Afghan National Security Forces.

     Management Comments to Recommendation C.1.a. CSTC-A concurred.
     They reported that CORE IMS is the official stock record account system for the
     ANA, at Depot 1. In May 2008, the CJ4 established an internal audit “Tiger
     Team.” This internal audit team was put into place to validate the serial numbers
     of weapons and the accuracy of the stock record account system. The “Weapons
     Transaction Standard Operating Procedure” was revamped and implemented to
     ensure that all weapons are serialized upon reception at the Depot and entered
     into the system. Audits were conducted in May and June of 2008 by the CJ4
     Operations Division Support Operations Officer. Full inventories of the small
     arms weapons were accomplished, duplicate and unprocessed serial numbers

                                         17 

were identified and corrected, and annotations/corrections were made into the
official stock records account system by the CJ4 “Tiger Team” led by the CJ4
Operations Division Support Operations Officer. In addition, audits will be
performed quarterly on property account books to ensure proper documentation.
CSTC-A also directed MPRI to develop a comprehensive proposal to upgrade
CORE IMS to enable easier and more accurate accounting and control of assets.

Assessment Response. The management comments partially meet the intent of
the recommendation. CSTC-A still needs to develop procedures to capture the
serial numbers of U.S. or Coalition-procured weapons that have already been
issued to the ANSF. We request that CSTC-A provide a copy of these
procedures, when published.

        C.1.b. We recommend that Commander, Combined Security Transition
Command-Afghanistan establish and document a process to identify all
previously recorded erroneous, incomplete, and duplicative serial numbers and
identify missing serial numbers and enter the correct information into the CORE
Information Management System and any subsidiary systems.

Management Comments to Recommendation C.1.b. CSTC-A concurred,
noting that the “Weapons Transaction Standard Operating Procedure” was
revamped and implemented to ensure that all weapons are serialized upon
reception at the Depot and entered into the system. A system of regular audits
and inspection of the process has been implemented to ensure the SOP is followed
and that CORE IMS stock record account remains accurate. During audits that
occurred during May and June of 2008, full inventories of the small arms
weapons were accomplished and duplicate and unprocessed serial numbers were
identified and corrected in the official stock records account system by CJ4
“Tiger Team.” In addition, audits are scheduled to be performed on property
account books to ensure proper documentation.

Assessment Response. The management comments meet the intent of the
recommendation.

       C.1.c. We recommend that Commander, Combined Security Transition
Command-Afghanistan modify the contract(s) with MPRI, Inc. concerning the
operation of the CORE Information Management System, as applicable, to
implement Recommendations C.1.a. and C.1.b.

Management Comments to Recommendation C.1.c. CSTC-A concurred,
noting that CSTC-A CJ4 is pursuing an upgrade to the scope and function of
CORE IMS to maintain the official stock record accounts and accurate inventory.
Locations for this upgrade include ANA Depot 0, 1, 2 and all Forward Support
Depots. MPRI’s contract will be modified accordingly. CSTC-A CJ4 is
reviewing the purchase of CORE IMS or comparable system as the stock record
account for the ANP.

Assessment Response. The management comments meet the intent of the
recommendation. We request that CSTC-A provide a copy of the modified
contract.

C.2. We recommend that the Commander, U.S. Army Materiel Command
Logistics Support Activity assist the Combined Security Transition Command-
Afghanistan with installing data input quality controls in its database of weapons
                                    18 

serial numbers to ensure compatibility with the requirements of the DoD Small
Arms/Light Weapons Registry.

Management Comments to Recommendation C.2. The U.S. Army Materiel
Command concurred, noting that the Logistics Support Activity will review the
CSTC-A CORE Information Management system and any subsidiary systems
within thirty days of CSTC-A submission of appropriate documentation.

Assessment Response. The management comments meet the intent of the
recommendation. We request that CSTC-A coordinate with AMC LOGSA to
provide the necessary documentation for their review of CORE IMS and any
subsidiary systems.




                                   19 

Observation D.
            Combined Security Transition
            Command-Afghanistan - Reporting Small
            Arms and Light Weapons Serial Numbers
            CSTC-A did not report the serial numbers of weapons it controlled to the
            DoD SA/LW Registry maintained by the U.S. Army Material Command
            Logistics Support Activity, to include donated weapons.

            This occurred because procedures were not in place to ensure weapons
            serial numbers were reported in compliance with the requirements of DoD
            4000.25-M, “Defense Logistics Management System,” Volume 2,
            Chapter 18, Change 5, March 25, 2008, and Army Regulation 710-3,
            “Inventory Management Asset and Transaction Reporting System,” March
            25, 2008.

            As a result, the objectives of the DoD SA/LW Serialization Program could
            not be achieved for U.S.-supplied weapons provided to ANSF. Further,
            weapons that fall into enemy hands may not be traceable to the
            responsible individual(s), if recovered.

Applicable Criteria
     U.S. Government and DoD policies and procedures that apply to the
     accountability, control, and physical security of property are outlined below.

     Accountability and Control for U.S. Government Property. Title 40 U.S.C.,
     section 524 requires accountability and control over U.S. Government property.

     Accountability and Control for DoD Property. DoDI 5000.64, “Accountability
     and Management of DoD-Owned Equipment and Other Accountable Property,”
     November 2, 2006, provides policy and procedures for DoD-owned equipment
     and other accountable property and establishes policy and procedures to comply
     with 40 U.S.C. section 524.

     Small Arms and Light Weapons Serialization Program. DoD 4000.25-M,
     “Defense Logistics Management System,” Volume 2, Chapter 18 (“Small Arms
     and Light Weapons Serial Number Registration and Reporting”), Change 5,
     March 25, 2008, addresses DoD Components responsibility for inventory
     management of SA/LW and other activities involved in the shipment, registration,
     or receipt of SA/LW and provides procedures for reporting SA/LW serial number
     data between the DoD Components and the DoD SA/LW Registry.


U.S. Reporting of Weapons Serial Numbers
     DoD 4000.25-M, Volume 2, Chapter 18 specifies the categories of weapons serial
     numbers that are to be recorded in the DoD SA/LW Registry and provides five

                                         20 

    objectives for SA/LW serial number registration and reporting:
        •	 Establish continuous visibility over all SA/LW by serial number from the
            contractor to depot; in storage; in-transit to requisitioners; in post, camp,
            and station custody; in the hands of users; during turn-ins; in renovation;
            and during disposal/demilitarization.
        •	 Interface the SA/LW serial number reporting between the DoD
            Components using standard procedures.
        •	 Provide follow up procedures for delinquent shipment/receipt transactions.
        •	 Provide SA/LW records reconciliation procedures.
        •	 Provide law enforcement agencies, within 72 hours, the identification of
            the last known accountable activity having a specific serial numbered
            weapon.
    We found no indication CSTC-A reported serial numbers of weapons it controlled
    to the DoD SA/LW Registry. As such, the objectives of the DoD SA/LW
    Serialization Program could not be achieved for U.S.-supplied weapons provided
    to ANSF. Further, weapons that are missing through misplacement, loss, and
    theft may fall into enemy hands and not be traceable to the responsible
    individual(s) if recovered.

    A chain of custody by serial number would enable U.S. forces and GIRoA law
    enforcement agencies to obtain serial numbers for weapons found to be
    misplaced, lost, or stolen to identify the last accountable entity for those weapons.
    This information would provide a starting point for investigative officials to trace
    weapons and determine the cause of the loss.

Recommendations
    D.1. We recommend that Commander, Combined Security Transition Command-
    Afghanistan:

           a. Issue formal procedures to comply with the DoD Small Arms/Light
    Weapons Serialization Program as required by DoD 4000.25-M, “Defense
    Logistics Management System,” Volume 2, Chapter 18, Change 5, March 25,
    2008, and Army Regulation 710-3, “Inventory Management Asset and
    Transaction Reporting System,” March 25, 2008, to ensure weapons serial
    numbers are accurately reported to the DoD Small Arms/Light Weapons Registry.

    Management Comments to Recommendation D.1.a. CSTC-A concurred.
    CSTC-A is developing a long-term solution to this issue with the 401st AFSB and
    Army Materiel Command (AMC) Logistics Support Activity (LOGSA) and will
    complete development of formal procedures to ensure compliance with this
    regulation. Estimated completion date of Nov 08.

    Assessment Response. The management comments partially meet the intent of
    the recommendation. We request that CSTC-A provide a copy of the formal
    procedures that will bring them into compliance with DoD 4000.25-M, “Defense
    Logistics Management System,” Volume 2, Chapter 18, Change 5, March 25,
    2008, and Army Regulation 710-3, “Inventory Management Asset and
    Transaction Reporting System,” March 25, 2008.

                                         21 

       D.1.b. We recommend that Commander, Combined Security Transition
Command-Afghanistan modify the contract(s) with MPRI, Inc. concerning the
operation of the CORE Information Management System, as applicable, to
implement Recommendations D.1.a.

Management Comments to Recommendation D.1.b. CSTC-A concurred.
CSTC-A is coordinating with the LOGSA and the Joint Munitions Command
(JMC) for guidance on how to proceed under the new regulatory guidelines
contained in AR 710-3 dated 25 Feb 2008. CSTC-A recommends that LOGSA
execute an automation skip that accepts Cyrillic characters. CSTC-A further
recommends that the Defense Security Cooperation Agency (DSCA) add
specification line for Alpha/Numeric stamping at point of origin in FMS cases for
weapons. There is not capacity or capability to do stamping in country.

Assessment Response. The management comments partially meet the intent of
the recommendation. In coordination with USCENTCOM, CSTC-A needs to
finalize coordination with LOGSA and JMC and initiate coordination with DSCA
to implement the planned and recommended actions. Once procedures are set and
formalized, MPRI’s contract should be modified accordingly. We request that
CSTC-A provide a copy of the modified contract.

D.2. We recommend that the Commander, U.S. Army Material Command
Logistics Support Activity assist the Combined Security Transition Command-
Afghanistan in reporting serial numbers for U.S.-supplied weapons provided to
the Afghanistan National Security Forces to ensure compatibility with the
requirements of the DoD Small Arms/Light Weapons Registry.

Management Comments to Recommendation D.2. The U.S. Army Materiel
Command concurred, noting that CSTC-A and LOGSA are in the process of
identifying and documenting procedures for CSTC-A to report weapon serial
numbers to the DoD Small Arms/Light Weapons Registry.

Assessment Response. The management comments meet the intent of the
recommendation. We will follow-up to determine progress on this issue.




                                   22 

Observation E. 

            Combined Security Transition
            Command-Afghanistan – Guidance for
            Captured and Otherwise Obtained
            Weapons
            CSTC-A had not clearly defined procedures for the accountability,
            control, physical security, and final disposition of captured, confiscated,
            abandoned, recovered, and turned-in weapons held by U.S. forces, ANSF,
            and law enforcement organizations, to include the recording of the serial
            numbers of those weapons.

            Further, USCENTCOM had not clearly defined procedures to coordinate
            the efforts of CSTC-A and the rotating Combined Joint Task Forces
            operating in Afghanistan for the accountability, control, physical security,
            and final disposition of captured, confiscated, abandoned, recovered, and
            turned-in weapons held by U.S. forces, ANSF, and law enforcement
            organizations, to include the recording of the serial numbers of those
            weapons.

            This occurred because neither CSTC-A nor USCENTCOM had issued
            written procedures for their areas of responsibility addressing the
            accountability, control, physical security, final disposition, and
            coordination between U.S. forces for captured, confiscated, abandoned,
            recovered, and turned-in weapons.

            As a result, the objectives of the DoD SA/LW Serialization Program could
            not be achieved for U.S.-supplied weapons provided to ANSF. Further,
            weapons that fall into enemy hands may not be traceable to the
            responsible individual(s) if recovered.

Applicable Criteria
     U.S. Government and DoD policies and procedures that apply to the
     accountability, control, and physical security of property are outlined below.

     Accountability and Control for U.S. Government Property. Title 40 U.S.C.,
     section 524 requires accountability and control over U.S. Government property.

     Accountability and Control for DoD Property. DoDI 5000.64, “Accountability
     and Management of DoD-Owned Equipment and Other Accountable Property,”
     November 2, 2006, provides policy and procedures for DoD-owned equipment
     and other accountable property and establishes policy and procedures to comply
     with 40 U.S.C. section 524.

     Physical Security of Arms, Ammunition, and Explosives. DoD 5100.76-M,
     “Physical Security of Sensitive Conventional Arms, Ammunition, and
     Explosives,” August 12, 2000, prescribes minimum standards and criteria for the

                                         23 

     physical security of DoD sensitive conventional AA&E and prescribes minimum
     standards and criteria for the physical security of DoD sensitive conventional
     AA&E, including non-nuclear missiles and rockets.

     Small Arms and Light Weapons Serialization Program. DoD 4000.25-M,
     “Defense Logistics Management System,” Volume 2, Chapter 18 (“Small Arms
     and Light Weapons Serial Number Registration and Reporting”), Change 5,
     March 25, 2008, addresses:
        •	 DoD Components responsibility for inventory management of SA/LW and
            other activities involved in the shipment, registration, or receipt of SA/LW
            and provides procedures for reporting SA/LW serial number data between
            the DoD Components and the DoD SA/LW Registry
        •	 Procedures concerning accountability of captured, confiscated,
            abandoned, recovered, and turned-in weapons

U.S. Visibility over Captured and Otherwise Obtained
Weapons
     DoD 4000.25-M, Volume 2, Chapter 18 provides five objectives for SA/LW
     serial number registration and reporting; the key objective being to establish
     continuous visibility over all SA/LW by serial number from the contractor to
     depot; in storage; in-transit to requisitioners; in post, camp, and station custody;
     in the hands of users; during turn-ins; in renovation; and during disposal and
     demilitarization.

     DoD 4000.25-M, Volume 2, Chapter 18 also addresses captured, confiscated,
     abandoned, recovered, and turned-in weapons.
        •	 Paragraph C18.2.9. requires that captured, confiscated, or abandoned
           enemy SA/LW in the possession of DoD as a result of military actions
           shall be registered. The SA/LW may be of foreign or domestic
           manufacture and may include recaptured U.S. military SA/LW.
        •	 Paragraph C18.2.7. requires that the DoD Components shall establish
           procedures to ensure reporting of lost, stolen, unaccounted for, and/or
           recovered SA/LW under the provisions of DoD 5100.76-M.
        •	 Paragraph C18.7.3. requires that SA/LW recovered by law enforcement
           agencies or foreign countries and returned to the custody of a DoD
           Component be registered on the DoD Component Registry (DoD
           Component Registry information is provided to the DoD Small
           Arms/Light Weapons Registry).
        •	 Paragraph C18.5.1.2. DoD SA/LW Registry shall provide a central
           repository of SA/LW’ serial numbers from the DoD Component
           Registries, to include those on-hand, in-transit, lost, stolen, demilitarized,
           or shipped outside the control of DoD.
        •	 Paragraph C18.5.2.10.2. requires that all new weapons or devices that
           could be construed as weapons be reported to the Joint SA/LW
           Coordinating Group chairperson.



                                           24 

    Clearly defined procedures need to be established and enforced to maintain
    adequate visibility for the accountability, control, physical security, and final
    disposition of captured, confiscated, abandoned, recovered, and turned-in
    weapons held by U.S. forces, ANSF, and law enforcement organizations. The
    make, model, and serial numbers of these weapons should be recorded and
    reported to the DoD SA/LW Registry.

    An unbroken chain of custody to account, control, and maintain physical security
    of captured, confiscated, abandoned, recovered, and turned-in weapons held by
    U.S. forces, ANSF, and law enforcement organizations needs to be established to
    govern the process of handling these weapons until final disposition, whether that
    be destruction, storage, or reissue to ANSF.

    Further, a chain of custody by serial number would enable U.S. Forces and
    GIRoA law enforcement agencies to obtain serial numbers for weapons found to
    be misplaced, lost, or stolen to identify the last accountable entity for those
    weapons. This information would provide a starting point for investigative
    officials to trace weapons and determine the cause of the loss.

Recommendations
    E.1. We recommend that the Commander, Combined Security Transition
    Command-Afghanistan, issue formal procedures governing the accountability,
    control, physical security, and final disposition of captured, confiscated,
    abandoned, recovered, and turned-in weapons held by U.S. forces, Afghanistan
    National Security Forces, and law enforcement organizations, to include the
    recording of the serial numbers of those weapons.

    Management Comments to Recommendation E.1. CSTC-A non-concurred,
    noting that developing such formal procedures was beyond the scope of the
    CSTC-A mission and resources to accomplish. However, CSTC-A reports that
    the Disarmament of Illegally Armed Groups (DIAG) system provides a written
    procedure for control and final disposition of captured weapons. This procedure
    was translated into Dari and provided to Assistant Minister of Defense for
    Acquisition, Technology, and Logistics (AMoD AT&L) and Logistics Command
    and was disseminated to other units of the ANA and ANP. This procedure
    required the captured weapons to be turned over to an UN Afghan New
    Beginnings Program (UNANBP) location for consolidation and eventual release
    to the AMoD AT&L at which time the serial number would be captured by
    AMoD (AT&L). Specifically, the current procedure requires the captured weapon
    to be taken to a UNANBP location where the UNANBP representative monitors
    as a MoD representative signs for control of the weapon. The weapon serial
    number is captured at this time. This procedure is applicable to U.S. and
    Coalition Forces, as well as to the ANA and ANP.

    Assessment Response. After evaluating the CSTC-A management comments,
    we believe that the procedure that CSTC-A outlined partially met the intent of the
    recommendation. If CSTC-A thinks that the UNANBP is sufficient to govern the
    accountability, control, physical security, and final disposition of captured,
    confiscated, abandoned, recovered, and turned-in weapons, they should issue
    formal policy to that effect, in coordination with USCENTCOM. The policy
    should provide for capturing serial numbers as recorded by the AMoD AT&L for

                                         25 

reporting to the DoD SA/LW Serialization Program. We request that CSTC-A
provide documentation of this formal policy.

E.2. We recommend that the Commander, U.S. Central Command issue formal
procedures to coordinate the efforts of the Combined Security Transition
Command-Afghanistan and the rotating Combined Joint Task Forces operating in
Afghanistan for the accountability, control, physical security, and final disposition
of captured, confiscated, abandoned, recovered, and turned-in weapons held by
U.S. forces, Afghanistan National Security Forces, and law enforcement
organizations, to include the recording of the serial numbers of those weapons.

Management Comments to Recommendation E.2. USCENTCOM partially
concurred, noting that they will coordinate with CSTC-A to ensure local
procedures coincides with new/existing guidance for the physical control of
Arms, Ammunition, and Explosives (AA&E). Although the revised guidance will
be directive in nature, it will allow component commanders the ability to apply
more stringent policies and controls, specifically regarding the accountability,
control, physical security, and final disposition of captured, confiscated,
abandoned, recovered, and turned-in weapons held by U.S. forces, Afghanistan
National Security Forces, and law enforcement organizations.

Assessment Response. The management comments partially meet the intent of
the recommendation. USCENTCOM needs to insure that the guidance developed
coordinates the efforts of the Combined Security Transition Command-
Afghanistan and the rotating Combined Joint Task Forces operating in
Afghanistan for the accountability, control, physical security, and final disposition
of captured, confiscated, abandoned, recovered, and turned-in weapons.




                                     26 

Observation F. 

            Afghan National Police – National
            Weapons and Ammunition Depot
            The National Ammunition Depot for the Afghan National Army (ANA)
            and the National Weapons and Ammunition Depot for Afghan National
            Police (ANP) were identified collectively as “22 Bunkers.” Although
            there were ANA personnel assigned to the ANA side of 22 Bunkers, there
            were no ANP personnel assigned to manage and operate the ANP side of
            22 Bunkers.

            By default, CSTC-A logistics trainers continued to manage and operate
            the ANP side of 22 Bunkers.

            As a result, ANP personnel were not being trained and mentored to learn
            the management and operation of a national-level weapons and
            ammunition depot.

Applicable Criteria
     DoD Directive 3000.05. DoD Directive (DoDD) 3000.05, “Military Support for
     Stability, Security, Transition, and Reconstruction (SSTR) Operations,”
     November 28, 2005, provides guidance on stability operations that will evolve
     over time as joint operating concepts, mission sets, and lessons learned develop
     and establishes DoD policy and assigns responsibilities within the DoD for
     planning, training, and preparing to conduct and support stability operations. The
     Directive also states it is DoD policy that:
            Stability operations are a core U.S. military mission that the
            Department of Defense shall be prepared to conduct and support. They
            shall be given priority comparable to combat operations and be
            explicitly addressed and integrated across all DoD activities including
            doctrine, organizations, training, education, exercises, materiel,
            leadership, personnel, facilities, and planning.

            Many stability operations tasks are best performed by indigenous,
            foreign, or U.S. civilian professionals. Nonetheless, U.S. military
            forces shall be prepared to perform all tasks necessary to establish or
            maintain order when civilians cannot do so. Successfully performing
            such tasks can help secure a lasting peace and facilitate the timely
            withdrawal of U.S. and foreign forces.



Combined Security Transition Command-Afghanistan
Request for Additional Personnel
     Weapons and ammunition were stored in 21 in-ground bunkers (one is
     unserviceable and not in use) and in numerous locked steel shipping-containers.
     The ANA ammunition was stored separately from ANP weapons and
     ammunition. CSTC-A personnel managed and operated the ANA side of the

                                              27 

    facility, with the assistance of ANA personnel. However, there were no ANP
    personnel assigned to the ANP side of the facility. CSTC-A personnel were
    wholly responsible for managing and operating the ANP side of the facility.

Recommendation
    F. We recommend that Commander, Combined Security Transition Command-
    Afghanistan coordinate with senior officials of the Afghan National Police and
    request the assignment of police logistics personnel to the National Weapons and
    Ammunition Depot for the Afghan National Police at 22 Bunkers so that they
    may be trained and mentored in the management and operation of a national-level
    weapons and ammunition depot.

    Management Comments to Recommendation F. CSTC-A concurred, reporting
    that previous attempts by MoI to post ANP officers to weapons depot for
    accountability purposes were not successful due to rank, literacy, language
    barriers and computer skills deficiencies. Senior CSTC-A MoI and Log ETT
    mentors will continue to engage with MoI leadership to strongly recommend
    posting appropriately skilled personnel to account for munitions.

    Assessment Response. The management comments partially meet the intent of
    the recommendation. Actual assignment of ANP personnel full-time to the 22
    Bunkers weapons and ammunition depot is still required.




                                       28 

       Part II 

Foreign Military Sales 





          29 

This Page Intentionally Left Blank




               30 

Introduction 

           The United States Government and the Government of Afghanistan have used
           equipment supplied through the U.S. FMS program “pseudo” cases as the primary
           means to equip and train the ANSF. The pseudo-FMS cases used U.S.
           appropriated Title 10 U.S.C. 9 funds to purchase equipment, although the cases
           operate administratively under standard security assistance rules and procedures.

           In Afghanistan, the security assistance office (SAO) that operated within CSTC-A
           worked in coordination with other CSTC-A staff elements to prepare and execute
           FMS cases. The Ministries of Defense and Interior and ANSF were the key
           customers within GIRoA. The security assistance process was supported by a
           U.S.-based security assistance infrastructure that included the Defense Security
           Cooperation Agency and the Military Departments. FMS case execution is
           primarily accomplished by these U.S.-based security assistance organizations.

           CSTC-A made a decision to transfer the SAO office from its Combined Joint
           Force Structure Resources and Assessment Division to its Combined Joint
           Logistics Division in June 2007 to combine the resources of the SAO with those
           of the logistics function. The SAO was supported by other Combined Joint
           Logistics Division elements such as the transportation division that processed and
           managed deliveries. The Combined Joint Logistics Division became in effect the
           security assistance agent to execute the pseudo-FMS program with Afghanistan.

           The Combined Joint Logistics Division was the security assistance system
           integrator for Afghanistan FMS, including local procurement efforts. The
           Combined Joint Logistics Division used FMS processes to identify and monitor
           Afghan FMS requirements, in coordination with MoD and MoI.




9
    Title 10 outlines the role of the armed forces in the United States Code.

                                                        31 

Observation G.
            Foreign Military Sales – Personnel
            The number of SAO personnel billets in the CSTC-A Joint Manning
            Document (JMD) was inadequate to accomplish the U.S. security
            assistance mission in Afghanistan, which has an important and strategic
            role with respect to training and equipping the ANSF.

            Specifically, the CSTC-A SAO was not adequately staffed with sufficient
            numbers of personnel and those personnel that were assigned did not
            possess the requisite security assistance skills and experience. In addition,
            short personnel tours of duty and different rotation policies among the
            military services hindered program execution and did not support
            development of the necessary program stability and continuity.

            This occurred because the current JMD had not been updated to reflect the
            scope of the current security assistance program in Afghanistan and the
            size of the SAO staff needed to manage it. Moreover, the Joint Staff and
            the Military Services have not provided sufficient personnel to staff the
            existing JMD.

            As a result, the ability of CSTC-A SAO to responsively and effectively
            accomplish its mission may have been impaired. The strategic importance
            to U.S. interests of standing-up the ANSF as rapidly as possible merits
            increasing the size of the CSTC-A SAO as well as providing personnel
            with the requisite program skills, experience and length of tours. This
            would likely improve responsiveness and effectiveness in accomplishing
            the security assistance mission.

Applicable Criteria
     DoD Directive 1322.18. DoDD 1322.18, “Military Training”, September 3,
     2004, states that:
            Members of the Department of Defense shall receive, to the maximum
            extent possible, timely and effective individual, collective, unit, and
            staff training necessary to perform to standard during operations. . . .
            The DoD Components shall ensure their individuals and organizations
            are trained to meet the specific operational requirements of the
            supported Combatant Commanders, as identified in Combatant
            Commander-approved Joint Mission Essential Task Lists (JMETLs),
            before deploying for operations and while deployed.
     DoDD 2055.3, “Manning of Security Assistance Organizations and the Selection
     of USDP Training of Security Assistance Personnel,” March 11, 1985, provides
     guidance for the staffing of security assistance organizations.

     DoD 5105.38-M, “Security Assistance Management Manual,” provides guidance
     for the administration and implementation of security assistance and related
     activities in compliance with the Foreign Assistance Act, the Arms Export
     Control Act, and related statutes and directives.
                                              32 

U.S. Joint Manpower Document Billets and Command Levels
            The number of CSTC-A SAO personnel billets in its JMD was inadequate to meet
            the needs of the security assistance mission for Afghanistan.

            The CSTC-A JMD allocated only nine personnel billets to the SAO. This was
            despite its managing $1,714 million in case disbursements during fiscal year
            2007. 10 This staffing level was not commensurate with the staffing levels
            provided to other SAOs working in countries critical to U.S. interests, much less a
            SAO engaged in supporting a country at war. In contrast, during fiscal year 2007,

            the Iraq SAO had 29 JMD billets to manage $486 million in case disbursements,
            the Saudi Arabia SAO had 77 billets to manage $758 in case disbursements, and
            the Egypt SAO had 57 billets to manage $947 million in case disbursements.

            Furthermore, during our visit in April 2008, the CSTC-A security assistance
            officer held the rank of major. This leadership level was not senior enough given
            the size and scope of the program and level of FMS funding, nor was it
            comparable to the seniority of SAO leadership provided at other SAOs working in
            countries important to U.S. national interests. In comparison, the Iraq SAO was
            led by a Brigadier General, the U. S. Army Military Training Mission in Saudi
            Arabia was led by a Major General, and the Egyptian Office of Military
            Cooperation was led by a Major General.

            Table 1 below shows the distribution of command levels, security assistance
            funding, and authorized personal billets.

                                            Table 1.
                Distribution of Command Levels, Security Assistance Funding, and
                       Authorized Personal Billets During Fiscal Year 2007
               Country      Command      Security Assistance         Authorized
                                                             11
                              Level     Case Disbursements        Personnel Billets
                Egypt
                               IC,'
                                 if4,
                                  .er,, ,
                                 N7i,IL

                                P3,
                                                      $947 million                       57


            Saudi Arabia       .7.,4,-
                                    -,---,-4-
                                           .,..-      $758 million                       77
                                 inkx     la:,

                 Iraq                                 $486 million                       29


             Afghanistan                             $1,714 million                      9




10
     DoD appropriated funding in the amount of $7,406 million was provided to the Afghanistan Security
     Forces Fund for fiscal years 2007/2008, which was used for FMS pseudo cases processed by Defense
     Security Cooperation Agency.
11
      Source: Defense Integrated Financial System, managed by the Defense Finance and Accounting Service,
     Indianapolis. These figures do not include interfund disbursements.

                                                     33 

     The insufficient number of SAO personnel billets in the CSTC-A JMD and the
     relatively low level rank of its leadership could have limited SAO responsiveness
     and effectiveness, and thus may have impaired CSTC-A in accomplishing its
     security assistance mission. We believe that the strategic importance to the
     United States military effort in Afghanistan of standing-up the ANSF on a timely
     basis merits augmenting the number of CSTC-A SAO JMD billets and also
     increasing the rank of the security assistance officer commensurate with the scope
     of responsibility of this office. Both actions could improve CSTC-A
     responsiveness and effectiveness in accomplishing its security assistance mission.

U.S. Personnel Skill Sets and Experience
     The CSTC-A SAO was staffed with personnel who did not possess the requisite
     security assistance program skills, training and experience to meet mission
     requirements.

     DoDD 2055.3, Section 4.3.3.2.3 states, “SAO and DAO personnel assigned
     security assistance program management functions shall attend the Security
     Assistance Management Overseas course at the Defense Institute of Security
     Assistance Management (DISAM). Attendance at the DISAM course is
     mandatory, unless the course has been completed satisfactorily within the last 5
     years.” However, none of the nine SAO JMD billets were filled by personnel
     who had received DISAM training or possessed prior security assistance
     experience.

     Some personnel received security assistance training in Afghanistan while
     assigned to CSTC-A, but this reduced effective mission time. While finding
     experienced security assistance personnel may be difficult, pre-deployment
     training at the DISAM course is achievable and necessary, and required by
     regulation.

     Further, only four of the nine SAO billets had been filled by JCS and the military
     services. Because of these personnel shortages, CSTC-A had to fill five of the
     nine vacant SAO billets by reassigning personnel from elsewhere within its
     logistics section. Some individuals were reassigned with only 4-6 months left in
     their tours of duty. These temporary assignments were stop-gap measures
     resulting from the significant personnel shortage in the CSTC-A SAO.

     Internal controls dictate that the mission be accomplished according to the
     complicated and numerous prescribed laws, regulations, and procedures found in
     the security assistance area. The lack of experienced and trained personnel
     necessary to perform the SAO mission therefore represents a material weakness in
     terms of implementing those internal controls.

     The shortage of personnel with the requisite security assistance program skills
     and experience could well be factors that limited CSTC-A SAO responsiveness
     and effectiveness and impaired the accomplishment of the security assistance
     mission.




                                         34 

U.S. Personnel Rotation Policies 

     Short personnel tours of duty and different rotation policies among the military
     services hinder CSTC-A SAO program execution and do not provide adequate
     stability or continuity for the security assistance program in Afghanistan. The
     CSTC-A SAO requires personnel with length of tours sufficient to build the
     institutional knowledge and experience needed to become effective FMS case
     managers, which also requires developing effective relationships with
     ANSF personnel.

     Standard Army and Marine Corps tours of duty in Afghanistan were 12 months
     while some Air Force and Navy personnel have been assigned to CSTC-A SAO
     for only 6 months. CSTC-A believes that untrained personnel assigned to the
     SAO need four to six months of work in Afghanistan to gain sufficient in-country
     experience to become an effective FMS case manager. Thus, many SAO
     personnel are scheduled to rotate home just when they are becoming effective in
     their positions.

     Table 2 below shows the authorized personal billets for the CSTC-A SAO as of
     April 19, 2008.




                                         35 

                                       Table 2.
                      Afghanistan Security Assistance Office Staff
                       Authorized Positions as of April 19, 2008
Slot          Position      Military       Rank and       Length of                 Prior FMS
               Title         Service        Grade            Tour                   experience

 1*             Chief           U.S. Army         Major (O-4)        12 months        None
                               U.S. Marine
    2     Assistant Chief                         Major (O-4)        12 months       None**
                                  Corps
    3       Staff Officer       U.S. Army         Captain (O-3)       3 months        None

    4       Staff Officer       U.S. Navy         LCDR (O-4)          6 months        None
                                 U.S. Air
    5       Staff Officer                         Captain (O-3)      6 months         None
                                  Force
                                 U.S. Air
    6       Staff Officer                         Captain (O-3)      12 months        None
                                  Force
                                 U.S. Air          Master Sgt.
 7*         Staff Officer                                            12 months        None
                                  Force              (E-7)
                                 U.S. Air
 8*         Staff Officer                         Major (O-4)        12 months        None
                                  Force
            IMET Staff           U.S. Air
 9*                                               Major (O-4)       Not known        None***
            Officer****           Force
*       Joint Manning Document positions filled by JCS and the military services.
**  Sent to Iraq for Defense Institute of Security Assistance Management (DISAM) training in
    January 2007.
*** DISAM trained in Afghanistan.
**** International Military Education and Training


The U. S. Army Security Assistance Command uses a rotation policy for Army
security assistance personnel and believes that this new policy enhances the
effectiveness of its personnel in contingency operations such as Afghanistan.

U. S. Army Security Assistance Command personnel deploy for six months to
Afghanistan, gain experience working in Afghanistan, and return to work on the
Afghanistan program in the U.S.-based U. S. Army Security Assistance
Command office. Following a six month U.S. rotation tour, those personnel
return to the SAO office in Afghanistan. This rotation policy provides continuity
to U. S. Army Security Assistance Command efforts to support security assistance
in Afghanistan and results in stronger internal controls. The use of this personnel
policy helps develop a base of experienced SAO personnel that understand the
Afghanistan program and can effectively address issues in-country.




                                           36 

    The U. S. Army Security Assistance Command rotation policy provides one
    solution to this problem as would requiring all SAO personnel to serve one year
    tours of duty.

    DoDD 2055.3, section 5.1.6 has established a mechanism to coordinate tour
    lengths for SAO personnel by giving the Director, Defense Security Cooperation
    Agency the authority to “coordinate on overseas tour length policies that affect
    security assistance personnel.” We believe that the strategic importance of
    standing-up the ANSF merits resolving these tour length problems for personnel
    assigned to the CSTC-A SAO.

Recommendations
    G.1. We recommend that the Commander, U.S. Central Command, in
    coordination with the Commander, Combined Security Transition Command-
    Afghanistan:

           a. Increase the rank level of leadership of the security assistance officer
           commensurate with the mission, size and scope of the security assistance
           program and level of Foreign Military Sales funding in Afghanistan.

    Management Comments to Recommendation G.1.a. USCENTCOM partially-
    concurred. They reported that current authorizations do provide for leadership of
    the security assistance officer commensurate with the mission, size and scope of
    the security assistance program and level of Foreign Military Sales funding in
    Afghanistan. In August 2002, the Director of the Joint Staff (DJS) authorized
    establishment of a temporary joint General Officer billet to serve as U.S. Security
    Coordinator and Chief. The Security Assistance Office is Combined Security
    Transition Command – Afghanistan (CSTC-A)–commanded by a Major General
    and supported by a Brigadier General Political/Military (PolMil) officer. The
    current Afghanistan SAO JTD dated Aug 2008 reflects a total of (9) billets which
    includes (1) USA O-6 Deputy Chief, OSC-A; (1) USA O-5; (4) USAF and (1)
    USA O-4; (1) USAF E-7 and (1) USA E-6 billets. Effective in FY09, the JTD
    will reflect 10 authorized billets with a breakout as follows: (1) USA O-6; (2)
    USA O-5; (4) USAF & (1) USA O-4; (1) USAF E-7 and (1) USA E-6 billets.
    How these personnel are utilized is a function of Service fills and CSTC-A
    assignment.

    CSTC-A recommends sourcing an 0-6 to fill position #10653.

    Assessment Response. We commend management for taking action to increase
    the JTD billets and the rank level of those billets to better support the security
    assistance program. USCENTCOM should continue to monitor the rank and
    experience of the officer actually conducting the day-to-day business of the SAO
    program to ensure proper support is provided. We plan to review the situation
    when we return to Afghanistan in early 2009.

            G.1.b. We recommend that the Commander, U.S. Central Command, in
    coordination with the Commander, Combined Security Transition Command-
    Afghanistan revise, update, and approve authorized positions in a new Joint
    Manning Document for the Combined Security Transition Command-Afghanistan
    security assistance office that reflects the scope of the security assistance program

                                         37 

in Afghanistan and provides sufficient personnel with the requisite skills and
experience levels.

Management Comments to Recommendation G.1.b. USCENTCOM partially
concurred. In addition to the Afghanistan SAO Joint Table of Distribution (JTD)
as stated above, the CSTC-A JMD (Mod 12-Jun 08) reflects an additional 514
billets. Twelve of these 514 billets have remarks as “SEC COOP PRGM.” These
(12) augmentation billets breakout as: (1) USN O-5; (7) O-4s (3-USAF, 2-USA,
1-USMC & 1-USN); (2) O-3 (1-USAF & 1-USA); and (2) USAF E-5 billets.
CCJ1 and CCJ5 are working with CSTC-A to improve their SAO/FMS capability,
as required

Assessment Response. The management comments partially meet the intent of
the recommendation. We commend management for bolstering the number of
billets in support of the Security Cooperation Program. However, we will want to
follow-up on the results of the USCENTCOM CCJ1 and CCJ5 assessment of the
CSTC-A SAO/FMS capability in Afghanistan to assess whether the increase in
billets provides the SAO with adequate personnel.

G.2. We recommend that the Chairman of the Joint Chiefs of Staff and the
Commander, U.S. Central Command expedite:

      a. Approval of the revised Combined Security Transition Command-
Afghanistan Joint Manning Document.

        b. Assignment of personnel with the requisite skills, experience levels,
and rank to fill positions designated in the revised Joint Manning Document for
the Combined Security Transition Command-Afghanistan security assistance
office.

Management Comments to Recommendation G.2. The Joint Staff concurred.

USCENTCOM concurred, noting that CCJ1-MPA will expedite the JMD process,
once input is received from CSTC-A.

Assessment Response. Management has met the intent of our recommendation.
We plan to follow-up on USCENTCOM’s progress once they receive CSTC-A’s
JMD input.

G.3. We recommend that the Director, Defense Security Cooperation Agency, in
coordination with the Assistant Secretary of the Navy (Manpower and Reserve
Affairs) and the Assistant Secretary of the Air Force for Manpower and Reserve
Affairs, establish appropriate tour length policies for personnel assigned to the
security assistance office in Afghanistan that provide the operational commander
the personnel and resources necessary to perform the security assistance mission.

Specifically, establish one year tours for Navy and Air Force security assistance
personnel assigned to the Combined Security Transition Command-Afghanistan
security assistance office or establish an alternate rotation policy (discussed in
this observation) similar to that developed by the United States Army Security
Assistance Command for Army security assistance personnel.

Management Comments to Recommendation G.3. The Defense Security
Cooperation Agency did not respond to the draft report.
                                     38 

Assessment Response. We request that the Defense Security Cooperation
Agency respond to the final report.

G.4 We recommend that the Chairman of the Joint Chiefs of Staff, the Director,
Defense Security Cooperation Agency, the Assistant Secretary of the Army
(Manpower and Reserve Affairs), the Assistant Secretary of the Navy (Manpower
and Reserve Affairs), and the Assistant Secretary of the Air Force (Manpower and
Reserve Affairs) ensure that personnel assigned to security assistance positions in
Afghanistan receive adequate security assistance training before deployment, but
at a minimum they attend the Defense Institute of Security Assistance
Management course.

Management Comments to Recommendation G.4. The Defense Security
Cooperation Agency did not respond to the draft report.

The Joint Staff concurred.

The Army concurred.

The Navy concurred.

The Air Force concurred.

Assessment Response. We request that the Defense Security Cooperation
Agency respond to the final report.




                                    39 

Observation H.
            Foreign Military Sales – Performance
            FMS standard case processing time standards for the pseudo-FMS cases
            used to equip the ANSF were inadequate for wartime contingency
            operations in Afghanistan and were not meeting the train and equip
            requirements of CSTC-A and ANSF. Further, USCENTCOM and
            CSTC-A do not have sufficient visibility of FMS case processing to
            enable managers to monitor and react to program metrics.

            This has occurred because the 120-day case processing time standard has
            not been adjusted for wartime operations in Afghanistan. Further, a
            Common Operating Picture report was not established for the use of the
            security assistance function within CSTC-A.

            As a result, CSTC-A is hindered in efficiently and effectively achieving its
            train and equip mission for the ANSF.

Applicable Criteria
     DoD 5105.38-M, “Security Assistance Management Manual,” October 3, 2003,
     provides guidance for the administration and implementation of security
     assistance and related activities in compliance with the Foreign Assistance Act,
     the Arms Export Control Act, and related statutes and directives and states:
            . . . [T]he maximum processing time between Implementing Agency
            receipt of the Letter of Request and release of the Letter of Offer and
            Acceptance should normally be no more than 120 days, with no
            adjustments for hold times, additional work needed to clarify
            requirements, or any other consideration. Although delays may occur
            while processing some LOAs [Letter of Offer and Acceptance],
            Implementing Agencies should process at least 80 percent of their total
            number of LOAs within 120 days.


U.S. Foreign Military Sales to Afghanistan
     The FMS program has historically functioned primarily as a peacetime security
     assistance program. However, the United States is using a FMS program as the
     principal means to equip, expand, and modernize ANSF during wartime
     conditions. Building a responsive and proactive FMS program that is successful
     in this wartime environment will greatly enhance and expedite the ability of
     ANSF to be fully combat ready in a timely manner. To be successful in executing
     this strategic decision, a FMS program needs to be fully supportive of the wartime
     equipping requirements of CSTC-A and ANSF.

     Further, a well-established FMS program enables the United States to further
     develop and maintain close bilateral political and interoperable military ties with
     Afghanistan and, therefore, supports key U.S. national security interests and also
     facilitates the reduction of U.S. military forces.

                                              40 

            FMS shipments to Afghanistan will sharply increase over the next few years as
            $7.4 billion in DoD appropriated funding provided to the Afghanistan Security
            Forces Fund for fiscal years 2007/2008 surges through the system. Responsive
            support beyond the norm is essential for rapid ANSF force generation,
            replacement of combat losses, and force modernization.

            CSTC-A had developed an analytical capability to match FMS cases to ANA
            force requirements. This analysis included a comparison of the force generation
            requirements for fielding units, the estimated delivery dates for equipment, and
            unit fielding schedules. The CSTC-A analysis was broken down into move,
            shoot, and communicate categories for analysis. CSTC-A provided an outline of
            its FMS process in Afghanistan and that process is shown in Appendix G.

Security Assistance Management Manual Standard Case
Processing Timeframes
            The standard level of service for FMS case processing time was 120 days, as
            established in the Security Assistance Management Manual, from receipt of the
            Letter of Request 12 by U.S. security assistance officials to the release of LOA by
            the Defense Security Cooperation Agency. This standard was developed by the
            Defense Security Cooperation Agency and was applied to customers worldwide
            regardless of whether that customer was at peace or war or using pseudo FMS
            cases. However, the 120-day case processing time standard has not been adjusted
            for wartime operations in Afghanistan and was not meeting the train and equip
            requirements of CSTC-A and ANSF.

            According to CSTC-A officials, the April 2008 case processing time from Letter
            of Request to LOA was reduced from the time incurred to process cases in
            September 2007. CSTC-A officials also stated that the current response time has
            improved even though limitations existed such as the shortage of qualified
            security assistance personnel and the turnover of key personnel in the Combined
            Joint Logistics Division SAO. However, senior U.S. commanders noted that the
            FMS process was still insufficiently responsive to the needs of ANSF.

            During our visit to Afghanistan in April 2008 and in a letter on March 3, 2008,
            the Deputy Commanding General, CSTC-A, requested help from the Deputy
            Secretary of Defense’s Foreign Military Sales Task Force in reducing case
            processing times to support the Afghanistan train and equip mission. CSTC-A
            had asked, in its March 3, 2008 letter, for the 120 day case processing standard to
            be compressed to 30 days, the contracting cycle to be reduced to 45 days, for
            improved management of diversions by the Army Requirements Resourcing
            Board, and increased management authority for the country program manager and
            central case manager to compress transportation schedules.

            At the time of this assessment, the FMS program had not yet demonstrated that it
            could responsively meet CSTC-A and ANSF wartime equipping requirements.
            Establishing a reduced standard level of service for FMS case processing time for
            wartime operations would help CSTC-A to achieve its train and equip mission
            more efficiently and effectively. We believe that the strategic importance to the
12
      A term used to identify a request from an eligible FMS participant country for the purchase of U.S.
     defense articles and services.

                                                       41 

    United States of standing-up the ANSF merits establishing a reduced FMS case
    processing time standard for the wartime conditions it faces in Afghanistan.

U.S. Common Operating Picture Report
    The Deputy Secretary of Defense formed a Task Force in 2007 that proposed a number of
    constructive actions, some of which have already been implemented, to increase the
    effectiveness of the FMS program. One of those actions was to establish a Common
    Operating Picture report for the security assistance function within the Multinational
    Security Transition Command–Iraq.

    This report enabled security assistance personnel to observe program metrics such as the
    status of LOAs waiting for acceptance by the purchasing nation, the status of FMS cases
    in process, deliveries, program management financial snapshots, SAO staffing status, and
    other issues within the FMS program. The Common Operating Picture report was
    routinely provided to senior officials within the Office of the Secretary of Defense.

    The strategic mission in Afghanistan has a FMS program greater in dollars and equal in
    importance to the Iraq FMS program but lacks the same analytical tools as the Iraq SAO.
    A Common Operating Picture report prepared for the Afghan FMS program would allow
    CSTC-A and USCENTCOM leadership and senior officials within the Office of the
    Secretary of Defense to have program visibility. We believe that the lack of this visibility
    within the Office of the Secretary of Defense and the CSTC-A SAO hampers the
    effectiveness of the Afghan FMS program.


Recommendations
    H. We recommend that the Under Secretary of Defense for Policy, in coordination with
    the Director, Defense Security Cooperation Agency:

            1. Establish a security assistance policy, in DoD 5105.38-M, “Security
    Assistance Management Manual,” October 3, 2003, for Foreign Military Sales case
    processing times that applies to wartime and contingency operations and, in this case,
    specifically to Afghanistan.

            2. Develop a plan to provide the necessary personnel support and funding within
    the security assistance community to implement and process Foreign Military Sales cases
    at the established wartime standards for contingency operations in Afghanistan.

           3. Develop a common operating picture report for the Foreign Military Sales
    program in Afghanistan and ensure that the report is provided to senior officials in the
    Office of the Secretary of Defense and the Combined Security Transition Command-
    Afghanistan on a recurring basis.




                                            42 

Management Comments to Recommendation H. The Under Secretary of Defense for
Policy did not respond to the draft report.

Assessment Response. We request the Under Secretary of Defense for Policy to respond
to the final report.




                                     43 

This Page Intentionally Left Blank




               44 

        Part III 

Logistics Sustainability 





           45 

This Page Intentionally Left Blank




               46 

Introduction 

     The ability of ANSF to develop the capability to operate independently relies on
     building adequate logistical support at all operational levels to sustain the ANSF
     fielded force. This support includes planning for and development of
     standardized logistics policies and processes; establishment of an organization
     that is able to procure, receive, store, distribute, maintain, and re-supply its forces;
     maintenance of a sufficient logistical infrastructure; and support of professional
     logistics training and mentoring activities. CSTC-A has responsibility for
     building ANSF logistics sustainability through its train and equip mission.

Ministry of Defense and Afghanistan National Army Logistics
     CSTC-A has supplied logistics mentors to the senior levels of MoD and has also
     positioned ETTs throughout the ANA fielded force to provide logistics training
     and assistance, as well as military skill training. The focus on MoD and ANA
     institutional development has yielded positive results in assisting GIRoA to begin
     development of a logistical sustainment base. Among the accomplishments so far
     was the generation of official logistics regulations and procedures, establishment
     of logistics functional organizations, and creation of a national logistics
     distribution system within MoD and ANA.

     Brigade-level logistics structures and systems were adequate and continued to
     progress while a series of national and forward support depots provided the bulk
     of ANA support needs. However, there was a systemic gap in the linkage from
     brigade to national level logistics and also a weakness in asset visibility
     throughout the logistics system. A recent request to further increase the size of
     ANA will require the recruiting, training, and fielding of additional forces with
     the potential result that growth and maturity of a specialized logistics corps may
     continue to be delayed.

Ministry of Interior and Afghanistan National Police Logistics
     CSTC-A assumed responsibility for mentoring and training MoI and ANP in
     2006. This training function had previously been performed by the Department of
     State’s Bureau of International Narcotics and Law Enforcement. After assuming
     the mission, CSTC-A assigned mentors and trainers to MoI to enhance ministerial
     development and provided military personnel to supplement manning for PMTs.
     The logistics capability of MoI significantly lagged that of MoD because of the
     late start in providing comprehensive mentoring and advisory assistance and an
     ongoing reorganization effort within MoI.

     The logistics development for ANP has focused on verification and
     accountability. CSTC-A was addressing regional, provincial, and district level
     gaps in ANP logistics that stem in part from still-developing MoI logistics
     policies, procedures, and training. The MoI was working to close these gaps
     through regional, provincial, and district level logistics officer training, but
     progress has been slow. It is critically important to ensure that efforts to develop
     an operable logistics system for ANP be emphasized as ANP was providing the
     bulk of day-to-day security at local levels and is particularly vulnerable to attack
     in outlying areas of the country.

                                           47 

Observation I.
            Combined Security Transition Command-
            Afghanistan – Planning for Logistics
            Sustainability
            The plans for development of ANSF did not provide a clearly defined path to
            achieving an end state in which MoD, MoI and the ANSF will be capable of
            independently carrying out military and police logistics operations on a
            sustainable basis. Further, CSTC-A did not have formal approved plans for the
            development of ANSF logistics sustainability.

            Specifically, the plans for development of ANSF logistics sustainment were not
            clearly linked in a single integrated plan, and did not provide a time-phased
            conditions-based approach for accomplishing end state objectives. Rather, the
            plans in many cases defined only broadly-stated objectives and milestones.
            Further, the plans generally did not identify a specific person or office responsible
            for the execution of specific tasks. Moreover, it was not clear in the plans the
            extent to which the Afghan ministries and security forces were directly engaged
            in the process of planning the establishment of their logistics system.

            This occurred because CSTC-A may not have fully partnered with MoD, MoI and
            ANSF to develop a fully coordinated strategy that plans for integrating logistics
            sustainability needs at each organizational level of the security forces. Neither is
            it apparent that the planning process has clearly specified operational tasks,
            milestones, and metrics, or that it has identified accountable offices of primary
            responsibility for each action required. In addition, CSTC-A had not yet issued
            formal approved logistics sustainability plans.

            As a result, U.S. efforts to assist GIRoA to build a sustainable logistics base for
            its security forces, and achieve an end state in which the ANSF will be capable of
            independently carrying out military and police logistics operations, may be
            delayed. In addition, implementation of logistics development plans may not
            receive the full support of MoD, MoI, and ANSF. And finally, personnel,
            equipment, and funds required to support the effort may not be made available
            when needed, or may not be efficiently used.
Applicable Criteria
     DoD Directive 3000.05. DoDD 3000.05, Military Support for Stability, Security,
     Transition, and Reconstruction (SSTR) Operations,” November 28, 2005, provides
     guidance on stability operations that will evolve over time as joint operating concepts,
     mission sets, and lessons learned develop and establishes DoD policy and assigns
     responsibilities within the DoD for planning, training, and preparing to conduct and
     support stability operations. The Directive also states it is DoD policy that:

            Stability operations are a core U.S. military mission that the Department of

            Defense shall be prepared to conduct and support. They shall be given priority



                                                 48 

                     comparable to combat operations and be explicitly addressed and integrated
                     across all DoD activities including doctrine, organizations, training, education,
                     exercises, materiel, leadership, personnel, facilities, and planning.
                     Stability operations are conducted to help establish order that advances U.S.
                     interests and values. The immediate goal often is to provide the local populace
                     with security, restore essential services, and meet humanitarian needs. The long-
                     term goal is to help develop indigenous capacity for securing essential services,
                     a viable market economy, rule of law, democratic institutions, and a robust civil
                     society.
                     Many stability operations tasks are best performed by indigenous, foreign, or
                     U.S. civilian professionals. Nonetheless, U.S. military forces shall be prepared
                     to perform all tasks necessary to establish or maintain order when civilians
                     cannot do so. Successfully performing such tasks can help secure a lasting
                     peace and facilitate the timely withdrawal of U.S. and foreign forces.


U.S. and Afghan Draft Logistics Sustainment Plans
            CSTC-A had written numerous planning documents related to development of ANSF
            logistics sustainment. However, none of those plans had been formally issued. We
            reviewed the following draft plans that provided proposed actions to develop and
            establish an operable logistics sustainment capability for MoD and MoI:
                •	 Combined Security Transition Command – Afghanistan Campaign Plan,
                    Coordinating Draft, May 7, 2007
                        o	 ANNEX C, Appendix 2 – Afghan National Army Development Plan
                        o	 ANNEX C, Appendix 3 – Afghan National Police Development Plan
                        o	 ANNEX D – Logistics
                •	 Islamic Republic of Afghanistan Campaign Plan for the Development of Enduring
                    National Military and Police Forces (pre-decisional draft), July 28, 2007
                        o	 ANNEX B – Ministry of Interior and the Afghan National Police
                        o	 ANNEX C – Ministry of Defense and the Afghan National Army
                •	 Combined Security Transition Command – Afghanistan Ministerial Systems
                    Development, Solar Year 1387, Action Plan (undated draft)
                •	 Development Plan for Ministry of Interior, Department of Logistics, (undated
                    draft)
                •	 Development Plan for Ministry of Defense, Assistant Minister of Defense
                    (Acquisition, Technology, and Logistics) Acquisition Agency, (undated draft)
                •	 Development Plan for Ministry of Defense, Department of General Staff-G4, 13
                    (undated draft)
                •	 Development Plan for Logistics Command, (undated draft)




13
      The “G” indicates General Staff. Staff elements often use a numbering system to distinguish different functions
     and a “4” normally refers to the logistics division or section.

                                                           49 

Combined Security Transition Command – Afghanistan Campaign
Plan
           The CSTC-A Campaign Plan, Coordinating Draft, May 7, 2007, is a draft five-year plan
           that proposed a road map for MoD, MoI, and ANSF to achieve Afghan primacy in
           logistics sustainment by 2010. This plan had not been approved at the time of our visit to
           Afghanistan.

           The plan proposed implementation in three phases:
               • Phase I: ANSF Development
               • Phase II: Transfer to Afghan Primacy
               • Phase III: Transfer to Strategic Partnership
           The draft plan’s primary focus was the development of an ANSF that is appropriately
           structured to address current internal threats, and is tactically and operationally capable
           of defeating challenges to GIRoA sovereignty, and is affordable to GIRoA when the
           United States and the international community reduce their fiscal and military support.

           Ministry of Defense. The section of the CSTC-A Afghanistan Campaign Plan,
           Coordinating Draft, May 7, 2007, ANNEX C, Appendix 2 – Afghan National Army
           Development Plan that discussed MoD stated that “DRD-Log’s [Defense Reform
           Directorate – Logistics] 14 mission is to provide an acquisition infrastructure and
           processes to enable a self-sustaining war fighting force. To execute this plan, DRD-Log
           will conduct phased operations to transition responsibility for managing acquisition
           agencies and their respective processes to fulfill warfighter requirements.”

           Ministry of Interior. The section of the CSTC-A Afghanistan Campaign Plan,
           Coordinating Draft, May 7, 2007, ANNEX C, Appendix 3 – Afghan National Police
           Development Plan that discussed the MoI proposed framework for the establishment and
           sustainment of a modern and efficient MoI with moderate levels of risk. The reformation
           of MoI was proposed to be a three-phased process and was addressed in terms of specific
           management systems and the ability to achieve certain capability milestones. Once MoI
           has been reformed, enhanced, and expanded, the U.S. lead agency responsibility would
           be transferred from DoD to the Department of State and the Department of Justice for
           continued sustainment of the capability.

Islamic Republic of Afghanistan Campaign Plan
           The Islamic Republic of Afghanistan Campaign Plan for the Development of Enduring
           National Military and Police Forces (pre-decisional draft) was dated July 28, 2007.
           However, this plan had not been approved at the time of our visit to Afghanistan.

           The draft plan described the development of enduring national military and police forces
           over time and outlined a partnership between GIRoA and the international community. It
           described the international community commitment to provide the budgetary, material,
           and training support necessary to develop national military, police, and ministerial

14
      Defense Reform Directorate – Logistics was the organizational entity within CSTC-A which had been formerly
     responsible for the training and equipping, planning, and execution for MoD and ANA. CSTC-A has since been
     reorganized and this sub-organization was absorbed into the present CSTC-A organizational structure.

                                                         50 

    structures. At the time of our visit, the plan remained in draft, but was to be jointly
    signed by MoD, MoI, and CSTC-A.

    Ministry of Interior and the Afghan National Police. The plan’s ANNEX B –
    Ministry of Interior and the Afghan National Police stated that logistics support for MoI
    was to be based on strategic plans, missions, and requirements developed through the
    Force Management Process and the modern principles of logistics operations. There was
    an aspiration that MoD and MoI would consolidate certain ANA and ANP logistics and
    procurement capabilities in due course, although there was no indication how this
    outcome was to be achieved.

    In the interim, the plan specified that the Logistics Department would conduct national-
    level, centralized logistics planning and materiel management at MoI Headquarters.
    Direct logistics support to police units and other MoI elements permanently located or
    temporarily deployed throughout Afghanistan would be provided by decentralized
    supply, maintenance, and transportation activities located at Regional Logistics Centers
    and Provincial Supply Points under the command of the Regional and Provincial
    Commanders.

    Ministry of Defense and the Afghan National Army. The plan’s ANNEX C –
    Ministry of Defense and the Afghan National Army outlined development plans for MoD
    and its military forces following a standard U.S. military format covering Doctrine,
    Organization, Training, Materiel, Leadership & Education, Personnel and Facilities.

    The plan contained broad, high-level goals and objectives. The plan also asserted that
    such top level development plans must be supplemented by action plans for
    implementation at the next lower level of management detail. For example, it stated that
    the ANA Logistics Command was to be responsible for the management of all classes of
    supply, material distribution, inventory management, depot level maintenance, and
    organizational level vehicle maintenance training at fixed and mobile sites. However, we
    were not provided with any formal approved action plan that would provide for the
    operational implementation of this objective.

Afghan Ministerial Systems Development Action Plan for Solar
Year 1387
    The CSTC-A- Ministerial Systems Development Action Plan for Solar Year 1387 had
    not been approved at the time of our visit. This draft specified the actions to be
    accomplished by CSTC-A in one year. Specifically, the plan focused on system goals,
    objectives, and tasks to be accomplished during the current solar year (April 2008 to
    April 2009) that would advance MoD, MoI, and ANSF toward achieving an independent
    logistical operational capability.

    The logistics portion of the plan was comprised of five subsystems; accountability,
    maintenance, supply, resource management and transportation. The plan specified the
    actions to be accomplished between April 1, 2008 and March 31, 2009. The plan was
    very ambitious given the extent of the year’s tasks projected to be accomplished, yet it
    had not been formally approved and issued although the solar year had begun. Further,
    there was not a clear link to other draft plans prepared by CSTC-A.




                                             51 

Afghan Ministry of Defense and Ministry of Interior Logistics
Development Plans
            A series of draft MoD and MoI Logistics Development Plans written by the CSTC-A
            Combined Joint Logistics Division described further efforts to develop logistics. These
            plans had not been approved at the time of our visit to Afghanistan.

            These plans were intended to outline the means to advance MoD and MoI departments
            toward primacy in logistics sustainment by identifying the critical tasks and enabling
            activities to be accomplished to build and develop the capability to operate without
            assistance from or reliance on external support. The plans identified core competencies
            and made a preliminary assessment of the current Capability Milestone. 15

            The capability milestone assessments in these plans evaluated the existence of policies
            and personnel resources. As an example, the Development Plan for Logistics Command
            listed “transportation support” as one of four core competencies for Logistics Command.
            The overall evaluation for this core competency was Capability Milestone 2. 16 However,
            this rating for transportation did not appear to assess functional capabilities based on our
            preliminary observations of the Central Movement Agency’s ability to perform its
            mission.

Combined Security Transition Command – Afghanistan Guidance
            Guidance should be finalized and formalized. The guidance should be issued in writing
            by a formal memorandum or fragmentary order that specifies the procedures requiring
            compliance and contains the name(s), title(s), signature(s), and date(s) showing the
            approval of authorized official(s), as applicable. Documents that must be used by GIRoA
            personnel should be translated into the applicable local language.

Summary
            We were unable to locate any plan that was in signed, final form. All plans that we were
            provided were in draft, therefore, unofficial and presumably not operational.
            The draft plans we reviewed represented a significant command effort to capture the
            relevant information and instructions. However, the plans only identified general,
            broadly stated goals and objectives, tasks and milestones. We did not find any document
            that linked these diverse plans together into a single integrated action plan with a time-
            phased, conditions-based approach to assist the Afghan forces in providing for their
            logistics sustainability.

            Further, the draft plans did not identify a specific person or office responsible for the
            execution of the specific tasks. In addition, it was unclear the extent to which the Afghan

15
      Capability Milestones were developed to measure the progress in the development of Afghan units, agencies, staff
     functions, or installations.
16
      Capability Milestone 2 rating was the unit, agency, staff function, or installation is capable of conducting primary
     operational mission(s) with minimal assistance from, or reliance on, Coalition or international community support.
     Capability in terms of doctrine, organization, training, materiel, leadership and education, personnel and facilities,
     objective proficiency, or other applicable measure is defined at greater than 70-85 percent.

                                                             52 

    government had direct involvement in the planning process, and therefore had the buy-in
    to ensure effective implementation.

    The proper development and implementation of an integrated top to bottom logistics
    development plan will require a substantial investment of staff and resources by the U.S.
    Government, as well as the International Community. And, it will become even more
    challenging and important that this mission be accomplished as the ANSF personnel and
    unit base expands to meet the threat on the battlefield.

Recommendations
    I. We recommend that the Commander, Combined Security Transition Command-
    Afghanistan:

           1. Develop a single integrated logistics sustainment plan, in coordination with the
    Ministries of Defense and Interior, for each level of the ministries and Afghan National
    Security Forces with functional responsibility for supporting the logistics process.

    Management Comments for Recommendation I.1. CSTC-A concurred. They
    reported that the CSTC-A Campaign Plan was signed 29 January 2008. Additionally, it
    is currently under review as part of a periodic revision. The updated campaign plan is
    expected to be signed in September 2008. In the “Develop the Force” line of operation,
    the plan includes a specified Objective (3.3) that states “Efficient logistics systems
    capable of identifying acquiring and distribut(ing) required resources to the ANA and
    ANP without external assistance.” The updated plan also places added emphasis on
    sustainment during Phase 1--Field/Generate the Afghan National Security Capability, and
    Phase 2--Development of the Afghan National Security Capability. The long term goal
    for logistics remains as stated in Annex A, Inter-Ministerial Issues: “Establishment of a
    joint national logistics center with responsibilities for contract management, maintenance
    support, and the management of the strategic logistics assets and critical commodities.”
    The Campaign Plan is supported by Ministerial Development plans that include logistics
    development plans for both ANA and ANP. These Development plans will be reviewed
    in October 2008 as part of our periodic campaign plan assessment. In addition to the
    ministerial development plans, Logistics Management and Acquisitions & Procurement
    have been identified as systems to be developed across staff boundaries of the MoD and
    MoI. Estimated completion is December 2008.

    Assessment Response. The actions described in the management comments partially
    meet the intent of the recommendation. CSTC-A provided a signed copy of the CSTC-A
    Campaign Plan dated 29 January 2008 which we had not previously received. We are
    not yet in receipt of the proposed September 2008 update to that plan, but the January
    2008 approved plan provides broad strategies and objectives for developing the ANSF. It
    does not, however, address specific processes, objectives, or milestones for establishing
    the logistics sustainment capability of the ANSF. The Ministerial Development Plans
    which did attempt to address some specific objectives and outcomes for developing the
    logistics capabilities o f the ANSF had not been updated at the time this report was
    published. We request that CSTC-A provide the completed and updated Development
    Plans for our review.

           I.2. We recommend that the Commander, Combined Security Transition
    Command-Afghanistan ensure that future logistics sustainability plans link tasks,
    milestones, and metrics; identify specific accountable offices of primary responsibility

                                            53 

for each action; and be made final and officially promulgated.

Management Comments to Recommendation I.2. CSTC-A concurred, noting that a
Sustainment Annex will be included in the CSTC-A Operations Order (OPORD),
Authorization, Organization and Conduct of Operations, which is being updated for
FY2009 and will be published in October 2008. Additionally the Ministerial
Development Plan and Action Plans were approved by the CSTC-A DCG after the
necessary concurrence from the Afghan MoD and MoI in spring 2008 and continue to be
used for development. Assessments are made monthly, reported to the DCG and the
Ministerial Development Boards in formal briefings and submitted to the Joint Staff J5.
The Ministerial Development plans will be reviewed in October/November 2008 as part
of the Campaign Plan review and assessment process defined in Annex D to the
Campaign Plan.

Assessment Response. The actions described in the management comments meet the
intent of the recommendation. The publication of a Sustainment Annex within the
proposed OPORD, together with the completed and updated Ministerial Development
Plans, should suffice in meeting the requirements of this recommendation. The
recommendation will remain open, however, until the CSTC-A OPORD and the latest
Ministerial Development and Action Plans are published.




                                        54 

Observation J.
                     Afghan Ministry of Defense – Logistics
                     Command Visibility over Equipment
                     Provided to the Afghan National Army
                     Fielded Force
                     The commander of the Logistics Command 17 reported that his organization had
                     little or no formal visibility over equipment fielding plans and actions, assets,
                     documentation, and types and quantities of equipment being provided to the ANA
                     fielded force. The commander also asserted that decisions regarding the
                     equipping of war fighting units (Corps, Brigades, Kandaks 18 ) had been made
                     without Logistics Command coordination.

                     This occurred because U.S. forces and subsequently CSTC-A had not provided
                     sufficient logistics information to the Logistics Command concerning fielding
                     plans and actions, assets, documentation, and types and quantities of equipment
                     being provided to field and equip ANA that would allow the Logistics Command
                     to accomplish its logistics mission.

                     As a result, the Logistics Command and other MoD critical nodes were unable to
                     manage and operate a logistics support system effectively and efficiently.

Applicable Criteria
            DoD Directive 3000.05. DoDD 3000.05, Military Support for Stability, Security,
            Transition, and Reconstruction (SSTR) Operations,” November 28, 2005, provides
            guidance on stability operations that will evolve over time as joint operating concepts,
            mission sets, and lessons learned develop and establishes DoD policy and assigns
            responsibilities within the DoD for planning, training, and preparing to conduct and
            support stability operations. The Directive also states it is DoD policy that:
                     Stability operations are a core U.S. military mission that the Department of
                     Defense shall be prepared to conduct and support. They shall be given priority
                     comparable to combat operations and be explicitly addressed and integrated
                     across all DoD activities including doctrine, organizations, training, education,
                     exercises, materiel, leadership, personnel, facilities, and planning.
                     Stability operations tasks include helping … rebuild indigenous institutions
                     including various types of security forces, correctional facilities, and judicial
                     systems necessary to secure and stabilize the environment.




17
     The Logistics Command reports to the Afghan Assistant Minister of Defense (Acquisition, Technology, and
     Logistics).
18
      A Corps is a division-sized organization, a Brigade is a brigade-sized organization, and a Kandak is a battalion-
     sized organization.

                                                             55 

Afghan Logistics Command Visibility over Equipment Provided to
the Afghan National Army Fielded Force
           The commander of the MoD Logistics Command reported that his organization had little
           or no formal visibility over fielding plans and actions, assets, documentation, and types
           and quantities of equipment being provided to the ANA fielded force. The commander
           reported that decisions regarding the equipping of war fighting units (Corps, Brigades,
           Kandaks) had been made without Logistics Command coordination. He specifically
           stated that Logistics Command:
               •	 Did not know the equipment needs of ANA, since equipping ANA had been
                   based on a “push” 19 versus a “pull” 20 logistics process
               •	 Did not know what equipment had been previously issued to ANA units
               •	 Did not know in detail what supplies were arriving, regardless of depot or unit
                   location
               •	 Did not have an accurate account of what equipment and supplies CSTC-A had
                   provided to the Logistics Command’s principal national depot (identified as
                   Depot One)
               •	 Was not involved in the contracting process, so Logistics Command personnel
                   were unable to track supply receipts to original requisitions

Fielding and Equipping the Afghan National Army
           Fielding ANA units first required the establishment of Tables of Organization and
           Equipment, training the recruits, and then issuing equipment to those trained and to units
           once fielded. Equipment for ANA force development had been supplied by CSTC-A
           “pushing” the required equipment to the fielded units, in coordination with MoD and the
           ANA General Staff. This process was necessary at first in order to field an operational
           ANA throughout the country in the absence of an established, functional Army
           headquarters. 21 Most of these actions had been or were being accomplished before the
           Logistics Command was established. Once the ANA force had been established and was
           functional, an undated draft of the Development Plan for Logistics Command stated that
           its responsibilities were to include:
                   Providing National level support for supply, maintenance, transportation and
                    security sector of Afghanistan’s military forces;
                    Requesting, receiving, storing, and issuing all operational materiel stocks and
                    war reserve stocks for the military forces of Afghanistan; 22
                    Accomplishing national level maintenance programs for all materiel
                    commodities to restore, rebuild, rehabilitate, and restore to category one
                    condition as directed;



19
     Equipment forwarded and issued by CSTC-A to ANA depots and units.
20
     Equipment requisitioned by ANA units through a replenishment-based, demand-driven logistics system.
21
     The first ANA units were trained and equipped by U.S. Army forces beginning in 2002.
22
     A “pull” or replenishment-based, demand-driven logistics system.

                                                           56 

                     Maintaining sufficient technological skills to maintain and sustain equipment of
                     the Afghan military;
                     Coordinating the military transport system by establishing priorities within MoD
                     regulations; and
                     Budgeting for operational support of all ANA and MoD units their sustaining
                     materiel requirements within assigned depot responsibilities as established by
                     decree, regulation, and instruction.
            MoD had developed the fundamental processes for providing logistical support for ANA
            with the help of CSTC-A. The processes involved were principally contained in MoD
            Decree 4.0, “Supported and Supporting Unit Supply Policy and Support Procedures,”
            March 20, 2005, as well as other MoD decrees covering ammunition, fuel, maintenance,
            and transportation.

            However, the MoD logistics process was based on individual units requisitioning
            replenishment supplies using a paper-based request and this process complicated the
            issue of tracking supply needs and planning for sustainment. The paper-based system
            made it difficult and cumbersome for the Logistics Command to gain visibility over
            authorized amounts and on-hand inventories of equipment for fielded units, especially if
            Logistics Command had not been privy to prior requisitions, fielding actions, and
            inventory status.

Combined Security Transition Command – Afghanistan Logistics
Readiness Assessment Tool
            Once the Logistics Command headquarters function had been established within MoD,
            its capacity to process and capture logistics information was hampered by its historic
            reliance on an antiquated paper documentation system, rather than a networked
            information management system. In January 2008, MoD submitted a letter requesting
            CSTC-A assistance in developing a logistics systems approach that would improve
            quality, ensure required logistical support, and ensure accountability, transparency, and
            the prevention of corruption in the logistics process.

            The system that CSTC-A subsequently proposed for implementation within ANA was
            called the Logistics Readiness Assessment Tool. According to CSTC-A, the Logistics
            Readiness Assessment Tool should:
                •	 Provide asset visibility to senior ANA leadership
                •	 Provide senior ANA leadership the ability to strategically influence the logistics
                    supply chain, assess the supply chain using facts and not assumptions, and assess
                    support activity performance
            Logistics Readiness Assessment Tool General Concept. The general concept of the
            Logistics Readiness Assessment Tool relied on accurate and timely information flow
            from critical logistics nodes 23 on the two sides of the MoD organizational structure; the
            chains of authority for the military General Staff and civilian MoD officials, respectively.


23
      On the General Staff, or “Combat” side, the critical nodes are the Combat Service Support Kandaks, the Brigade
     S4s, and the Corps G4s. On the Assistant Minister of Defense (Acquisition, Technology, and Logistics), or
     “Supporting” side, the critical nodes are the Forward Support Depots (FSDs), the National Depots, and the
     Logistics Support Operations Center, all of which reside within the Logistics Command structure.

                                                           57 

    Each critical node would collect and analyze stock status, logistics performance, and
    measure data and would submit a consolidated report to their next higher echelon of
    command. The reporting system would initially focus attention only on selected critical
    line items (shoot, move, communicate, food, fuel, etc.), as well as key performance
    measures which would vary from one critical node to another (depending on customer
    and provider perspectives).

    Final analysis of the Corps’ reports and the Logistics Command roll-up report would be
    conducted at the National Military Command Center. At that level, senior leaders should
    be able to strategically influence the supply chain.

    The ideal reporting medium for the Logistics Readiness Assessment Tool reports would
    be an electronic submission but some critical nodes did not have this ability. Given this
    limitation, hard copy submissions could be faxed to the next higher echelon of command
    by critical nodes if the capability existed. Fill rates, readiness ratings, and other
    necessary information could be calculated automatically as hard copy reports are entered
    into the electronic file, which would be accomplished at the Logistics Support Operations
    Center.

    Mentor and student training for the Logistics Readiness Assessment Tool was scheduled
    to begin in April 2008. The first report cycle started in late May and would have ended in
    late June.

Recommendations
    J. We recommend that the Commander, Combined Security Transition Command-
    Afghanistan:

            1. Ensure the Afghan Logistics Command and Afghan National Army General
    Staff leadership are provided supply information concerning fielding plans and actions,
    assets, documentation, and types and quantities of equipment being provided to field and
    equip the Afghan National Army that is sufficient for the Logistics Command to
    accomplish its logistics mission; and, that this logistics information is provided to
    Logistics Command by the Ministry of Defense and the Afghan National Army
    leadership on a timely and ongoing basis.

    Management Comments to recommendation J.1. CSTC-A non-concurred. They
    reported:

       •	 MoD representatives attend weekly meetings at CSTC-A where they are provided
          all the information necessary to perform their mission. Poor horizontal and
          vertical communications within the MoD are the primary barriers to more
          effective performance and greater situational awareness throughout the MoD and
          Logistics Command.

       •	 Assignment of ANA and ANP Liaison Officers (LNOs) has made a significant
          impact on CSTC-A’s ability to both support and synchronize plans and
          operations. The CJ4 Requirements/ Logistics Plans section has integrated two
          Afghan National Army (ANA) LNOs, a Captain with excellent English skills, and
          a Colonel, who are on the G4 staff and works directly for LTG Azzizudin. This
          has synergized the link between the CJ4 and GS G4 staffs, which provides a
          consistent flow of logistics information between the two staffs.


                                            58 

   •	 Collaboration with these LNOs solidified both the 18-month fielding plan and the
      3-month equipment distribution plan. In addition, CJ4 Operations now created
      and distribute MoD 14s to the Logistics Support Operations Center (LSOC) and
      Logistics Command mentors to give the ANA visibility over fielding plans. All
      of these documents are in Dari and English. There is also an Afghan Lieutenant
      Colonel liaison at Depot 1 who is fully aware of all fielding and push plans and
      meets with Logistics Command once a week to go over distribution.

   •	 The MoI assigned a Lieutenant Colonel with excellent English skills who is
      empowered to work directly with MoI staff General Officers and other leaders
      within the ANP. This LNO has a desk in the same office as our ANP
      Requirements planners and has real-time access to planning and fielding
      information CJ4 Requirements/Logistics Plans shop initiated a weekly meeting
      involving the CJ4 Operations section, Logistics Command/LSOC ETTs, and the
      Central Movement Agency (CMA) in order to facilitate the exchange of
      distribution timelines with regard to fielding plans, priority alignment, and current
      operations limiting factors. The meeting occurs weekly on days that the ANA
      LNOs are present so that they are able to project ANA issues that are high on the
      GS G4 priority list.

Assessment Response. We believe that the actions and procedures that CSTC-A
outlined in their comments partially meet the intent of the recommendation without
specifically addressing the concerns expressed to the assessment team by the commander
of the Logistics Command. We commend CSTC-A for encouraging formal ANSF
participation and cooperation in logistics planning and equipment distribution. To meet
the full intent of the recommendation, however, we suggest that CSTC-A logistics
officials communicate directly with the Commander of the Logistics Command to
determine if the liaison processes implemented have resolved his concerns. We will
evaluate further reports from CSTC-A, coupled with other follow-up actions, to
determine progress in this area.

        J.2. We recommend that the Commander, Combined Security Transition
Command-Afghanistan accelerate development of a functional, networked logistics
information system that provides asset visibility and requisition and replenishment status
to the appropriate logistics nodes within the Ministry of Defense (including the Logistics
Command) and the General Staff.

Management Comments to Recommendation J.2. CSTC-A partially concurred,
reporting that:

      Implementation and expansion of CORE-Information Management System (IMS)
       and the Logistics Readiness Assessment Tool (LRAT) will assist the ANA in
       understanding the value and accuracy of utilizing automation for logistics
       management. CSTC-A CJ4 concurs with the goal of a functional, networked
       logistics information system however, severe limiting factors exist across
       Afghanistan.

      Consistent and reliable power, coupled with lack of communication equipment,
       information technology architecture/backbone and literacy rates make it
       extremely difficult to develop any type of networked logistics system beyond the
       Kabul region. CORE-IMS will provide an interim solution at the National Depots
       for the ANA until infrastructure improves and a more permanent solution set is
       researched, programmed, and implemented.

                                        59 

      Because of the previously mentioned factors, CSTC-A developed and
       implemented through the ANA, corps level and below, a completely manual
       supply system and outlined those procedures in the logistics Decrees. A proposal
       to upgrade or expand CORE-IMS to Depots 0, 1 and 2 and the four Forward
       Support Depots is currently being staffed.

Assessment Response. The actions described in the management comments meet the
intent of the recommendation. The greater part of a networked logistics information
system in Afghanistan may have to be manual or “paper,” by necessity. At the upper
levels of the ANA logistics organization, an automated system should be implemented, in
phases, to the extent that the Afghans accept and can sustain it, beginning with the
depots. Procedures should be in place, however, to ensure that manual entries from lower
echelon nodes are completely merged and integrated into the automated system.




                                       60 

Observation K.
           Combined Security Transition Command-
           Afghanistan – Logistics Mentoring Strategy,
           Training, and Coordination
           CSTC-A did not have a unified strategy for mentoring MoD and General Staff
           logistics organizations to achieve integrated logistics sustainability. Further,
           military logistics mentors were insufficiently trained for their logistics mentoring
           mission or in the Afghan logistics systems. In addition, a disconnect existed
           between senior mentors at ministerial levels and trainers at the operational levels
           in information sharing and coordination and also between the mentors and
           trainers assigned to MoD and to MoI.

           This occurred because CSTC-A had not prepared or formally issued a unified
           strategy with detailed implementing guidance for mentoring the MoD, General
           Staff, and MoI logistics organizations in achieving an integrated logistics
           capability.

           USCENTCOM and North Atlantic Treaty Organization-International Security
           Assistance Force (NATO-ISAF) had not established the requirement for, nor had
           the U.S. Army Chief of Staff developed, comprehensive pre-deployment training
           in logistics mentoring for Afghanistan and the Afghan logistics systems. Further,
           CSTC-A had not developed an in-country mentoring orientation program for
           logistics ETT or PMT personnel.

           CSTC-A had not developed a venue or methodologies to interact and exchange
           information, ideas, experiences, and best practices and to coordinate between and
           among senior mentors at ministerial levels and trainers at the operational levels
           and also between the mentors and trainers assigned to MoD and to MoI to achieve
           integration, common purpose, and sustainability of effort.

           As a result, the goal to train and advise the ministries and ANSF in logistics
           systems and to develop sustainable logistics capability for MoD and MoI has been
           ineffective and sub-optimal. The lack of a unified strategy for mentoring logistics
           sustainment development, insufficient training, and a venue and methodologies
           for coordinated mentoring has placed an unnecessary burden on the individual
           logistics mentors and trainers and made their efforts more difficult than necessary.

Applicable Criteria
     DoD Directive 1322.18. DoDD 1322.18, “Military Training”, September 3, 2004, states
     that:
           Members of the Department of Defense shall receive, to the maximum extent
           possible, timely and effective individual, collective, unit, and staff training
           necessary to perform to standard during operations. . . .




                                                 61 

                 The DoD Components shall ensure their individuals and organizations are
                 trained to meet the specific operational requirements of the supported
                 Combatant Commanders, as identified in Combatant Commander-approved
                 Joint Mission Essential Task Lists (JMETLs), before deploying for operations
                 and while deployed.
        DoD Directive 3000.05. DoDD 3000.05, Military Support for Stability, Security,
        Transition, and Reconstruction (SSTR) Operations,” November 28, 2005, provides
        guidance on stability operations that will evolve over time as joint operating concepts,
        mission sets, and lessons learned develop and establishes DoD policy and assigns
        responsibilities within the DoD for planning, training, and preparing to conduct and
        support stability operations. The Directive also states it is DoD policy that:
                 Stability operations are a core U.S. military mission that the Department of
                 Defense shall be prepared to conduct and support. They shall be given priority
                 comparable to combat operations and be explicitly addressed and integrated
                 across all DoD activities including doctrine, organizations, training, education,
                 exercises, materiel, leadership, personnel, facilities, and planning.
                 Stability operations tasks include helping … rebuild indigenous institutions
                 including various types of security forces, correctional facilities, and judicial
                 systems necessary to secure and stabilize the environment.



Combined Security Transition Command-Afghanistan Campaign
Plan
        Although not formally approved and issued, the CSTC-A Campaign Plan, Coordinating
        Draft, dated May 7, 2007, states that the goal of CSTC-A is to organize, equip, and train
        ANA and ANP while building and developing capabilities at the levels of fielded forces,
        sustaining institutions, and MoD and MoI. This is to be accomplished by actively
        advising, supporting, and mentoring; unit partnership; and providing combat enablers as
        ANA and ANP grow and reach full operational capability.

Combined Security Transition Command – Afghanistan Mentoring
Strategy
        CSTC-A did not have a unified strategy for mentoring MoD and General Staff logistics
        organizations to achieve integrated logistics sustainability. Logistics mentors at the
        senior ministerial level and ETT personnel who specialized in logistics training at the
        tactical level were critical links in the development of the ANA logistics sustainment
        capability. Yet, CSTC-A did not have a unified strategy for mentoring the MoD and
        General Staff logistics organizations to achieve integrated logistics sustainability.

        The CSTC-A Campaign Plan, Coordinating Draft, dated May 7, 2007, stressed the
        importance of logistics mentors and ETT personnel as enablers for building capability
        within MoD and ANA. However, there was no detailed guidance for logistics mentors or
        ETT personnel that described their duties or specific objectives. 24 We interviewed senior
        mentors who indicated an absence of specific direction regarding duties and expectations.

24
   Annex J, Combined Security Transition Command – Afghanistan Campaign Plan, Coordinating Draft, dated May
7, 2007, described “mentor relationships” and offered some general suggestions on developing the relationship.

                                                       62 

Combined Security Transition Command – Afghanistan Mentor
Training
            Current Pre-deployment Training. Military logistics mentors were insufficiently
            trained for the logistics mentoring mission. All military logistics mentors and ETT
            personnel assigned to the logistics sustainment mission (as well as mentors for other
            specialized functions) received approximately 60 days of pre-deployment combat skills
            training at Fort Riley, Kansas 25 and 1 week of additional training in Kuwait prior to their
            arrival in Afghanistan. This training focused on combat skills and convoy operations and
            was the same as that received by mentors assigned to duty in Iraq.

            We reviewed the training curriculum published by the 101st Forward Support Battalion
            located at Ft. Riley and the syllabus for the week’s training received in Kuwait. There
            did not appear to be in either document any module directed at providing logistics
            mentors or logistics team personnel with specific information on either mentoring
            techniques or instruction in the Afghan logistics system for which they were expected to
            provide mentoring and assistance.

            In addition, there did not appear to be a formal training program in-country for U.S.
            personnel that were to be assigned as logistics mentors or ETT and PMT trainers in either
            the MoD or the MoI logistics systems.

            Future Mentor Training. Under DoDD 3000.05, the responsibilities of key DoD
            organizations are outlined.
               •	 The Under Secretary of Defense for Personnel and Readiness shall:
                              Identify personnel and training requirements for stability operations
                              and evaluate DoD progress in developing forces to meet those
                              requirements, according to DoD Directive 1322.18 (reference (c)).
                              [to include] Learning languages and studying foreign cultures . . .
                •	 The Chairman of the Joint Chiefs of Staff shall:
                              Develop curricula at joint military education and individual training
                              venues for the conduct and support of stability operations, in
                              coordination with the Secretaries of the Military Departments and the
                              Commander, U.S. Special Operations Command.
                •	 The Commanders of the Geographic Combatant Commands, through the 

                   Chairman of the Joint Chiefs of Staff, shall: 

                              Identify stability operations requirements and incorporate stability
                              operations into military training . . .
                •	 The Secretaries of the Military Departments and the Commander, U.S. Special
                   Operations Command, in coordination with the Chairman of the Joint Chiefs of
                   Staff and the Under Secretary of Defense for Policy, shall:
                              Ensure curricula in individual and unit training programs and service
                              schools prepare personnel for stability operations, in coordination with



25
     This training was provided by the 1st Infantry Division, 1st Brigade, 101st Forward Support Battalion, D
     Company.

                                                            63 

                   the USD(P&R) [Under Secretary of Defense for Personnel and
                   Readiness] and the Chairman of the Joint Chiefs of Staff.
    Training Curricula. U.S. and ISAF mentoring personnel need a comprehensive and in-
    depth understanding of Afghan culture and history, the background and organization of
    ANA and ANP, the mentoring efforts used to date along with the successes and failures
    that have occurred, and the difficulties in facilitating long-term change in the Afghan
    system. This understanding is needed so that expectations of change are reasonable and
    effective mentoring strategies can be developed and implemented.

    Further, U.S. and ISAF mentors should be trained with similar curricula so mentoring
    efforts can be synchronized. This added preparation would partially compensate for
    shorter lengths of deployments and reduce potential confusion among ANA and ANP
    personnel that may receive mentoring from different approaches.

    According to the Commanding General, CSTC-A, this additional pre-deployment
    training should be provided before service members deploy from the U.S. to minimize
    the training footprint in theater. Providing such training in theater is difficult due to time,
    travel, force protection, and operational tempo constraints.

Combined Security Transition Command – Afghanistan Mentoring
Coordination
    There was no single sponsor for training and mentoring the ministries and ANSF in
    logistics processes or to provide oversight over the combined and coordinated efforts of
    the coalition logistics specialists working with Afghan personnel. A disconnect existed
    between senior mentors at ministerial levels and trainers at the operational levels in
    information sharing and coordination and also between the mentors and trainers assigned
    to MoD and to MoI.

    Experienced Coalition officers and noncommissioned officers who were assigned to
    mentor senior level organizations in MoD had little or no interaction with the logistics
    ETT personnel who were training Afghan personnel at the ANA Corps and Kandak level
    in logistics principles and processes. The same partition was evident between the
    mentors at the senior logistics organizations within MoI and the logistics trainers
    assigned to PMTs.

    Opportunities should be created and activities should be scheduled for the senior mentors
    at the ministerial levels and trainers at the operational levels to interact and exchange
    information, ideas, experiences, and best practices. This should enhance their respective
    logistics mentoring roles and reinforce communication and coordination between and
    among the respective MoD and MoI logistics components to achieve integration,
    common purpose, and sustainability of effort.

Recommendations
    K.1. We recommend that the Commander, U.S. Central Command, in coordination with
    the Commander, North Atlantic Treaty Organization-International Security Assistance
    Force, the Chairman of the Joint Chiefs of Staff, and the Commander, Joint Forces
    Command, establish a requirement for comprehensive logistics and in-country training
    for the logistics mentors supporting Coalition efforts in Afghanistan, to include Afghan

                                              64 

logistics systems.

Management Comments to Recommendation K.1. USCENTCOM concurred and will
work with CSTC-A and NATO to establish the appropriate training requirement and
ensure standardized training occurs for all mentor personnel. CSTC-A will complete
development of a unified strategy for ANA logistics mentorship by December 2008.
From this strategy will evolve a detailed implementation and training plan to improve the
quality of mentorship at all levels.

Assessment Response. We believe that the actions proposed by USCENTCOM to
establish appropriate and specific training requirements for mentor personnel meet the
intent of our recommendation. This recommendation will remain open until the CSTC-A
unified training strategy for logistics mentors is implemented.

Deletion of Recommendations from Management Comment Draft Report: Based on
comments from the Army and others, we eliminated recommendations K.2 and K.3 as
they were written in the draft report for management comments. Recommendation K.2
below was originally K.4 in the management comments draft.

K.2. We recommend that the Commander, Combined Security Transition Command-
Afghanistan:

        a. Develop and issue a formal, unified strategy with detailed implementing
guidance for mentoring the Ministry of Defense, General Staff, and Ministry of Interior
logistics organizations in achieving an integrated logistics sustainability.

Management Comments to Recommendation K.2.a. CSTC-A concurred and provided
the following comments.

   •	 CSTC-A will complete development of a unified strategy for ANA logistics
      mentorship by December 2008. From this strategy will evolve a detailed
      implementation and training plan to improve the quality of mentorship at all
      levels. Development of an equivalent MoI mentorship strategy will follow. To
      ensure standardization across ANA/ANP lines, mentors will use the basic
      construct, processes, and methods of the ANA plans and processes to begin
      development of an ANP logistics mentor strategy. Similarity between the two
      systems will facilitate the eventual transformation of the two supply chains into a
      single ANSF supply chain.

   •	 Although there are ministerial development plans to guide senior logistics
      mentors and handbooks to guide unit-level mentors on logistics functions, a
      strategy for linking mentorship at tactical, operational, and strategic levels is still
      in its infancy. The CSTC-A FRAGO 08-047, Command and Control
      Realignment of CSTC-A ANSF Logistics Advisors defining the relationship
      between tactical and strategic logistics mentors was followed by data collection to
      determine logistics functions in Afghanistan to facilitate better communication
      and coordination.

   •	 Mentors at all echelons continuously work together to facilitate logistics
      operations and implement procedures. CSTC-A is coordinating with Combined
      Joint Task Force Phoenix J3 regarding a logistics course for all logistics
      Embedded Training Teams (ETTs)/Police Mentoring Teams (PMTs) who arrive
      in country. The Afghan logistics system is based on a U.S. Army model and
      fundamental concepts, processes and terminology are based on US Army
                                        65 

       doctrine. A baseline understanding is required for personnel from all services to
       efficiently mentor in Afghanistan. The bi-weekly publication of a logistics
       newsletter, the Log-O-Gram, increases cross-talk and information flow. Finally,
       an ETT mobile training team ensures unity of effort from national level logistics
       organizations to the tactical level.

Assessment Response. The actions described in the management comments meet the
recommendation intent. The recommendation will remain open pending the completion
of the unified strategy for ANA logistics mentorship scheduled for December 2008.

        K.2.b. We recommend that the Commander, Combined Security Transition
Command-Afghanistan develop a venue and methodologies for logistics mentors and
trainers to interact and exchange information, ideas, experiences, and best practices and
to coordinate between and among senior mentors at ministerial levels and trainers at the
operational levels and also between the mentors and trainers assigned to the Ministry of
Defense and the Ministry of Interior to achieve integration, common purpose, and
sustainability of effort.

Management Comments to Recommendation K.2.b. CSTC-A concurred and provided
the following comments:

   •	 CSTC-A issued a FRAGO 08-047, Command and Control Realignment of CSTC­
      A ANSF Logistics Advisors aligning command and control of ANSF logistics
      mentors across Afghanistan. MoD and MoI Integrated Process Teams were
      established and meet weekly with representatives from national level logistics
      organizations, tactical level units and the CSTC-A staff to address logistics issues
      and ensure a common operating picture for all echelons.

   •	 Additionally, CSTC-A and Task Force Phoenix have initiated a bi-weekly
      newsletter (Logogram) to inform mentors at all echelons, highlight policy changes
      and increase coordination. CSTC-A is currently coordinating with Task Force
      Phoenix J3 regarding a logistics course for ETTs and PMTs. National level
      ETTs/PMTs also travel to Corps areas to provide training and gather feedback.

Assessment Response. After considering management comments and reviewing
FRAGO 08-047, we have determined that the intent of the recommendation has been
met.




                                        66 

     Observation L.
            Combined Security Transition Command-
            Afghanistan – Staffing for Logistics Training
            Teams
            There were insufficient numbers of logistics mentors assigned to ETTs that
            advised ANA and PMTs that advised ANP.

            This has occurred because the requirements for PMT mentors identified in
            Request for Forces (RFF) 620 Modification 2 (approved by the Joint Staff in
            February 2007) had not been sourced.

            As a result, CSTC-A directed the reassignment of ETT personnel in 2007 to
            PMTs to address the overall shortage of mentors for ANP. The number of
            personnel assigned as PMT mentors increased (although still less than required)
            and personnel assigned as ETT mentors decreased to less than needed. The
            shortage of ETTs and PMTs has had a negative impact on the ability to train ANA
            and ANP.

Applicable Criteria
     DoD Directive 3000.05. DoDD 3000.05, Military Support for Stability, Security,
     Transition, and Reconstruction (SSTR) Operations,” November 28, 2005, provides
     guidance on stability operations that will evolve over time as joint operating concepts,
     mission sets, and lessons learned develop and establishes DoD policy and assigns
     responsibilities within the DoD for planning, training, and preparing to conduct and
     support stability operations. The Directive also states it is DoD policy that:
            Stability operations are a core U.S. military mission that the Department of
            Defense shall be prepared to conduct and support. They shall be given priority
            comparable to combat operations and be explicitly addressed and integrated
            across all DoD activities including doctrine, organizations, training, education,
            exercises, materiel, leadership, personnel, facilities, and planning.
            Stability operations tasks include helping … rebuild indigenous institutions
            including various types of security forces, correctional facilities, and judicial
            systems necessary to secure and stabilize the environment.


Combined Security Transition Command – Afghanistan
Management of Training Teams
     CSTC-A provided oversight for the operational training mission performed by Task
     Force Phoenix and the Combined Air Power Task Force. Task Force Phoenix managed
     the training and assignment of ETTs for ANA at the Corps and below levels and PMTs
     for ANP below the ministerial level. The Combined Air Power Task Force managed the
     training and assignment of mentors for the Afghan National Army Air Corps at Corps
     and below levels and the ANA General Staff air function.

                                                  67 

Combined Security Transition Command – Afghanistan Mission of
Training Teams
            According to the Islamic Republic of Afghanistan Campaign Plan for the Development of
            Enduring National Military and Police Forces (pre-decisional draft), dated July 28, 2007,
            it is the intent of GIRoA and its international community partners to develop enduring
            national military and police forces, and associated ministerial and sustaining institutions,
            that are equal to Afghanistan's security requirements. This development will cover the
            full spectrum of doctrine, organization, training, materiel, leadership and education,
            personnel and facilities.

            CSTC-A Operations Order 08-006 (“ANSF Development Program”), January 14, 2008,
            stated that no ANSF unit would be fielded without assigning or identifying an ETT,
            PMT, or ISAF Operational Mentor and Liaison Team (OMLT) to provide training and
            logistics assistance.

            ISAF provided OMLTs to assist and augment ETT coverage of ANA, and their primary
            focus was on the operational tasks of ANA units. ETT, PMT, and OMLT training teams
            were intended to provide continuous assistance to their assigned ANSF unit until that unit
            achieved a readiness rating of Capability Milestone1, 26 and the attainment of this
            milestone had been was validated by a Validation Training Team.

Strength of U.S. Training Teams
            The requirements for PMT mentors identified in RFF 620 MoD 2 (approved by the Joint
            Staff in February 2007) had not been sourced.

            Manning of an Embedded Training Team. The standard size of an ETT was 16
            personnel. The commander of each Afghan Regional Security Integration Command
            (ARSIC ) 27 determined ETT manning levels based on the availability of personnel,
            coverage requirements, and the overall threat situation in his region of responsibility.

            Manning of a Police Mentoring Team. The standard size of a PMT was
            eight personnel. The standard PMT was a mixed military and civilian team consisting of
            four military and four civilians of which two civilians were police professionals. The
            commander of each ARSIC determined PMT manning levels based on the availability of
            personnel, coverage requirements, and the overall threat situation in his region of
            responsibility.

            Manning of an Operational Mentor and Liaison Team. The 19-man OMLTs were the
            ISAF equivalent of the U.S. ETTs but did not have a Logistics and Sustainment Team as
            do the ETTs. Once an ANA unit was validated, the OMLT took the lead in training the

26
      Capability Milestone 1 rating was the unit, agency, staff function, or installation is fully capable of conducting
     primary operational mission(s) without assistance from, or reliance on, Coalition or international community
     support. Capability in terms of doctrine, organization, training, materiel, leadership and education, personnel and
     facilities, objective proficiency, or other applicable measure is defined at greater than 85 percent.
27
  There was one ARSIC for each of the five regions in Afghanistan: ARSIC-North, ARSIC-South, ARSIC-East,
 ARSIC-West, and ARSIC-Central. A Regional Corps Assistance Command and a Regional Police Assistance
 Command was assigned to each ARSIC. These subordinate units had oversight of ETTs working with the ANA
 and PMTs working with the ANP.

                                                            68 

           ANA unit while the existing ETT downsized to a 7-man Logistics Support Team 28 for
           Kandaks and below and an 11-man Logistics Support Team for Brigade and Corps
           levels. 29 When that occurred, the OMLTs primarily focused on operational tasks with
           the ANA while the Logistics and Sustainment Team focused on logistics sustainment.

           Reassignment of ETT Personnel. CSTC-A reported that it had a sufficient number of
           ETT logistics trainers for ANA. However, when CSTC-A was tasked in 2006 to provide
           manpower for PMTs, it did not have the personnel resources available. Subsequently,
           CSTC-A directed the reassignment of a portion of its ETT personnel to PMTs to address
           the overall shortage of mentors in ANP, thus reducing the strength of ETTs. The strength
           of ETTs continued to be reduced as PMT trainer requirements were satisfied with
           personnel resources that had been previously earmarked for ANA training teams.

           CSTC-A Operations Order 08-006 (“ANSF Development Program”), January 14, 2008,
           stated that initial assessments of ETTs and OMLTs conducted by senior mentors
           concluded that ETTs and OMLTs were not currently conducting quality collective
           training at the Kandak level because:
               •	 ETTs were undermanned due to re-missioning for PMTs
               •	 ETTs lacked prior experience in leading collective training and assessments
                   because they were comprised of junior members with insufficient experience, or
                   they were comprised of U.S. Navy and U.S. Air Force personnel who lacked
                   sufficient experience in Army systems
               •	 Training at Ft. Riley and the Joint Multinational Readiness Center focused more
                   on survival skills and individual training to the detriment of the ETTs, which
                   needed to be coached on collective training strategies in order to fully develop
                   ANA units. 30

Recommendation
           L. 	We recommend that the Chairman of the Joint Chiefs of Staff and the Commander,
           U.S. Central Command expedite the assignment of personnel with the requisite skills,
           experience levels, and rank to fill positions designated in the Combined Security
           Transition Command-Afghanistan Request for Forces 620 Modification 2 for ETTs and
           PMTs logistics mentors.
           Management Comments to recommendation L. The Joint Staff concurred.

           USCENTCOM concurred, noting that they had submitted a request for forces for
           additional trainers in Afghanistan. While it is up to USJFCOM and the Services to
           provide the personnel with the requisite skills, experience levels, and rank to fill the
           positions, USCENTCOM is in direct coordination with USJFCOM, Joint Staff (JS), and
           the Services to ensure maximum sourcing for the Afghan Joint Manning Documents
           (JMDs).


28
      Logistics Support Teams were formed out of the standard 16-man U.S. ETT. The ISAF OMLTs did not have
     their own logistics trainers, but rather used the U.S. Logistics Support Teams for this function.
29
     Annex V, Combined Security Transition Command – Afghanistan Campaign Plan, Coordinating Draft, dated
     May 7, 2007.
30
     Annex F, CSTC-A Operations Order 08-006 (“ANSF Development Program”), January 14, 2008.

                                                       69 

Assessment Response. The Joint Staff and USCENTCOM comments meet the intent of
the recommendation.




                                   70 

Observation M.
                    Afghan Ministry of Defense Transportation –
                    Central Movement Agency Maintenance
                    Management
                    Central Movement Agency (CMA) 31 management was unaware of how many
                    trucks were operational, how many were down for maintenance, or the status for
                    repair parts or maintenance work. Further, CMA unit-level truck maintenance
                    was sporadic, not performed to standards, and inadequate. In addition, CMA
                    management was unaware of how many vehicles were on the premises or how
                    many had been transferred to forward support depots.

                    This occurred because CMA had no reliable, accurate, internal tracking system
                    that identified the readiness or supply status for vehicles. Further, the
                    organization lacked an effective equipment maintenance schedule and established
                    maintenance practices for vehicles, or a sufficient number of trained maintenance
                    technicians, tools and equipment, and spare parts. In addition, CMA had not
                    established a fleet parking plan or a tracking system to provide visibility of
                    current vehicle location and status.

                    As a result, CMA could not provide minimal organizational level maintenance for
                    its vehicles and could not account for its fleet. The capability of CMA to
                    maintain its fleet to meet its strategic logistics distribution mission had been
                    degraded.

Applicable Criteria
           DoD Directive 3000.05. DoDD 3000.05, Military Support for Stability, Security,
           Transition, and Reconstruction (SSTR) Operations,” November 28, 2005, provides
           guidance on stability operations that will evolve over time as joint operating concepts,
           mission sets, and lessons learned develop and establishes DoD policy and assigns
           responsibilities within the DoD for planning, training, and preparing to conduct and
           support stability operations. The Directive also states it is DoD policy that:
                    Stability operations tasks include helping … rebuild indigenous institutions
                    including various types of security forces, correctional facilities, and judicial
                    systems necessary to secure and stabilize the environment.


Afghan Central Movement Agency Organization
           CMA was established in 2006 as the primary MoD transportation asset and as a
           subordinate organization of the Logistics Command. The CMA facilities were located in
           Kabul, about one kilometer from the Logistics Command headquarters. The facilities

31
     The CMA reported to the Logistics Command and the Logistics Command reported to the Assistant Minister of
     Defense (Acquisition, Technology, and Logistics).

                                                          71 

    housed the Central Movements Section, the 1st and 2nd Light/Medium Truck Companies,
    a medium transportation Company, and a heavy equipment transportation company. The
    agency was to mature to 890 personnel and 627 vehicles organized into four
    transportation companies. Trucks from CMA were used to transport supplies and
    material throughout Afghanistan to ANA forward support depots.

Afghan Central Movement Agency Maintenance Scheduling
    During our tour of the facility, U.S. mentors advised us that the CMA management was
    unaware of how many trucks were operational, how many were down for maintenance, or
    the status for repair parts or maintenance work. CMA had no reliable, accurate, internal
    tracking system that identified the readiness status or the supply status for trucks. This
    was indicative of a poor unit level maintenance program.

Afghan Central Movement Agency Maintenance Performance
    The CMA unit-level truck maintenance was sporadic, not performed to standards, and
    inadequate. The organization lacked an effective equipment maintenance schedule for
    vehicles that would allow better fleet availability and supply requirements forecasting.
    CSTC-A reported that CMA leadership did not conduct inspections to ensure proper fleet
    maintenance. The CMA capability to perform maintenance on its rolling stock was
    extremely limited because of:
        • Poor organizational management
        • Insufficient training for maintenance technicians
        • Lack of maintenance tools and equipment
        • Lack of spare parts
        • Absence of established maintenance practices
    The ANA unit supply system did not encourage stocking repair and replacement parts in
    adequate quantities to allow timely servicing of vehicles. CMA leaders provided
    incomplete or inaccurate equipment readiness status, which prevented maintenance
    section personnel from determining stock supply requirements early enough to order
    expendables prior to reaching zero balance. The untimely servicing of vehicles
    discouraged operators from turning in vehicles for required services and minor repairs to
    keep vehicles on the road in support of mission requirements.

Afghan Central Movement Agency Vehicle Visibility
    During our tour of the CMA facility, U.S. mentors advised that the CMA management
    was unaware of how many vehicles were on the premises. The CMA leadership revealed
    that they were not aware of what trucks had been transferred to forward support depots.
    CSTC-A reported that CMA leadership had not established a fleet parking plan to
    facilitate vehicle location tracking within the compound. There was no tracking system
    in use at CMA to provide visibility of current truck location.




                                            72 

Recommendations
    M. We recommend that the Commander, Combined Security Transition Command-
    Afghanistan advise and assist appropriate officials at the Ministry of Defense, Logistics
    Command, and Central Movement Agency to:
           1. Establish a reliable and accurate internal tracking system that identifies the
    readiness and supply status for Central Movement Agency vehicles.
    Management Comments to Recommendation M.1. CSTC-A partially concurred,
    providing the following status of ongoing corrective actions.

       •	 Implementation of the Logistics Readiness Assessment Tool (LRAT) will provide
          a readiness snapshot to ANA and MoD senior leadership, which may encourage
          additional leadership focus.

       •	 LRAT is a logistics performance reporting system, managed exclusively by the
          ANA, which enables key leaders to make sound supply chain management
          decisions thereby enhancing available combat power. Each critical node will
          collect and analyze stock status and logistics performance measure data at their
          level, and will submit a consolidated report to the next higher echelon of
          command. The reporting system will initially focus attention only on select
          critical line items (Shoot, Move, Communicate, Food, Fuel, etc.) as well as key
          performance measures which will vary from critical node to another depending on
          customer / provider perspectives.

       •	 Approximately two years ago, CMA adopted the process of assigning a vehicle to
          an individual operator. CMA personnel are not well educated or proficient in
          maintenance tasks, and vehicle inspections standards are not stringent or
          rigorously enforced.

       •	 Vehicle status is difficult to obtain under this system.

        •	 The CMA Property Book Officer (PBO) has a good accountability of their
            assigned vehicles, the Movement Control Center (MCC) has a complete grasp of
            vehicles assigned on convoys, and the Company Commanders have visibility over
            vehicles in for maintenance. ETTs will work with CMA leadership to merge
            these into a single comprehensive system.
    Assessment Response. The actions described in the management comments meet the
    intent of the recommendation. CSTC-A should conduct follow-up with CMA to
    determine if actions they implement result in an improvement in CMA’s ability to track
    and identify the readiness and supply status for CMA vehicles.
            M.2. We recommend that the Commander, Combined Security Transition
    Command-Afghanistan advise and assist appropriate officials at the Ministry of Defense,
    Logistics Command, and Central Movement Agency to establish effective equipment
    maintenance schedules and practices for vehicles.

    Management Comments to recommendation M.2. CSTC-A concurred and provided
    the following comments regarding ongoing corrective action.

       •	 The current system gives little centralized awareness of fleet maintenance status
          and does not allow the maintenance section to determine stock supply

                                            73 

       requirements early enough to order expendables. The ANA supply system
       opposes stocking items in adequate quantities to allow timely servicing of
       vehicles. Previously noted lack of enforcement of individual operator
       maintenance combined with lack of parts availability leads to greater down time
       when vehicles are turned in, reinforcing a resistance to preventative maintenance.

    •	 A maintenance schedule for vehicles reported by company commanders would
        allow better fleet availability and supply requirements forecasting. Operator
        maintenance is 10-level maintenance responsibility. CSTC-A is developing an
        operator maintenance SOP with an estimated completion date of November 2008.
        ETTs will further develop a mentorship plan to ensure that operators understand
        maintenance requirements.
Assessment Response. The actions described in the management comments meet the
intent of the recommendation. Corrective actions also need to ensure that vehicle
services are scheduled, as required, at all appropriate levels of maintenance. The
recommendation will remain open pending CSTC-A evaluating and reporting the results
of CMA’s vehicle maintenance scheduling after the SOP is implemented and ETT
vehicle operator training programs are expanded.

        M.3. We recommend that the Commander, Combined Security Transition
Command-Afghanistan advise and assist appropriate officials at the Ministry of Defense,
Logistics Command, and Central Movement Agency to obtain a sufficient number of
trained maintenance technicians, maintenance tools and equipment, and spare parts to
adequately maintain the vehicles.
Management Comments to Recommendation M.3. CSTC-A partially concurred,
providing the following comments.
    •	 Operator maintenance is sporadic and not to standards.

   •	 Secondary maintenance is difficult to access.

   •	 A previously noted lack of parts supplies, as well as extremely long lead times to
      get parts discourages users from turning an otherwise operational vehicle in for
      cosmetic or minor repairs. This leads to cumulative damages that reduce the
      safety of operation and results in premature wear and tear that will require
      extended maintenance of the vehicle.

   •	 CMA has 105 vehicle maintenance authorizations on its 1388 Tashkil
      (authorization document) which are divided equally between the five Companies.
      CMA’s maintenance capability is designed to perform scheduled and operator-
      level maintenance, e.g. oil changes, light bulb replacements, brake pad
      replacements. Vehicles requiring repairs beyond this level are to be turned into
      the Central Workshop Vehicle Maintenance facility which is co-located on the
      CMA compound. The Central Workshop will repair the vehicle or turn the
      vehicle into RM Asia (vehicle maintenance contractor) for maintenance functions
      beyond their capability.

   •	 RM Asia moved into a new facility on the CMA compound in May 2008. In
      addition to providing vehicle maintenance, RM Asia has been contracted to
      provide maintenance apprenticeship training. This training is primarily for
      Central Workshop personnel, but slots have been reserved for CMA personnel.


                                       74 

    •	 CMA also had 12 personnel graduate from the Anham LLC Contract Vehicle
        Maintenance School in April 2008. These personnel are being utilized as trainers
        in the CMA vehicle maintenance facility. The ANA Logistics Branch School will
        be the long term solution for pipeline training of vehicle mechanics. The school
        is scheduled to reach initial operating capability in January 2009, but has begun
        initial mechanics training.
Assessment Response. The actions described in the management comments meet the
intent of the recommendation. We will keep this recommendation open pending the
establishment of the ANA Logistics Branch School for training vehicle mechanics.
        M.4. We recommend that the Commander, Combined Security Transition
Command-Afghanistan advise and assist appropriate officials at the Ministry of Defense,
Logistics Command, and Central Movement Agency to establish a fleet parking plan and
tracking system to provide visibility of current vehicle location and status.
Management Comments to Recommendation M.4. CSTC-A concurred and provided
the following comments.
    •	 As previously noted, individual sections have tracking systems and visibility,
        however, no one office has a complete vehicle picture. ETTs will work with
        ANA leadership to merge these into a single comprehensive system.
        Additionally, logistics ETTs will develop a parking plan/tracking SOP.

   •	 Parking space is also an issue. A fuel station construction project has reduced the
      amount of available space to organize and park tractor/trailers. CMA has
      submitted a request to obtain the land immediately east of their current
      compound. This area would serve two important purposes for CMA: 1) provide
      a secure area to conduct driver’s training, both internal and advisor-led, and 2)
      provide an area to stage convoys prior to departure to the applicable Regional
      Corps location.

    •	 Log ETT advisors have submitted a request through CJ-ENG to initiate a Right of
        Entry survey on this land which is believed to be owned by the Ministry of
        Energy. Once land rights are obtained, CJ-ENG security funds can be utilized to
        complete a partially existing stone security wall and complete land grading on the
        area.
Assessment Response. The actions described in the management comments meet the
intent. The recommendation will remain open, however, pending the development and
implementation of a single comprehensive tracking system and the parking plan/tracking
SOP.




                                        75 

Observation N.
                     Afghan Ministry of Defense Transportation –
                     Central Movement Agency Driver Training
                     CMA had trained only 120 of 677 authorized drivers.

                     This occurred because insufficient numbers of drivers had received formal driver
                     training through the German Driver and Mechanics School at the Kabul Military
                     Training Center or from other qualified sources.

                     As a result, CMA was only capable of providing transportation services to one
                     forward supply depot at a time. The continued lack of qualified drivers may
                     negatively impact the ability of CMA to fulfill its primary mission of strategic
                     logistics distribution to ANA forces throughout Afghanistan and delay the
                     command from reaching self-sustainment.
Applicable Criteria
            DoD Directive 3000.05. DoDD 3000.05, Military Support for Stability, Security,
            Transition, and Reconstruction (SSTR) Operations,” November 28, 2005, provides
            guidance on stability operations that will evolve over time as joint operating concepts,
            mission sets, and lessons learned develop and establishes DoD policy and assigns
            responsibilities within the DoD for planning, training, and preparing to conduct and
            support stability operations. The Directive also states it is DoD policy that:
                     Stability operations are a core U.S. military mission that the Department of
                     Defense shall be prepared to conduct and support. They shall be given priority
                     comparable to combat operations and be explicitly addressed and integrated
                     across all DoD activities including doctrine, organizations, training, education,
                     exercises, materiel, leadership, personnel, facilities, and planning.
                     Stability operations tasks include helping … rebuild indigenous institutions
                     including various types of security forces, correctional facilities, and judicial
                     systems necessary to secure and stabilize the environment.



Afghan Central Movement Agency Driver Requirements
            The CMA Tashkil 32 authorized 677 operational drivers. However, we were informed
            that only 120 of the 677 authorized drivers had actually completed driver training.

            We are not confident that the capability to train drivers currently exists. CSTC-A
            informed us that they had coordinated a renewed drivers training program for CMA with
            the German Driver and Mechanics School at the Kabul Military Training Center.
            However, ETT personnel at CMA told us that it had been extremely difficult to obtain
            needed driver training through the German Driver and Mechanics School.


32
      An official Afghan document similar to a Military Table of Organization and Equipment that lists in detail the
     authorized staff positions and equipment items for the ANA and ANP.

                                                            76 

           CSTC-A should assess the CMA driver-training requirements against the resources
           available to provide training and develop a plan of action to accommodate the
           qualification shortfalls. This may require coordination with other available partner
           coalition forces.

           Despite this shortage of qualified drivers, the rating for CMA in the area of “Training”
           was reported to be at Capability Milestone 2 and projected to be at Capability Milestone
           1 by April 2008. 33 According to the CSTC-A Campaign Plan, Coordinating Draft, dated
           May 7, 2007, a Capability Milestone 2 rating for transportation support meant that a
           minimum of two truck companies were providing transportation support from CMA.
           Presumably, this means that simultaneous operations can be conducted.

           We were informed that CMA was only capable of providing transportation services to
           one forward supply depot at a time. It was reported that as supplies came in, CMA
           staged the equipment for one Corps at a time and loaded the staged cargo on the trucks
           for delivery once a sufficient quantity had been accumulated to justify a convoy.
           Meanwhile, supplies that were received for other delivery locations were reportedly set
           aside for later loading and delivery.

           The continued lack of qualified drivers may negatively impact the ability of CMA to
           fulfill its primary mission of strategic logistics distribution to ANA forces throughout
           Afghanistan and delay the command from reaching self-sustainment.

Recommendations
           N. We recommend that the Commander, Combined Security Transition Command-
           Afghanistan, in coordination with appropriate U.S. forces organizations, the North
           Atlantic Treaty Organization-International Security Assistance Force, and the Ministry of
           Defense:

                  1. Assess the driver-training requirements against the resources available to
           provide that training.

                2. Ensure that adequate professional driver training is provided for Central
           Movement Agency drivers to eliminate qualification shortfalls.
                   3. Develop a plan of action to increase the number of trained and qualified
           drivers to 100 percent of the Tashkil authorization.

           Management Comments to recommendation N.1, N.2, and N.3. CSTC-A concurred
           and provided the following comments.
              •	 Current number of trained drivers is 180 of 519 drivers (35%) on the 1388
                  Tashkil.

               •	 Fifty drivers are currently enrolled in the German Driving School class which
                  runs through September 2008.




33
     According to the Development Plan for Logistics Command (undated draft), p. 10 of 13.

                                                         77 

   •	 We will encourage ANSF to send CMA drivers to this training to the maximum
      extent possible. This course trains licensed drivers up to the Medium Tactical
      Vehicle level.

   •	 Additional training is required for tractor/trailer and convoy operations.

   •	 A team of fifteen USAF vehicle operators were tasked to perform driver’s
      familiarization to increase successful driver completion rates from the German
      Driving School and to build on the foundation of the German Driving School
      curriculum and develop lesson plans for convoy operations after a driver’s
      graduation. They have been limited by 1) a lack of lesson plans and 2) a lack of a
      secure/safe area to conduct the driver’s training. These lesson plans will be used
      as the basis for a future organic CMA training section.

Assessment Response. The actions described in the management comments partially
meet the intent of the recommendation. CSTC-A should evaluate the results of the
implemented training toward eliminating driver qualification shortfalls and provide a
plan of action to ensure that the maximum numbers of drivers are qualified. The plan of
action should describe steps to implement and institutionalize driver training and
establish milestones toward achieving required driver qualifications. We request a copy
of the completed plan.




                                       78 

Observation O.
            Afghan National Army – Logistics Specialty
            Training
            Formal logistics specialty training within ANA did not exist in Afghan military
            professional development schools. Further, ANA personnel working in logistics
            billets were not fully trained, although some functional training was provided to
            enlisted personnel.

            This occurred because formal programs of instruction leading to logistics
            specialty designations for officers and noncommissioned officers within ANA had
            not been established.

            As a result, ANA officers, noncommissioned officers, and enlisted personnel
            performing logistics functions such as maintenance, services, supply, support, and
            transportation may not be able to effectively accomplish the logistics duties to
            which they had been assigned.

Applicable Criteria
     DoD Directive 3000.05. DoDD 3000.05, Military Support for Stability, Security,
     Transition, and Reconstruction (SSTR) Operations,” November 28, 2005, provides
     guidance on stability operations that will evolve over time as joint operating concepts,
     mission sets, and lessons learned develop and establishes DoD policy and assigns
     responsibilities within the DoD for planning, training, and preparing to conduct and
     support stability operations. The Directive also states it is DoD policy that:
            Stability operations are a core U.S. military mission that the Department of
            Defense shall be prepared to conduct and support. They shall be given priority
            comparable to combat operations and be explicitly addressed and integrated
            across all DoD activities including doctrine, organizations, training, education,
            exercises, materiel, leadership, personnel, facilities, and planning.
            Stability operations tasks include helping … rebuild indigenous institutions
            including various types of security forces, correctional facilities, and judicial
            systems necessary to secure and stabilize the environment.



Afghan Logistics Specialty Qualification Training
     The CSTC-A Campaign Plan, Coordinating Draft, dated May 7, 2007, emphasizes the
     goal of developing an efficient logistics system capable of identifying, acquiring, and
     distributing required resources to ANSF without international assistance. Key to
     developing the logistics capability is the concurrent establishment of a logistics specialty
     within ANA. The MoD strongly supports this initiative.

     CSTC-A Operations Order 08-006 (“ANSF Development Program”), January 14, 2008,
     lists the German Driver and Mechanics School and the Logistics School at the Kabul


                                                  79 

        Military Training Center as sources of critical high priority enabling capabilities for
        ANA. 34

        MoD and ANA had created key organic logistics organizations. For example, the
        Logistics Command has been established to order and distribute all classes of supply,
        CMA was established to provide strategic transportation and forward movement, forward
        support depots were established adjacent to each of the five ANA Corps, and Combat
        Service Support Kandaks were established within each ANA brigade.

        However, a formal training syllabus and training leading to logistics specialty
        qualification in ANA had not been established. The ANA Tashkil, November 2007,
        delineates over 15,000 positions that could be defined as logistics billets. These billets
        require officers, noncommissioned officers, and enlisted personnel trained in the
        functions of transportation, supply, maintenance, services, and support.

        ANA officers and noncommissioned officers performing the logistics functions of
        maintenance, services, supply, support, and transportation may not be able to effectively
        understand, plan, or accomplish the logistics duties to which they had been assigned
        without formal logistics training.

        CSTC-A should proactively coordinate the development of formal logistics specialty
        training for ANA officers, noncommissioned officers, and enlisted personnel. This
        training is key to developing logistics specialty designations.

Recommendation
        O. We recommend that the Commander, Combined Security Transition Command-
        Afghanistan, in coordination with the Ministry of Defense and the Afghan National
        Army, develop and initiate formal logistics specialty training programs within the Afghan
        National Army that lead to formal designation of officers, noncommissioned officers, and
        enlisted personnel as logistics specialists.

        Management Comments to Recommendation O. CSTC-A concurred, noting that
        initial operational capability of the national logistics school is scheduled for January
        2009, with full-operational capability scheduled for 2012. The German Armed Forces
        Advisory Group reports to the Combined Training Advisory Group (CSTC-A CTAG)
        and coordinates through CSTC-A CJ7 Training and Education. CSTC-A CJ4 provides
        overall policy and programming guidance and assistance for the logistics school stand-
        up. CSTC-A CJ4 developed/validated over 15,000 logistics positions for the Solar Year
        1388 Tashkil, building career path and duty descriptions for six Military Occupational
        Specialties (MOSs) and over 30 Additional Skill Identifiers (ASIs) for officers,
        noncommissioned officers (NCOs), and enlisted personnel, nesting career paths for each
        respective MOS.

        Assessment Response. The actions described in the management comments meet the
        intent of the recommendation. Implementation of management actions will occur over

34
  Page B-2 of CSTC-A Operations Order 08-006 (“ANSF Development Program”), January 14, 2008, lists the
German Drivers and Mechanics School, the Logistics School, the National Military Command Center, the
Communications Support Element, the Joint Regional Coordination Centers, the Joint Provincial Coordination
Centers, the Commando School, and the Counter Improved Explosive Device School as critical enabling
capabilities.

                                                      80 

time. The recommendation will remain open pending CSTC-A reporting that the national
logistics school has reached IOC and students with proposed formal logistics specialties
are scheduled for attendance.




                                       81 

Observation P.
            Afghan Ministry of Interior – Logistics
            Guidance
            Guidance clearly describing the logistics policies, processes, and procedures for
            MoI and ANP had not been developed and issued.

            This occurred because CSTC-A logistics mentors for MoI had not placed
            sufficient emphasis on assisting senior MoI and ANP leadership in developing
            and implementing systematic logistics directives and decrees that clearly
            described the policies, processes, and procedures for accomplishing the logistics
            functions within MoI and ANP.

            As a result, the logistics capability development for MoI and ANP has been
            delayed.

Applicable Criteria
     DoD Directive 3000.05. DoDD 3000.05, Military Support for Stability, Security,
     Transition, and Reconstruction (SSTR) Operations,” November 28, 2005, provides
     guidance on stability operations that will evolve over time as joint operating concepts,
     mission sets, and lessons learned develop and establishes DoD policy and assigns
     responsibilities within the DoD for planning, training, and preparing to conduct and
     support stability operations. The Directive also states it is DoD policy that:
            Stability operations are a core U.S. military mission that the Department of
            Defense shall be prepared to conduct and support. They shall be given priority
            comparable to combat operations and be explicitly addressed and integrated
            across all DoD activities including doctrine, organizations, training, education,
            exercises, materiel, leadership, personnel, facilities, and planning.
            Stability operations tasks include helping … rebuild indigenous institutions
            including various types of security forces, correctional facilities, and judicial
            systems necessary to secure and stabilize the environment.



Afghan Ministry of Interior Logistics Guidance
     Combined Security Transition Command-Afghanistan Campaign Plan,
     Coordinating Draft, dated 27 May 2007. This draft document stated that:
            . . . [T]the ANP must internalize the logistic processes and embrace the
            development of the ANSF Logistics System. The MoI and the ANP must
            improve material management, requirements development, property
            accountability, and logistics operations planning. The logistics management
            process must be capable of operating vertically and horizontally from top to
            bottom and across all aspects of the MoI and the ANP.




                                                  82 

    Ministry of Interior Logistics Order #1. The instructions and guidance detailing
    doctrine and procedures for the Ministry of Interior logistics functions were virtually
    non-existent. We were able to obtain only one official directive, MoI Logistics Order #1,
    “About Logistics Management and Policy.” This directive provided only a very general
    logistics concept and lacked sufficient detail to explain the logistics process within MoI.

    Draft Ministry of Interior Logistics Decrees. CSTC-A provided copies of three draft
    MoI Logistics Decrees that were being staffed:
       •	 “Process for the Management of Logistics Decree”
       •	 “Process for the Management of Maintenance Decree”
       •	 “Transportation Decree”
    Ministry of Interior Logistics Customer Handbook. MoI Logistics Customer
    Handbook, dated December 2007, existed in English but the implementation status of this
    document within MoI was undetermined. The Handbook stated:
           Doctrinal policy and procedures are being written [underline supplied] that will
           address all classes of supply and service support. The Minister of Interior will
           approve the final version and publish these at the appropriate time. This
           handbook covers the interim request and issue procedures…
    It was apparent that most of the U.S. logistics focus had been on developing the MoD and
    ANA military logistics capability, including formalizing the doctrines and process. A
    similar effort must be taken with regard to formalizing the MoI and ANP logistics
    capability.

Recommendation
    P. We recommend that the Commander, Combined Security Transition Command-
    Afghanistan, in coordination with the Ministry of Interior and the Afghan National
    Police, expedite development and publication of detailed logistics directives and decrees
    that clearly describe the policies, processes, and procedures for accomplishing the
    logistics functions within the Ministry of Interior and the Afghan National Police.

    Management Comments to Recommendation P. CSTC-A non-concurred, providing
    the following comments.

       •	 Deputy Assistant Minister for Administration and Support (Lieutenant General
          equivalent) signed the MoI Policies for logistics, transportation and maintenance
          in July.

       •	 Mass reproduction of policies conducted in August 2008.

       •	 MoI conducted Senior Leader Logistics Seminar in August 2008 to introduce the
          new policies and educate many of the new procedures for a demand based
          logistics system.

       •	 CJ4 Log ETT Mentors/Advisors will facilitate another Log Seminar in September
          2008 to educate senior MoI Logisticians.

    Assessment Response. Despite non-concurring, CSTC-A has implemented several
    positive measures subsequent to our visit that meet the intent of our recommendation.

                                                  83 

Observation Q.
            Afghan Ministry of Interior –Logistics
            Specialty Training and Acquisition
            Training
            Formal logistics and acquisition specialty training within MoI has been
            insufficient to develop a self-sustaining logistics capability.

            This occurred because comprehensive programs of instruction leading to
            the development of logistics and acquisition expertise for MoI officials
            and ANP police officers had not been established. Further, MoI
            organizational restructuring hampered the planning and delivery of needed
            logistics training.

            As a result, MoI officials and ANP police officers performing logistics
            and acquisition functions may not have been able to effectively
            accomplish the duties to which they had been assigned. In addition, the
            development of a trained corps of logistics and acquisition professionals
            needed to support MoI and ANP had been delayed.

Applicable Criteria
     DoD Directive 3000.05. DoDD 3000.05, Military Support for Stability, Security,
     Transition, and Reconstruction (SSTR) Operations,” November 28, 2005,
     provides guidance on stability operations that will evolve over time as joint
     operating concepts, mission sets, and lessons learned develop and establishes
     DoD policy and assigns responsibilities within the DoD for planning, training,
     and preparing to conduct and support stability operations. The Directive also
     states it is DoD policy that:
            Stability operations are a core U.S. military mission that the
            Department of Defense shall be prepared to conduct and support. They
            shall be given priority comparable to combat operations and be
            explicitly addressed and integrated across all DoD activities including
            doctrine, organizations, training, education, exercises, materiel,
            leadership, personnel, facilities, and planning.
            Stability operations tasks include helping … rebuild indigenous
            institutions including various types of security forces, correctional
            facilities, and judicial systems necessary to secure and stabilize the
            environment.




                                             84

Afghan Ministry of Interior Guidance
     The draft CSTC-A Campaign Plan, Coordinating Draft, dated 27 May 2007,
     stated that:
            [T]he ANP must internalize the logistic processes and embrace the
            development of the ANSF Logistics System. The MoI and the ANP
            must improve material management, requirements development,
            property accountability, and logistics operations planning. The
            logistics management process must be capable of operating vertically
            and horizontally from top to bottom and across all aspects of the MoI
            and the ANP.
     Multiple interviews during our visit established the view that the MoI logistics
     capability development was at least 3 to 5 years behind MoD. This shortfall
     began with the fact that detailed logistics directives and decrees clearly describing
     the policies, processes, and procedures for accomplishing the logistics functions
     within MoI and ANP had not been developed and published (this issue was
     discussed in Observation P).

Afghan Ministry of Interior Logistics Training
     Formal logistics and acquisition specialty training within MoI has been
     insufficient to develop a self-sustaining logistics function. While there was some
     success in training personnel in property accountability, MoI and ANP logistics
     and acquisition personnel lacked any significant training in:
         • Acquisition and procurement.
         • Ammunition and weapons management
         • Logistics and readiness reporting
         • Maintenance records and reports
         • Supply chain management
         • Transportation and transportation management
     This training was needed at the ministerial level as well as at the regional,
     provincial, and district level for ANP. Training at the ministerial level had been
     minimal and limited to introductory information technology training and informal
     discussions on the elements of policy.

     The Procurement Directorate within the MoI also needed a master training plan
     for their acquisition workforce to include:
         • Terms and conditions
         • Source selection and scoring factors
         • Special contracting
         • Cost and pricing
         • Contract administration
     Formal programs of instruction leading to logistics and acquisition specialty
     designations for ministerial officials and ANP police officers had not been

                                             85 

   established. Also, MoI organizational restructuring and rank reform initiatives
   hampered the implementation of the needed training.

   MoI officials and ANP police officers performing logistics and acquisition
   functions may not be able to effectively accomplish the logistics and acquisition
   duties to which they had been assigned. Further, the development of a trained
   corps of logistics professionals needed to support the MoI and the ANP in
   logistics and acquisition programs has been delayed.

   CSTC-A should proactively coordinate the development of formal logistics and
   acquisition specialty training for MoI officials and ANP police officers. This
   training is key to developing logistics and acquisition specialty designations.


Recommendation
   Q. We recommend that the Commander, Combined Security Transition
   Command-Afghanistan, in coordination with the Ministry of Interior and the
   Afghan National Police, develop and initiate logistics and acquisition specialty
   training programs to enable Ministry of Interior officials and Afghan National
   Police officers performing logistics and acquisition functions at the national,
   regional, and district levels to perform their missions effectively.

   Management Comments to Recommendation Q. CSTC-A concurred,
   providing the following comments.

      •	 Acquisition training will occur in November 2008 when Defense
         Acquisition University personnel arrive and conduct certification training
         with MoD and MoI.

      •	 Initial planning and development of more institutional logistics training
         can begin with approval of the logistics policies in July 2008 and the
         addition of contract and military mentors at the ministerial levels.

      •	 In Aug 2008, CSTC-A received confirmation of the formal approval to
         begin NATO Codification in Afghanistan - This will allow MoI and MoD
         acquisition agencies to procure directly from the NATO catalogue.

   Assessment Response. The actions described in the management comments
   partially meet the intent of the recommendation. Actions to bring DAU trainers
   in country to train ANSF acquisition personnel are commendable. We request
   that CSTC-A elaborate more fully on its efforts to develop institutional logistics
   training within the MOI and ANP, and whether this training will cover those
   personnel performing logistics functions at the national, regional, and district
   levels.




                                        86

       Part IV 

Medical Sustainability 





          87 

This Page Intentionally Left Blank




               88

Introduction 

    Development of the health sector of another nation’s security forces as part of a
    stabilization and reconstruction operation is a new mission for DoD, and is one that
    assumes particular importance as traditional military medicine adapts to the new
    requirements of counterinsurgency warfare. While DoD personnel often participate in
    medical training venues in international military-to-military and military-to-civilian
    settings, not since the 1920-1921 efforts of the U.S. Army to modernize the Polish health
    care system has the U.S military taken on such a comprehensive task in this sector in the
    international environment.

Afghanistan National Security Forces Health Care System
    Independent, effective operations of ANSF will depend on developing a functioning
    health care delivery system that provides acceptable field-level combat casualty care,
    prompt evacuation to lifesaving emergency surgical services, definitive and restorative
    surgery and rehabilitation, that returns wounded soldiers and police to duty, and provides
    long-term care if they are unable to return to duty. Extremely limited financial resources
    and human capital in Afghanistan require civilian and military health care systems to be
    developed as efficiently and economically as possible.

    The benefits of an integrated Afghan civil-military-police health care system include
    faster development and functionality of ANSF medical logistics, personnel, education,
    and finance systems; improved medical services for ANSF uniformed personnel and
    family members; and increased recruitment and retention of soldiers and police.
    Additionally, enhanced cooperation with the civilian health care sector is required to
    develop a national health care system that is more sustainable within the limitations of
    Afghan manpower and resources. This will have positive benefits for the Ministries of
    Public Health and Higher Education by improving functionality of clinical services,
    medical education, and medical logistics. Moreover, civilians will benefit by improved
    care, leading to a positive counterinsurgency effect. Finally, this will allow for more
    efficient use of U.S. resources.

    DoD efforts to support the reconstruction, training, and organizing of the ANSF health
    care system are complicated by 6 to 12 month deployment cycles of U.S. military
    personnel, which limits continuity and sustainable progress. The complexity of these
    medical stabilization and reconstruction challenges in Afghanistan calls for a more robust
    U.S.-based interagency effort to assist U.S. military and civilian personnel in developing
    a detailed multi-year strategy and implementation plan for these tasks in Afghanistan.
    The recommendations in this report also reflect the belief that improved pre-deployment
    training, increased combatant commander involvement, and interagency reach-back
    support are essential for mission success.

DoD Military Health System
    The DoD Military Health System (MHS) mission is to provide optimal health services in
    support of our nation’s military mission—anytime, anywhere. The MHS is a unique
    partnership of medical educators, medical researchers, and health care providers and their
    support personnel worldwide.

                                            89 

Observation R.
            Coalition Medical Mentor Training
            The mentoring of ANSF medical personnel by coalition ETT, PMT, and ISAF
            OMLT personnel was seriously hampered by their inadequate training.

            This occurred because USCENTCOM and ISAF had not established the
            requirement for comprehensive pre-deployment training in medical mentoring
            that emphasized, among other issue areas, the cross-cultural context in
            Afghanistan. Further, CSTC-A had not developed an in-country mentoring
            orientation program for medical ETT and PMT personnel.

            As a result, the mentoring of ANSF medical personnel by coalition ETT, PMT,
            and OMLT personnel was limited in its effectiveness and sometimes counter­
            productive.

Applicable Criteria
     DoD Directive 1322.18. DoDD 1322.18, “Military Training”, September 3, 2004, states
     that:
            Members of the Department of Defense shall receive, to the maximum extent
            possible, timely and effective individual, collective, unit, and staff training
            necessary to perform to standard during operations. . . .
            The DoD Components shall ensure their individuals and organizations are
            trained to meet the specific operational requirements of the supported
            Combatant Commanders, as identified in Combatant Commander-approved
            Joint Mission Essential Task Lists (JMETLs), before deploying for operations
            and while deployed.
     DoD Directive 3000.05. DoDD 3000.05, Military Support for Stability, Security,
     Transition, and Reconstruction (SSTR) Operations,” November 28, 2005, provides
     guidance on stability operations that will evolve over time as joint operating concepts,
     mission sets, and lessons learned develop and establishes DoD policy and assigns
     responsibilities within the DoD for planning, training, and preparing to conduct and
     support stability operations. The Directive also states it is DoD policy that:
            Stability operations are a core U.S. military mission that the Department of
            Defense shall be prepared to conduct and support. They shall be given priority
            comparable to combat operations and be explicitly addressed and integrated
            across all DoD activities including doctrine, organizations, training, education,
            exercises, materiel, leadership, personnel, facilities, and planning.

     The Military Health System Strategic Plan. “The Military Health System Strategic
     Plan – A Roadmap for Medical Transformation,” May 29, 2008, was developed to:
            [R]e-examine our fundamental purpose, our vision of the future, and strategies
            to achieve that vision. We are refocusing our efforts on the core business in
            which we are engaged - creating an integrated medical team that provides
            optimal health services in support of our nation's military mission - anytime,

                                                  90

           anywhere. We are ready to go in harm's way to meet our nation's challenges at
           home or abroad - to be a national leader in health education, training, research
           and technology. We build bridges to peace through humanitarian support when
           and wherever needed, across our nation and the globe, and we provide premier
           care for our warriors and the military family.


Combined Security Transition Command-Afghanistan Campaign
Plan
    The CSTC-A Campaign Plan, Coordinating Draft, dated May 7, 2007, stated that the goal
    of CSTC-A is to organize, equip, and train ANA and ANP while building and developing
    capabilities at the levels of fielded forces, sustaining institutions, and MoD and MoI.
    This is to be accomplished by actively advising, supporting, and mentoring; unit
    partnership; and providing combat enablers as ANA and ANP grow and reach full
    operational capability.

Current U.S Mentor Training
    Pre-deployment Training. All mentors received approximately 60 days of pre-
    deployment combat skills training at Fort Riley, Kansas and 1 week of additional training
    in Kuwait prior to their arrival in Afghanistan. This training focused on combat skills
    and convoy operations and was the same as that received by mentors assigned to duty in
    Iraq. This training has been reported by medical mentors in Afghanistan to be
    insufficient preparation for cross-cultural medical mentoring in the ANSF setting.

    Medical ETT members specifically reported that preparation for their mentoring tasks did
    not include a clear understanding of their roles and responsibilities, what they could be
    reasonably expected to accomplish, what medical development work with ANSF had
    been accomplished to date, and an understanding of the cultural aspects of working with
    Afghans.

    Mentoring Practices in Afghanistan. Further, medical mentors serving in country were
    frustrated by the slow pace and lack of observed change and sometimes pushed harder
    with ineffective, sometimes disruptive, techniques. Afghan personnel being mentored
    then ignored the mentor’s input. Other mentors fell back on their service-specific
    training and experience and attempted to impose U.S. solutions inappropriate to the
    ANSF setting. Several medical mentors redeployed early due to their frustration and
    ineffectiveness.

Future U.S. Mentor Training
    Under DoDD 3000.05, the responsibilities of key DoD organizations are outlined.
       • The Under Secretary of Defense for Personnel and Readiness shall:
                   Identify personnel and training requirements for stability operations
                   and evaluate DoD progress in developing forces to meet those
                   requirements, according to DoD Directive 1322.18 (reference (c)).
                   [to include] Learning languages and studying foreign cultures . . .

                                                 91 

                •	 The Chairman of the Joint Chiefs of Staff shall:
                            Develop curricula at joint military education and individual training
                            venues for the conduct and support of stability operations, in
                            coordination with the Secretaries of the Military Departments and the
                            Commander, U.S. Special Operations Command.
                •	 The Commanders of the Geographic Combatant Commands, through the
                   Chairman of the Joint Chiefs of Staff, shall:
                            Identify stability operations requirements and incorporate stability
                            operations into military training . . .
                •	 The Secretaries of the Military Departments and the Commander, U.S. Special
                   Operations Command, in coordination with the Chairman of the Joint Chiefs of
                   Staff and the Under Secretary of Defense for Policy, shall:
                            Ensure curricula in individual and unit training programs and service
                            schools prepare personnel for stability operations, in coordination with
                            the USD(P&R) [Under Secretary of Defense for Personnel and
                            Readiness] and the Chairman of the Joint Chiefs of Staff.
           More specifically, DoDD 3000.05 requires the Under Secretary of Defense for Personnel
           and Readiness to “Ensure DoD medical personnel and capabilities are prepared to meet
           military and civilian health requirements in stability operations.”

           The Military Health System Strategic Plan. The MHS Strategic Plan, in its vision
           statement, states that the MHS is to be a leader in health education, training, research and
           technology. The MHS Strategic Plan also states that in “Mission Element 4: Education,
           Research and Performance Improvement,” one of its outcomes is a “Capable Medical
           Workforce” and that “We have the needed team of health professionals with the right
           training and skills to accomplish our wartime and humanitarian assistance missions.”

           Training Curricula. U.S. and ISAF mentoring personnel need a comprehensive and in-
           depth understanding of Afghan culture and history, background and organization of ANA
           and ANP, mentoring efforts used to date along with the successes and failures that have
           occurred, and the difficulties in facilitating long-term change in the Afghan system. This
           understanding is needed so that expectations of change are reasonable and effective
           mentoring strategies can be developed and implemented.

           Further, U.S. and ISAF medical mentors should be trained with similar curricula so
           mentoring efforts can be synchronized. This added preparation would partially
           compensate for shorter lengths of deployments and reduce potential confusion among
           ANA and ANP medical personnel that may receive mentoring from different approaches.
           The Center for Disaster and Humanitarian Assistance Medicine at the Uniformed
           Services University of the Health Sciences has prepared a draft training curriculum for
           medical ETT and PMT members and Provincial Reconstruction Team 35 members in
           Afghanistan as an initial effort to define the focus for improved pre-deployment training.
           This curriculum includes many aspects of medical reconstruction and development that
           are common to both ETT and PRT missions.

35
      Provincial Reconstruction Teams (PRTs) consist of a combination of military and civilian personnel whose
     mission was to aid in the reconstruction and development of Afghanistan. PRTs were under military command.
     Military personnel provided a security envelope in which civilian experts could work on governance and
     development projects. U.S. PRTs operated under general guidance provided by ISAF.

                                                         92

    According to the Commanding General, CSTC-A, this additional pre-deployment
    training should be provided before service members deploy from the U.S. to minimize
    the training footprint in theater. Providing such training in theater is difficult due to time,
    travel, force protection, and operational tempo constraints.

Recommendations
    R.1. We recommend that the Commander, U.S. Central Command and the Chairman of
    the Joint Chiefs of Staff, in coordination with the Under Secretary of Defense for
    Personnel and Readiness, the Assistant Secretary of Defense for Health Affairs, and the
    Commander, North Atlantic Treaty Organization-International Security Assistance Force,
    establish a requirement for comprehensive medical pre-deployment and in-country
    training for the medical mentors supporting Coalition efforts in Afghanistan.

    Management Comments to Recommendation R.1. USCENTCOM concurred, noting
    that pre-deployment and in-country training and transition programs for US medical ETT
    Forces are currently established at Fort Riley and further implemented via a right seat/left
    seat policy upon deployment in Afghanistan with CSTC-A Command Surgeon oversight.
    There is now a full day of medical ETT and PMT training with curriculum developed by
    the Center for Disaster and Humanitarian Assistance Medicine (CDHAM) at the
    Uniformed Services University of the Health Sciences and approved by CDR, CSTC-A at
    Fort Riley.

    The Joint Staff concurred.

    The Assistant Secretary of Defense for Health Affairs (ASD[HA]) concurred with the
    recommendation.

    Assessment Response. USCENTCOM’s management comments partially met the
    intent of the recommendation. USCENTCOM and CSTC-A will need to develop a
    process to determine the adequacy of these efforts, such as pre-deployment and post-
    deployment surveys of medical ETT and PMT members. We request that CSTC-A
    provide documentation of such a process for our review.

    Deletion of Recommendations from Management Comment Draft Report: Based on
    comments from the Army and others, we eliminated recommendations R.2 and R.3 as
    they were written in the draft report for management comments. Recommendation R.2
    below was originally R.4 in the management comments draft.

    R.2. We recommend that the Commander, Combined Security Transition Command-
    Afghanistan develop and implement an in-country mentoring orientation for medical
    mentors that describes and clarifies current mentoring practices, the Afghan National
    Security Forces medical development objectives and priorities, and meets the
    requirements of the Commander, U.S. Central Command.

    Management Comments to Recommendation R.2. CSTC-A partially concurred,
    making the following comments.

       •	 CSTC-A Command Surgeon established an ongoing full day of training which
          has been injected into the curriculum at Fort Riley. This program began 2 months

                                              93 

       ago and will recur with each graduating class. The training was outlined by the
       Command Surgeon’s office, curriculum was developed by CDHAM, and the
       instructors are both past Afghan mentors (one PMT, and one ETT).

   •	 An ETT teleconference concerning logistics, finance and other issues is held
      every other week for training and as a venue for questions.

   •	 An ETT strategic teleconference is held for ETT leads is held every other week
      (on the alternate week of the preceding topic).

   •	 The Surgeon General will perform his own orientation process for incoming
      ETT’s.

   •	 CSTC-A Command Surgeon has been successful in mandating a 7 to 10 day
      overlap in incoming and outgoing ETT’s as the single most important determinant
      in continuation of continued mentoring success and prevention of loss of
      momentum.

   •	 CSTC-A Command Surgeon developed a doctrinal ETT handbook which is
      distributed to each incoming ETT.

   •	 Each outgoing ETT member is tasked with constructing an exhaustive continuity
      book for provision to his replacement.

   •	 CSTC-A has instituted an ETT sponsorship program between incoming ETT
      members and their outgoing counterparts.

   •	 CSTC-A Command Surgeon and Deputy Surgeon visit each regional hospital
      ETT on a quarterly basis for training and supervision.

   •	 Institution of quarterly traveling week long trauma seminars to the four regional
      hospitals consisting of National Military Hospital (NMH) ETT specialists
      (General Surgery, Emergency Medicine, Anesthesiology, Critical Care) who will
      travel and teach with their Afghan counterparts. First such seminar was two
      months ago.

   •	 CSTC-A Command Surgeon also instituted a biannual 4 day ANA Leadership
      Conference (last one Feb 2008, next one planned for early October). The Team
      Leads and Chief Nurses from the regional hospitals as well as the ANA Corps
      Surgeon mentors from each of the 5 regions (along with their Afghan
      counterparts) come to Kabul for training and cross pollination of ideas.

Assessment Response. The management comments partially met the intent of the
recommendation. USCENTCOM and CSTC-A will need to develop a process to
determine the adequacy of these efforts, such as pre-deployment and post-deployment
surveys of medical ETT and PMT members. We request that USCENTCOM and
CSTC-A provide details of this process, once developed.




                                       94

Observation S.
            Utilization and Staffing of U.S. Medical
            Mentors
            U.S. Navy and U.S. Air Force medical personnel practices in Afghanistan restrict
            relocation of medical ETT and PMT personnel assigned in ad-hoc status (formally
            known as “in-lieu-of”) from the location and functional billet to which each
            service member was originally assigned. Further, many medical mentoring teams
            were not fully manned, particularly those assigned to work with ANP.

            This occurred because U.S. Navy and U.S. Air Force medical personnel practices
            have not evolved to meet the changing situation in Afghanistan and CSTC-A has
            requested Joint Staff and the U.S. Joint Forces Command to move slowly in
            filling PMT medical mentoring billets.

            As a result, the mentoring of ANA medical personnel by coalition ETT personnel
            was limited in its effectiveness and sometimes counter-productive and mentoring
            of ANP medical personnel below ministerial levels has virtually ceased.

Applicable Criteria
     DoD Directive 3000.05. DoDD 3000.05, Military Support for Stability, Security,
     Transition, and Reconstruction (SSTR) Operations,” November 28, 2005, provides
     guidance on stability operations that will evolve over time as joint operating concepts,
     mission sets, and lessons learned develop and establishes DoD policy and assigns
     responsibilities within the DoD for planning, training, and preparing to conduct and
     support stability operations. The Directive also states it is DoD policy that:
            Stability operations are a core U.S. military mission that the Department of
            Defense shall be prepared to conduct and support. They shall be given priority
            comparable to combat operations and be explicitly addressed and integrated
            across all DoD activities including doctrine, organizations, training, education,
            exercises, materiel, leadership, personnel, facilities, and planning. . . .

            Many stability operations tasks are best performed by indigenous, foreign, or
            U.S. civilian professionals. Nonetheless, U.S. military forces shall be prepared
            to perform all tasks necessary to establish or maintain order when civilians
            cannot do so. Successfully performing such tasks can help secure a lasting
            peace and facilitate the timely withdrawal of U.S. and foreign forces.

     Global Force Management Implementation Guidance FY 2008-2009. The fiscal year
     2008-2009 Global Force Management Implementation Guidance integrates force
     assignment, apportionment, and allocation processes to improve the Department of
     Defense’s ability to manage forces from a global perspective.

     The Military Health System Strategic Plan. “The Military Health System Strategic
     Plan – A Roadmap for Medical Transformation,” May 29, 2008, was developed to:


                                                  95 

                   [R]e-examine our fundamental purpose, our vision of the future, and strategies
                   to achieve that vision. We are refocusing our efforts on the core business in
                   which we are engaged - creating an integrated medical team that provides
                   optimal health services in support of our nation's military mission - anytime,
                   anywhere. We are ready to go in harm's way to meet our nation's challenges at
                   home or abroad - to be a national leader in health education, training, research
                   and technology. We build bridges to peace through humanitarian support when
                   and wherever needed, across our nation and the globe, and we provide premier
                   care for our warriors and the military family.

           Combined Security Transition Command-Afghanistan Operations Order 08-006.
           CSTC-A Operations Order 08-006 (“ANSF Development Program”), January 14, 2008,
           stated that no ANSF unit would be fielded without assigning or identifying an ETT,
           PMT, or ISAF OMLT to provide training and logistics assistance.

           Combined Security Transition Command-Afghanistan Fragmentary Order 427.
           “CSTC-A FRAGO 36 427, ANSF Medical Mentoring, DTG 37 262216Z MAR 07”
           assigned authority, coordination, and approval oversight responsibility to the CSTC-A
           Command Surgeon for all assignment, orientation, and training of new medical mentors,
           and also for defining roles and responsibilities of medical ETT personnel in CSTC-A and
           subordinate organizations.

U.S. Global Force Management Implementation Guidance
           Business Rules for In-lieu-of Personnel Assignments. Air Force personnel testified
           before the House Armed Services Committee’s Subcommittee on Readiness on July 31,
           2007, and stated that Joint Staff business rules include three in-lieu-of categories when
           the preferred force sourcing is not an option:
               •	 Joint Sourcing - where service members fill a role similar to their own core
                   competencies, like an Air Force civil engineer possibly working in an Army
                   Corps of Engineers unit;

               •	 Retrained Ad-hoc - where service members are working within their normal
                  duties, but as part of a unit where no service necessarily has a core competency,
                  like provincial reconstruction teams;

              •	 Remission - where a unit trained for one mission deploys to fill a totally different
                  mission, like an artillery unit that instead performs convoy duties.
           Updated Global Force Management Implementation Guidance. The Joint Staff
           updated these definitions in its FY 2008-2009 Global Force Management Implementation
           Guidance. The four force sourcing categories have been redefined as follows:
              •	 Standard force solution – where a mission ready, joint capable force with
                  associated equipment executes its core mission.
              •	 Joint force/capability solution – where a Service provides a force or capability in
                  place of another Service’s core mission, or where elements from multiple services
36
     Fragmentary Order.
37
     Date Time Group

                                                         96

           are merged together to develop a single force or capability to meet a requested
           capability.
        •	 In-lieu-of – where a standard force, with its associated organization and
           equipment, is deployed to execute tasks outside its core competency.
        •	 Ad-hoc – where individuals and equipment from various commands/Services are
           consolidated, trained, and equipped to meet a particular requirement. While not
           stated in the Global Force Management Implementation Guidance, the mission of
           this capability is implied to be within the core competency of the individuals
           assigned.


U.S. Medical Mentor Utilization – In-Lieu-Of Personnel
Assignments
     Service Practices for In-Lieu-Of Personnel Assignments. U.S. Navy and U.S. Air
     Force medical personnel practices in Afghanistan restricted relocation of in-lieu-of
     medical ETT and PMT personnel from the location and functional billet to which each
     service member was originally assigned. Such practices were consistent with Joint Staff
     business rules in 2006 and early 2007 (as described above in the in-lieu-of category of
     ‘remission’) and were appropriate when medical ETT personnel were used to mentor
     non-medical tasks such as driver training and basic marksmanship.

     Dynamic Mission Requirements. However, the priority of medical mentoring tasks has
     been altered based on increased operational tempo, additional security threats, and slower
     than anticipated progress in developing ANA and ANP health systems since the
     submission of the original RFF 620, Modification 1, developed in July 2006 and
     RFF 620, Modification 2, developed in January 2007.

     The CSTC-A Command Surgeon had attempted to redirect some medical mentors, in the
     face of incompletely filled mentoring teams, from their original functional billet tasking
     to another, more relevant, medical mentoring task to meet changing mission
     requirements.

     For example, mentors were to be moved from one ANA Regional Hospital to another
     where the mentor’s specialty was more acutely needed, from a police mentoring task to
     an Army mentoring task within Kabul, and from direct clinical mentoring by an enlisted
     technician in a particular specialty to developing a technical training curriculum for that
     same specialty. U.S. Navy and U.S. Air Force medical personnel practices did not allow
     these relocations to occur.

     The Role of the Combined Security Transition Command-Afghanistan Command
     Surgeon. The CSTC-A Command Surgeon’s oversight, functional responsibility of, and
     authority over, medical personnel increased with the release of CSTC-A FRAGO 427.
     CSTC-A requires the ability to place medical personnel in locations and functions so that
     the highest priority medical mentoring tasks can be addressed efficiently. This in-
     country personnel movement will become minimal once all medical ETT and PMTs are
     fully staffed and all mentors are fully trained in cross-cultural medical mentoring (see
     Recommendations T.1., T.2., and T.3.).



                                             97 

           U.S. Navy and U.S. Air Force Medical Personnel Practices. The U.S. Navy and U.S.
           Air Force medical personnel practices have not evolved to meet the changing situation in
           Afghanistan, including the lack of adequate staffing and training for medical mentoring
           teams, and the updated CSTC-A command policy. Official Air Force policy concerning
           the Global Force Management Implementation Guidance supports Airmen working
           within their core competencies in Joint Sourcing Solutions and Ad-hoc teams. The Air
           Force has not provided any in-lieu-of solutions worldwide where Airmen work outside of
           their core competencies. Official Navy policy allows the ground commander flexibility
           to move Sailors within their specialty, as long as the Sailor has received the appropriate
           ground combat training.

           We believe that the actual personnel practices applied within Afghanistan are
           inconsistent with current Air Force and Navy policies, are now overly restrictive, and do
           not adequately support assigned medical personnel who have the most direct knowledge
           of the situation and needs on the ground. We also believe that the need for additional
           preparation for these Joint Force and Ad-hoc taskings reflects an overall lack of
           appropriate training of DoD medical personnel for stability operations as outlined in
           DoDD 3000.05.

U.S. Medical Mentor Staffing - Team Staffing and Composition
           Medical Mentoring Mission. The ANSF medical mentoring mission has grown rapidly
           since January 2007. The number of billets required for medical mentors increased from
           34 in January 2007 38 to a planned 388 in January 2008 and to an estimated 500 in April
           2008. A Joint Manning Document was also approved by USCENTCOM for the Office
           of the Command Surgeon with 20 billets of which 15 were for mentors.

           RFF 620, Modification 1 (for medical mentors assigned to ANA ETTs) was approved by
           the Joint Staff in September 2006 and RFF 620, Modification 2 (for medical mentors
           assigned to both ANA ETTs and ANP PMTs) was approved by the Joint Staff in
           February 2007. Both RFF documents identified skill sets of medical mentors anticipated
           to be the most appropriate within an integrated ANSF medical system. Assumptions in
           the RFFs had been made about the degree of progress that ANP and ANP would have
           achieved by the time U.S. police medical mentors deployed, and the degree of progress
           made in bringing the ANA and ANP together into an integrated system. The specialties
           of mentors and numbers required were guided by these assumptions.

           Staffing of Medical Mentoring Teams. Approximately 86 of the 388 medical mentors
           were assigned to the ANA National Military Hospital located in Kabul (22 mentors) and
           the 4 ANA Regional Hospitals (16 mentors each) located in Gardez, Kandahar, Herat,
           and Mazar-e Sherif. Another 92 of the 388 medical mentors were to be assigned to ANP.

           More recently, CSTC-A reported that the number of billets in RFF 620 had been
           increased to 431 medical mentors of which 311 billets were assigned to ANA and
           120 billets to ANP. However, medical mentoring teams were not all fully manned,
           particularly those assigned to work with ANP. CSTC-A personnel provided data that
           ANA medical ETTs were staffed at 292 personnel (a 6 percent shortfall) while ANP
           medical PMTs were staffed at only 16 personnel (an 87 percent shortfall).

38
     RFF 620, Modifications 1 and 2.

                                                   98

    However, it appears that CSTC-A has asked the Joint Staff and the U.S. Joint Forces
    Command to move slowly on filling the PMTs because CSTC-A was not ready to
    assimilate additional police mentors. CSTC-A personnel stated that they were awaiting
    construction of additional ANP clinics before filling the PMT billeting positions.
    Moreover, development of medical services for ANP appeared to be at a standstill
    because of CSTC-A ambivalence on whether the ANA and ANP medical systems should
    be consolidated into an integrated ANSF medical corps or remain separate medical
    systems. This situation is elaborated upon in the discussion and recommendations of
    Observation V.

    Composition of Medical Mentoring Teams. Some medical mentors were too junior for
    the mentoring position to which they were assigned. For example, three ANA Corps
    Surgeons (Afghan Colonels) were assigned mentors that were U.S. Army First
    Lieutenants, though the mentoring tasks require officers with the grade of Major and who
    have had experience at the battalion level.

    Mentoring Effectiveness. One senior U.S. officer mentioned the difficulty of trying to
    mentor without a complete team of U.S. military mentors, stating that these manning
    shortfalls required him to spend much more of his time on coordinating with others to
    make sure critical mentoring tasks were being addressed. In addition, frequent rotations
    of ISAF mentors, due to ISAF-permitted four-month deployments, restricted their ability
    to go beyond a superficial level of involvement.

    Training Tracking System. The shortage of trained U.S. medical mentors dictates that
    efforts be made to ensure that available personnel are promptly assigned to mentoring
    billets and that the personnel that are assigned to medical ETTs and PMTs are effectively
    trained and utilized. We believe that the first step is for CSTC-A to develop and
    implement a tracking system to identify medical mentor personnel that are not
    appropriately trained and utilized and billets that are not filled. Such as tracking system
    would be used to alert and provide information to USCENTCOM medical leadership of
    shortfalls in these key areas so USCENTCOM can ensure that the Services are held
    accountable for training medical personnel, utilizing personnel effectively, and filling
    billets.

Recommendations
    S.1. We recommend that the Surgeon General of the Navy, in coordination with United
    States Fleet Forces and the Chairman, Joint Chiefs of Staff Surgeon, change medical
    personnel practices within the U.S. Navy to ensure that the Combined Security Transition
    Command-Afghanistan Command Surgeon has the maximum flexibility necessary to
    assign Naval personnel where needed to accomplish the medical mentoring mission in
    Afghanistan.

    Management Comments to Recommendation S.1. The Navy concurred,
    recommending some changes in the wording of the recommendation, which we
    incorporated as written above. The management comments met the intent of the
    recommendation. We request that the Surgeon General of the Navy provide
    documentation of these updated personnel practices, once developed.

    S.2. We recommend that the Surgeon General of the Air Force change the Joint Force
    and Ad-hoc medical personnel practices within the U.S. Air Force to ensure that the

                                            99 

           Combined Security Transition Command-Afghanistan Command Surgeon has the
           maximum flexibility necessary to assign Air Force personnel where needed to
           accomplish the medical mentoring mission in Afghanistan.

           Management Comments to Recommendation S.2. The Air Force non-concurred,
           noting that the Air Force presents forces to meet the combatant commander’s (COCOM)
           Request-For-Forces (RFF), adding that if Combined Security Transition Command-
           Afghanistan (CSTC-A) clearly defines its requirements via the COCOM, then the RFF
           process will fill them. Additionally, the Air Force states that reallocation of personnel by
           the CSTC-A Command Surgeon to positions for which they were not requested, trained,
           or prepared is not commensurate with a command surgeon’s staff officer status.

           Assessment Response. The management comments do not meet the intent of the
           recommendation. The Air Force is correct in identifying deficiencies in training and
           preparation for the CSTC-A medical mentoring mission; however, these deficiencies
           apply across the board to all medical mentors and are addressed in Recommendation R.
           The dynamic, evolving medical mentoring mission in Afghanistan often calls for
           adjusting priorities and reallocating resources; such adjustments are most appropriately
           made by the operational commander. The CSTC-A Commanding General delegated
           authority to reallocate medical mentor personnel to his Command Surgeon in CSTC-A
           FRAGO 39 427, ANSF Medical Mentoring, DTG 40 262216Z MAR 07. Additionally,
           official Air Force policy concerning the Global Force Management Implementation
           Guidance supports Airmen working within their core competencies in Joint Sourcing
           Solutions and Ad-hoc teams. The Air Force management comments do not appear to be
           consistent with official Air Force personnel policy. We believe that Air Force personnel
           policies and practices need to be aligned to support the operational commander in CSTC­
           A, as reflected in the CSTC-A FRAGO.

           We did not change the recommendation and request that the Air Force reevaluate their
           response to this recommendation in the final report.

           S.3. We recommend that the Commander, Combined Security Transition Command-
           Afghanistan:

                    a. Develop and implement an in-country tracking system to identify medical
           mentor personnel that are not appropriately trained and utilized and billets that are not
           filled in medical Embedded Training teams and Police Mentoring Teams.

           Management Comments to Recommendation S.3.a. CSTC-A partially concurred,
           noting that the CSTC-A Surgeon’s office is tracking its ETT personnel. An Operations
           Officer was added to the CSTC-A staff approximately one month ago which will further
           increase the fidelity of this tracking. Except for JMD and the ETT’s associated with the
           Central and the 4 regional hospitals, all other ETT’s are mentoring at the Corps and
           below level.

           USCENTCOM noted that there is an unsourced RFF for PMTs across all functional lines
           of operation. Included in this RFF are some medical personnel.


39
     Fragmentary Order.
40
     Date Time Group

                                                   100

Assessment Response. The management comments partially met the intent of the
recommendation. The OIG team noted inadequate tracking of medical ETTs as the
Corps and below level. CSTC-A should develop a tracking and reporting process that
monitors and corrects the adequacy of training and utilization at these levels as well as at
the central level. We request that CSTC-A provide details of this process, once
developed.

        S.3.b. We recommend that the Commander, Combined Security Transition
Command-Afghanistan inform the U.S. Central Command of deficiencies identified by
the tracking system and request appropriate remedies.

Management Comments to Recommendation S.3.b. CSTC-A concurred and made the
following comments.

      CSTC-A participates in monthly CENTCOM VTC.

   •	 CSTC-A has added a new Army O-6 (August of 08) who has been tasked with
      tracking and optimizing the status of our mentors. He has established contact
      with the offices in charge of request for forces (RFF) for each service and retains
      close contact with each office.

Assessment Response. The management comments partially met the intent of the
recommendation. USCENTCOM should ensure that the personnel policies of its Army,
Navy, and Air Force components support the need of the CSTC-A Command Surgeon.
We request that USCENTCOM provide documentation of these Service component
personnel polices, once they are developed.




                                        101 

Observation T. 

                    Combined Security Transition Command-
                    Afghanistan – Coordination of Medical
                    Mentoring Activities
                    Specific, prioritized medical objectives had not been developed for providing
                    mentoring support to ANA and ANP. In addition, it was not evident that
                    mentoring priorities had been synchronized with the appropriate levels of ANA
                    and ANP medical leadership and actionable information had been developed on
                    the difficulties with medical logistics, manpower, training, and readiness.

                    This occurred because the CSTC-A Command Surgeon had not developed a
                    comprehensive, detailed, and integrated multi-year medical mentoring plan that
                    prioritizes and synchronizes mentoring efforts; coordinates those efforts within
                    CSTC-A, between CSTC-A and Task Force Phoenix, 41 and between CSTC-A and
                    ISAF; and links together strategic, operational, and tactical mentoring steps
                    required in the mentoring plan.

                    As a result, identification of operational and tactical medical problems was
                    delayed and resolutions were not sufficiently effective.

Applicable Criteria
           DoD Directive 3000.05. DoDD 3000.05, Military Support for Stability, Security,
           Transition, and Reconstruction (SSTR) Operations,” November 28, 2005, provides
           guidance on stability operations that will evolve over time as joint operating concepts,
           mission sets, and lessons learned develop and establishes DoD policy and assigns
           responsibilities within the DoD for planning, training, and preparing to conduct and
           support stability operations. The Directive also states it is DoD policy that:
                    Stability operations are a core U.S. military mission that the Department of
                    Defense shall be prepared to conduct and support. They shall be given priority
                    comparable to combat operations and be explicitly addressed and integrated
                    across all DoD activities including doctrine, organizations, training, education,
                    exercises, materiel, leadership, personnel, facilities, and planning.

                    Many stability operations tasks are best performed by indigenous, foreign, or
                    U.S. civilian professionals. Nonetheless, U.S. military forces shall be prepared
                    to perform all tasks necessary to establish or maintain order when civilians
                    cannot do so. Successfully performing such tasks can help secure a lasting
                    peace and facilitate the timely withdrawal of U.S. and foreign forces.



41
      CSTC-A was responsible for the mentoring the Afghan MoD and MoI and supporting command levels. Task
     Force Phoenix, a subordinate organization of CSTC-A, was responsible for mentoring at the Afghan ANA Corps
     level, ANA organizations below the Corps level, and ANP organizations below ministerial levels.

                                                          102

     The Military Health System Strategic Plan. “The Military Health System Strategic
     Plan – A Roadmap for Medical Transformation,” May 29, 2008, was developed to:
            [R]e-examine our fundamental purpose, our vision of the future, and strategies
            to achieve that vision. We are refocusing our efforts on the core business in
            which we are engaged - creating an integrated medical team that provides
            optimal health services in support of our nation's military mission - anytime,
            anywhere. We are ready to go in harm's way to meet our nation's challenges at
            home or abroad - to be a national leader in health education, training, research
            and technology. We build bridges to peace through humanitarian support when
            and wherever needed, across our nation and the globe, and we provide premier
            care for our warriors and the military family.
     Combined Security Transition Command-Afghanistan Fragmentary Order 427.
     “CSTC-A FRAGO 427, ANSF Medical Mentoring, DTG 262216Z MAR 07” assigned
     authority, coordination, and approval oversight responsibility to the CSTC-A Command
     Surgeon for all assignment, orientation, and training of new medical mentors, and also
     for defining roles and responsibilities of medical ETT personnel in CSTC-A and
     subordinate organizations.

Afghan Coordination of Mentoring Activities
     Afghan National Army Surgeon General. The ANA Surgeon General is responsible to
     the Minister of Defense and the Chief of the ANA General Staff for all strategic,
     operational, and tactical ANA medical issues.

     Ministerial Development Plan and Solar Year 1387 Action Plan. The medical
     portions of the CSTC-A “Ministerial Development Plan and Solar Year 1387 Action
     Plan” were lacking the detailed information necessary to guide mentoring priorities or
     link together strategic, operational, and tactical mentoring steps required. Specific,
     prioritized medical objectives had not been developed for providing mentoring support to
     ANA and ANP. Further, it was not evident that internal processes were in place between
     senior mentors to ensure that coordinated courses of action were determined for those
     mentors to advise ANA and ANP counterparts.
     In addition, it was not evident that mentoring priorities had been synchronized with the
     appropriate levels of ANA and ANP medical leadership and that actionable information
     had been developed to fully understand and address the difficulties with medical
     logistics, manpower, training, and readiness. More proactive coordination by
     management is necessary to identify and implement solutions to high priority medical
     logistics and staffing issues given that ETT and PMT billets are incompletely filled.

     The lack of a detailed, prioritized, medical mentoring plan delayed the effectiveness of
     new U.S. and ISAF military personnel assigned to medical mentoring duties. Without a
     clear plan from which to work, new mentoring personnel must learn by experience what
     tasks must be done and how to accomplish each task. As a consequence, military
     personnel state that they do not become effective until they have been in place for
     4 to 5 months, so have only about 6 months of effectiveness during a 12 month
     deployment.

     The CSTC-A Command Surgeon needs to develop a comprehensive, detailed, and

                                                 103 

integrated multi-year medical mentoring plan that prioritizes and synchronizes mentoring
efforts; coordinates those efforts within CSTC-A, between CSTC-A and Task Force
Phoenix, and between CSTC-A and ISAF; and links together strategic, operational, and
tactical mentoring steps required in the mentoring plan. When linked to individual work
plans, such a mentoring strategy will enable newly assigned personnel to quickly pick up
where their predecessor left off.

Medical Mentoring Practices. The ANA Surgeon General stated that U.S. medical
mentors were often either not assigned to key ANA medical leaders and/or not
sufficiently engaged, neither he nor the CSTC-A Command Surgeon had adequate
influence at ANA Corps and below echelons of care, and insufficient coordination within
CSTC-A delayed the identification and implementation of effective operational and
tactical medical solutions. The ANA Surgeon General also described two meetings
where CSTC-A mentors provided conflicting advice on key force structure doctrine to
senior MoD officials.

Further, ISAF OMLTs embedded in five 201st Corps ANA units in the Regional
Command East had been manned by French medical personnel and this information was
not known to the ANA Surgeon General or the CSTC-A Command Surgeon. The
mentoring priorities of these French medical teams were unknown.

The ANA Surgeon General needed the CSTC-A Command Surgeon to engage on his
behalf across all staff sections within CSTC-A and Task Force Phoenix to investigate
medical issues and make strategic recommendations for improvement. Those
recommendations should then be coordinated between senior mentors within CSTC-A
and Task Force Phoenix for implementation.

Medical Mentoring Process. Effective mentoring depends on having qualified
personnel embedded at tactical, operational, and strategic levels so advice, support, and
troubleshooting can be simultaneously passed up and down both the Afghan and U.S.
command chains. This process should be clearly established.

For example, a U.S. medical mentor at the tactical unit level would help his Afghan
counterpart identify a medical supply shortfall and help prepare a supply requisition
according to ANA procedures. The U.S. mentor at the tactical unit level would notify the
U.S. mentor at the next level up that the requisition is working its way through the system
once that particular requisition is put into the Afghan medical supply system.

This next-level mentor would then work with his Afghan counterpart to find the
requisition, approve it, and forward it to an ANA Regional Medical Supply Depot to be
filled. This mentor would also notify the U.S. mentor at the depot that the requisition had
been approved and needed to be filled. The depot-level mentor would work with the
Afghan depot staff to fill the requisition and ship the items appropriately. This process
works from top down as well as from bottom up, to pass down orders, new policies, and
procedures. Lack of mentors at any level prevents the entire system from functioning
effectively.

Intensive mentoring and coordination efforts by the U.S. ETT working with the ANA
Kandahar Regional Military Hospital (KRMH) have led to measurable improvement in
combat casualty care for coalition and Afghan security forces. Further, ISAF support to
KRMH is augmenting U.S. medical mentoring efforts and improving functionality.
    • Coalition combat casualty care has improved by cooperation between the ISAF
                                        104

           Multinational Medical Unit (MMU) located at Kandahar Air Field and KRMH.
           The MMU Intensive Care Ward was closed to new patients 26 percent of the time
           during the first 5 months of 2007 because of overcrowding. Once the KRMH
           opened in July 2007, the MMU Intensive Care Ward closure periods dropped to
           less than 2 percent of the time during the first 5 months of 2008 after many ANSF
           and civilian patients were transferred to KRMH.

       •	 The ANA KRMH had received 30 ANSF patients via ISAF medical evacuation
          and casualty evacuation airlift missions, some directly from the battlefield.

       •	 Canadian general, trauma, and orthopedic surgeons have partnered with ANA
            surgeons to operate on ANSF casualties in both the KRMH and MMU operating
            rooms.
       •	 The Dutch Frozen Blood Program, through MMU, has agreed to routinely provide
            some of the KRMH blood bank needs.
       •	 Canadian nurses routinely visit KRMH to mentor their Afghan counterparts in
            bedside nursing.
       •	 The KRMH has provided emergency oxygen tanks to MMU when the MMU
            oxygen generator failed.
       •	 The UK Minister of Defence and the Surgeon General are considering the
            development of a British ETT to augment the U.S. ETT.
    While Afghan progress towards self-sufficiency has been slow and critical shortfalls in
    medical resupply have continued for over 5 months, persistent efforts by the U.S. ETT
    and strong cooperation with the local ISAF MMU is laying a solid foundation for further
    improvement of ANA medical care.

Recommendations
    T. We recommend that the Commander, Combined Security Transition Command-
    Afghanistan:
            1. Develop and implement a comprehensive, detailed, and integrated multi-year
    medical mentoring plan that prioritizes and synchronizes mentoring efforts; coordinates
    those efforts within the Combined Security Transition Command-Afghanistan, between
    the Combined Security Transition Command-Afghanistan and Task Force Phoenix, and
    between the Combined Security Transition Command-Afghanistan and the North
    Atlantic Treaty Organization-International Security Assistance Force; and links together
    strategic, operational, and tactical mentoring steps required in the mentoring plan.

    Management Comments to Recommendation T.1. CSTC-A concurred and provided
    the following comments.

       •	 CSTC-A strategic planning offsite scheduled for 15 September 2008.

       •	 CSTC-A CJ-Med has conducted weekly planning sessions for the last two years
          with North Atlantic Treaty Organization-International Security Assistance Force
          medical teams.


                                           105 

   •	 CSTC-A participates and presents at biannual North Atlantic Treaty
      Organization-International Security Assistance Force medical team strategic
      planning conference. The last conference was held in JUL 2008.

   •	 CSTC-A participates in monthly CSTC-A/CJTF 101 (includes TF Phoenix)
      synchronization and strategic planning meeting.

   •	 Weekly tactical contact with Task Force Phoenix instituted July 2008.

   •	 In accordance with its operational order and other directives, CSTC-A Surgeon’s
      Office utilizes the Program Management Plan (PMP) compiled by CDHAM to aid
      in planning. This 133 page document looks extensively at 3, 5, and 10 year
      Afghan healthcare mentoring goals and potential strategies for their attainment -
      will be completed 15 September 2008.

Additionally, USCENTCOM concurred with CSTC-A comments, and added that
challenges remain that are inherent in the NATO command construct with multiple
national caveats and command authorities that constrain CSTC-A’s ability to direct
priorities and training standards within the ISAF deployed forces.

Assessment Response. The management comments partially met the recommendation
intent. The CDHAM Program Management Plan is a health systems planning document,
and will need to be significantly enhanced to serve as a comprehensive medical
mentoring plan with actionable objectives and appropriate metrics. We request that
CSTC-A provide a copy of this medical mentoring plan, once developed.

       T.2. We recommend that the Commander, Combined Security Transition
Command-Afghanistan share this medical mentoring plan with the North Atlantic Treaty
Organization-International Security Assistance Force, and in coordination with the
Commander, United States Central Command, with the North Atlantic Treaty
Organization Allied Command Operations to develop synchronized medical mentoring
between Combined Security Transition Command-Afghanistan ETTs and PMTs and the
North Atlantic Treaty Organization-International Security Assistance Force Operational
Mentoring and Liaison Teams.

        T.3. We recommend that the Commander, Combined Security Transition
Command-Afghanistan establish internal coordination and synchronization procedures
on a weekly basis within the Combined Security Transition Command-Afghanistan,
between the Combined Security Transition Command-Afghanistan and Task Force
Phoenix, and between the Combined Security Transition Command-Afghanistan and the
North Atlantic Treaty Organization-International Security Assistance Force to achieve
unity of effort during the implementation of the mentoring plan.

Management Comments to Recommendation T.2 and T.3. CSTC-A concurred.

Assessment Response. The management comments partially met the recommendation
intent. CSTC-A should develop internal coordination and synchronization procedures
within the command, with Task Force Phoenix, and with NATO-ISAF to achieve unity of
effort. We request that CSTC-A provide documentation of these procedures, once
developed.

       T.4. We recommend that the Commander, Combined Security Transition

                                      106

Command-Afghanistan establish a process by which the Afghan National Army and the
Afghan National Police report medical readiness results and issues within their
organizations, and coordinate the results with the Combined Security Transition
Command-Afghanistan, Task Force Phoenix, and the North Atlantic Treaty
Organization-International Security Assistance Force to identify and correct Afghan
National Army and Afghan National Police medical problems.

Management Comments to Recommendation T.4. CSTC-A concurred, noting that
daily reports of readiness data (i.e. bed status, blood available, etc.) are received from the
regional hospitals (RH), collated and reviewed at a weekly (since June 2008) MEDCOM
emergency operations center meeting. This information is forwarded to the Afghan
National Military Command Center. This process will be much further improved by the
planned implementation this year of the health information management system (HC
Standard) between NMH and the RH’s. CSTC-A personnel are present at all of these
briefings. HC Standard also has the capability to generate reports which can be
forwarded to CSTC-A, ISAF, CENTCOM. Reported information can be tailored to
address medical readiness objectives in accordance with the SY Action Plan and the
Program Management Plan (PMP).

Assessment Response. The management comments partially met the intent of the
recommendation. CSTC-A should work with ANA leadership to develop indicators of
medical readiness and health delivery system effectiveness that allows Coalition leaders
to identify and correct medical deficiencies. These indicators should be developed with
Task Force Phoenix and NATO-ISAF. We request that CSTC-A provide documentation
of these indicators, once developed. See Recommendation W.1.b. for further insight into
this issue.




                                         107 

Observation U.
            Afghan National Army – Medical Logistics
            The ANA Logistics Command (a non-medical organization) has not demonstrated
            effective requisition and delivery capacity necessary to support ANA medical
            logistics support for combat operations.

            This occurred because the ANA Logistics Command has not yet developed
            adequate effectiveness in the management of logistics functions.

            As a result, the ANA Logistics Command was unable to support crucial ANA
            medical logistics requirements at the National Military Hospital, ANA Regional
            Hospitals, or the ANA Corps and echelons below corps levels.

Applicable Criteria
     DoD Directive 3000.05. DoDD 3000.05, Military Support for Stability, Security,
     Transition, and Reconstruction (SSTR) Operations,” November 28, 2005, provides
     guidance on stability operations that will evolve over time as joint operating concepts,
     mission sets, and lessons learned develop and establishes DoD policy and assigns
     responsibilities within the DoD for planning, training, and preparing to conduct and
     support stability operations. The Directive also states it is DoD policy that:
            Stability operations are a core U.S. military mission that the Department of
            Defense shall be prepared to conduct and support. They shall be given priority
            comparable to combat operations and be explicitly addressed and integrated
            across all DoD activities including doctrine, organizations, training, education,
            exercises, materiel, leadership, personnel, facilities, and planning.

            Many stability operations tasks are best performed by indigenous, foreign, or
            U.S. civilian professionals. Nonetheless, U.S. military forces shall be prepared
            to perform all tasks necessary to establish or maintain order when civilians
            cannot do so. Successfully performing such tasks can help secure a lasting
            peace and facilitate the timely withdrawal of U.S. and foreign forces.



DoD Medical Logistics
     Medical logistics in DoD is a discipline of a larger and fully integrated MHS that
     supports the health care delivery mission throughout the DoD during peacetime and
     wartime. Medical logistics, often referred to as Supply Class VIII (medical materiel), has
     the following attributes and characteristics:
         • Focus on the needs of the patient and provider

        •   Reliance on commercial sources and business practices

        •   Non-standard products (versus military-unique)

                                                  108

       •	 Potency dating and special handling requirements

       •	 Differing expectations based on varying missions, clinician preference, and
          Service focus

       •	 High-dollar value

         •	 Susceptibility to rapid changes in technology and practices
    Medical logistics in DoD performs separately from the normal logistics functions because
    of the unique aspects of handling medical equipment and supplies as noted in the above
    attributes and characteristics.

Afghan National Army Medical Logistics Capabilities
    The ANA Logistics Command was unable to support crucial ANA medical logistics
    requirements at the National Military Hospital, Regional Hospital, or the Corps and
    below levels. For example:
        •	 The ANA Logistics Command was reportedly unable to meet ANA Supply Class
           I (subsistence) requirements at the National Military Hospital in Kabul for 2 days
           in March 2008.

       •	 The ANA CMA has been unable to organize a convoy to move materiel to
          Kandahar since January 2008. The ANA Surgeon General recently arranged for
          contracted air movement for critical medical supplies to meet operational
          shortfalls.

        •	 An Afghan National Army Regional Hospital had been experiencing critical
            medical supplies, equipment, and pharmaceutical shortfalls for over a 5-month
            period. U.S. military medical mentors had to resort to obtaining supplies from
            their home bases in the United States, or using their personal funds for crucial
            items.
    An extensive Course of Action Analysis performed by the CSTC-A Command Surgeon’s
    office in December 2006 concluded that medical logistics should remain separate from
    the ANA Logistics Command. The CSTC-A Commanding General at that time
    supported this conclusion.

    Further, the ANA Logistics Command Tashkil indicated that an integrated Class VIII
    medical logistics had 230 ANA personnel authorized in the Class VIII section, but only
    60 of those authorized personnel were to be trained as medical logisticians. Moving
    Class VIII medical logistics functions and personnel to the responsibility of the ANA
    Logistics Command, rather than remaining in its current position under the ANA Surgeon
    General, would add two additional levels of bureaucracy for Class VIII items by placing
    it in an already marginally functional logistics system.

    We believe that current efforts to incorporate medical logistics into the ANA Logistics
    Command before it has demonstrated effectiveness in Class I and other supply items
    requisition and delivery capacity created unacceptable risk of compromising effective
    ANA medical support to combat operations. While planned integration of medical
    logistics under the ANA Logistics Command may offer future efficiencies, it is not

                                           109 

    feasible at this time.

Recommendation
    U. We recommend that the Commander, Combined Security Transition Command-
    Afghanistan advise the Ministry of Defense and the Afghanistan National Army General
    Staff that Supply Class VIII medical logistics should remain under the control of the
    Afghanistan National Army Surgeon General.

    Management Comments to Recommendation U. CSTC-A non-concurred, noting that
    the MoD leadership decided to employ one single logistics framework through which all
    logistics, including medical special supplies, pharmaceuticals and equipment will have a
    supply channel. This reflects the desire of the Afghan MoD to focus efforts on the
    development of one capable logistics system that is more mature than a separate medical
    logistical system.

    Assessment Response. After evaluating the management comments, we determined that
    they partially met the intent of the recommendation. CSTC-A will need to develop an
    alternative process to maintain medical logistics support to ANA Regional Hospitals in
    the interim, until the ANA Logistics Command is able to support combat casualty care
    medical supply requirements. We request that CSTC-A provide documentation of this
    alternative process, once developed.




                                           110

Observation V.
            Afghan National Security Forces – Integrated
            Medical Corps
            ANSF medical leadership was not clear as to the CSTC-A policy on the
            integration of ANA and ANP medical functions into a common ANSF medical
            corps. Further, ANSF force structures were not conducive to providing effective
            health care within an integrated ANSF health care system.

            This occurred because CSTC-A had not established and conveyed a clear position
            on the integration of medical functions within ANA and ANP into a common
            ANSF medical corps, and because CSTC-A, the Ministry of Defense, and the
            Ministry of Interior had not concurred on a common position.

            As a result, the development of a sustainable ANSF integrated health care system
            that can effectively use the limited medical resources available to it to support
            combat operations is not possible and police, in particular, lack access to routine
            and emergency health care.

Applicable Criteria
     The Military Health System Strategic Plan. “The Military Health System Strategic
     Plan – A Roadmap for Medical Transformation,” May 29, 2008, was developed to:
            [R]e-examine our fundamental purpose, our vision of the future, and strategies
            to achieve that vision. We are refocusing our efforts on the core business in
            which we are engaged - creating an integrated medical team that provides
            optimal health services in support of our nation's military mission - anytime,
            anywhere. We are ready to go in harm's way to meet our nation's challenges at
            home or abroad - to be a national leader in health education, training, research
            and technology. We build bridges to peace through humanitarian support when
            and wherever needed, across our nation and the globe, and we provide premier
            care for our warriors and the military family.
     Furthermore, Mission Element 1.E. “Reconstruction of Host Nation Medical Capability”
     states:
            We will provide assistance to rebuild medical capabilities that are damaged or
            consumed in a conflict. Our success will be measured in improved public health
            outcomes for the region, population or country we serve.



Combined Security Transition Command-Afghanistan Position on
an Afghan National Security Forces Integrated Medical Corps
     Combined Security Transition Command-Afghanistan Guidance. The ANA Surgeon
     General stated that CSTC-A’s position with respect to ANSF medical integration was
     unclear and inadequate. A review of available CSTC-A guidance on integration of ANA

                                                 111 

           and ANP medical functions indicated that it was ambiguous and contradictory.

           For example, the “Islamic Republic of Afghanistan Campaign Plan for the Development
           of Enduring National Military and Police Forces” (pre-decisional draft), dated July 28,
           2007, stated that “The integration of ANA and ANP medical personnel into a joint
           medical corps, and the integration of resources with the Ministry of Public Health
           (MoPH) will improve care, including for combat operations.” 42 Elsewhere, CSTC-A
           Operations Order 08-006, January 14, 2008, stated that “the fiscal year 2008 execution
           plan focuses on developing medical systems for the ANA and ANP which are separate
           but complementary. The CSTC-A Command Surgeon will minimize duplication of
           services and promote increased cooperation between the involved ministries. 43 Further,
           the June 2008 “United States Plan for Sustaining the Afghanistan National Security
           Forces” Report to Congress stated that “the integration of ANA and ANP medical
           personnel into a collaborative health care system with the MoPH will improve care,
           especially for combat casualties.”

           Details were not made available on how those specific objectives were to be
           accomplished by the CSTC-A Command Surgeon, what was the definition of “separate
           but complementary” medical functions, or would be the cost effectiveness and
           sustainability of this “separate but complementary” approach.

           Center for Disaster and Humanitarian Assistance Medicine Program Management
           Plan. The Center for Disaster and Humanitarian Assistance Medicine at the
           U.S. Military’s Uniformed Services University of the Health Sciences had developed a
           Program Management Plan to guide CSTC-A in the development of an integrated
           comprehensive health care system for ANSF. There was no evidence that this Program
           Management Plan was being used by CSTC-A in its engagement activities with ANSF
           and Afghan civilian ministries. The ANA Surgeon General noted that there has been
           decreased emphasis on integration in the past year.

Independent Afghan National Army and Afghan National Police
Health Care Systems
           Independent Afghan National Army and Afghan National Police Health Care
           Systems Operations. Redundant ANA and ANP clinic, hospital, and other medical
           logistics infrastructure were overly expensive, not sustainable, and postponed integrated
           ANSF operations. Adequate trained medical manpower was not available within
           Afghanistan for the extensive health care system that would be required if ANP were to
           have a system separate from that of ANA, and from the civilian health care sector. The
           current semi-independent ANA and ANP health care systems created redundancies that
           the ANSF can ill afford.
               •	 Five co-located ANP components (Afghan National Civil Order Police, Afghan
                   National Police, Afghan Uniformed Police, Border Police, Counter-Narcotics
                   Police) in Kandahar were each insisting on its own clinic just 2 kilometers from


42
  Annex A, Islamic Republic of Afghanistan Campaign Plan for the Development of Enduring National Military
 and Police Forces (pre-decisional draft), dated July 28, 2007.
43
     Annex O (“Medical”) to CSTC-A Operations Order 08-006 (“ANSF Development Program”), January 14, 2008.

                                                     112

                    the ANA regional hospital and garrison clinic located in Kandahar. Planning
                    appeared to be underway to construct three of these five redundant clinics.

               •	 ANP was insisting on separate, seemingly redundant, regional medical logistics
                   warehouses, rather than using the existing ANA system and capacity. Planning
                   appeared to be underway to rent Class VIII warehouse space in Kandahar for the
                   ANP, despite an ANA Class VIII warehouse being present nearby. Planning
                   appeared to be underway for the construction of an ANP Class VIII National
                   Medical Depot in Kabul that was to be located close to the ANA medical logistics
                   depot, even though the ANP Tashkil does not support staff for this medical depot.
           Afghan National Army and Afghan National Police Health Care Leadership
           Factors. Political factors at senior ministerial levels were delaying integration due to
           perceived threat of loss of control, among other factors, although functional integration
           was occasionally seen as feasible at the level of field combat casualty care and
           evacuation. Lack of clear direction from senior MoD and MoI officials and legacy
           cultural and institutional distrust within and between ministries was stalling continued
           integration actions in staffing, training, surgical and medical care, and rehabilitation.

           Further, gaps in leadership skills of senior ANP Surgeon General personnel were
           hampering movement towards an integrated ANSF medical corps. Opportunities for
           rapid solutions to pervasive deficiencies in ANP medical manning, training, and medical
           logistics by taking advantage of parallel strengths in ANA were not being leveraged.

           While ANP was reportedly receiving some medical care in some ANA medical facilities,
           there were also multiple reports that ANP personnel were being turned away from ANA
           hospitals, ANP battle casualties were having to be transported past ANA hospitals that
           would not care for them to ISAF facilities that would, or that police were required to pay
           bribes to obtain ANA hospital care. ANA Surgeon General and ANP Surgeon General
           personnel did not appear to be resolving these issues.

Afghan Civilian Health Care Sector Factors
           Health Care Facilities in Remote Areas. Three drug rehabilitation centers, three basic
           health centers, ten provincial health clinics (each with 20 hospital beds), and two
           hospitals were prioritized for construction to support ANP in remote areas. 44 However,
           delays in developing agreements with the civilian Ministry of Public Health to build and
           staff those facilities for ANP, and to develop medical logistics support for ANP, placed at
           risk the ability to open these facilities.

           Furthermore, CSTC-A planned to construct the 10 provincial health clinics on ANP
           remote bases and, as such, the clinics would be unable to provide care to civilians, ANA
           personnel, and ANSF dependents residing in those local areas. Security concerns in
           these areas would prohibit civilians (to include ANSF dependents) from gaining access to
           ANP bases. Alternatively, if these clinics were constructed outside the ANP bases,
           staffed by civilian health care personnel, and managed by the civilian MoPH; the clinics
           could provide care for ANA and ANP uniformed personnel assigned to the local bases,
           their family members, and civilians in the local communities. This arrangement would

44
      Appendix 2 (“ANP Project Priorities”) to Annex B (“Program Priorities”) to CSTC-A Operations Order 08-006
     (“ANSF Development Program”), January 14, 2008.

                                                        113 

    create jobs in these communities, provide needed health care to civilians, and improve
    local support for ANP and GIRoA.

    Health Care Staffing in Remote Areas. Staffing for these remote facilities by ANP
    medical personnel was not included within the MoI Tashkil. CSTC-A was supporting
    ANP efforts to triple the medical personnel authorized on the ANP Tashkil, even though
    the current ANP medical Tashkil was only 9 percent filled. It was not clear that the
    220 medical personnel required to staff the proposed provincial health clinics could be
    recruited.

    Interest in joining ANSF was limited as evidenced by the difficulty the ANA was
    experiencing in filling its medical Tashkil. The ANA medical Tashkil was only
    66 percent filled (1901 authorized, 1260 assigned), and the fill rate had increased only
    about 5 percent in the past 15 months. The significant growth in ANA combat strength
    contemplated will require a corresponding increase in the ANA medical Tashkil, and will
    therefore increase the competition for medical personnel willing to join ANSF.

    If medical staff is not mobilized for these clinics once constructed, the clinics would
    probably be subject to structural deterioration and pilferage of medical equipment and
    would likely be used for a purpose other than delivery of medical care.

    Collaboration with Civilian Ministry of Public Health for Afghan National Police
    Medical Care. Health care in remote areas may be best provided for ANA and ANP in
    collaboration with the civilian MoPH. The U.S. Agency for International Development
    signed an agreement with the Ministries of Finance and Public Health by which financial
    assistance will be provided directly to MoPH for management. The U.S. Agency for
    International Development certified that MoPH had adequate financial and procurement
    management capability to perform required contracting, and has the capability for
    effective oversight of funding, transparency, and accountability in procurement and
    project management. The agreement includes audits and annual reviews.

    This newly acknowledged capacity within MoPH may allow CSTC-A to enter into an
    agreement directly with MoPH to provide health care in remote areas for ANA and ANP
    personnel and their family members. Facility construction, staffing, and management by
    MoPH contracts would demonstrate the ability of the GIRoA to provide for the basic
    needs of its citizens, adding to the positive counterinsurgency benefit.

Afghan National Security Forces Medical Force Structure
    Afghan National Army Medical Tashkil. The ANA Tashkil had not provided the ANA
    Surgeon General with command authority over ANA Corps and below medical personnel
    (medical logistics, medical plans, combat medics, and operations). Because of an
    emphasis in the original ANA medical force organization on decentralized force
    structure, effective development of ANA medical support for combat operations has been
    delayed. According to the ANA Surgeon General, there are significant problems evident
    in that ANA medical personnel were either not present, not trained, not showing
    initiative, not responding to mentoring, or a combination of those problems. The
    Surgeon General indicated that he did not have the authority to address these issues, and
    that the Corps Commanders with the authority did not have the expertise to do so.

    Afghan National Police Medical Tashkil. The ANP medical Tashkil was based on the

                                           114

     assumption of an integrated ANSF medical corps where much of the combat casualty
     care, medical evacuation, surgical care, rehabilitation, and medical logistics were
     provided by the more developed ANA health care system. According to the ANP
     Tashkil, ANP health care responsibilities were to focus on clinical care at training sites,
     field-level combat casualty support to tactical ANP units, and medical administration
     support to police who receive care in the ANA and civilian health care systems.

     Force Structure Mentoring. Current ANSF force structure and doctrine do not appear
     to take into consideration the difficulty in placing trained Afghan personnel who can
     implement medical solutions in the face of cultural and historical resistance to change.
     Mentoring efforts to adjust ANA and ANP force structure and doctrine have not
     sufficiently incorporated expert advice, lessons learned, or the unexpectedly slow
     improvement in ANA and ANP effectiveness, and appear to overemphasize U.S. DoD
     solutions based on original assumptions.

Implementation of the U.S. Military Health System Strategic Plan
     The MHS Strategic Plan, under “Purpose, Vision, and Strategy” states:
            We have a singular opportunity to build bridges to peace in hostile countries. In
            many circumstances, the MHS will serve as the tip of the spear and a formidable
            national strategy tool for the nation. And, we can take advantage of a one-time
            opportunity to design and build health facilities that promote a healing
            environment during the clinical encounter, empower our patients and families,
            relieve suffering, and promote long-term health and wellness. We will employ
            evidence-based design principles that link to improved clinical outcomes,
            patient and staff safety, and long-term operational efficiencies.
     The CSTC-A Command Surgeon’s role in implementing the MHS Strategic Plan is to
     establish a clear plan for establishing the most effective health care system for the ANSF.
     In our opinion, the most effective health care system for the ANSF is an integrated ANSF
     medical corps. Due to the complexity of reconstructing a comprehensive health care
     delivery system for security forces in the midst of fighting an insurgency, we believe that
     MHS elements must play an important supporting role to the CSTC-A Command
     Surgeon in developing and implementing effective solutions, developing key interagency
     supporting partnerships, and advocating for legislative changes necessary to successfully
     create a sustainable, independent, ANSF health care system.

Summary
     The ANA medical force structure and doctrine did not reflect the increased security
     threat of recent years, the cultural and historical resistance to change within Afghan
     society, and the slow improvement in ANA effectiveness. While the ANP medical force
     structure was based on an integrated ANSF medical corps, there is no plan being
     implemented to achieve this goal.

     We believe that a unified medical force structure within the ANA and ANP, reporting to
     an ANSF Surgeon General responsible for both ANA and ANP medical needs, is
     essential to providing effective health care and to building an integrated ANSF medical
     corps. Improved and more effective mentoring practices are necessary to bring about
     these results.

                                                  115 

    The integration of ANA and ANP medical functions into a common ANSF medical corps
    will accelerate development and functionality of the medical institutions of the ANSF,
    and will improve medical services for ANSF uniformed personnel and family members.
    Additionally, a strong health care system will be an incentive for recruitment and
    retention of ANSF personnel.

    Such an integrated health care system will also be more sustainable given the limitations
    of Afghan manpower and resources, while creating positive reconstruction and
    development benefits to the Ministries of Public Health and Higher Education.
    Moreover, the collateral benefits to civilians will have a positive counterinsurgency
    effect. And, this integration will also ensure more efficient use of U.S. resources,
    accelerate the development of an independent, sustainable ANSF, and reduce dependence
    on US and coalition medical resources.

Recommendations
    V. We recommend that the Commander, Combined Security Transition Command-
    Afghanistan

            1. Develop and implement a comprehensive integration and implementation plan
    to establish a common Afghan National Security Forces medical corps comprised of the
    medical functions of the Afghan National Army and the Afghan National Police. This
    plan should be based on the elements developed by the Center for Disaster and
    Humanitarian Assistance Medicine, and should include facility construction, logistical
    support, and civilian partnerships for staffing and management. United States
    government funds should be expended to support only an integrated health care system,
    as opposed to separate Army and Police systems.

    Management Comments to Recommendation V.1. CSTC-A partially concurred,
    making the following comments.

       •	 Command Surgeon will continue to oversee the development of both the ANA
          and ANP medical functions.
       •	 CSTC-A agrees that a single ANSF Healthcare System is desirable, however
          cannot accomplish this without a full court press on Afghan political leadership
          by the United States Government (USG) and the International Community.

    Assessment Response. The management comments did not meet the intent of this
    recommendation. CSTC-A did not state that they would develop and implement a
    comprehensive integration and implementation plan to establish a common ANSF
    medical system. We request that CSTC-A respond to this recommendation in the final
    report.

             Based on the CSTC-A response, we agree with the CSTC-A assessment that a
    comprehensive approach to the Afghan political leadership is necessary. CSTC-A can
    facilitate this by requesting that USCENTCOM engage their liaisons from the
    Department of State, and the Chairman of the Joint Chiefs of Staff and ASD(HA), to
    obtain support for this integration and for partnering assistance within other U.S.
    Government agencies. Commander, CSTC-A and Commander, USCENTCOM should

                                           116

engage with the U.S. Ambassador-Afghanistan and the Commander, ISAF, to solicit their
support with senior Afghan government officials for this integration. Development and
implementation of integration plans and actions should make clear to the Afghan MoI
and MoD that the U.S. Government can support only the development of a single ANSF
health care system, not two separate systems. As noted in the recommendations, CSTC­
A should cease funding redundant or separate health care facilities for the ANP. We
request that CSTC-A fully respond to this recommendation.

         V.2. We recommend that the Commander, Combined Security Transition
Command-Afghanistan develop and implement a medical mentoring plan to advise and
assist the Ministries of Defense and Interior, and the Surgeons General of the Afghan
National Army and Afghan National Police on the strategy, effectiveness, sustainability,
and economic benefits of unified force structures for providing effective health care and
for building an integrated Afghan National Security Forces medical corps.

Management Comments to Recommendation V.2. CSTC-A concurred, noting the
need to readdress the issue of one ANSF Healthcare System with Senior MoD and MoI
leadership. CSTC-A reports that the new ANP Surgeon General seems to have an
interest in integration and is receptive to mentoring.

Assessment Response. The management comments did not meet the intent of the
recommendation. CSTC-A did not state that they would develop and implement a
medical mentoring plan. We request that CSTC-A respond to this recommendation in the
final report.

        V.3. We recommend that the Commander, Combined Security Transition
Command-Afghanistan develop and implement procedures to collect and track Afghan
National Army and Afghan National Police battle casualties from the point of wounding
through rehabilitation and return to duty. These procedures should include all patients
admitted to all Afghan National Army hospitals by beneficiary category to ensure Afghan
National Police personnel have access to appropriate care. They should also clarify the
degree of shared facility use between the Afghan National Army and the Afghan National
Police.

Management Comments to Recommendation V.3. CSTC-A concurred noting that
they have adopted a three phased multi-year approach to this recommendation:

   •	 Three years ago CSTC-A began to collect data on admission and disposition of
      ANSF patients broken down by service (ANA, ANP, civilians), type of
      injury/illness, and medical treatment facility. This research in support of systems
      development and force structure requirements is ongoing.

   •	 Fielded (or in the process of being fielded) systems in support of the above
      analysis include implementation of communications (radios, automated systems)
      with the military health care system this year. Additionally, the ANA has fielded
      initial medevac capability (first mission 6 months ago) and is currently fielding a
      ground ambulance fleet (over 1000 urban and tactical ambulances. 100 have been
      distributed thus far. The remainders are scheduled for delivery by January of
      2009).

   •	 Associated doctrine, policies and training to govern the above process have been
      or are currently being written for final completion this fiscal year.

                                       117 

Assessment Response. The management comments partially met the intent of the
recommendation. We commend CSTC-A for the comprehensive performance
improvement analysis that was provided. As noted in the analysis, the utilization data do
not allow assessment of the access to care for ANP. As mentioned in the
recommendation, we believe that CSTC-A should provide more clarity on identifying
data and reports that address the issue of ANP access to ANA facilities. We request that
CSTC-A provide this information and the doctrine, policies, and training mentioned in
the third bullet in response to this final report.




                                       118

Observation W.
            Development of Afghan Civilian Health
            Care System Capabilities to Support the
            Afghan National Security Forces
            Inadequate long-term joint planning, coordination and engagement by the
            U.S. Mission-Afghanistan, CSTC-A, and ISAF is limiting the
            development of key Afghan civilian health care system capabilities needed
            to support the ANSF. Some planning in this area had been developed by
            DoD elements, but implementation of these plans has been limited.
            Further, U.S. Government resources have not been effectively marshaled
            to build partnerships between Afghan civilian and military institutions in
            the health care sector.

            This occurred because USCENTCOM and CSTC-A have not developed a
            comprehensive, integrated, multi-year plan, in coordination with the
            U.S. Mission-Afghanistan, ISAF, and the relevant Afghan ministries, to
            build strategic medical partnerships that support broad reconstruction of
            the health sector. In addition, there is no single focal point for
            accomplishing U.S. government health care goals in Afghanistan, and an
            interagency forum to coordinate the implementation of U.S. government
            health sector reconstruction activities has not been formed.

            As a result, an integrated Afghan civil-military-police health care system
            may not develop upon which a sustainable ANSF health care system
            would have to depend. In addition, until the ANSF achieves health care
            sustainability, the United States and other NATO member nations will
            have to maintain their combat casualty care assistance to support the
            ANSF.

Applicable Criteria
     DoD Directive 3000.05. DoDD 3000.05, Military Support for Stability, Security,
     Transition, and Reconstruction (SSTR) Operations,” November 28, 2005,
     provides guidance on stability operations that will evolve over time as joint
     operating concepts, mission sets, and lessons learned develop and establishes
     DoD policy and assigns responsibilities within the DoD for planning, training,
     and preparing to conduct and support stability operations. The Directive also
     states it is DoD policy that:
            Stability operations are a core U.S. military mission that the
            Department of Defense shall be prepared to conduct and support. They
            shall be given priority comparable to combat operations and be
            explicitly addressed and integrated across all DoD activities including
            doctrine, organizations, training, education, exercises, materiel,
            leadership, personnel, facilities, and planning.




                                             119 

                    Many stability operations tasks are best performed by indigenous,
                    foreign, or U.S. civilian professionals. Nonetheless, U.S. military
                    forces shall be prepared to perform all tasks necessary to establish or
                    maintain order when civilians cannot do so. Successfully performing
                    such tasks can help secure a lasting peace and facilitate the timely
                    withdrawal of U.S. and foreign forces.
           The Military Health System Strategic Plan. “The Military Health System
           Strategic Plan – A Roadmap for Medical Transformation,” May 29, 2008, was
           developed to:
                    [R]e-examine our fundamental purpose, our vision of the future, and
                    strategies to achieve that vision. We are refocusing our efforts on the
                    core business in which we are engaged - creating an integrated medical
                    team that provides optimal health services in support of our nation's
                    military mission - anytime, anywhere. We are ready to go in harm's
                    way to meet our nation's challenges at home or abroad - to be a
                    national leader in health education, training, research and technology.
                    We build bridges to peace through humanitarian support when and
                    wherever needed, across our nation and the globe, and we provide
                    premier care for our warriors and the military family.
           Furthermore, the MHS Strategic Plan, under “Purpose, Vision, and Strategy”
           states:
                    We have a singular opportunity to build bridges to peace in hostile
                    countries. In many circumstances, the MHS will serve as the tip of the
                    spear and a formidable national strategy tool for the nation. And, we
                    can take advantage of a one-time opportunity to design and build health
                    facilities that promote a healing environment during the clinical
                    encounter, empower our patients and families, relieve suffering, and
                    promote long-term health and wellness. We will employ evidence-
                    based design principles that link to improved clinical outcomes, patient
                    and staff safety, and long-term operational efficiencies.


Combined Security Transition Command-Afghanistan Health
Care System Planning
           CSTC-A Strategic Planning. CSTC-A strategic guidance recognized the need to
           develop inter-agency and inter-ministry health care issues and capability and to
           integrate ANSF resources with those of MoPH. However, there was no evidence
           of a comprehensive, integrated, multi-year plan that implements the CSTC-A
           vision and builds the strategic inter-Ministry and U.S. Government interagency
           partnerships necessary to develop an integrated and sustainable ANSF health care
           system. An effective plan would require a time-phased, conditions-based
           approach with clear milestones.

           CSTC-A had a Program Management Plan created by the U.S. Military’s Center
           for Disaster and Humanitarian Assistance Medicine 45 to guide the development of
           a comprehensive health care system for ANSF. However, no evidence was
           apparent that this Program Management Plan was being used to guide CSTC-A
           engagement activities with ANSF and Afghan civilian ministries.
45
     An organization that reported to the Uniformed Services University of the Health Sciences.

                                                     120

           MPRI, Inc., Medical Development Doctrine. A contractor, MPRI, Inc., had
           developed End-State Goals for the Afghan Military Health Care System and
           Medical Command Staff Development Doctrine. CSTC-A resources did not
           appear to have been applied to assist the ANA in developing and supporting
           training at the ANA Corps and below levels to meet these end-state goals for
           medical plans, operational support, medical logistics, and field casualty
           evacuation.

           Afghan Commission for a Strategic Framework for Health Care Delivery. A
           Memorandum of Agreement was signed between the Ministries of Defense,
           Interior, Public Health, Higher Education, and Finance on November 22, 2006,
           that formed a Commission for a Strategic Framework for Healthcare Delivery in
           Afghanistan. The agreement’s goal was to begin the process of collaboration
           among these ministries on health sector priorities, including disaster
           preparedness, education of allied health workers, and clinical care in remote
           areas. However, no evidence was apparent that any action had been taken by
           CSTC-A or MoPH to facilitate inter-ministerial collaboration since this
           agreement was signed.

           Other U.S. Government Health Sector Actions. Other DoD and U.S.
           Government agencies offer opportunities for collaboration in which ANSF
           personnel and family members may directly or indirectly benefit from improved
           health care.

                   U.S. Department of Health and Human Services. The Department of
           Health and Human Services has been involved in a hospital-based maternal-child
           health initiative at the Rabia Balkhi Women’s Hospital, one of two women’s
           hospitals in Kabul that are used by female ANA and ANP personnel. Beginning
           in 2002, DoD collaborated with the Department of Health and Human Services by
           performing facility renovations at a cost of more than $2 million, while the
           Department of Health and Human Services invested more than $8 million to train
           clinical and administrative management personnel.

                  U.S. Public Health Service. The U.S. Public Health Service
           Commissioned Corps 46 assigned two officers to the CSTC-A Command
           Surgeon’s office to work on key civil-military engagement topics with the MoPH.
           These officers were assigned for one year based on the original agreement
           between CSTC-A and the Department of Health and Human Services, but both
           assignments were curtailed after 6 months for reasons that are unclear.

                   Biological Threat Reduction Program. The Office of Cooperative
           Threat Reduction Policy 47 was considering expanding the Biological Threat
           Reduction Program, funded by the Nunn-Lugar Cooperative Threat Reduction
           Act of 2005, into Afghanistan and Pakistan. This program is intended to rebuild
           public health and disease surveillance capacity and includes infrastructure,
           training, and external support. CSTC-A could leverage the Biological Threat
           Reduction Program activities in such a way that ANSF public health equities are
           met.

                    Centers for Disease Control and Prevention Maternal Care. The
46
     An organization that reported to the Department of Health and Human Services.
47
     An organization that reported to the Office of the Under Secretary of Defense for Policy.

                                                      121 

           Centers for Disease Control and Prevention 48 was developing a quality assurance
           initiative for emergency childbirth and community-based prenatal care at the
           Rabia Balkhi and Malalai Women’s Hospitals, in collaboration with the U.S.
           Agency for International Development. Partnering among CSTC-A, the Centers
           for Disease Control and Prevention, and the U.S. Agency for International
           Development would provide valuable technical expertise that is not available
           within DoD and would result in higher quality medical mentoring and medical
           care for ANSF personnel and family members.

                  U.S. Military Center for Disaster and Humanitarian Assistance
           Medicine. The Center for Disaster and Humanitarian Assistance Medicine had
           been providing reach-back support for several training initiatives at the request of
           CSTC-A and had funded several maternal-child health projects at Malalai
           Women’s Hospital. The Malalai Hospital had no major donor support and
           received approximately 8 percent of its required resources from the MoPH. There
           are more than 80 babies born per day at Malalai Hospital.

Afghan Civilian Health Care System
           Public Health System. The management of the Afghan public health system for
           disease surveillance, control, and reporting was marginally functional. A
           sustainable ANSF health care system requires an effective civilian infectious
           disease surveillance, control, and reporting system to provide adequate force
           health protection to ANA and ANP personnel in the field and effective support to
           central and regional public health institutions for the civilian population.

           Other required aspects of the public health care system, such as specialty care,
           maternal and child care, primary care in geographically remote areas, and public
           health services were under development in the civilian sector. This development
           was proceeding very slowly because multiple international donors were not
           coordinating their efforts.

           Emergency Medical Services and Disaster Preparedness and Response.
           There was a paucity of ground ambulance services in Kabul and such services
           were almost nonexistent elsewhere in Afghanistan. The ANA and ANP provided
           most of the national ground and air evacuation capacity within Afghanistan since
           a robust civilian emergency medical service and evacuation system were not
           present.

           The ANA provided logistical and communication support in the event of a natural
           disaster. The ANA medical infrastructure and rotary wing assets have already
           been used for civilian mass casualty care and disasters, such as the flooding that
           occurred in early 2007 in northern Afghanistan. Additionally, the ANA sent a
           medical team to assist in the international response to the October 2005 Pakistani
           earthquake.

           CSTC-A, ISAF, the International Red Crescent, the Kabul Ambulance
           Association, and the Ministries of Defense, Interior, and Public Health have
           established an initial framework for cooperation as evidenced by two annual
           Emergency Preparedness workshops in Kabul in December 2006 and January

48
     An organization that reported to the Department of Health and Human Services.

                                                    122

           2008.

           These workshops included tabletop exercises and provided valuable opportunities
           for building collaborative partnerships between these agencies, though resources
           committed to this area were still inadequate. While much remains to be done for
           effective disaster response, these Afghan agencies have taken the initial steps
           towards cooperation.

           Supporting Services for Afghan National Security Forces Combat Casualty
           Care and Rehabilitation. Supporting health services such as physical therapy,
           prosthetics, and occupational and vocational therapy were only marginally
           available within the ANA system. To meet the initial needs of the ANA, CSTC­
           A had contracted with the Kabul Orthopedics Organization 49 to develop physical
           therapy and prosthetics capacity within the ANA National Military Hospital.
           Occupational and vocational therapy services are also essential to return injured
           service members to duty or to provide retraining for a civilian job but were
           unavailable in the ANA system.

           Maternal and Child Care for Female Afghan National Security Forces
           Personnel. Maternal and child care services for female ANSF personnel and
           dependents were obtained from civilian women’s and pediatrics hospitals. Due to
           cultural norms, females were reluctant to seek care at ANA medical facilities.

           The two women’s hospitals in Kabul have a very high maternal and infant
           mortality rate due primarily to inadequate training of medical and nursing
           personnel. For example, a female ANA Air Corps pilot bled to death during an
           emergency Cesarean section in the fall of 2006 at one of these hospitals, bringing
           to light systemic problems in staffing, training, and management of obstetrical
           emergencies.

           CSTC-A had contracted with a hospital managed by CURE International 50 for
           occupational health screening of Afghan workers. CURE International provided
           advanced fellowship training for family medicine, obstetrics and gynecology, and
           surgery and has developed proposals for several collaborative training initiatives
           with Kabul Medical University and Malalai Women’s Hospital in an effort to
           improve maternal and child care in Kabul.

Afghan Medical Education and Training in the Civilian Sector
           Development of a stand-alone ANSF health care system requires a pipeline of
           trained physicians, nurses, dentists, and allied health care professionals to staff
           regional and central ANSF hospitals. Civilian health care personnel must
           undergo military-unique orientation training upon accession into ANSF and must
           receive further entry-level and upgraded technical training in their particular
           specialty.

           Physician and Nurse Training. The pipeline for newly trained physicians for
           the ANA depends on Kabul Medical University students voluntarily signing up to
           serve as medical officers in the ANA upon graduation. In exchange for a
49
     A local non-governmental organization.
50
     A local non-governmental organization.

                                               123 

commitment to serve 15 years upon graduation, they receive a small stipend while
in training and additional military-unique training while attending medical school.

In the past, approximately 30 newly graduating physicians have signed up
annually to enter ANA upon graduation. In the past 3 years, no incoming medical
students have signed up to serve, so this source of new physicians for ANA will
cease in an estimated 3 years. CSTC-A had recently started the first class of
officer basic training for new medical officers.

There were no national training programs for psychiatrists, anesthesiologists, or
obstetricians/gynecologists; all these specialties are under-strength in the ANSF.
Nursing positions were also severely understaffed within ANSF medical facilities
with no identified training solutions.

Training for Combat Medics and Allied Health Care Technical Skills.
CSTC-A had developed and implemented entry-level training for ANA combat
medics. However, anecdotal reports suggest that ANA personnel trained as
combat medics were redirected to non-medical tasks once assigned to ANA Corps
and below levels. CSTC-A had developed a separate Trauma Assistance
Personnel class that trained ANP enlisted staff with similar skills to those of
ANA combat medics.

CSTC-A had developed plans for building an Allied Health Professions Institute
next to the ANA Combat Medic School to train biomedical equipment
technicians, medical logisticians, and technicians in several other allied health
areas.

U.S. Medical Training. CSTC-A had sent ANA and ANP medical personnel to
the U.S. for short and long courses of medical instruction in key areas. However,
no evidence was available to demonstrate that these personnel were generally
being utilized in a fashion that made the most use of this additional medical
training.

Several medical personnel had received extensive 12 to 24 month courses of
instruction in the United States, but when they returned to their previous position
in Afghanistan they were not able to implement any improvements to build upon
their training. Anecdotal reports suggested that selection for U.S.-based training
was based more on favoritism than on competence and potential to contribute to
improving the health care system.

Training Tracking System. The shortage of trained Afghan medical personnel
dictates that systematic follow-up efforts be made to ensure that personnel trained
inside and outside the country are assigned to appropriate medical positions with
the ANSF. We believe that the first step is for CSTC-A to develop and
implement a tracking system to ensure that ANSF medical personnel trained for
specialty medical tasks are appropriately utilized in ANSF health care positions.
Such a tracking system would be used to alert MoD and MoI medical leadership
when trained personnel are not being assigned to critical medical positions and
identify the need to make appropriate assignment corrections.




                                    124

U.S. Funding Sources for the Afghan Health Care System
    Funding sources are also needed to provide for and develop a sustainable,
    integrated civilian-military-police Afghan health care system. This funding will
    support expansion of medical education and training programs, a civilian public
    health and disease surveillance system at the national, regional and local levels
    that benefits all Afghans, and emergency medical and disaster preparedness
    services. Obviously, the U.S. can not provide funding to complete all these
    efforts but certainly can assist in some of the initiation, coordination, and
    sustainment of these efforts in collaboration with U.S. and international donors.

    We believe that one approach to additional health care funding is to add a medical
    budget category to the Afghanistan Security Forces Fund spending plan. The
    spending plan would be submitted during the legislative process to permit
    Afghanistan Security Forces Fund appropriated funds to be used to support the
    improvement of civilian health care systems in Afghanistan that provide direct
    support to ANSF, such as civilian health care provided by MoPH in remote areas.

DoD Health Sector Reach -Back Support Office
    U.S. Government resources have not been effectively marshaled to prepare and
    implement planning to build partnerships and train Afghan medical personnel.
    The effective coordination of health care initiatives has been hampered by the
    lack of a single U.S. government focal point, such as a health sector reach back
    support office.

    The disparate DoD elements engaged in the establishment of policies, the
    management of health care, the study of health care and disease control issues, the
    design and construction of health care facilities, and the implementation of health
    care goals in locations such as Afghanistan make coordinated and timely action
    difficult. Further, civilian U.S. Government agencies are engaged in health sector
    activities in Afghanistan where collaboration with DoD may directly or indirectly
    provide support for improving the ANSF health care delivery system.

    Health Sector Reach Back Support Office. Many U.S., international, and
    Afghan organizations already have or could have a role in the development of
    Afghan health care systems to the benefit of ANSF personnel and their families,
    and civilians. However, there is no single U.S. government entity today that
    serves as a “nerve center” to coordinate the delivery of war-time health sector
    reconstruction assistance by the U.S. government to Afghanistan. For example,
    some of the organizations currently involved include:
        •	 DoD and Coalition organizations such as:
                o	 The Office of the Assistant Secretary of Defense for Health Affairs
                o	 U.S. Military Center for Disaster and Humanitarian Assistance
                   Medicine
                o	 Office of Cooperative Threat Reduction Policy
                o	 CSTC-A
                o	 ISAF

                                       125 

      •    Other U.S. Government agencies such as:
               o U.S. Agency for International Development
               o U.S. Department of State
               o U.S. Department of Health and Human Services
               o U.S. Public Health Service
               o Centers for Disease Control and Prevention
       • International organizations and non-governmental organizations such as:
               o World Health Organization
               o International Red Crescent
               o CURE International
       • Afghan organizations such as:
               o Ministries of Defense, Interior, and Public Health
               o Kabul Medical University
               o Rabia Balkhi and Malalai Women’s Hospitals
               o Kabul Ambulance Association
               o Kabul Orthopedics Organization
   A U.S. government health sector reach back support office that coordinates health
   care resources among DoD and other contributing U.S. government and private
   sector organizations could help achieve the goal of developing Afghanistan’s
   health care system, including that of the ANSF. This office would provide a
   centralized, integrated, and properly resourced capability with the delegated
   responsibility for oversight of the development of Afghan health care systems. It
   would also be charged to ensure that initiatives and programs are pro-active,
   coordinated, responsive, and cost effective. Integrated civil-military-police health
   sector reconstruction that builds management capacity and intellectual capital
   within Afghan Ministries would then be supportive of the priorities of the
   Afghanistan Compact and the Afghanistan National Development Strategy.

Summary
   Development of an efficient, cost effective, and integrated ANSF health care
   system focused on quality combat casualty care, from the point of wounding
   through field medical care and evacuation, resuscitative and definitive surgery,
   rehabilitation, and return to duty may be achievable in the next three-to-five years
   -- with appropriate U.S. Government assistance.

   A sustainable, integrated ANSF health care system requires effective civilian
   central and regional public health systems, civilian educational institutions that
   provide support and training for ANSF health care system personnel, and
   development of a civilian health care delivery system that is adequate for the
   country of Afghanistan as a whole.

   Partnering between an integrated ANSF health care system and the civilian
   MoPH for services would maximize scarce national health care resources and

                                       126

    avoid creating an expensive, two-tiered system where some ANA and ANP
    personnel and privileged officials receive care within a well-funded ANSF health
    care system, but the vast majority of the population receives care in a poorly-
    funded public system.

    The MHS Strategic Plan, under “Purpose, Vision, and Strategy,” as we have
    noted elsewhere in this report, states “We have a singular opportunity to build
    bridges to peace in hostile countries. In many circumstances, the MHS will serve
    as the tip of the spear and a formidable national strategy tool for the nation. And,
    we can take advantage of a one-time opportunity to design and build health
    facilities that promote a healing environment during the clinical encounter,
    empower our patients and families, relieve suffering, and promote long-term
    health and wellness. We will employ evidence-based design principles that link
    to improved clinical outcomes, patient and staff safety, and long-term operational
    efficiencies.”

    DoDD 3000.05 states it is DoD policy that:
           Stability operations are a core U.S. military mission that the
           Department of Defense shall be prepared to conduct and support. They
           shall be given priority comparable to combat operations and be
           explicitly addressed and integrated across all DoD activities including
           doctrine, organizations, training, education, exercises, materiel,
           leadership, personnel, facilities, and planning. . . .
           Many stability operations tasks are best performed by indigenous,
           foreign, or U.S. civilian professionals. Nonetheless, U.S. military
           forces shall be prepared to perform all tasks necessary to establish or
           maintain order when civilians cannot do so. Successfully performing
           such tasks can help secure a lasting peace and facilitate the timely
           withdrawal of U.S. and foreign forces.
    Additionally, the MHS Strategic Plan, under “Purpose, Vision, and Strategy,”
    also states “We must have a willingness to experiment, to create a learning
    support capacity, and to challenge our assumptions constantly in light of new
    challenges. We must take rational risks to move our system forward….risks that
    will place us in unchartered environments.”

    We believe that it is now time to implement the goals and guidance provided by
    DoDD 3000.05 and the MHS Strategic Plan by initiating operations to build
    health care systems that support the people of Afghanistan in their efforts to
    rebuild their country and repel terrorism.

Recommendations
    W.1. We recommend that the Commander, U.S. Central Command, in
    coordination with the U.S. Mission-Afghanistan; the Assistant Secretary of
    Defense for Health Affairs; the Commander, Combined Security Transition
    Command-Afghanistan; and the North Atlantic Treaty Organization-International
    Security Assistance Force:

            a. Develop and implement a comprehensive, integrated, multi-year plan to
    build strategic partnerships. These would be forged with other U.S. Government
    agencies, academic partners, international and non-governmental organizations,

                                             127 

and key Afghan government ministries with the goal of fostering the development
of an integrated Afghanistan National Security Forces health care system and
civilian health care system capabilities that adequately complement the
Afghanistan National Security Forces health care system.

Management Comments to Recommendation W.1.a. USCENTCOM
concurred, noting that the ASD(HA), in concert with the CENTCOM Surgeon,
recommended the establishment of a health attaché position at U.S. Mission-
Afghanistan to synchronize and focus the interagency health sector activities in
support of the civilian health care system Afghanistan. The U.S. Ambassador,
Afghanistan did not support this recommendation from the USCENTCOM
Surgeon and ASD(HA). As a result, USCENTCOM recommended that the U.S.
Embassy Kabul re-evaluate the decision on the health attaché position and be
given the lead for all U.S. sponsored civilian health care development with regard
to the Ministry of Public Health (MoPH) in Afghanistan.

Assessment Response. The management comments partially met the intent of
the recommendation. The Commander, USCENTCOM, in coordination with
ASD(HA) and the Joint Staff, should work through Department of State and
USAID Liaison Officers to formally request that U.S. Mission-Afghanistan
identify a single point of contact to coordinate all U.S. government health sector
development activities, act as a focus for Coalition health activities, and act as the
single point of contact for health-related activities with Afghan ministries and
international organizations. We request that USCENTCOM fully respond to this
recommendation.

Based on the comments provided, we are adding an additional recommendation.

        W.1.b. We recommend that the Commander, U.S. Central Command,
establish a Command Surgeon position at the grade of O-7 on the staff of the
Commander, US Forces-Afghanistan, to proactively coordinate all Defense
Department health sector activities in Afghanistan, including:
    •	 Oversight of long-term joint planning, coordination, and development of
        the ANSF health care system with U.S. Mission-Afghanistan, across all
        NATO ISAF components, with NATO ISAF member nations, and with
        NATO Allied Command Operations;

   •	 Advocating for resources and authorities to properly develop sustainable
      civilian health sector capacity where needed to support the ANSF.
   •	 Oversight of ANSF medical mentoring and training across all ISAF
      components, with NATO ISAF member nations, and with NATO Allied
      Command Operations, as further described in Recommendation T.4.

       W.1.c. We recommend that the Commander, U.S. Central Command, in
coordination with the U.S. Mission-Afghanistan; the Assistant Secretary of
Defense for Health Affairs; the Commander, Combined Security Transition
Command-Afghanistan; and the North Atlantic Treaty Organization-International
Security Assistance Force develop and implement a multi-year plan to increase
collaborative interaction with the Ministries of Public Health and Higher
Education to plan and implement new training programs for nurses, enlisted
technicians, and medical specialties needed within the Afghanistan National
Security Forces medical corps, and to leverage U.S., North Atlantic Treaty
Organization-International Security Assistance Force partner countries, and
                                     128

Afghanistan-based training.

Management Comments to Recommendation W.1.c. USCENTCOM
concurred, noting that CSTC-A has developed an action plan as follows:

      Command Surgeon has crafted a 1-year advance medical technician
       (licensed professional nurse) program for 30-45 students to increase the
       nursing pool within ANA. This program, the Allied Health Professional
       Institute, is scheduled to begin its first class on 1 October 2008. The
       curriculum has been developed. All materials have been translated into
       Dari. All equipment has been purchased and is undergoing installation.

      Temporary housing has been provided which is managed by the ANA.
       Permanent billeting is scheduled (construction planned to begin next
       spring).

      Continue work on Tashkil per CSTC-A Tashkil tasker. Refine Tashkil to
       match education, growth, training and specialty need annually (revisions
       takes force at the beginning of the solar year in March).

Assessment Response. The management comments partially met the intent of
the recommendation, but a multi-year plan to support this important effort should
be developed by USCENTCOM. We commend CSTC-A for taking initial action
in training medical technicians; however the full spectrum of health care workers
still needs to be addressed. Please provide us with the dates that the plan will be
developed and implemented.

        The development of trained health care workers is a multi-year effort that
will require long-term commitment of resources and expertise to develop
vocational, undergraduate, and graduate training programs. Academic
partnerships and multi-year funding sources must be identified so sustainable
training programs can be developed to meet long-term health care worker needs
in both the ANSF and in the civilian health sector. Such a broad-based effort will
provide counterinsurgency benefits and strengthen governance, and requires the
advocacy of the Commander, USCENTCOM, with support from ASD(HA).
        W.1.d. We recommend that the Commander, U.S. Central Command, in
coordination with the U.S. Mission-Afghanistan; the Assistant Secretary of
Defense for Health Affairs; the Commander, Combined Security Transition
Command-Afghanistan; and the North Atlantic Treaty Organization-International
Security Assistance Force identify, access, and leverage subject matter experts
and existing DoD efforts and those of other U.S. Government, international, and
private sector organizations (such as the Department of State, the Department of
Health and Human Services, and the U.S. Agency for International Development)
to promote:
    •	 Development of a sustainable integrated Afghanistan National Security
        Forces health care system.
    •	 Improved civilian medical education and public health systems.
    •	 Development of civilian health care system capabilities that adequately
        complement the Afghanistan National Security Forces health care system.
    •	 U.S. Mission-Afghanistan, Combined Security Transition Command­

                                    129 

       Afghanistan Command Surgeon, and North Atlantic Treaty Organization-
       International Security Assistance Force efforts to implement these goals.

Management Comments to Recommendation W.1.d. USCENTCOM
concurred, noting the need for further emphasis on the development of training
programs for anesthesiologists, and psychiatrists within the ANSF Healthcare
System Mission. They also noted the following CSTC-A comments and actions:

   •	 ANSF Allied Health Professions Institute is under development.
      Radiology, Laboratory, Ultra-sound and Advanced Medical Technicians
      programs are targeted.

   •	 Curriculum developments are completed as of July 08. Future 

      collaborations with MoPH and Ministry of Education pending. 


   •	 First develop the Allied Health Professional Institute for ANSF then
      review opportunities to collaborate with other agencies.

   •	 ANA and Kabul Medical University (Ministry of Higher Education) has a
      current medical education partnering agreement with students actively
      attending medical school and ANA Medical Command residencies.

   •	 As noted in the last IG response, there is yet no training programs for
      Obstetricians/Gynecologists, anesthesiologists, and psychiatrists in
      Afghanistan. Out of scope for the ANSF Healthcare System Mission of
      CSTC-A.

Assessment Response. The management comments partially met the intent of
the recommendation, but a multi-year plan to support this important effort should
be developed by USCENTCOM. CSTC-A does not appear to have identified and
leveraged subject matter experts and existing DoD efforts and those of other U.S.
Government, international, and private sector organizations. We believe that such
leveraging of outside expertise will be particularly valuable in the development of
the Allied Health Professions Institute and future initiatives. Please provide us
with the dates that the plan will be developed and implemented. For further
discussion, see Assessment Response provided to Recommendation W.1.e.

       W.1.e. ( This recommendation was originally directed to the Assistant
Secretary of Defense for Health Affairs. After we evaluated the management
comments, we re-directed it to USCENTCOM.) We recommend that the
Commander, U.S. Central Command prepare, in coordination with the Under
Secretary of Defense for Policy, the Under Secretary of Defense
(Comptroller)/Chief Financial Officer, and the Assistant Secretary of the Army
(Financial Management & Comptroller), an Afghanistan Security Forces Fund
spending plan that includes a separate medical budget category and submit to the
United States Congress to request appropriated funding for building and
improving civilian Afghan health care systems that adequately complement and
support the Afghanistan National Security Forces health care system.

Management Comments to Recommendation W.1.e. The Assistant Secretary
of Defense for Health Affairs (ASD(HA)) non-concurred with this
recommendation as originally written, which designated ASD(HA) as the Office
of Primary Responsibility. He noted that submitting an ANSF Spending Plan was
                                   130

properly an issue for the USCENTCOM Commander and his Congressional
liaison. The ANSF Spending Plan funding line for Afghan civilian health care
development, as related to ANSF health care, belongs to USCENTCOM, in
cooperation with the State Department. The ASD(HA) should have staff input
into formulating the ANSF Spending Plan health budget.

USCENTCOM also non-concurred, noting that such an effort should be a
Department of State lead, vice DoD, and that civilian health care is out of scope
for the USCENTCOM/CSTC-A mission in Afghanistan.

The Under Secretary of Defense, Comptroller/Chief Financial Officer also non-
concurred, noting that providing for civilian health care in Afghanistan is a
Department of State mission.

Assessment Response. Based on the comments provided by ASD(HA), we are
redirecting this recommendation to USCENTCOM. However, the USCENTCOM
response does not meet the intent of the recommendation.
        A sustainable, independent ANSF depends on adequately functioning
civilian medical education and training, public health systems, emergency
medical services, disaster preparedness and response, physical therapy and
rehabilitation, and maternal and child health services. It is prohibitively
expensive, inefficient, and time consuming to attempt to develop these
capabilities within the ANSF for use only by the Army and/or Police.
        All Department of State civilian health sector reconstruction activities in
Afghanistan are implemented by USAID. The USAID health portfolio in Fiscal
Year 2008 was approximately $80 million, with about half of this going to direct
health services delivery via contracts with non-governmental organizations in the
11 provinces for which USAID is responsible. USAID funds about $20 million
nationally for health facility construction and rehabilitation, and invests about $20
million nationally for training midwives and community health workers. Neither
the Department of State nor USAID is funding other civilian medical education
and training, public health systems, emergency medical services, disaster
preparedness and response, physical therapy and rehabilitation, or comprehensive
maternal and child health services. The Department of Health and Human
Services and the Centers for Disease Control and Prevention are funding a
maternal health project at the Rabia Balkhi Women’s Hospital in Kabul, but they
are not funded to address comprehensive maternal and child health care services
in Kabul.
        We believe that the Department of Defense mission to develop enduring
national military and police forces in the resource-constrained Afghanistan
environment includes the identification of all funding requirements to develop
Afghan civilian health care system capabilities to support the ANSF.
Development of these civilian capabilities will determine whether the ANSF
health care system will ever be sufficiently comprehensive and sustainable. We
request that USCENTCOM respond to this re-directed recommendation.

W.2. We recommend that the Assistant Secretary of Defense for Health Affairs:

        a. Develop a U.S.-based health sector reach back support office within the
Department of Defense, in coordination with the Chairman of the Joint Chiefs of
Staff and the Commander, United States Central Command, to identify, access,
and leverage subject matter experts and future DoD efforts and those of other U.S.
Government, international, and private sector organizations (such as the
Department of State, the Department of Health and Human Services, and the U.S.
                                    131 

Agency for International Development) to promote:
   •	 Development of a sustainable integrated Afghanistan National Security
      Forces health care system,
   •	 Improved civilian medical education and public health system care,
   •	 Development of civilian health care system capabilities that will support
      the Afghanistan National Security Forces health care system development,
   •	 U.S. Mission-Afghanistan, Combined Security Transition Command-
      Afghanistan Command Surgeon, and North Atlantic Treaty Organization-
      International Security Assistance Force efforts to implement these goals.

        Management Response to Recommendation W.2.a. ASD(HA)
concurred, noting that the International Health Division (IHD) within OASD(HA)
is developing expertise and staffing for reach-back support to Combatant
Commands and the Interagency. IHD calls upon other USG agencies (such as
Department of State, Department of Health and Human Services, and the U.S.
Agency for International development, etc.), non-government organizations, and
international organizations (United Nations, World Health Organization) for
complementary strengths and expertise. This includes ongoing efforts to co­
locate interagency personnel within the IHD.

Assessment Response. The management comments partially met the intent of
the recommendation. We request that ASD(HA) provide dates for the completion
of the establishment of the U.S.-based health sector reach back office. See
recommendations W.4 and W.5 for additional comments.

        W.2.b. We recommend that the Assistant Secretary of Defense for Health
Affairs recommend to interagency counterparts the establishment of a U.S.-based
health sector reach back support office which would coordinate all U.S.
government health sector reconstruction activities in Afghanistan.

Management Comments to Recommendation W.2.b. ASD(HA) concurred
with the recommendation.

Assessment Response. The management comments met the intent of the
recommendation. We request that ASD(HA) initiate coordination with their
interagency counterparts and develop a timeline to meet the intent of this
recommendation.
W.3. We recommend that the Commander, Combined Security Transition
Command-Afghanistan:

       a. Develop and implement a tracking system, in coordination with the
Ministers of Defense and Interior, to ensure Afghanistan National Security Forces
medical personnel trained for specialty medical tasks are appropriately utilized in
Afghanistan National Security Forces health care positions.

Management Comments to Recommendation W.3.a. USCENTCOM
concurred, providing the recommendation is implemented within the scope of the
CSTC-A mission.

CSTC-A concurred and provided the following comments.

                                    132

   •	 The MoD has identified combat medic as an intensively managed Military
      Occupational Specialty (MOS). In August of 2007, the ANA Surgeon
      General, secondary to CSTC-A mentoring, reported problems with
      inappropriate use of trained personnel to the MoD. A subsequent directive
      (December 2007) from the MoD stated that this MOS must not be mal­
      assigned and tasked his Chief of Staff (CoS) to periodically monitor the
      situation to assure compliance.

   •	 Similarly, CSTC-A is supporting staff development visits within the MoI
      to periodically assess appropriate assignment of trained Trauma
      Assistance Personnel (TAP)—combat medic equivalent.

   •	 In March 2008, CSTC-A conducted 100% inventory of authorizations of
      ANA medical personnel.

   •	 CSTC-A subsequently evaluated and redefined all medical occupational
      specialties (MOS, ASI).

   •	 Plan for Solar Year 1308 is to formulate a management plan for each
      medical specialty within the ANA.

Assessment Response. The management comments partially met the intent of
the recommendation. CSTC-A should broaden this tracking and oversight to
include Afghan military and police medical personnel who participate in U.S.­
funded training programs in the United States. Please provide dates for the
completion of the tracking system.
        W.3.b. We recommend that the Commander, Combined Security
Transition Command-Afghanistan alert Minister of Defense and Minister of
Interior medical leadership when medical personnel trained for specialty medical
tasks are not being appropriately utilized in Afghanistan National Security Forces
health care positions and advise that these practices be curtailed.

Management Comments to Recommendation W.3.b. CSTC-A concurred.

Assessment Response. The management comments met the intent of the
recommendation.

W.4. We recommend that the Deputy Secretary of Defense designate the
Assistant Secretary of Defense for Health Affairs as the lead to:

        a. Develop policy for all Defense Department stability operations with a
medical component, health-related security and health sector reconstruction
activities, medical capacity building, and medical components of humanitarian
assistance and disaster response actions;

        b. Develop policy to form strategic partnerships and cooperative
mechanisms with other U.S. Government agencies for stability operations with a
medical component, health-related security and health sector reconstruction
activities, medical capacity building, and medical components of humanitarian
assistance and disaster response actions;

      c. Develop, in cooperation with other U.S. Government agencies and non­
governmental organizations, non-kinetic strategies for Combatant Commanders

                                   133 

and U.S. Embassy country teams to use medical resources in stability operations
with a medical component, health-related security and health sector
reconstruction activities, medical capacity building, and medical components of
humanitarian assistance and disaster response actions.

         d. Develop measures of performance and outcomes to meet end state
goals;

         e. Identify and program for resources required to support these tasks.


        W.5. We recommend that the Chairman, Joint Chiefs of Staff designate
the Joint Staff Surgeon as the lead to develop a mechanism to provide operational
oversight and ensure implementation of policies regarding stability operations
with a medical component, health-related security and health sector
reconstruction activities, medical capacity building, and medical components of
humanitarian assistance and disaster response actions.




                                     134

Appendix A. Scope, Methodology, and Acronyms
           Background. The DoD Office of the Inspector General performed an assessment
           of the control and accountability of Arms, Ammunition, and Explosives
           (AA&E) 51 in Iraq in September and October 2007. The results of that assessment
           and recommendations for corrective actions were published in DoD IG
           Report No. SPO-2008-001, “Assessment of the Accountability of Arms and
           Ammunition Provided to the Security Forces of Iraq,” July 3, 2008.

           During the 2007 trip, we made survey visits of approximately one week each to
           Afghanistan and Kuwait to gain a theater-wide perspective of the AA&E
           accountability and control situation in Southwest Asia, which is the U.S. Central
           Command (USCENTCOM) area of responsibility. We identified issues in
           Afghanistan that we did not fully address during this effort but which merited
           follow-up. Subsequent to the Afghanistan and Kuwait visits, the assessment team
           traveled to Iraq for the remainder of the trip.

           Expansion of Scope. The scope of the initial assessment in 2007 was expanded
           to assess issues involving the accountability and control of AA&E in Afghanistan,
           the responsiveness of U.S. Foreign Military Sales processes supporting the
           Afghan National Security Forces (ANSF) and the Iraqi Security Forces (ISF), and
           the development of logistics sustainment capability for ANSF and ISF, to include
           a related issue on building the Afghan and Iraqi military health care systems and
           its sustainment base.

           Establishment of the 2008 Assessment Team. The Inspector General assembled
           an assessment team in February 2008 to determine the status of the corrective
           actions being implemented for the accountability and control of AA&E in Iraq
           and to conduct further work on the same issue in afghanistan. We visited with
           officials from DoD staff components, USCENTCOM, the Army Materiel
           Command, and the Defense Security Cooperation Agency to finalize our
           objectives and methodology.

           The assessment team deployed to Afghanistan on April 14, 2008 and completed
           its field visit on April 18, 2008. Subsequent to the Afghanistan visit, the
           assessment team traveled to Iraq for the second leg of the trip, from April 26,
           2008 to May 17, 2008. The results of the Iraq portion of this trip will be reported
           separately.

           Methodology. We contacted, visited, or conducted interviews with officials (or
           former officials) from organizations of the U.S. Government, the U.S. DoD, the
           Government of the Islamic Republic of Afghanistan, and the North Atlantic
           Treaty Organization. Appendix D provides a complete list of those organizations.

           We also contacted, visited, or conducted interviews with officials (or former
           officials) from organizations supporting the train and equip mission in
           Afghanistan. Appendix E provides a complete list of those organizations.
           We reviewed public laws, DoD policies (directives, instructions, regulations,
           manuals, and strategic plans), Army regulations, and Combined Security

51
     We did not include an evaluation of explosives in our assessment.

                                                     135 

Transition Command-Afghanistan (CSTC-A) operations and fragmentary orders
that were relevant to the four major areas we assessed (accountability of AA&E,
foreign military sales, logistics sustainment, and medical sustainment). Appendix
F provides a complete list of those documents.

Within organizations supporting the train and equip mission in Afghanistan, we
examined or sought out policies and procedures concerning:
   •	 Accountability, control, and physical security of U.S.-supplied AA&E and
       captured, confiscated, abandoned, recovered, and turned-in weapons and
       the appropriate reporting of these weapons’ serial numbers
   •	 Data input controls and quality assurance reviews regarding the processes
       used to manage AA&E inventories
   •	 Management of security assistance programs
   •	 Plans for the development of ANSF logistics and medical sustainability
   •	 Guidance and plans on missions, roles, responsibilities applicable to
       U.S. training teams and mentors that were training and mentoring the
       Ministry of Defense, Ministry of Interior, and ANSF organizations
   •	 Guidance on the training, development of the skill sets, and personnel
       practices related to U.S. training team and mentor personnel
   •	 Plans for the integration of medical functions within the Afghan National
       Army and the Afghan National Police into a common ANSF medical
       corps
   •	 Plans to develop key the Afghan civilian health care system capabilities
       needed to support ANSF
   •	 Plans to develop a comprehensive, integrated, multi-year program to build
       strategic medical partnerships among organizations such as the:
             U.S. Mission-Afghanistan
             Office of the Assistant Secretary of Defense for Health Affairs
             USCENTCOM
             North Atlantic Treaty Organization-International Security
                Assistance Force
             CSTC-A
             Afghan Ministries of Defense, Interior, Public Health, and Higher
                Education
             Other U.S. Government, international, and private sector
                organizations (e.g. the Department of State, the Department of
                Health and Human Services, and the U.S. Agency for International
                Development) to support broad reconstruction of the health sector
Our success in finding existing policies and procedures and the validity of the
contents, if determined, are discussed in the observations of this report.

We assessed the management and results of programs for the accountability of
AA&E, foreign military sales, logistics sustainment, and medical sustainment.
We believe that the documents reviewed, personnel interviewed, and other


                                   136

evidence obtained provides a reasonable basis for our conclusions, based on our
assessment objectives.

Use of Technical Assistance. We did not use Technical Assistance to perform
this assessment.

Acronyms Used in this Report. The following is a list of the acronyms used in
this report.

AA&E                  Arms, Ammunition, and Explosives
ANA                   Afghan National Army
ANP                   Afghan National Police
ANSF                  Afghan National Security Forces
ARSIC                 Afghan Regional Security Integration Command
ASD(HA)               Assistant Secretary of Defense (Health Affairs)
CMA                   Central Movement Agency
CSTC-A                Combined Security Transition Command-Afghanistan
DoDD                  DoD Directive
DoDI                  DoD Instruction
DoD IG                Department of Defense Inspector General
DGR                   Designated Government Representative
DRD-Log               Defense Reform Directorate – Logistics
DTG                   Date / Time / Group
ETT                   Embedded Training Team
FMS                   Foreign Military Sales
FRAGO                 Fragmentary Order - a change to an Operations Order
GAO                   Government Accountability Office
GIRoA                 Government of the Islamic Republic of Afghanistan
IHD                   International Health Division
IMET                  International Military Education and Training
IMS                   Information Management System
ISAF                  North Atlantic Treaty Organization-International Security
                      Assistance Force
ISF                   Iraq Security Forces
JMD                   Joint Manning Document
JTD                   Joint Tables of Distribution
JMETLs                Joint Mission Essential Task Lists
KRMH                  Kandahar Regional Military Hospital
LOA                   Letter of Offer and Acceptance
LSOC                  Logistics support Operations Center
MHS                   Military Health System
MMU                   Multi-National Medical Unit
MNSTC-I               Multi-National Security Transition Command-Iraq
MoD                   Ministry of Defense (Afghanistan)
MoI                   Ministry of Interior (Afghanistan)
MoPH                  Ministry of Public Health
MOS                   Military Occupational Specialty
NMH                   National Military Hospital
OMLT                  Operational Mentor and Liaison Team
PMT                   Police Mentor Team
PRT                   Provincial Reconstruction Team
RFF                   Request for Forces
RH                    Regional Hospital
SA/LW                 Small Arms/Light Weapons
                                   137 

SAO         Security Assistance Office
SIGIR       Special Inspector General for Iraq Reconstruction
SSTR        Stability, Security, Transition, and Reconstruction
UNANBP      United Nations Afghan New Beginnings Program
U.S.C.      United States Code
USCENTCOM   U.S. Central Command
USD(P&R)    Under Secretary of Defense for Personnel and Readiness
USG         United States Government
USJFCOM     U.S. Joint Forces Command




                        138

Appendix B. Summary of Prior Coverage 

      During the last 5 years, the Government Accountability Office (GAO), the
      Special Inspector General for Iraq Reconstruction (SIGIR), and the Department of
      Defense Inspector General (DoD IG) have issued four reports and testimony
      discussing the accountability and control over munitions and other equipment
      provided to the Iraq Security Forces. Unrestricted GAO reports can be accessed
      over the Internet at http://www.gao.gov. Unrestricted SIGIR reports can be
      accessed over the Internet at http://www.sigir.mil. Unrestricted DoD IG reports
      can be accessed at or at http://www.dodig.mil/audit/reports or at
      http://www.dodig.mil/inspections/ie/reports

GAO
      GAO Report No. GAO-07-711, “STABILIZING IRAQ: DOD Cannot Ensure
      That U.S.-Funded Equipment Has Reached Iraqi Security Forces,” July 2007

      GAO Report No. GAO-07-582T, “OPERATION IRAQI FREEDOM: Preliminary
      Observations on Iraqi Security Forces’ Logistical Capabilities,” March 2007

      GAO Report No. GAO-07-308SP, “SECURING, STABILIZING, AND
      REBUILDING IRAQ: Key Issues for Congressional Oversight,” January 2007

SIGIR
      SIGIR Report No. SIGIR-06-033, “Iraqi Security Forces: Weapons Provided By
      the U.S. Department of Defense Using the Iraq Relief and Reconstruction Fund,”
      October 2006

DoD IG
      DoD IG Report No. SPO-2008-001, “Assessment of the Accountability of Arms
      and Ammunition Provided to the Security Forces of Iraq,” July 3, 2008

      DoD IG Report No. D-2008-026, “Management of the Iraq Security Forces Fund
      in Southwest Asia - Phase III,” November 2007

      DoD IG Report No. IE-2005-002, “Interagency Assessment of Iraq Police
      Training,” July 2005 (the Department of State Office of Inspector General
      participated in this assessment and issued Report No. ISP-IQO-05-72)

      Summary of DoD IG Report No. SPO-2008-001. This classified report resulted
      from a request by the Secretary of Defense, the Chairman of the Joint Chiefs of
      Staff, and congressional leadership that the DoD Inspector General send a team to
      review the current accountability and control over arms and ammunition provided
      to the Iraq Security Forces (ISF). The assessment resulted in 45
      recommendations on policies and procedures, personnel resources, and
      infrastructure related to:
          • Accountability of arms and ammunition destined for or turned over to ISF
          • Effectiveness of the Foreign Military Sales program with regard to ISF

                                         139 

         • Effectiveness of the effort to develop the logistics capability of ISF
Summary of DoD IG Report No. D-2008-026. This report showed that:
  •	 The Multi-National Security Transition Command-Iraq (MNSTC-I) was not
     always able to demonstrate proper accountability for and management of Iraq
     Security Forces Fund purchases and could not always demonstrate that the
     delivery of services, equipment, and construction was properly made to ISF.

       •	 This occurred because the MNSTC-I did not have sufficient controls and
          procedures in place, did not maintain adequate oversight, and did not maintain
          accountable property records. In addition, the Multi-National Security Transition
          Command-Iraq did not have adequate resources for efficient management of
          services, equipment, and construction purchased through the Iraq Security Forces
          Fund.

  •	 As a result, the MNSTC-I was unable to provide reasonable assurance that funds
     appropriated for ISF achieved the intended results that resources were used in a
     manner consistent with the mission, and that resources were protected from waste
     and mismanagement.
Summary of Government Accountability Office Report No. GAO-07-711.

This report showed that:
   •	 DoD and the Multi-National Force-Iraq (MNF-I) had not specified which DoD
       accountability procedures, if any, applied to the train and equip program for Iraq
       as of July 2007.

       •	 The MNF-I did not have orders that comprehensively specified accountability
          procedures for equipment distributed to ISF as of July 2007.

       •	 DoD and the MNF-I could not fully account for ISF receipt of U.S.-funded
          equipment.

       •	 A discrepancy of at least 190,000 weapons existed between data reported by the
          former MNSTC-I commander and the MNSTC-I property books.

Summary of Special Inspector General for Iraq Reconstruction Report No. SIGIR-
06-033.

This report showed that:
   •	 Twelve types of small arms (a total of 370,251 weapons) had been purchased for
       ISF, using Iraq Relief and Reconstruction Fund funds, through 19 contracts issued
       as of April 26, 2005. The report also showed that 12 types of small arms (a total
       of 134,842 weapons) had been procured using funding sources other than Iraq
       Relief and Reconstruction Fund for a total of 505,093 weapons 52 issued and
       warehoused (pending issue) as of September 4, 2006.

       •	 Weapons accountability was questionable in two property books maintained by
          the MNSTC-I for the Iraqi MoD and the MoI. The property books did not show a

52
     The report noted that this is the total issued and on-hand quantity (pending issue) as reflected in the two
     MNSTC-I maintained property books as of September 4, 2006.

                                                        140

            combined inventory quantity of sufficient numbers to account for the three types
            of weapons procured for ISF using Iraq Relief and Reconstruction Fund funds.
            Iraq Relief and Reconstruction Fund funds were used to purchase 178,135 of the
            3 types of weapons but the two property books totals showed only 164,105 on
            record, a variance of 14,030 weapons or about 7.9 percent. 53

       •	 Serial numbers were not always registered in the DoD Registry of the Small Arms
          Serialization Program for the weapons purchased by DoD and provided to ISF.
          Only 2 of the 19 Iraq Relief and Reconstruction Fund -funded contracts contained
          requirements specifying that the contractor provide weapons serial numbers for
          the DoD Small Arms Serialization Program. The report noted that this
          information suggested that only 10,000 of the 370,251 Iraq Relief and
          Reconstruction Fund -funded weapons, or about 2.7 percent, may have been
          recorded in the DoD Registry. MNSTC-I property books contained serial
          numbers for only 12,128 of the total 505,093 weapons issued and warehoused or
          about 2 percent of the weapons provided. 54




53
      The report noted that the combined quantity of these three items from the two MNSTC-I maintained
     property books could reasonably be expected to also include weapons from a variety of sources; such as
     weapons donated, captured, and purchased with funds other than the Iraq Relief and Reconstruction
     Fund.
54
      The report noted that this is the total issued and on-hand quantity (pending issue) as reflected in the two
     MNSTC-I maintained property books as of September 4, 2006. The property books reflect all weapons,
     regardless of funding source, and the counts were not exclusive to Iraq Relief and Reconstruction Fund ­
     procured weapons.

                                                        141 

This Page Intentionally Left Blank




               142

Appendix C. Glossary
   This appendix provides definitions of terms used in this report.

   Accountability - DoD Instruction 5000.64, “Accountability and Management of
   DoD-Owned Equipment and Other Accountable Property,” November 2, 2006,
   states that accountability is the obligation imposed by law, lawful order, or
   regulation, accepted by an organization or person for keeping accurate records, to
   ensure control of property, documents, or funds, with or without physical
   possession. The obligation, in this context, refers to the fiduciary duties,
   responsibilities, and obligations necessary for protecting the public interest.
   However, it does not necessarily impose personal liability upon an organization or
   person.

   Arms, Ammunition, and Explosives – The “Department of Defense Strategic
   Plan for the Distribution of Arms, Ammunition, and Explosives,” (AA&E
   Strategic Plan) May 2004, states:
          Arms, Ammunition, and Explosives (AA&E) is a broad categorical
          concept, which can have multiple interpretations and definitions. Each
          of the DoD military services and agencies, plus the federal government
          (through the Code of Federal Regulations), have various definitions
          which can apply to material that may be considered AA&E, yet there is
          no standard definition.
   For the AA&E Strategic Plan, AA&E is a term used to inclusively mean weapons,
   components requiring special controls, ammunition or munitions for those
   weapons, and other conventional items or materials with explosive, chemical, or
   electro-explosive properties designed for and/or capable of inflicting property
   damage, and death or injury to humans and animals. Items should be considered
   for inclusion in the AA&E category if they meet any of the following tests:
          a.	 Possession of, or access to the item is controlled due to potential
              risk associated with loss of the item, or its use for unintended
              purposes by unauthorized persons.
          b.	 The handling, transporting, storage, or use of the item presents a
              potential safety risk for the general population, and the risk must
              be controlled through visibility and specific procedures.
          c.	 The handling, transporting, storage, or use of the item presents a
              potential or known security risk. Exceptional care must be taken
              to maintain accountability over the item and information about it,
              to preclude disclosure of classified or sensitive information, or to
              prevent unauthorized persons from accessing or acquiring the item
              intentionally or unintentionally.
   DoD Military Health System - The DoD Military Health System (MHS) mission
   is to provide optimal health services in support of our nation’s military mission—
   anytime, anywhere. The MHS is a partnership of medical educators, medical
   researchers, healthcare providers, and their support personnel worldwide. The
   MHS consists of the Office of the Assistant Secretary of Defense for Health
   Affairs; the medical departments of the Military Services, and Joint Chiefs of
   Staff; the Combatant Command surgeons; and TRICARE providers (including
   private sector healthcare providers, hospitals and pharmacies).

                                           143 

DoD Small Arms/Light Weapons Registry - DoD 4000.25-M, “Defense
Logistics Management System,” Volume 2, Chapter 18 (“Small Arms and Light
Weapons Serial Number Registration and Reporting”), Change 5, March 25,
2008, states that the DoD Small Arms/Light Weapons Registry is the DoD central
repository for small arms and light weapons serial numbers. The registry serves
as the single point of access for inquires relating to the last known record of small
arms and light weapons serial numbers. Serial numbers are provided by the
Component Registries on a scheduled and as required basis.

Force Multiplier – Joint Publication 1-02, “DoD Dictionary of Military and
Associated Terms,” as amended through October 17, 2007, states that a force
multiplier is a capability that, when added to and employed by a combat force,
significantly increases the combat potential of that force and thus enhances the
probability of successful mission accomplishment.

Foreign Military Sales Cases - The Foreign Military Sales (FMS) Program is
that part of security assistance authorized by the Arms Export Control Act and
conducted using formal agreements between the U.S. Government and an
authorized foreign purchaser or international organization.

These agreements, called Letters of Offer and Acceptance (LOA), are signed by
both the U.S. Government and the purchasing government or international
organization. The LOA provides for the sale of defense articles and/or defense
services (to include training) usually from DoD stocks or through procurements
under DoD-managed contracts. As with all security assistance, the FMS program
supports U.S. foreign policy and national security objectives.

DoD Financial Management Regulation Volume 15, Definitions, April 2002
(current as of July 17, 2008), defines a FMS case as a U.S. DoD LOA and
associated supporting and executing documents.

Foreign Military Sales Pseudo Cases – According to personnel at the Defense
Security Cooperation Agency, the pseudo LOA or case is used by the U.S.
Government to track the sale of defense articles and/or services (to include
training and design and construction services) and are generally funded by a
U.S. Government entity (for example, the U.S. Government DoD funding
provided to the Afghanistan Security Forces Fund is used to fund pseudo
FMS cases for Afghanistan).

The pseudo LOA itemizes the defense articles and services included in the Letter
of Request. However, the pseudo LOA is not signed by the foreign purchaser or
international organization receiving the articles and/or services. The pseudo LOA
is authorized by public law and the Arms Export Control Act.

Foreign Military Sales Trust Fund – According to the “FMS Customer
Financial Management Handbook (Billing),” Defense Institute of Security
Assistance Management and Defense Finance and Accounting Service Center,
Tenth Edition, March 2006, a fund established for each FMS customer country
for recording all financial transactions for use in carrying out our specific
purposes and programs in accordance with an agreement. The Trust Fund does
not include monies on deposit in an approved Federal Reserve Bank New York
account or in a commercial interest bearing account until withdrawn by Defense
Finance and Accounting Service.

                                    144

Implementing Agency - According to the “FMS Customer Financial
Management Handbook (Billing),” the U.S. Military Department or Defense
Agency responsible for the execution of military assistance programs. With
respect to FMS, the Military Department or Defense Agency assigned
responsibility by the Defense Security Assistance Agency to prepare an LOA and
to implement an FMS case. The implementing agency is responsible for the
overall management of the actions which will result in delivery of the materials or
services set forth in the LOA which was accepted by a foreign country or
international organization.

Joint Manning Document – Chairman of the Joint Chiefs of Staff Instruction
1301.01C, “Individual Augmentation Procedures,” January 1, 2004 (current as
May 1, 2006) states that a manning document of unfunded temporary duty
positions constructed for or by a supported combatant commander that identifies
the specific individual augmentation positions to support an organization during
contingency operations.

Joint manning documents (JMDs) for permanent activities with a joint table of
distribution or joint table of mobilization distribution should only identify
individual augmentation positions for temporary military or DoD personnel.

JMDs for activities without a joint table of distribution or joint table of
mobilization distribution (e.g., some joint task forces) should identify all positions
required for that activity to support the mission. Positions should be identified as
unit fill, coalition fill, civilian/contractor fill, or individual augmentation fills on
the JMD.

Letter of Offer and Acceptance - DoD Financial Management Regulation
Volume 15, Definitions, April 2002, defines a LOA as the authorized document
for use by the U.S. Government to offer to sell defense articles and defense
services to a foreign country or international organization and notes that a
signature by the purchaser represents acceptance of the offer.

Letter of Request - According to the “FMS Customer Financial Management
Handbook (Billing),” the term used to identify a request from an eligible FMS
participant country for the purchase of U.S. defense articles and services.

Logistics - Joint Publication 1-02 states that logistics is the science of planning
and carrying out the movement and maintenance of forces. In its most
comprehensive sense, those aspects of military operations that deal with:
   a.	 design and development, acquisition, storage, movement, distribution,
       maintenance, evacuation, and disposition of materiel

    b.	 movement, evacuation, and hospitalization of personnel

    c.	 acquisition or construction, maintenance, operation, and disposition of
        facilities

    d.	 acquisition or furnishing of services.




                                      145 

Military Support to Stability, Security, Transition and Reconstruction - DoD
Directive 3000.05, Military Support for Stability, Security, Transition, and
Reconstruction (SSTR) Operations,” November 28, 2005, defines military support
to SSTR as DoD activities that support U.S. Government plans for stabilization,
security, reconstruction and transition operations, which lead to sustainable peace
while advancing U.S. interests.

Munitions – Joint Publication 1-02 states that munitions, in common usage, can
be military weapons, ammunition, and equipment.

Security - Joint Publication 1-02 defines security as a condition that results from
the establishment and maintenance of protective measures that ensure a state of
inviolability from unintentional or directly hostile acts or influences. For the
purpose of the AA&E Strategic Plan, security entails visibility over and
physically keeping AA&E in the custody of only those with specific
authorization, and the ability to quickly identify and respond to situations or
incidents of actual or potential compromise of AA&E while in the logistics chain.

Security Assistance Organizations - DoD Directive 2055.3, "Manning of
Security Assistance Organizations and the Selection and USDP Training of
Security Assistance Personnel," March 11, 1985, defines security assistances
organizations as all DoD Component elements, regardless of actual title, located
in a foreign country with assigned responsibilities for carrying out security
assistance management functions under Section 515 of Public Law 87-195,
"Foreign Assistance Act of 1961," September 4, 1961 (22 U.S.C. 2151 et seq.)

Small Arms - Joint Publication 1-02 defines small arms as man portable,
individual, and crew-served weapon systems used mainly against personnel and
lightly armored or unarmored equipment.

Small Arms and Light Weapons - DoD 4000.25-M states that for the purpose of
DoD small arms and light weapons reporting, small arms and light weapons are
defined as man-portable weapons made or modified to military specifications for
use as lethal instruments of war that expel a shot, bullet or projectile by action of
an explosive.

Small Arms are broadly categorized as those weapons intended for use by
individual members of armed or security forces. They include handguns; rifles
and carbines; sub-machine guns; and light machine guns.

Light weapons are broadly categorized as those weapons designed for use by two
or three members of armed or security forces serving as a crew, although some
may be used by a single person. They include:
    • Hand-held under-barrel and mounted grenade launchers
    • Heavy machine guns
    • Man-portable launchers of missile and rocket systems
    • Mortars
    • Portable anti-aircraft guns
    • Portable anti-tank guns
    • Recoilless rifles

                                    146

Small Arms and Light Weapons Serial Number - DoD 4000.25-M states that
the serial number is the total series of characters appearing on the firing
component part of a small arm or light weapon.

Stability Operations – DoD Directive 3000.05 defines stability operations as
military and civilian activities conducted across the spectrum from peace to
conflict to establish or maintain order in States and regions.




                                  147 

This Page Intentionally Left Blank




               148

Appendix D. 	Organizations Contacted and
             Visited
   We visited, contacted, or conducted interviews with officials (or former officials)
   from organizations of the U.S. Government, the U.S. DoD, the Government of the
   Islamic Republic of Afghanistan, and the North Atlantic Treaty Organization.

   U. S. Government Non-DoD Organizations 

      Department of State 

         •	 The Charge d’ Affaires to the Government of Afghanistan and officials
            assigned to the U.S. Embassy Afghanistan

         •	 Officials assigned to the Office of International Health
      Department of Health and Human Services
         • Officials assigned to the U.S. Public Health Service
      Government Accountability Office
         •	 International Affairs and Trade Team
      U.S. Agency for International Development
         •	 Officials assigned to the Bureau for Global Health


   U. S. Government DoD Organizations 

      Office of the Secretary of Defense 

         •	 The Secretary of Defense and the Deputy Secretary of Defense

          •	 Officials assigned to the Office of the Under Secretary of Defense for
             Acquisition, Technology, and Logistics

          •	 The Under Secretary of Defense (Comptroller)/Chief Financial Officer

          •	 Officials assigned to the Office of the Under Secretary of Defense for
             Personnel and Readiness

         •	 Officials assigned to the Office of the Under Secretary of Defense for
            Policy
      The Joint Staff
         •	 The Chairman of the Joint Chiefs of Staff and the Vice Chairman of
            the Joint Chiefs of Staff

          •	 The Director, Joint Staff



                                      149 

  Department of the Army
     •	 Officials assigned to the U.S. Army Materiel Command

     •	 Officials assigned to the U.S. Army Materiel Command Logistics
        Support Activity

     •	 Officials assigned to the U.S. Army Security Assistance Command
  Department of the Navy

     •   Officials assigned to the Navy International Programs Office

  Department of the Air Force

     •	 Officials assigned to the Office of the Deputy Under Secretary for
        International Affairs

     •	 Officials assigned to the Air Force Security Assistance Center

  U.S. Central Command
     •	 The Acting Commander, U.S. Central Command; the Acting Deputy
         Commander, U.S. Central Command; and key senior staff members

     •	 The Commander, Combined Security Transition Command-
        Afghanistan and key staff members

     •	 Key members of the Afghanistan office, Joint Contracting Command­
         Iraq/Afghanistan
  U.S. Transportation Command
     •	 Officials from U. S. Transportation Command
  Defense Agencies
     •	 Officials assigned to the Defense Finance and Accounting Service
         Indianapolis – Security Assistance Accounting office

     •	 Officials assigned to the Defense Logistics Agency

     •	 Officials assigned to the Defense Security Cooperation Agency


Government of the Islamic Republic of Afghanistan
  Ministry of Defense
    •	 Minister of Defense and staff

     •	 Assistant Minister of Defense for Acquisition, Technology, and
        Logistics

     •	 Inspector General and staff

     •	 Surgeon General

                                150

     •	 Afghan National Army Logistics Command

     •	 Central Movement Activity

     •	 Depot 1 – main supply depot for the Afghan National Security Forces

    •	 22 Bunkers – National Ammunition Depot for Afghan National Army
        and the National Weapons and Ammunition Depot for Afghan
        National Police
  Ministry of Interior
    •	 Minister of Interior

    •	 Inspector General
  Ministry of Health
    •	 Deputy Minister of Public Health
  Ministry of Higher Education
    •	 Chancellor of Kabul Medical University

North Atlantic Treaty Organization
     •	 Officials from the Office of the Medical Advisor; Headquarters, North
        Atlantic Treaty Organization-International Security Assistance Force;
        Kabul, Afghanistan




                                151 

This Page Intentionally Left Blank




               152

Appendix E. 	Organizations Supporting the Train
             and Equip Mission in Afghanistan
           Government of the Islamic Republic of Afghanistan Organizations.

           Ministry of Defense. Ministry of Defense forces are primarily the Afghan
           National Army (ANA), a basic light-infantry force that was currently 55,000
           strong with an ultimate end-state of 80,000 troops. The ANA was organized into
           five ground maneuver corps 55 and a supporting air corps. The ANA is dependent
           on partnering with Coalition forces to conduct counterinsurgency operations.

           Supporting organizations include the ANA Training Command, which is
           comprised of the National Military Academy of Afghanistan, the Command and
           General Staff College, the Kabul Military Training Center, the Regional Basic
           Warrior training center, the Drivers and Mechanics School, and the National
           Military High School.

           Ministry of Interior. Ministry of Interior forces are primarily the Afghan
           National Police (ANP) that is currently 78,000 strong with an ultimate end-state
           of 82,000 police. The ANP force is comprised of the Afghan Uniformed Police
           (law enforcement patrolmen); the Afghan Border Police, which staff border
           checkpoints, control the passage of personnel departing and entering the country,
           and collect tariffs; the Afghan Civil Order Police, which acts as a national Quick
           Reaction Force and performs crowd control throughout Afghanistan; the Counter
           Narcotics Police; the Criminal Investigation Police; the Counter Terrorism Police;
           and the Afghan National Auxiliary Police, which are policemen trained and
           deployed to address the security threat throughout Afghanistan while serving on
           one-year contracts.

           Afghan National Security Forces. Afghan National Security Forces are
           comprised of ANA and ANP.

           DoD Organizations in Southwest Asia.

                   U.S. Central Command. The U.S. Central Command (USCENTCOM) is
           one of the combatant commands and is headquartered at MacDill Air Force Base,
           Tampa, Florida. Its area of responsibility includes 27 nations that stretch from the
           Horn of Africa, throughout the Arabian Gulf Region, into Central Asia. The
           mission of USCENTCOM is:
                    U.S. Central Command, working with national and international
                    partners, promotes development and cooperation among nations,
                    responds to crises, and deters or defeats state and transnational
                    aggression in order to establish regional security and stability.

                  Combined Security Transition Command-Afghanistan. Formerly the
           Office of Military Cooperation-Afghanistan, the Combined Security Transition
           Command-Afghanistan (CSTC-A) is headquartered at Camp Eggers, Kabul,
           Afghanistan, and is a subordinate command of USCENTCOM.
55
     An Afghan corps is a division-sized organization.

                                                     153 

The mission of CSTC-A is:
       The mission of CSTC-A, in partnership with the Government of the
       Islamic Republic of Afghanistan and the international community, is to
       plan, program and implement structural, organizational, institutional
       and management reforms of the Afghanistan National Security Forces
       in order to develop a stable Afghanistan, strengthen the rule of law, and
       deter and defeat terrorism within its borders.



CSTC-A also manages the use of appropriated Afghanistan Security Forces Funds
in Afghanistan.




                                         154

Appendix F. United States Code and DoD Policies
     The United States Code (U.S.C.) requires accountability and control over
     U.S. Government property. DoD policies that apply to the accountability, control,
     and physical security of property are outlined in this appendix, as well policies
     governing certain aspects of the management of stability, security, transition, and
     reconstruction operations; training; security assistance and foreign military sales;
     logistics; and medical functions.

Stability, Security, Transition, and Reconstruction
     DoD Directive (DoDD) 3000.05, Military Support for Stability, Security,
     Transition, and Reconstruction (SSTR) Operations,” November 28, 2005,
     provides guidance on stability operations that will evolve over time as joint
     operating concepts, mission sets, and lessons learned develop and establishes
     DoD policy and assigns responsibilities within the DoD for planning, training,
     and preparing to conduct and support stability operations. The Directive also
     states it is DoD policy that:
            Stability operations are a core U.S. military mission that the
            Department of Defense shall be prepared to conduct and support. They
            shall be given priority comparable to combat operations and be
            explicitly addressed and integrated across all DoD activities including
            doctrine, organizations, training, education, exercises, materiel,
            leadership, personnel, facilities, and planning.
            Stability operations are conducted to help establish order that advances
            U.S. interests and values. The immediate goal often is to provide the
            local populace with security, restore essential services, and meet
            humanitarian needs. The long-term goal is to help develop indigenous
            capacity for securing essential services, a viable market economy, rule
            of law, democratic institutions, and a robust civil society.
            Many stability operations tasks are best performed by indigenous,
            foreign, or U.S. civilian professionals. Nonetheless, U.S. military
            forces shall be prepared to perform all tasks necessary to establish or
            maintain order when civilians cannot do so. Successfully performing
            such tasks can help secure a lasting peace and facilitate the timely
            withdrawal of U.S. and foreign forces.


Training
     DoDD 1322.18, “Military Training”, September 3, 2004, states that: This
     Directive updates policies and responsibilities for training military personnel, units,
     and staffs; and for training DoD personnel and the DoD Components that support the
     operational needs of the Combatant Commanders.




                                             155 

Arms, Ammunition, and Explosives
            The Arms, Ammunition, and Explosives Strategic Plan. The “Department of
            Defense Strategic Plan for the Distribution of Arms, Ammunition, and
            Explosives,” (AA&E Strategic Plan) May 2004, was developed to improve the
            oversight, management, control, safety, and security of AA&E across the entire
            DoD logistics chain. 56

            The AA&E Strategic Plan states:
                     The Department of Defense faces a significant challenge as it seeks to
                     protect and safely test, acquire, produce, store, transport, maintain, and
                     dispose of its arms, ammunition and explosives (AA&E) while it
                     effectively meets the requirements of warfighters for timely supplies of
                     AA&E worldwide. Meeting these demands must be effective and
                     efficient in the face of an ever-changing and growing threat
                     environment. Terrorists, or other individuals or entities pursuing their
                     own agenda, seek to exploit the vulnerabilities of the United States and
                     use our nation's AA&E and conveyances in ways never conceived
                     before.
            Accountability and Control for U.S. Government Property. Title 40 U.S.C.,
            section 524 states:
                     (a) Required. - - Each executive agency shall - -
                     (1) maintain adequate inventory controls and accountability systems for
                     property under its control
            Accountability and Control for DoD Property. DoD Instruction (DoDI)
            5000.64, “Accountability and Management of DoD-Owned Equipment and Other
            Accountable Property,” November 2, 2006:
               •	 Provides policy and procedures for DoD-owned equipment and other
                   accountable property and establishes policy and procedures to comply
                   with 40 U.S.C. section 524.
               •	 Requires that accountable property records shall be established for all
                   property purchased, or otherwise obtained, that are sensitive as defined in
                   DoD 4100.39-M, “Federal Logistics Information System,” Volume 10,
                   Table 61, November 2007.
            Memorandum, “CENTCOM Weapons and Munitions Accountability
            Awareness,” July 3, 2008, reiterates existing guidance related to weapons and
            munitions control within the USCENTCOM area of responsibility.

            Sensitive Equipment Items. DoD 4100.39-M, “Federal Logistics Information
            System,” Volume 10, Table 61, November 2007, states that sensitive items are
            materiel that requires a high degree of protection and control due to statutory

56
      The DoD AA&E logistics chain comprises a partnership of commercial and internal DoD (organic)
     capabilities, assets and infrastructure, business processes, and technologies. While this [AA&E Strategic]
     plan does not specifically address actions involving tactical in-theater movement of AA&E, it is the
     responsibility of the theater combatant commander to implement AA&E safety and security measures
     commensurate with his mission and the threats and risks within his assigned geographic area of
     responsibility (see DoD 5100.76-M, Physical Security of Sensitive Conventional Arms, Ammunition, and
     Explosives,” August 12, 2000).

                                                       156

requirements or regulations. It defines sensitive items as items of high value,
highly technical or of a hazardous nature, and small arms, ammunition,
explosives, and demolition material.

Physical Security of Arms, Ammunition, and Explosives. DoDI 5100.76,
“Safeguarding Conventional Arms, Ammunition, and Explosives (AA&E) and the
AA&E Physical Security Review Board,” October 8, 2005, and related guidance
cited in the Instruction apply to the accountability and control of AA&E and other
designated sensitive items. DoDI 5100.76 outlines the authorities,
responsibilities, and functions relative to worldwide uniform policy, standards,
and guidance for the physical security of conventional AA&E in the possession or
custody of the DoD Components.

DoD 5100.76-M, “Physical Security of Sensitive Conventional Arms,
Ammunition, and Explosives,” August 12, 2000, prescribes minimum standards
and criteria for the physical security of DoD sensitive conventional AA&E and
prescribes minimum standards and criteria for the physical security of DoD
sensitive conventional AA&E, including non-nuclear missiles and rockets.

DoD 5200.08-R, “Physical Security Program,” April 9, 2007, implements DoD
policies and minimum standards for the physical protection of DoD personnel,
installations, operations, and related resources, to include the security of weapons
systems and platforms.

Small Arms and Light Weapons Serialization Program. DoDD 4140.1,
“Supply Chain Materiel Management Policy,” April 22, 2004, states
       DoD materiel management shall be structured to be responsive to
       customer requirements during peacetime and war” and that the Under
       Secretary of Defense for Acquisition, Technology, and Logistics shall
       “Monitor the overall effectiveness and efficiency of the DoD logistics
       system, and continually develop improvements.
DoD 4000.25-M, “Defense Logistics Management System,” Volume 2,
Chapter 18 (“Small Arms and Light Weapons Serial Number Registration and
Reporting”), Change 5, March 25, 2008:
   •	 Implements DoDD 4140.1 and states that the provisions of Chapter 18
       apply to the DoD Components responsible for inventory management of
       small arms and light weapons (SA/LW) and other activities involved in
       the shipment, registration, or receipt of SA/LW.
   •	 Provides procedures for reporting SA/LW serial number data between the
       DoD Components and the DoD Registry. SA/LW, including those
       mounted on aircraft, vehicles, and vessels, that are accounted for in
       unclassified property records, will be reported (included will be foreign
       and commercial weapons, museum pieces with serial numbers, and
       captured, confiscated, or abandoned enemy SA/LW).
DoD 4000.25-2-M, “Military Standard Transaction Reporting and Accounting
Procedures,” September 2001, Chapter 12 (“Small Arms Serial Number
Registration and Reporting,”), Change 5, January 2006, and DoD 4140.1-R,
"DoD Supply Chain Materiel Management Regulation," May 23, 2003, also
implement DoDD 4140.1. However, these documents are less current than DoD
4000.25-M.


                                       157 

Appendix H. Management Comments 


                           DEP.UTY
                           DEPUTY UNDER
                                   UNDER SECRETARY OF OF DEFENSE  FOR 

                                                          DEFENSE FOR
                               LOGISTICS
                               LOGISTICS AND
                                          AND MATERIEL
                                              MATERIEL READINESS 

                                     3500
                                     3500 DEFENSE PENTAGON
                                                  PENTAGON 

                                   WASHINGTON.  DC20301·3500
                                    WASHINGTON.DC   20301-3500 



                                                SEP
                                                SEP 11 5520CA
                                                          1000


  ME MORANDUM FOR
  MEMORANDUM  FOR PRThlCIPAL DEPUTY,
                  PRINCIPAL  DEPUTY,SPECIAL
                                     SPECIAL PLANS & OPERATIONS,
                                                     OPERATIONS,
                     OFFICE OF 1HE
                     OFFICE OF THE INSPECTOR
                                   INSPECTOR GENERAL,
                                              GENERAL,
                     DEPARTMENT OF
                     DEPARTMENT   OF DEFENSE
                                     DEFENSE

  THROUGH, DIRECTOR,ACQUISITION RESOURCES AND ANAL
  THROUGH: DIRECTOR,                              YSIS
                                              ANALYSIS                                      �
                                                                                            out
                                                                                               \     O�
                                                                                                  ..,E)
                                                                                                       51


  S
  SUBJECT: Report on the Assessment of
   UBJECT: Report                    of Anns,  Ammunition,,and
                                        Arms, Ammunition    and Explosives
                                                                 Explosives Accountability
                                                                            Accountability
           and Control; Security Assistance; and Sustainment fur the Afghan
                                                 Sustainment for     Mghan National Security
                Forces (project
                       (Project No.
                                No. D2008�DOOOIG�014LOOI)
                                    D2008-D000IG-0141.001)

              requested, II am
          As requested,     am providing responses to the general content and recommendations
                                                                              recommendations
    ontained in the subject
  ccontained                 report
                    subject report.

  RecommendatioQK.2;
  Recommendation K.2; We
                      Werecommend
                          recommendthat
                                    thatthe
                                         the Under Secretary of
                                             Under Secretary ofDefense      Acquisition,
                                                                Defense for Acquisition,
  T echnology,and Logistics,
  Technology,                     coordinationwith
                               in coordination
                    Logistics, in               withthe
                                                     theUnder
                                                         UnderSecretary
                                                                Secretary of
                                                                           ofDefense
                                                                               Defense for
                                                                                        for Personnel and
  Readiness,
    eadiness, devdop
               develop and
                       and implement
                            implement comprehensive
                                       comprehensive logistics
                                                        logistics training
                                                                  training for
                                                                           for the
                                                                                the logistics
                                                                                    logistics mentors
                                                                                              mentors
  deploying toto Mgbanistan
                 Afghanistan that meets the
                                         the requirements  of the Commander,U.S.
                                             requirements of       Commander, U.S. Central
                                                                                        Central
  C ommand,1
  Command.'

  Res  poWle: Non-concur.
  RESDOILSE:        Non-concur. AsAsstated
                                      statedononPage
                                                 Page5050ofofsubject
                                                              subjectreport.
                                                                      report,USD
                                                                              USDP&R,
                                                                                    P&R,Joint
                                                                                           Joint Chiefs
                                                                                                 Chiefs ofof
  S taff,Geographic
  Staff, Geographic Combatant
                        Combatant Co    mmands,and
                                     Commands,           the Military
                                                   and the    Military Departments
                                                                       Departments have
                                                                                      have aa role
                                                                                              role in
                                                                                                   in future
                                                                                                      future
  mentor
  mentor training.
            training. Suggest rec  ommendation be re�directed
                                recommendation                       as AT&L
                                                        re-directed as  AT&L does     not develop
                                                                                does not  developand and      -

  implement specific
                specific training fur
                                  for deploying personnel      and units. If
                                                   personnel and          If there is a need for joint logistics
  trainingg not already
  trainin        already provided
                          provided byby DoD sources,
                                               sources, we
                                                         we can  certainly assist in coordinating that
                                                             can certainly                           that
  requirement with the Defense Acquisition
                                     Acquisition University.
                                                   University.

          Please contact
         Please   contact Ms. Lisa Roberts, 703-601-4478,
                              Lisa Roberts, 703-601-4478,Lisa.Roberts@osd.mil,
                                                          Lisa.Roberts@osd.mil,ifadditional
                                                                               if additional
  irifonnation is
  infonnation  is required.




                                                 5414/112TAZit
                                                  Jack Bell
                                                               6u444,4-441)




                                                      o

                                                      163 

                               UNDER
                               UNDER SECRETARY
                                     SECRETARY OF OF DEFENSE
                                                     DEFENSE 

                                   1100 DEFENSE PENTAGON
                                   1100 DEFENSE PENTAGON 

                                  WASHINGTON. DC20301·1100
                                  WASHINGTON,DC  20301-1100 

                                                                                      8 2008


..OMPTROLLER
.:OMPTIIOLLER




        MEMORANDUM FOR
        MEMORANDUM FOR DEPARTMENT
                       DEPARTMENT OF
                                  OF DEFENSE
                                     DEFENSE INSPECTOR
                                             INSPECTOR GENERAL
                                                       GENERAL



        SUBJECT: Report
        SUBJECT:    Report on
                           on the
                               theAssessment
                                  Assessmentof of Arms,
                                                  Anns, Ammunition,
                                                        Ammunition,and
                                                                     andExplosives
                                                                         Explosives
        Accountability and
        Accountability and Control;
                           Control; Security
                                    Security Assistance;
                                             Assistance; and
                                                         and Sustainment
                                                             Sustainment for
                                                                         for the Afghan
                                                                             the Afghan
        National Security Forces (project No. D2008-DOOOIG-OI41.001)
        National Security Forces (Project No. D2008-D000IG-0141.001)



                We appreciate the
                We appreciate the opportunity to review
                                  opportunity to review and
                                                        and comment on this
                                                            comment on this draft
                                                                            draft DoD-IG
                                                                                  DoD.IG

                    Regarding recommendation
        assessment Regarding
        assessment.            recommendation W.2.a, we must
                                              W.2.a, we must strongly
                                                             strongly nonconcur.
                                                                      nonconcur. The
                                                                                 The


        U.S.CENTCOM response
        U.S.CENTCOM response points
                             points out
                                    out that
                                        that civilian
                                             civilian health
                                                      health care in Afghanistan
                                                             care in Afghanistan is not aa
                                                                                 is not

        CENTCOM mission.
        CENTCOM mission. We
                         Wemust
                            mustclarify
                                 clarifythat
                                         thatproviding
                                              providing for
                                                         forcivilian
                                                             civilianhealth
                                                                      healthcare in
                                                                            carein



        Afghanistan is
        Afghanistan is not
                       not aa DoD
                              DoD mission. The Department
                                  mission. The Department of
                                                          of State,
                                                             State, not Defense, would
                                                                    not Defense, would be
                                                                                       be

        responsible     requesting U.S.
                    for requesting
        responsible for            U.S. appropriated
                                        appropriated funding
                                                     funding for
                                                             for Afghan
                                                                 Afghancivilian
                                                                        civilianhealth
                                                                                health care
                                                                                       care


        Issues.
        issues.




                                           TinaW.Jonas
                                           Tina W. Jonas    r
                                                            ".7 ,-A.lJ
                                                                r20




                                                    164 

                       OFFICE
                       OFFICE OF
                              OF THE
                                 THE UNDER SECRETARY OF
                                     UNDER SECRETARY OF DEFENSE
                                                        DEFENSE
                                         5000 DEFENSE PENTAGON
                                         5000 DEFENSE PENTAGON
                                        WASHINGTON,
                                        WASHINGTON. DC
                                                    DC 20301·�
                                                       2030145000
                                                                                            SEP 1     au
INTEWGENCI!.
/DITFJ-IJGgDICI


     MEMORANDUM
     MEMORANDUM FOR INSPECTOR
                    INSPECTOR GENERAL OF THE
                              GENERAL OF THE DEPARTMENT OF
                                             DEPARTMENT OF
                    DEFENSE
                    DEFENSE

     SUBJECT: Draft Report:
     SUBJECT: Draft Report: Department
                             DepartmentofofDefense  Inspector General
                                            DefenseInspector  General (DoD 10)
                                                                            fG)
              Assessment
              Assessment of  Arms,, Ammunition,
                          of Anns                 and Explosives
                                    Ammunition, and   Explosives Accountability
                                                                  Accountability and
                                                                                 and
              Control; Security Assistance;
              Control; Security                 Sustainment for
                                            and Sustainment
                                Assistance; and             forthe  Afghan National
                                                                the Afghan National
              Security Forces
              Security Forces (project          D2008-DOOOIG-0 141.001)
                                       Number D2008-D0001G-0141.001)
                              (Project Number

             In
             In response
                 response toto your
                               your draft
                                    draft report,
                                          report, our
                                                  our office
                                                       office concurs
                                                              concurs with the assessment
                                                                                 assessment and and the
                                                                                                     the
     actions   taken by
     actions taken       United States
                      by United   States Central
                                         Central Command
                                                  Command (USCENTCOM)
                                                              (USCENTCOM) to      to increase   protection
                                                                                     increase protection
     of
     of AnTIs,
        Arms, Ammunition, and    and Explosives
                                     Explosives (AA&E)
                                                  (AA&E) under
                                                            under their
                                                                    their control or the
                                                                          control or  the control
                                                                                          control of
                                                                                                   of the
                                                                                                       the
     Afghan National
     Afghan               Security Forces.
                National Security   Forces. The   draftreport
                                              Thedraft  reportdid
                                                                didnot
                                                                    notcite
                                                                        citeany
                                                                             anycritical.
                                                                                  critical issues
                                                                                            issues
     requiring      response from
     requiring aa response    from our
                                    our office.  However, we
                                         office. However,       do provide
                                                            we do   provide editorial   comments, which
                                                                             editorial comments,
     clarify the
              the report,
                   report. (TAB A)

            We
            We agree USCENTCOM needs to reissue reissue their awareness guidance
                                                                          guidance with
                                                                                     with more
                                                                                           more
     emphasis on AA&E security. Guidance
                                    Guidance must    also include
                                               must also          the measures
                                                          include the  measures outlined    in DoD
                                                                                  outlined in
     51 00.76-M, Physical
     5100.76-M,                        SensitiVe Conventional
                  Physical Security of Sensitive                Arms, Ammunition,
                                                 Conventional Arms,     Ammunition, and and
                  Inaddition,
     Explosives. In  addition,USD(I)
                               USD(I)published
                                       published aamemorandum
                                                    memorandum further
                                                                   further reiterating
                                                                            reiterating the
                                                                                        the proper
                                                                                             proper
     safeguarding
     safeguarding AA&E
                    AA&E in   accordance with
                           in accordance with the
                                               the DoD   5100.76-M and
                                                   DoD 5100.76-M      and the
                                                                          the provisions
                                                                               provisions of
                                                                                           of the
                                                                                               the
     DoD Instruction
     DoD               5100.76, Safeguarding
           Instruction 5100.76, Safeguarding Conventional     AnTIs, Ammunition,
                                              ConventionalArms,      Ammunition,and  and
     Explosives (AA&E) and the AA&E Physical Security Review  Review Board.     (TAB B)
                                                                       Board. (TAB     B)

                                       conventionaJ AA&E
            The physical security of conventional   AA&E is  is essential as the
                                                                essential as  the theft,
                                                                                   theft,sabotage,
                                                                                         sabotage,
     exploitation or misuse of
                             of AA&E
                                 AA&E would
                                        would gravely
                                               gravely jeopardize
                                                       jeopardize the
                                                                    the safety
                                                                         safety and
                                                                                 and security
                                                                                      security of
                                                                                               of
     persormel and
     personnel  and installations
                    installations worldwide.   My point
                                   worldwide. My   point of
                                                         of contact  is Keith
                                                            contact is          Minard at
                                                                        Keith Millard
     keith.minard@osd.mil
     keith.minard@osdanil or     (703) 604-2770.
                              or (703) 604-2770.


                                                       .1fi--e142kc
                                                       Ellen E.
                                                       Ellen
                                                                 ltcaj'
                                                             E. McCarthy
                                                                
McCarthy
                                                       Acting Director
                                                       Acting Director of  Securi
                                                                       
of Secun

     Attachments:
     As stated
     As stated




                                                 165 

                        OUSD(I) SECURITY DIRECTORATE
                        °USW) SECURITY   DIRECTORATE 

                               EDITORIAL
                               EDITORIAL COMMENTS 

                                     DRAFT
                                     DRAFT REPORT
                                           REPORT


       Recommendation: Page 66 remove
       Recommendation: Page           third paragraph
                               remove third paragraph from
                                                      from bottom which begins
with
with DoD
     DoD 5100.76·M. Page has
         5I00.76-M. Page has two references to the DoD S100.76·M.
                             two references                       The bottom
                                                       5100.76-M. The bottom
paragraph
paragraph accurately states the purpose of the policy listed.

       Justification:
       Justification: Correctness.

      Recommen                              o f llisting
                  dation: Standardize order of
       Recommendation:                            isting reference by its number
                                                                          number arxl
                                                                                  and name
through
through observation. References listed
        observation. References           page 6 are
                                listed on page      are not
                                                        not in   standardized format
                                                            in a standardized
throughout
throughout document.

       Justification: Standardization.
       Justification: Standardization.

      Recommendation:
      Recommendation: PagePage 66 change  wording and
                                  change wording  and title
                                                      title in
                                                             in paragraph
                                                                paragraph second from
bottom that begins with
                   with Physical Security of Arms, Ammunition, and Explosives.
Change
Change title
       title to "Safeguarding Conventional Arms, Ammunition,
             to "SafeguardingConventionaiAnns,               and Explosives
                                                 Ammunition, and Explosives (AA&E)
                                                                            (AA&E)
and
and the
    the AA&E Physical
             Physical Security
                      Security Review Board".
                                      Board".

       Justification: Correctness.
       Justification: Correctness.

      Recommendation:
       Recommendation: Page Page 66 second  paragraph from
                                    second paragraph  from bottom,
                                                           bottom, add change paragraph
change paragraph
       paragraph to
                  to ..."relative to the formulation of'.
                     ..."relative                    of'.

       Justification: Correctness.
       Justification: Correctness.

       Recommendation:  Page 66 second
       Recommendation: Page            paragraph from
                                second paragraph   from bottom,
                                                          bottom, spell out out (AA&E)
change to Arms, Ammunition, and Explosives,
                Ammunition, and  Explosives, as
                                             as this
                                                this is
                                                     is the  title of
                                                        the title  of the
                                                                       the referenced
                                                                           referenced
material
material.

       Justification: Correctness.
                      Correctness.


       Reconunendation: Page
       Recommendation:  Page77second
                                 secondparagraph
                                        paragraph from
                                                   from bottom,
                                                        bottom, recommend
                                                                recommend in addition
                                                                          in addition
                  include the following
that USCENTCOM include        following references:
                                        references:


     DoDI5100.76,
     Donl             SafeguardingConventional
            5 100.76,Safeguarding  Conventional Arms,
                                                Arms, Ammunition,
                                                       Ammunition, and Explosives
                                                                   and Explosives
(AA&E) and
(AA&E) and the  AA&E Physical
           the AA&E    Physical Security
                                Security Review
                                         Review Board.
                                                Board.


       DoD 5200.8-R,
       DoD           PhysicalSecurity
           5200.8-R, Physical Security Program
                                       Program


       DoDI 5200.8,
       DoDI         Security of
            5200.8. Security of Don
                                DoDInstallations
                                    Installationsand
                                                  andResources
                                                     Resources


       Justification: Completeness
       Justification:  Completeness




                              166


       Recommendation:
       Recommendation: Page 10 remove
                       Page 10  remove second
                                       second paragraph from top
                                              paragraph from  top which
                                                                  which begins
                                                                        begins with
DoD SlOO.76-M.
DoD 5100.76-M. Page has two references to     DoD SIOO.76-M.
                                       to the DoD 5100.76-M. The second entry fur
                                                                              for
reference accurately
reference accurately states the purpose
                                purpose of
                                        of the
                                           the policy
                                               policy listed.
                                                      listed.

       Justification: Correctness.
       Justification: Correctness.


       Recommendation: Page 10 third
                       Page 10  third paragraph
                                      paragraph from top, add change
                                                              change paragraph
                                                                     paragraph
change paragraphto
change paragraph to ....."relative
                        .''relative to the formulation of'.
                                                       of".

       Justification: Correctness.
       Justification: Correctness.




                                            167 

                                 UNDER SECRETARY OF DEFENSE
                                                     DEFENSE
                                   SOOO DEFENSE PENTAGON
                                   5000 DEFENSE PENTAGON
                                  WASHINGTON,
                                  WASHINGTON,DC
                                              DC20301·5000
                                                  20301-5000 	


thITELLIGENCE
                                                                                    AUG
                                                                                    AUG2720GB
                                                                                        27 2008


      MEMORANDUM FOR SECRETARIES
                     SECRETARIES OF THE MILITARY DEPARTMENTS
                     CHAlRMANOF   THE JOINT
                     CHAIRMAN OF THE  JOINT CHIEFS
                                            CHIEFS OF
                                                   OF STAFF
                     COMMANDERS OF THE
                                     THE COMBATANT COMMANDS

               Departmentof
      SUBJECT: Department  ofDefense
                               DefenseInspector
                                      InspectorGeneral  (DoD IG)
                                                Oeneral(DOD  IO) Assessment of the
                                                                                 the
               Accountability of Arms      Ammunition Provided
                                 Arms and Ammunition   Provided to the
                                                                   the Security Force
                                                                                Force
               ofIraq
               of      (Report No.
                  Iraq (Report No. SPO-2008-001/Project
                                   SPQ-2008-OO11Project D2007-D00010-0239.000)
                                                         D2007-000010-0239.000)

            The DoD IG IO published an
                                     an Assessment of the Accountability of Arms
                                                                               Anns andand
                   Provided to the S'
      Ammunition Provided            ecurity Forces of Iraq on July 3, 2008. Observation
                                   Security                                    ObservationA. A,
      EKecutive Summary
      Executive Summary,, recommends USO(I)
                                          USD(I) issue clarification on the
                                                                        the physical security of
      Arms, Ammunition,        EKplosives (AA&E) while under
            Ammunition, and Explosives                      under U.S. control until formal                     "
      handover                              as appropriate,
      handover to Iraqi Security Forces, or as              to other
                                               appropriate, to other Coalition partners within the              :'
                                                                                                                ,
                              area of responsihility.
      U.S. Central Command area                            following clarification
                                                      lhe following
                                      responsibility. The            clarification is
                                                                                    is provided:
                                                                                       provided:

              "DoDInstruction     5100.76, Safeguarding
                     Instruction 5100.76,   Safeguarding Conventional Arms, Ammunition, and
      EKplosives (AA&E) and the AA&E Physical Security Review Board govern general
      Explosives
      physical security requirements
                           requirements for
                                         for conventional    AA&E. The policy
                                              conventional AA&E.                  remains unchanged
                                                                           policy remains  unchanged
      as it applies to all  DoD Components
                       all DoD   Components involved
                                                involved ininany
                                                              anyprocurement,
                                                                   procurement,use,  shipment, storage,
                                                                                 us; shipment,  storage,
      inventory   control, disposal
      inventory control,    disposal by
                                     by sale,
                                        sale, or  destruction of
                                               or destruction  of any
                                                                  any conventional
                                                                      conventional AA&E.
                                                                                    AA&E. DoDDoD
      Components possessing or having custody of conventional AA&E      AA&E shall comply with
      protection requirements until forma/
                                       fonnal transfer   to a foreign nation. DoD
                                                transfer to                    DoD policy
                                                                                    policy mandates
                                                                                            mandates
      safeguards for conventional AA&E to protect against theft, loss,  loss, damage,
                                                                              damage, sabotage, or
                     use, in accordance
      unauthorized use,       accordance with
                                          with DoD
                                                 DoD 5100.76-M,
                                                       5100.76-M, Physical
                                                                     Physical Security
                                                                              Security of
                                                                                       of Sensitive
                                                                                          Sensitive
                      AA&E, August
      Conventional AA&E,        August 12, 2000,
                                            2000, and
                                                    and DoD
                                                        DoD 5200.08-R,
                                                               5200.08-R, Physical
                                                                           Physical Security
                                                                                     Security Program,
      April 9, 2007."
               2007."

            The             conventional AA&E is paramount
            The security of conventional             paramount as      theft or misuse of
                                                                as the theft           ofthis
                                                                                          this
     material would gravely
                    gravely jeopardize
                             jeopardize the safety and security
                                                        security of
                                                                 of personnel
                                                                    personnel and installations
      world-wide. My
     world-wide.  Mypoint
                      pointofofcontact
                                contact is  Donna Rivera
                                         is Donna Rivera at donna.rivera®osd.mil or
                                                         at donnasivera@osd.mil     or
     (703) 604-1176.
     (703) 604-1176.




     cc:
     ""

     DoDIG
     DoD IG
     USD{AT&L)
     USD(AT&L)

                                                  a                                                         f
                                                                                                           I


                                        168


        •	 DoD 4000.25-2-M, “Military Standard Transaction Reporting and
           Accounting Procedures,” September 2001, Chapter 12 (“Small Arms
           Serial Number Registration and Reporting,”), Change 5, January 2006,
           also implements DoDD 4140.1 and states that the provisions of Chapter
           12 apply to the DoD Components responsible for inventory management
           of small arms and provides procedures for reporting small arms serial
           number data between the DoD Components and the DoD Registry (now
           the DoD SA/LW Registry).

         •	 DoD 4140.1-R, "DoD Supply Chain Materiel Management Regulation,"
            May 23, 2003:
                 Implements also DoDD 4140.1 and establishes requirements and
                     procedures for DoD materiel managers and others who need to
                     work within or with the DoD supply system.
                 Chapter 5 states that the DoD Small Arms Serialization Program
                     (now the DoD SA/LW Serialization Program) shall provide special
                     emphasis on, and visibility of, small arms by tracking, reporting,
                     validating, and registering the status of each small arm by serial
                     number and physical custodian.
                 Appendix 11 established the DoD Joint Small Arms Coordinating
                     Group (now the DoD Joint SA/LW Coordinating Group) to
                     develop, maintain, and improve the DoD program for tracking,
                     reporting, validating, and registering the status of small arms by
                     serial number.
     Army Regulation 710-3, “Inventory Management Asset and Transaction
     Reporting System,” March 25, 2008, implements applicable provisions of
     DoD 4140.1-R and DoD 4000.25-2-M, and:
         •	 Establishes policy, responsibilities, and procedures for Department of the
            Army asset and transaction reporting systems. The reporting systems
            were developed solely to provide high visibility on selected, difficult to
            manage items; and to provide the opportunity to intensively manage those
            items.
         •	 Provides Department of the Army standard procedures for reporting small
            arms serial number data under the DoD Small Arms Serialization Program
            (now the DoD SA/LW Serialization Program) as defined and required per
            DoD 4000.25–2–M.
     Memorandum, Under Secretary of Defense for Intelligence, “Department of
     Defense Inspector General (DoD IG) Assessment of the Accountability of Arms
     and Ammunition Provided to the Security Force of Iraq (Report SPO-2008­
     001/Project D2007-D000IG-0239.000), August 27, 2008, issues clarification on
     the physical security of AA&E while under U.S. control until formal transfer to a
     foreign nation.
Security Assistance and Foreign Military Sales
     Security Assistance Manning. DoDD 2055.3, “Manning of Security Assistance
     Organizations and the Selection of USDP Training of Security Assistance
     Personnel,” March 11, 1985, provides guidance for the staffing of security
     assistance organizations. This Directive updated DoD policy, procedures, and

                                        158

         responsibilities for the selection and training of personnel to serve in security
         assistance positions and for processing and approving security assistance
         organizations joint manpower programs, in accordance with DoDD 5105.38,
         "Defense Security Assistance Agency (DSAA)," August 10, 1978; DoDD 5132.3,
         "DoD Policy and Responsibilities Relating to Security Assistance," March 10,
         1981; DoDD C-5105.32, "Defense Attache System," March 23, 1973; and
         Public Law 87-195, "Foreign Assistance Act of 1961," September 4, 1961
         (22 U.S.C. 2151 et seq.)

         Security Assistance – DoD 5105.38-M, “Security Assistance Management
         Manual,” October 3, 2003, provides guidance for the administration and
         implementation of security assistance and related activities in compliance with the
         Foreign Assistance Act, the Arms Export Control Act, and related statutes and
         directives. DoD 5105.38-M states that:
                  Security assistance is a group of programs, authorized by law, that
                  allows the transfer of military articles and services to friendly foreign
                  governments. Security assistance transfers may be carried out via
                  sales, grants, leases, or loans and are authorized under the premise that
                  if these transfers are essential to the security and economic well-being
                  of allied governments and international organizations, they are equally
                  vital to the security and economic well-being of the U.S.
                  Security assistance programs support U.S. national security and foreign
                  policy objectives. These programs increase the ability of our friends
                  and allies to deter and defend against possible aggression, promote the
                  sharing of common defense burdens, and help foster regional stability.
                  [T]itle to FMS [foreign military sales] materiel normally transfers from
                  the USG [U.S. Government] to the purchaser immediately upon its
                  release from a DoD supply activity 57 (point of origin). However, USG
                  security responsibility does not cease until the recipient Government’s
                  or international organization’s Designated Government Representative
                  (DRG) assumes final control of the consignment.
         DoD 5100.76-M defines sensitive AA&E and outlines mandatory procedures for
         handling, storing, protecting, securing, and transporting it. The AA&E
         procedures in DoD 5100.76-M also apply to FMS transfers. Sensitive AA&E are
         items such as small arms weapons, various types of ammunition, explosives, and
         special items, such as night vision sights and goggles that pose a special danger to
         the public if they fall into the wrong hands.

Logistics
         Combined Security Transition Command – Afghanistan (CSTC-A) Operations
         Order 08-006, “Afghan National Security Forces (ANSF) Development
         Program,” January 14, 2008. This order provides guidance for the development
         and execution of current United States Fiscal Year 2008 program that generates
         the Afghan National Security Force. It bridges the gaps between strategic aims of
         the “Islamic Republic of Afghanistan (IRoA) Campaign Plan for the Development
         of Afghan National Security and Police Forces (Coordinating Draft),” dated July

57
   DoD 5105.38-M states a supply activity can be either a DoD storage depot or a commercial vendor that
furnishes materiel under a DoD-administered contract.

                                                    159 

    28, 2007, subordinate development strategies, and budget execution with program
    guidance focused on annual objectives. The order describes a program to achieve
    the currently approved ANSF force structure and is a document that serves as a
    basis of record to direct changes to the program as required.

Medical
    The Military Health System Strategic Plan. “The Military Health System
    Strategic Plan – A Roadmap for Medical Transformation,” May 29, 2008, was
    developed to:
           [R]e-examine our fundamental purpose, our vision of the future, and
           strategies to achieve that vision. We are refocusing our efforts on the
           core business in which we are engaged - creating an integrated medical
           team that provides optimal health services in support of our nation's
           military mission - anytime, anywhere. We are ready to go in harm's
           way to meet our nation's challenges at home or abroad - to be a
           national leader in health education, training, research and technology.
           We build bridges to peace through humanitarian support when and
           wherever needed, across our nation and the globe, and we provide
           premier care for our warriors and the military family.

    Afghan National Security Forces Medical Mentoring. CSTC-A FRAGO
    (Fragmentary Order) 427, “Afghan National Security Forces Medical Mentoring,”
    March 26, 2007. This order assigns functional responsibility and authority for all
    ANSF medical mentoring activities to the CSTC-A Command Surgeon to permit
    efficient training across all Corps and police units, enabling more rapid
    networking and distribution of personnel, effective practices, and lessons learned.

    In addition, the order stated the CSTC-A Command Surgeon will have
    coordinating and approval oversight on all matters relating to the training,
    development, and sustainment of the ANSF health care system, including the
    assignment of medical ETT personnel, orientation and training of new medical
    ETT personnel, and defining roles and responsibilities of medical ETT personnel.
    This applies to U.S. military and contractor personnel.




                                            160

Appendix G. 	Foreign Military Sales Process in
             Afghanistan
    The Combined Security Transition Command-Afghanistan provided an outline of
    the Foreign Military Sales process in Afghanistan. The figure below shows that
    process.

    Co mbin
    Comb ineed
             dS ecu
                ecu
               Securit y Tran
                    rity   ansittion
                                 ion
                                 io n Co
                                      Comman
                                         mman
                                      Comm andd - Affgh
                                                     g
                                                     ghhan
                                                        aniist
                                                            stan
                                                               an
                           Requirements to Procurement
       Directorate Initiates
                                         Refine
                                      Requirements
                SAG                                          CJ4
                                                                                                     CJ8
           Owner/CJ7/SAO
              Validates
                                                     Functionally Allocates    Confirms Budget   Commits Funds
                                                       Requirements to
            Requirements                               Budget Programs           Availability


                                    - 120 DAY GOAL FOR COMITMENT -
                     60-85 Days (Acceptance) < 15 Days (Staffing) < 95 Days (Prep) < 5 Days
                                                  (MOR/LOR)

                           USASAC                                               SECURITY            CJ -4 final
                           NAVY IPO                                            ASSISTANCE           verification
                            AFSAC              MOR / LOR/PRC
                                                                              OFFICE/LOCAL
                            KRCC                                              PROCUREMENT




               Life Cycle
              Management
                                         CONTRACT                        EQUIPMENT
              Commands                    AWARD                           DELIVERY



                                                                                                                 7




                                                             161 

This Page Intentionally Left Blank




               162

                          THE ASSISTANT SECRETARY OF DEFENSE
                                     200 DEPENSU PENTAGON
                                   WASHINGTON. DC 20301-1200


HEALTH AFPAIES
                                                                          SEP I 2 2008



      MEMORANDUM FOR INSPECTOR GENERAL, DEPARTMENT OF DEFENSE

      SUBJECT: Draft Report, "Assessment of Anna, Ammunition, and Explosives
               Accountability and Control; Security Assistance; and Sustainment for the
               Afghan National Security Forces" (Project No. D2008-D000IG-0141.001)

          Thank you for the opportunity to review and provide comments on the subject draft
      report, dated August 11, 2008. We concur or partildty concur with many °fibs draft
      report's conclusions and recommendations. Specific comments are attached for those
      recommendations concerning medical sustsdnability. In addition, we do not concur with
      recommendation on submitting an Afghan National Security Forces Spending Plan. We
      believe this is properly an issue for the Commander, U.S. Central Command.

         My points of contact for this subject are Dr. Warner Anderson (Functional) (703)
      681-3279, ext.123 and Mr. Gunther Zimmerman (Audit Liaison) at (703) 681-4360.




                                                  S. Ward Casscells, MD

      Attachment
      As stated




                                              169 

 Department Of Defense Inspector General Draft Report, August 11, MS, "Assessment of
 Arms, Ammunition, and Explosives Accountability and Control; Security Assistance; and
                Sustainment for the Afghan National Security Forces"
                            (Project No #2008-DOOHG-0141,001)

               Comments of the Office of the Assistant Secretary of Defense
                           for Health Affairs (OASD (HA))

Recommendation RI.: We recommend that the Commander, U.S. Central Command
(USCENICOM) and the Chairman of the Joint Chiefs of Staff, in coordination with the
Commander, North Atlantic Treaty Organization (NATO)-International Security Assistance
Force, establish a requirement for comprehensive medical pre-deployment and in-country
training for the medical mentors supporting Coalition efforts in Afghanistan.

OASD pig) Response: We concur with the comment as written.


Recommendation R.2. We recommend that the Assistant Secretary of Defense (HA), in
coordination with the Under Secretary of Defense for Personnel and Readiness and using the
assets of the Military Health System and the Center for Disaster and Humanitarian Assistance
Medicine at the Uniformed Services University of the Health Sciences, develop and implement
comprehensive medical pre-deployment training for the medical mentors deploying to
Afghanistan that meets the requirements of the Commander, USCENTCOM.

OASD (HA) Response: We concur.


Recommendation R.3. We recommend that the Secretary of the Army, through the
Commander, Infantry Division, implement the medical pre-deployment training developed by
the ASD (HA) for the medical mentors deploying to Afghanistan.

OASD (HA) Response: We concur.


Recommendation Rol. We recommend that the Commander, Combined Security Transition
Command-Afghanistan, develop and implement an in-country mentoring orientation for medical
mentors that describes and clarifies current mentoring practices, the Afghan National Security
Forces medical development objectives and priorities; and meets the requirements of the
Commander, USCENTCOM.

OASD (HA) Response: We COWIN with the comment as written.


Recommendation SI We recommend that the Surgeon General of the Navy change Joint
Force and Ad-hoc medical personnel practices withitithe US. Navy to ensure that the Combined
Security Transition Command-Afghanistan Command Surgeon has the maximum flexibility




                                     170

necessary to assign Naval personnel where needed to accomplish the medical mentoring mission
in Afghanistan.

OASD (lElA) Resnonse: We partially concur with the comment as written. We agree with the
Thrust of the recommendation, but the Chief of Naval Personnel rather than the Navy Surgeon
General has control over Navy assignment policies.


Recommendation Si. We recommend that the Surgeon General of the Air Force change the
Joint Force and Ad-hoc medical personnel practices within the U.S. Air Force (USAF) to ensure
That the Combined Security Transition Command-Afghanistan Command Surgeon has the
maximum flexibility necessary to assign Air Force personnel where needed to accomplish the
medical motoring mission in Afghanistan.

OASD (HA) Response: We partially concur with the comment as written. We agree with the
thrust of the recommendation, but the Chief of Air Force Personnel rather than the Air Force
Surgeon General has control over USAF assignment policies.

Recommendation S.3. We recommend that the Commander, Combined Security Transition
Command-Afghanistan:

Recommendation S.3.8. Develop and implement an in-country tracking system to identify
medical mentor personnel that are not appropriately trained and utilized and billets that are not
filled in medical Embedded Training teams and Police Meotoring Teams.

OASD 01Alt Response: We concur with the comment as written.

Recommendation S3.b. Inform USCENTCOM of deficiencies identified by the tracking
system and request appropriate remedies.

OASDal.A.1 Response: We concur with the comment as written.


Recommendation T. We recommend that the Commander, Combined Security Transition
Command-Afghanistan:

Recommendation .T.1. Develop and implement a comprehensive, detailed, and integrated
multi-year medical mentoring plan that prioritizes and synchronizes mentoring efforts;
coordinates those efforts within the Combined Security Transition Command-Afghanistan,
between the Combined Security Transition Command-Afghanistan and Task Force Phoenix, and
between the Combined Security Transition Command-Afghanistan and NATO-International
Security Assistance Force; and links together strategic, operational, and tactical mentoring steps
required in the mentoring plan.

OASD (HA ) Response: We concur with the comment as written.




                                            171 

Recommendation T.2. Share this medical mentoring plan with the NATO-Intecnational
Security Assistance Force, and in coordination with the Commander, USCENTCOM, with the
NATO Allied Command Operations to develop synchronized medical mentoring between
Combined Security Transition Command-Afghanistan Embedded Training Teams and Police
Mentoring Teams and NATO-International Security Assistance Force Operational Mentoring
and Liaison Teams.

OASD /HAI Response: We concur with the comment as written.


Recommendation T.3. Establish internal coordination and synchronization procedures on a
weekly basis within the Combined Security Transition Command-Afghanistan, between the
Combined Security Transition Command-Afghanistan and Task Force Phoenix, and between the
Combined Security Transition Command-Afghanistan and NATO-Intemational Security
Assistance Force to achieve unity of effort during the implementation of the mentoring plan.

OASD (HAI Response: We concur with the comment as written.


Recommendation TA Establish a process by which the Afghan National Army and the Afghan
National Police report medical readiness results and issues within their organizations, and
coordinate the results with the Combined Security Transition Command-Afghanistan, Task
Force Phoenix, and the NATO-International Security Assistance Force to identify and correct
Afghan National Army and Afghan National Police medical problems.

OASD (HAI Resnonse: We concur with the comment as written.


Recommendation U. We recommend that the Commander, Combined Security Transition
Command-Afghanistan advise the Ministry of Defense and the Afghanistan National Army
General Staff that Supply Class VIII medical logistics should remain under the control of the
Afghanistan National Army Surgeon General.

OASD GiAl Response: We concur with the comment as written.


Recommendation V. We recommend that the Commander, Combined Security Transition
Command-Afghanistan

Recommendation V.L Develop and implement a comprehensive integration and
implementation plan to establish a common ANSF medical corps comprised of the medical
functions of the Afghan National Army and the Afghan National Police. This plan should be
based on the elements developed by the Center for Disaster and Humanitarian Assistance
Medicine, and should include facility construction, logistical support, and civilian partnerships
for staffing and management United States government funds should be expended to support
only an integrated health care system, as opposed to separate Army and Police systems.




                                     172

OASD (HA) Resnonse:. We partially concur with the comment as written. The information
presented, combined with anecdotal information, leads to the conclusion that a combined ANSF
Health System may be the most desirable outcome. US funds that are used for direct
construction and operation of health facilities and services can be limited by the US and targeted
to joint Afghan National Army and Afghan National Police activities. On the other hand, funds
that are passed through sovereign Afghan ministries cannot reasonably be conditional upon
compliance with US requirements that may be in violation of the Islamic Republic of
Afghanistan Constitution, legislation or policies on division of power and jurisdictions.


Recommendation V.2. Develop and implement a medical mentoring plan to advise and assist
the Ministries of Defense and Interior, and the Surgeons General of the Afghan National Army
and Afghan National Police on the strategy, effectiveness, sustainability, and economic benefits
of unified force structures for providing effective health care and for building an integrated
ANSF medical corps.

OASD WA) Response: We partially concur with comment AS written. This recommendation
like the previous one must be predicated on successful negotiations with the relevant Afghan
Ministries.


Recommendation V.3. Develop and implement procedures to collect and track Afghan
National Anny and Afghan National Police battle casualties from the point of wounding through
rehabilitation and return to duty. These procedures should include all patients admitted to all
Afghan National Army hospitals by beneficiary category to ensure Afghan National Police
personnel have access to appropriate care. They should also clarify the degree of shared fealty
use between the Afghan National Army and the Afghan National Police.

OASD tlIA) Rsponser We concur with the comment as written.


Recommendation WA. We recommend that the Commander, USCENTCOM, in coordination
with the U.S. Mission Kabul; ASD for Health Affairs(HA); the Commander, Combined
Security Transition Command-Afghanistan; and the NATO-international Security Assistance
Force:

Recommendation Wl.a. Develop and implement a comprehensive, integrated, multi-year plan
to build strategic partnerships. These would be forged with other U.S. Government agencies,
academic partners, international and non-governmental organizations, and key Afghan
government ministries with the goal of fostering the development of an integrated ANSF health
care system and civilian health care system capabilities that adequately complement the ANSF
health ewe system.

OASD (HA) Response: We partially concur with comment as written. This recommendation
can be carried out in full only if negotiations with the relevant Afghan Ministries on




                                          173 

consolidating the Afghan National Army and Afghan National Police Medical Systems into an
ANSF Medical System are successfig.

Recommendation              Develop and implement a multi-year plan to increase collaborative
interaction with the Ministries of Public Health and Higher Education to plan and implement
new training programs for nurses, enlisted technicians, and medical specialties needed within the
ANSF Forces medical corps, and to leverage U.S., NATO-International Security Assistance
Force partner country, and Afghanistan-based training.

OASD (HA' Response: We concur with the comment as written.


Recommendation W.1.e. Identify, access, and leverage subject matter experts and existing
Department of Defense (DoD) efforts and those of other U.S. Government, international, and
private sector orpnizations (such as the Department of State, the Department of Health and
Human Services, and the U.S. Agency for International Development) to promote:
Development of a sustainable integrated ANSF health care system
Improved civilian medical education and public health systems
Development of civilian health care system capabilities that adequately complement the
Afghanistan National Security FOICCS health care system
U.S. MissionKabul, Combined Security Transition Command-Afghanistan Command
Surgeon, and NATO-International Security Assistance Force efforts to implement these goals

OASD (HA) Response: We concur with the comment as written.


Recommendation W.2., We recommend that the Assistant Secretary of Defense for Health
Affairs:

Recommendation W.2.a. Prepare, in coordination with the Under Secretary of Defense for
Policy, the Under Secretary of Defense (ComptrollerChief Financial Officer, and the Assistant
Secretary of the Army (Financial Management & Comptroller), an Afghanistan Security Forces
Fund spending plan that includes a separate medical budget category and submit to the United
States Congress to request appropriated funding for building and improving civilian Afghan
health care systems that adequately complement and support the ANSF health care system.

OASD MA) Response: We non-concur with the comment as written. Submitting an ANSF
Spending Plan is properly an issue for the USCENTCOM Commander, USCENTCOM, and his
Congressional liaison. The ANSF Spending Plan Imding line for Afghan civilian health care
development, as related to ANSF health care, beiongs.to USCENTCOM in cooperation with the
State Department The OASD (HA) should have staff input into formulating the ANSF
Spending Plan health budget.

Recommendation W.2.bi Develop a U.S.-based health sector reach back support office within
DoD, in coordination with the Chairman of the Joint Chiefs of Staff and the Commander,
USCENTCOM, to identify, access, and leverage subject matter experts and future DoD efforts




                                     174

and those of other U.S. Government, international, and private sector organizaticms (such as the
Department of State, the Department of Health and Human Services, and the U.S. Agency for
International Development) to promote:
Development of a sustainable integrated ANSF health care system,
Improved civilian medical education and public health system care,
Development of civilian health care system capabilities that will support the Afghanistan
National Security Forces health care system development,
US, Mission Kabul, Combined Security Transition Command-Afghanistan Command
Surgeon, and NATO-International Security Assistance Force efforts to implement these goals

OASD MA) Resnonse: We concur with the comment as written. The International Health
Division (HID) within the OASD (HA) is developing expertise and staffing for reach back
support to Combatant Commands and the Interagency. IHD calls upon other U.S. Government
agencies ( such as the Department of State, the Department of Health and Human Services, and
the US. Agency of for International Development, etc.), non-government organizations, and
international organizations (United Nations, World Health Organization), for complementary
strengths and expertise. This includes ongoing efforts to collocate interagency personnel within
the HID.


itecommendafion W2.c. Recommend to interagency counterparts the establishment of a U.S.-
based health sector reach back support office which would coordinate all U.S. government health
sector reconstruction activities in Afghanistan.

OASD (LIA) Response: We concur with the comment as written.


Recommendation W.3. We recommend that the Commander, Combined Security Transition
Command-Afghanistan:

Recommendation W.3.a. Develop and implement a tracking system, in coordination with the
Ministers of Defense and Interior, to ensure Afghanistan National Security Forces medical
personnel trained for specialty medical tasks are appropriately utilized in ANSF health care
positions.

OASD (HA) Response: We concur with the comment as written.

Recommendation W.3.b. Alert Minister of Defense and Minister of Interior medical leadership
when medical personnel trained for specialty medical tasks are not being appropriately utilized in
Afghanistan National Security Forces health care positions and advise that these practices be
curtailed.

OASD (HA) Reponse: We concur with the comment as written.




                                          175 

                          SECRETARY OF THE ARMY
                               WASHINGTON DC 20310




                                                                     1 4 OCT 2008

MEMORANDUM FOR INSPECTOR GENERAL, DEPARTMENT OF DEFENSE

SUBJECT. Responses to Department of Defense Inspector General Draft (DoD IS)
Report D2008-00001G-0141.001


       The U.S. Army appreciates the opportunity to comment on the DOD IS Draft
Report on the Assessment of Arms. Ammunition, and Explosives Accountability and
Control; Security Assistance: and Sustainment for the Afghan National Security Forces
(Project No. D2008-0000/G-0141.001 (MUG)). dated August 11; 2008.

        While the majority of The issues are focused on the Combined Security Transition
Command-Afghanistan, several observations and recommendations in the draft report
are of interest to the U.S. Army. Comments and recommendations applicable to the
U.S. Army are addressed in the enclosure.




                                          Pete Geren

Enclosure




                                  176

   DEPARTMENT OF DEFENSE INSPECTOR GENERAL (DOD IG) DRAFT REPORT
                            ASSESSMENT OF
    ARMS, AMMUNITION, AND EXPLOSIVES ACCOUNTABILITY AND CONTROL;
    SECURITY ASSISTANCE; AND SUSTAINMENT FOR THE AFGHAN NATIONAL
                           SECURITY FORCES

                        PROJECT NO. D2008-130001G-0141.001

Recommendation C.2., page 16: We recommend that the Commander, U.S. Army
Materiel Command Logistics Support Agency assist the Combined Security Transition
CommandAfghanistan (CSTC-A) with installing data input quality controls in Its
database of weapons serial numbers to ensure compatibility with the requirements of
the Department of Defense Small Arms/Light Weapons Registry?

Army Response: The U.S. Army concurs. The U.S. Army Materiel Command
Logistics Support Activity (LOGSA) will review CSTC-A CORE Information Management
System (IMS) (an off-the-shelf system purchased for the Inventory management of
Afghan equipment) and any subsidiary systems. Upon submission to LOGSA by
CSTC-A of the CORE IMS and subsidiary systems documentation and standard
operating procedures LOGSA will review and make recommendations concerning data
input quality controls within thirty days.
Recommendation D.2., pages 17-18: 'We recommend that the Commander, U.S.
Army Materiel Command Logistics Support Agency assist the CSTC-A in reporting
serial numbers for U.S.-supplied weapons provided to the Afghan National Security
Forces to ensure compatibility with the requirements of the Department of Defense
(DoD) Small Arms/Light Weapons Registry?

Army Response: The Army concurs. The CSTC-A and LOGSA are in the process of
identifying and documenting procedures for CSTC-A to report weapon serial numbers to
the Department of Defense (DoD) Small Arms/Light Weapons Registry. The target
completion date for finalization of reporting procedures with CSTC-A is October 1, 2008.

Observation G, Foreign Military SalesPersonnel, page 30; "The U.S, Army
Security Assistance Command uses a rotation policy for Army security assistance
personnel and believes that this new policy enhances the effectiveness of its personnel
in contingency operations such as Afghanistan. U.S. Army Security Assistance
Command personnel deploy for six months to Afghanistan, gain experience working in
Afghanistan, and return to work on the Afghanistan program in the U.S.-based U.S.
Army Security Assistance Command office. Following a six month U.S. rotation tour,
those personnel return to the Security Assistance Organization (SAO) office in
Afghanistan?

°This rotation policy provides continuity to U.S. Army Security Assistance Command
efforts to support security assistance in Afghanistan and results in stronger interned
controls. The use of this personnel process helps develop a base of experienced SAO




                                        177 

personnel that understands the Afghanistan program and can effectively address issues
in-country.'

"The U.S. Army Security Assistance Command rotation policy provides one solution to
this problem as would requiring all SAO personnel to serve one year tours of duty."

Army Response: The Army concurs.

Observation H. Foreign Military Sales (FMS)-Performance, page 33: "FMS
standard case processing time standards for the pseudo-FMS cases used to equip
Afghan National Security Forces (ANSF) were inadequate for wartime operations in
Afghanistan and were not meeting the train and equip requirements of CSTC-A and
ANSF. Further. U.S. Army Central Command and CSTC-A do not have sufficient
visibility of FMS case processing to enable managers to monitor and react to program
metrics."

"This has occurred because the 120 day case processing time standard has not been
adjusted for wartime operations in Afghanistan. Further, a Common Operating
Procedure was not established for the use of the security assistance function within
CSTC-A."

 Army Response: The Army nonconcurs. The "standard level of seivice" for FMS
 case development is 120 days as outlined in DOD 5105.38-M (Security Assistance
 Management Manual). The Army changed its standard to a maximum of 76 days for
 Iraq and Afghanistan_ Further, at the request and funding of the Commander, CSTC-A,
dedicated personnel at the U.S. Army Security Assistance Command and at selected
 Life Cycle Management Commands provide "above standard level of service" by
intensively managing Afghan requirements. As a result, most Afghan Memorandums of
 Request are developed and implemented within weeks of receipt. indefinite
Deliveryfindefinite Quantity contracts are utilized to the maximum extent possible to
expedite contracting. As required, the Army Requirements and Resourcing Board
(AR2B) reviews and to the fullest extent possible, approves requests to divert assets
from Army inventory or production. The AR2B review is a significant enabler and
occurs in parallel with case development.

Recommendation K.3., page 62: 'We recommend that the Secretary of the Army,
through the Commander, r Infantry Division, implement the logistics pre-deployment
training developed by the Under Secretary of Defense for Acquisition, Technology and
Logistics for the logistics mentors deploying to Afghanistan."

Army Response: The Army requests ciariNcation. The U.S. Army provides mentors
and trainers to the Combatant Commander based on theater requirements. Any
shortfall identified by the Combatant Command should be communicated to the Service
for analysis and corrective action. The pre-deployment training plan developed by the




                                 178

Under Secretary of Defense for Acquisition, Technology and Logistics is not provided in
the draft report. The U.S. Army is obtaining the plan from the DoD 10 for review.

Recommendation R.3., page 73: 'We recommend that the Secretary of the Army,
through the Commander, l' Infantry Division, implement the medical pre-deployment
training developed by the Assistant Secretary of Defense for Health Affairs for the
medical mentors deploying to Afghanistan."

Army Response: The Army requests clarification. The U.S. Army provides mentors
and trainers to the Combatant Commander based on theater requirements. Any
shortfalls identified by the Combatant Command should be communicated to the
Service for analysis and corrective action. The pre-deployment training plan developed
by the Assistant Secretary of Defense for Health Affairs is not provided in the draft
report The U.S. Army is obtaining the plan from the DoD IG for review.




                                         179 

"G.4  We recommend that the Chairman of the Joint Chiefs of Staff, the
Director, Defense Security Cooperation Agency, the Assistant Secretary of
the Army for Manpower and Reserve Affairs, the Assistant Secretary of the
Navy (Manpower and Reserve Affairs), and the Assistant Secretary of the Air
Force for Manpower and Reserve Affairs ensure that personnel assigned to
security assistance positions in Afghanistan receive adequate security
assistance training before deployment, but at a minimum they attend the
Defense Institute of Security Assistance Management course."



     Original Message
From: Brosky, James M Mr ASA(ALT)
Sent: Friday, October 03, 2008 10:14 AM
To: Searight, Leigh Ann Ms AAA; 'Meyer, Stanley E., DIG Doi:).
Cc: 'Moorefield, Kenneth, DIG DOD'; 'Corn, David, DIG DoD'
Subject: RE: Request for extension for D2008IG-0141.001: DODIG Afghan draft
report (UNCLASSIFIED)

Mr. Meyer-


Just to be clear---I am pretty certain training requirements for all SAO
billets worldwide are driven by the COCOM. I believe all SAO personnel are
supposed to attend DISAM. CENTCOMs manning document should direct exactly
what the training requirements are for each SAO billet. The Army always has
and continues to fully support not only DISAM training, but also providing
personnel with the right skill sets and background (e.g FAO's) in order to
be effective in these billets. However, this has not been the case for SAO
personnel operating in Afghanistan and Iraq over the past several years.
Mainly due to turbulence in turnover and the transition with actual SAOs on
the ground. SAO's did not previously exist and with the urgency to fill
billets as they stood up I suspect that training requirements were not
enforced. The Department has made OSD and CENTCOM fully aware of this as
have the other MILDEPS. I think CENTCOM will report improvement in this area
if asked.  I have observed a vast improvement in Iraq over the past year.

Again--from an Army perspective I believe the answer to your observation
should come from DoD.  If however the IC insists we respond my
recommendation to SA will be that we fully concur with your recommendation.
Since the response to the draft is already at the EOR I think it too late to
address now. However, we can address when the final is published if
required.

Call me if you have any additional questions.



James M. Brosky

Office of the Deputy Assistant Secretary of Army for Defense Exports and
Cooperation

703-588-8011
DSN 425-8071




                                180

                            DEPARTMENT OF THE NAVY
                           OFFICE OF THE ASSISTANT SECRETARY
                            (MANPOWER AND RESERVE AFFAIRS)
                                   IFOF NAVY PENTAGON
                               WASHINGTON, D.C. 20350,1000
                                                                          SEP 25



MEMORANDUM FOR DEPARTMENT OF DEFENSE INSPECTOR GENERAL

SUBJECT: DOD Draft Report: Assessment of Arms, Ammunition, and Explosives
         Accountability and Control; Security Assistance; and Sustainment of the Afghan
         National Security Forces

      The Department of the Navy has reviewed the August 11, 2008 Draft DODIG Report:
"Assessment of Arms, Ammunition, and Explosives Accountability and Control; Security
Assistance; and Sustainment of the Afghan National Security Forces" and provides comment
on recommendations 0.4 and S.1 as requested.

     Regarding recommendation 0.4, the Navy concurs as written.

     On recommendation S. I, Navy requests that the paragraph be changed to read: "We
recommend that the Surgeon General of the Navy, in coordination with United States Fleet
Forces (USFF) and Chairman, Joint Chiefs of Staff (CJCS) Surgeon, change medical
personnel practices within the U.S. Navy to ensure that the Combined Security Transition
Command-Afghanistan Command Surgeon has the maximum flexibility necessary to assign
Navy medical personnel where needed to accomplish the medical mentoring mission in
Afghanistan." This change is recommended to ensure coordination with the Joint Staff (JS)
Surgeon and USFF.

     Thank you for the opportunity to comment on this report.




                                        H. C. Barnum, Jr.
                                        Assistant Secretary of the Navy
                                        (Manpower and Reserve Affairs)
                                        Acting




                                        181 

                            DEPARTMENT OF THE AIR FORCE
                            HEADQUARTERS UNITED STATES AIR FORCE
                                         WASHINGTON DC




MEMORANDUM FOR DEPARTMENT OF DEFENSE OFFICE OF THE INSPECTOR
               GENERAL
               ATTN: MR. THOMAS GIMBLE
FROM: HQ USAF/SG
      1780 Air Force Pentagon
      Washington, DC 20330-1780

SUBJECT: Draft Assessment Report - Munitions Assessment Team II- Afghanistan (Project
         No. D2008-D000IG-0141)

        Thank you for the opportunity to review this draft report. My office has reviewed this
report and non-concurs with the following comments:

                 The U.S. Air Force (USAF) presents forces to meet the combatant
commander's (COCOM) Request-For-Forces (RFF). If Combined Security Transition
Command-Afghanistan (CSTC-A) clearly defines its requirements via the COCOM, then the
RFF process will fill them.

                  Additionally, Recommendation 5-2 requests the USAF allow the CSTC-A
command surgeon to reallocate personnel to positions for which they were not requested, trained,
or prepared. This level of authority is not commensurate with a command surgeon's staff officer
status.

       My point of contact for this issue is Colonel Rudolph Cachuela, DSN 297-5581, (202)
767-5581, rudolph.cathueth®pentagon.af. mil or Major Tim Gacioch, DSN 297-5577, (202) 767-
5577, thnothy.gacioch@pentagon.aLmil.




                                                 AMES G. ROUDEBUSF1
                                                Lieutenant General, USAF, MC, CFS
                                                Surgeon General




                                         182

                                       DEPARTMENT OF THE AIR FORCE
                                            WASHINGTON, D.C.



OFFICE OF THE ASSISTANT SECRETARY
                                                                                         OCT     82008


           MEMORANDUM FOR OSD/IG

           FROM: SAF/MR
           SUBJECT: Arms, Ammunition, and Explosives Accountability and Control; Security
                    Assistance; and Sustainment for Afghan National Security Forces: Project No.
                    D2008-D00010-0121.001

                   Air Force strongly supports that all personnel deployed in support of combatant

           command requirements be properly trained prior to deployment. As such, Air Force concurs that

           personnel assigned to security assistance positions in Afghanistan should receive adequate

           security assistance training before being deployed. Where feasible, Air Force will have service

          members attend the Defense Institute of Security Assistance Management course prior to the

           deployment.




                                                            CRAIG W. DUEHRING
                                                            Assistant Secretary
                                                            (Manpower and Reserve Affairs)




                                                    183 

                                DEPARTMENT OF THE AIR FORCE
                                  HEADQUARTERS UNITED STATES AIR FORCE
                                             WASHINGTON DC




                                                                                                9 Oct 08
MEMORANDUM FOR OSD /G


FROM: HQ USAF/A30
         1480 AF Pentagon
         Washington DC 20330-1480

SUBJECT: Draft Assessment of Arms, Ammunition, and Explosives Accountability and Control;
Security Assistance; and Sustainment for the Afghan National Security Forces

 I. Air Force concurs on the draft assessment for US. Personnel Rotation Policies. Depending on the
notification timeline, the AF may require an additional 179-day tour, followed by enduring 365-day tours
if not notified of the tour length change with sufficient time to source the 365-day tours.

    Air Force has already implemented the Defense Institute of Security Assistance Management training
prior to deployment for these positions.

   Please contact Lt Col Tim Stong at MN 223-4711 or email timothv.stonalaisenta org           if you
have any questions/concems.




                                                        MAR10E F. GIBSON, Maj Gen, USAF
                                                        Director of Operations
                                                        DCS, Operations, Plans, and Requirements




                                            184

                              THE JOINT STAFF
                                WASHINGTON, DC




Reply ZIP Code:                                            DJSM-0948-08
20318-0300                                                 9 October 2008

MEMORANDUM FOR THE INSPECTOR GENERAL OF THE DEPARTMENT OF
               DEFENSE

Subject: Report on the Assessment of Arms, Ammunition, and Explosives
          Accountability and Control; Security Assistance; and Sustainment for
          the Afghan National Security Forces (Project No. D2008-D000IG-
          0141.001)

    Thank you for the opportunity to respond to the subject memorandum.'
The Joint Staff concurs with the report as written. USCENTCOM will forward
its comments to your office through separate correspondence.
   The Joint Staff point of contact is Commander Doug LaCoste, USN;
J-5/DDGSA; 703-695-5114.

                                                         a-e
                                    W. E. GASIUN
                                    Major General, USMC
                                    Vice Director, Joint Staff
Reference:
1   DOD(IG) memorandum, 11 August 2008, "Report on the Assessment of
    Arms, Ammunition, and Explosives Accountability and Control;
    Security Assistance; and Sustainment for the Afghan National Security
    Forces (Project No. D2008-D000IG-0141.001)"




                                     185 

                        I 'NilElt sr,vri:'I      RAI,            /AINIA I)
                              01.1.1(1   III! CI   (II
                               ItFItii 131,11.0111t1 6111111 \
                        ,I%1 It I Alit I lll(i1. 1,ASI I (1Riljoi. 116:1 :lid
                                                         I




                                                                                16 September 2008

TO: DEPARTMENT OF DEFENSE INSPECTOR GENERAL

SUBJECT: United States Central Command Response to Department of Defense
         Inspector General (DoDIG) Draft Report, "Assessment of Arms,
         Ammunition, and Explosives Accountability and Control; Security
         Assistance; and Sustaimnent for the Afghan National Security Forces",
         dated II August 2008

I. Thank you for the opportunity to respond to the recommendations presented in the
DoDIG draft report.

   Attached is the CENTCOM consolidated response to the recommendations.

  The Point of Contact is Colonel Mario V. Garcia, Jr., USCENTCOM Inspector
General, (813)827-6660.




                                                             xinnz,
                                               AY W. HOOD
                                               Major General, U.S. Army



Enclosure
TAB A: CENTCOM Consolidated Response




                                      186

                      Department of Defense Office of Inspector General
                     Project No. D2008-D000IG-0141.001 August 11, 2008
                                   Assessment of
 Arms, Ammunition, and Explosives Accountability and Control; Security Assistance; and
                                Sustainment for the
                         Afghan National Security Forces
                                USCENTCOM COMMENTS
                               TO THE RECOMMENDATIONS
                          Part 1 Arms, Ammunition and Explosives
                       (Supporting documents attached at end of section)

DOD IG Observation A: The U.S. Central Command (USCENTCOM) had not clearly defined
the procedures for the accountability, control, and physical security of U.S. supplied AA&E to
ANSF.

DOD IG Recommendation: Al: Commander, U.S. Central Command issue formal guidance
governing the accountability, control, and physical security of arms, ammunition, and explosives
under U.S. control from the point of entry into and transport through the U.S. Central Command
area of responsibility until formal handover to the Afghan National Security Forces.

USCENTCOM Staff Response: Concur with recommendation A-1 provided in this Draft DOD
IG Report. CENTCOM will revise current guidance (CENTCOM LTR, date 03 July, 2008)
from an awareness memorandum to a format more directive in nature which applies to all
components within the AOR, including Afghanistan.

CSTC-A Proposed Response Al:

        Recommend the following be included in USCENTCOM guidance development for
        CSTC-A AOR. Once arms, ammunition and explosives arrive in ICAIA and are
        downloaded from the aircraft, coordination is made in accordance with the updated
        Standard Operating Procedures for Weapons Transactions to transfer responsibility of
        transporting the assets to the appropriate Depot. Once items arrive at the depot, the SOP
        for "Weapons Transactions" further outlines the required process to ensure reception,
        serialization and entry into the official stock record account system to transfer ownership
        to the ANSF.

DOD IG Recommendation: A2: Commander, U.S. Central Command issue formal guidance
coordinating the efforts of the Combined Security Transition Command-Afghanistan, the
rotating Combined Joint Task Forces operating in Afghanistan, and any other applicable
command components to provide accountability, control, and physical security ofarms,
ammunition, and explosives under U.S. control from point of entry into and transport through
Afghanistan until formal handover to the Afghan National Security Forces.

USCENTCOM Response: Concur. CEITCOM will coordinate with CSTC-A to ensure local
procedures coincides with new/existing guidance for the physical control of Arms, Ammunition,
and Explosives (AA&E). Although the revised guidance will be directive in nature, it will allow
component commanders the ability to apply more stringent policies and controls. Specifically,
with the accountability, control, physical security, and final disposition of captured, confiscated,
abandoned, recovered, and turned-in weapons held by U.S. forces, Afghanistan National Security




                                                187 

Forces, and law enforcement organizations. This guidance will not be spelled out by HQ
CENTCOM, but will ensure that CSTC-A institutes specific control measures to account for
captured, confiscated, abandoned, recovered, and turned-in weapons.
CSTC-A Response: A2:

        Refer to CSTC-A Response Al       CSTC-A is now following procedures outlined in
        response Al.

DOD IG Observation B: CSTC-A had not clearly defined the procedures for the accountability,
control, and physical security of U.S. supplied AA& E to ANSF.

DOD IG Recommendation Bl: Commander, Combined Security Transition Command
Afghanistan, issue formal guidance governing the accountability, control, and physical security
of arms, ammunition, and explosives under U.S. control from the point of entry into and
transport through the Combined Security Transition Command-Afghanistan area of
responsibility in Afghanistan until formal handover to the Afghan National Security Forces.

CSTC-A Response Bl:
       CSTC-A CONCURS.
       Refer to CSTC-A Response Al.

DOD /G Recommendation B2: Commander, Combined Security Transition Command
Afghanistan, issue formal guidance describing the missions, roles, and responsibilities applicable
to U.S. training teams and senior mentors involved in advising and assisting the Ministry of
Defense, the Ministry of Interior, and subordinate Afghanistan National Security Forces
organizations on the accountability, control, and physical security of U.S.-supplied or
Afghanistan National Security Forces procured Arms, Ammunition, and Explosives.

CSTC-A. Response B2:

       CSTC-A CONCURS with comments on corrective actions ongoing.

       Formal MoD guidance exists in Decrees 4.0, 4.2 and 4.6. MoD Decree 4.0 is currently in
       rewrite, the updated document will contain more fidelity for all processes including
       weapons processing and accountability. The Solar Year 1387 Work plan was approved
       and published Feb 08. CSTC-A Arms, Ammunition and Explosives Standard Operating
       Procedure is in draft and will be published Oct 08. MoI Logistics Policy was approved in
       Jul 08 and is currently being printed and disseminated for ANP implementation. CSTC-A
       is currently coordinating with Task Force Phoenix J3 regarding a logistics course for
       Embedded Training Teams and Police Mentoring teams. The course would highlight
       MoD Decree 4.0, 4.2 and 4.6 which outline accountability, control and physical security
       of MoD arms, ammunition and explosives. The course would also highlight MoI Policy
       4.0 which addresses MoI logistics and describe mentor roles and responsibilities.

DOD IG Recommendation B3: Commander, Combined Security Transition Command
Afghanistan issue formal guidance coordinating the efforts of the Embedded Training Teams and
the Police Mentoring Teams to advise and assist the Afghanistan National Security Forces in its
efforts to account, control, and physically secure U.S. supplied or Afghanistan National Security
Forces-procured Arms, Ammunition, and Explosives.

CSTC-A Response B3:




                                        188

    I.   CSTC-A CONCURS with comments on corrective actions ongoing.
    IN
          CSTC-A issued FRAGO 08-047, Command and Control Realignment of CSTC-A ANSF
          Logistics Advisors which align command and control of ANSF logistics mentors across
          Afghanistan. MoD and Mol Integrated Process Teams were established and meet
         weekly with representatives from national level logistics organizations, tactical level
         units and the CSTC-A staff to address logistics issues and ensure a common operating
         picture for all echelons. Additionally, CSTC-A and TF Phoenix have initiated a
         bi-weekly newsletter (Logogram) to inform mentors at all echelons, highlight policy
         changes and increase coordination. CSTC-A Arms, Anununition and Explosives
         Standard Operating Procedure is in draft and should be published Oct 08.
DOD IG Observation C: Combined Security Transition Command Afghanistan had not
accurately recorded the serial numbers of weapons that were to be issued to ANSF in its official
Stock Record Inventory System.

DOD /G Recommendation C.1.a: Commander, Combined Security Transition Command
Afghanistan, issue formal procedures governing data input controls and quality assurance
reviews to ensure weapons serial numbers are accurately recorded in the CORE Information
Management System and any subsidiary systems for weapons to be and already delivered to the
Afghan National Security Forces.
CSTC-A Response C.1.2:

         CSTC-A CONCURS with comments on corrective actions ongoing.
         CORE IMS is the official stock record account system for the ANA, at Depot 1. In May
         2008, the CJ4 established an internal audit "Tiger Team". This internal audit team was
         put into place to validate the serial numbers of weapons and the accuracy of the stock
         record account system. The "Weapons Transaction Standard Operating Procedure" was
         revamped and implemented to ensure that all weapons are serialized upon reception at the
         Depot and entered into the system. Audits were conducted May and June of 2008 by the
         CJ4 Operations Division Support Operations Officer (SPO). Full inventories of the small
         arms weapons were accomplished, duplicate and unprocessed serial numbers were
         identified, corrected and annotations/corrections were made into the official stock records
         account system by the CJ4 "Tiger Team" led by the SPO. In addition, audits will be
         petformed quarterly on property account books to ensure proper documentation. We
         have directed that MPRI develop a comprehensive proposal to upgrade CORE IMS to
         enable easier and more accurate accounting and control of assets.

DOD /G Recommendation C.1.b: Commander, Combined Security Transition Command
Afghanistan establish and document a process to identify all previously recorded erroneous,
incomplete, and duplicative serial numbers and identify missing serial numbers and enter the
correct information into the CORE Information Management System and any subsidiary
systems.
CSTC-A Response C.1.b:

         CSTC-A CONCURS with comments on corrective actions taken.
         The "Weapons Transaction Standard Operating Procedure" was revamped and
         implemented to ensure that all weapons are serialized upon reception at the Depot and
         entered into the system. A system of regular audits and inspection of the process has




                                                 189 

          been implemented to ensure the SOP is followed and that CORE IMS stock record
          account remains accurate. During audits that occurred during May and June of 2008, full
          inventories of the small arms weapons were accomplished; duplicate and unprocessed
          serial numbers were identified and corrected in the official stock records account system
          by CJ4 "Tiger Team." In addition, audits are scheduled to be performed on property
          account books to ensure proper documentation.

DOD IC Recommendation C.1.c: Commander, Combined Security Transition Command
Afghanistan modify the contract(s) with MPRI, Inc. concerning the operation of the CORE
Information Management System, as applicable, to implement Recommendations C. La. And
C.1.b.

CSTC-A Response C.1.c:

         CSTC-A CONCURS with comments on corrective actions taken.

         CSTC-A CJ4 is pursuing an upgrade to the scope and function of CORE IMS to maintain
         the official stock record accounts and accurate inventory. Locations for this upgrade
         include ANA Depot 0, 1,2 and all Forward Support Depots. MPRI's contract will be
         modified accordingly. CSTC-A CJ4 is reviewing the purchase of CORE IMS or
         comparable system as the stock record account for the ANP.

DOD IG Recommendation C.2: Commander, U.S. Army Materiel Command Logistics Support
Activity assist the Combined Security Transition Command Afghanistan with installing data
input quality controls in its database of weapons serial numbers to ensure compatibility with the
requirements of the DoD Small Arms/Light Weapons Registry.

CSTC-A Response C.2:

         CSTC-A CONCURS.

DOD IG Observation D: Combined Security Transition Command Afghanistan did not report
the serial numbers of weapons it controlled to the Dot) SA/LW Registry maintained by the U.S.
Army Material Command Logistics Support Activity, to include donated weapons.

DOD IC Recommendation D.1.a: Commander Combined Security Transition Command
Afghanistan issue formal procedures to comply with the DoD Small Arms/Light Weapons
Serialization Program as required by DoD 4000.25-M, "Defense Logistics Management
System," Volume 2, Chapter 18, Change 5, March 25, 2008, and Army Regulation 710-3,
"Inventory Management Asset and Transaction Reporting System," March 25, 2008, to ensure
weapons serial numbers are accurately reported to the DoD Small Arms/Light Weapons
Registry.

CSTC-A Response D.1.a:

         CSTC-A CONCURS with comments on corrective action ongoing.

         CSTC-A is developing a long-term solution to this issue with the 401st AFSB and
         LOGSA and will complete development of formal procedures to ensure compliance with
         this regulation. Estimated completion date of Nov 08.

DOD IG Recommendation D.1.b: Commander Combined Security Transition Command
Afghanistan modify the contract(s) with MPRI, Inc. concerning the operation of the CORE
Information Management System, as applicable, to implement recommendations DJ .a.




                                          190

CSTC-A Response D.1.b:

       CSTC-A CONCURS with comment on corrective action taken.

       CSTC-A is coordinating with the LOGSA and the Joint Munitions Command (JMC) for
       guidance on how to proceed under the new regulatory guidelines contained in AR 710-3
       dated 25 Feb 2008. CSTC-A recommends that LOGSA execute an automation skip that
       accepts Cyrillic characters. CSTC-A further recommends that DSCA add specification
       line for Alpha/Numeric stamping at point of origin in FMS cases for weapons. There is
       not capacity or capability to do stamping in country.

DOD IG Recommendation D.2: Commander, U.S. Army Material Command Logistics Support
Activity assist the Combined Security Transition Command-Afghanistan in reporting serial
numbers for U.S.-supplied weapons provided to the Afghanistan National Security Forces to
ensure compatibility with the requirements of the DoD Small Arms/Light Weapons Registry.

CSTC-A Response D.2:

       CSTC-A CONCURS.

DOD IG Observation E: Combined Security Transition Command Afghanistan had not clearly
defined procedures for the accountability, control, physical security, and final disposition of
captured, confiscated, abandoned, recovered, and turned-in weapons held by U.S. forces, ANSF,
and law enforcement organizations, to include the recording of the serial numbers of those
weapons.

DOD IG Recommendation E.1: Commander, Combined Security Transition Command
Afghanistan, issue formal procedures governing the accountability, control, physical security,
and final disposition of captured, confiscated, abandoned, recovered, and turned-in weapons held
by U.S. forces, Afghanistan National Security Forces, and law enforcement organizations, to
include the recording of the serial numbers of those weapons.

CSTC-A Response E.1:

       CSTC-A NON-CONCURS.

       This is beyond the scope of the CSTC-A mission and resources to accomplish. However,
       during Solar Year 1385 the Disarmament of Illegally Armed Groups (DIAG) system
       developer prepared a written procedure for control and final disposition of captured
       weapons. This procedure was translated into Dan i and provided to Assistant Minister of
       Defense for Acquisition, Technology, and Logistics (Alv1oD AT&L) and Logistics
       Conunand and was disseminated to other units of the ANA and ANP. This procedure
       required the captured weapons to be turned over to an UN Afghan New Beginnings
       Program (UNANBP) location for consolidation and eventual release to the AMoD AT&L
       at which time the serial number would be captured by AMoD (AT&L). The current
       procedure requires the captured weapon to be taken to a UNANBP location where the
       UNANBP representative monitors as a MoD representative signs for control of the
       weapon. The weapon serial number is captured at this time.

      The following explains procedures for processing of captured weapons when they are
      turned over to AMoD-AT&L: (1) the weapon is forwarded to Depot 0 for holding; (2)
      the weapon is sent to the Central Workshop (CWS) for inspection, repair, test, re-
      inspection, and acceptance; (3) the weapon is returned to Depot 0.




                                            191 

        Furthermore, the process for managing the DAG program transitioned to the ANSF as of
        May 2008. The process itself remains intact with all forces, ANSF or Coalition, turning
        in captured weapons to UNANBP. CSTC-A will continue to aid the ANSF in the
        accomplishment of this mission by providing oversight at direct mentor resourced areas,
        i.e. Central Workshop, Forward Support Depots, and National Depots.

DOD IC Recommendation E.2: Commander, U.S. Central Command, issue formal procedures
to coordinate the efforts of the Combined Security Transition Command Afghanistan and the
rotating Combined Joint Task Forces operating in Afghanistan for the accountability, control,
physical security, and final disposition of captured, confiscated, abandoned, recovered, and
turned-in weapons held by U.S. forces, Afghanistan National Security Forces, and law
enforcement organizations, to include the recording of the serial numbers of those weapons.

CENTCOM Response: Partially concur: See A-2 response.

CSTC-A Response E2:

        CSTC-A PARTIALLY CONCURS.

        CSTC-A is not currently resourced to accomplish the full range of tasks implied in the
        recommendations.


                               Part II Foreign Military Sales
                      (Supporting documents attached at end of section)

DOD IG Observation F: The National Ammunition Depot for the Afghan National Army
(ANA) and the National Weapons and Ammunition Depot for Afghan National Police (ANP)
were identified collectively as "22 Bunkers". Although there were ANA personnel assigned to
the ANA side of 22 Bunkers, there were no ANP personnel assigned to manage and operate the
ANP side of 22 bunkers.

DOD IG Recommendation F: Commander, Combined Security Transition Command
Afghanistan coordinate with senior officials of the Afghan National Police and request the
assignment of police logistics personnel to the National Weapons and Ammunition Depot for the
Afghan National Police at 22 Bunkers so that they may be trained and mentored in the
management and operation of a national-level weapons and ammunition depot.

CSTC-A Response F:

       CSTC-A CONCURS.

       Previous attempts by MOI to post ANP officers to weapons depot for accountability
       purposes were not successful due to rank literacy, language barriers and computer skills
       deficiencies.

       Senior MoI and Log Eli' mentors will continue to engage with MOI leadership to
       strongly recommend posting appropriately skilled personnel to account for munitions.

DOD IG Observation G: The number of SAO personnel billets in the CSTC-A Joint Manning
Document (JMD) was inadequate to accomplish the U.S. security assistance mission in
Afghanistan, which has an important and strategic role with respect to training and equipping the
ANSF. Specifically, the CSTC-A SAO was not adequately staffed with sufficient numbers of




                                        192

personnel and those personnel that were assigned did not possess the requisite security assistance
skills and experience. In addition, short personnel tours of duty and different rotation policies
among the military services hindered program execution and did not support development of the
necessary program stability and continuity. This occurred because the current JMD had not been
updated to reflect the scope of the current security assistance program in Afghanistan and the
size of the SAO staff needed to manage it. Moreover, the Joint Staff and the Military Services
have not provided sufficient personnel to staff the existing TMD.

DOD IG Recommendation G.1.a: Commander, U.S. Central Command, in coordination with
the Commander, Combined Security Transition Command Afghanistan increase the rank level of
leadership of the security assistance officer commensurate with the mission, size and scope of
the security assistance program and level of Foreign Military Sales funding in Afghanistan.

USCENTCOM Response

CENTCOM RESPONSE: Partially-concur. Current authorizations do provide for leadership
of the security assistance officer commensurate with the mission, size and scope of the security
assistance program and level of Foreign Military Sales funding in Afghanistan. In August 2002,
the Director of the Joint Staff (DJS) authorized establishment of a temporary joint GO billet to
serve as U.S. Security Coordinator and Chief. The SAO is Combined Security Transition
Command Afghanistan (CSTC-A) commanded by a Major General and supported by a
Brigadier General PolMil officer. The current Afghanistan SAO JTD dated Aug 2008 reflects a
total of (9) billets which includes (1) USA 0-6 Deputy Chief, OSC-A; (1) USA 0-5; (4) USAF
and (1) USA 0-4; (1) USAF E-7 and (1) USA E-6 billets. Effective in FY09, The JTD will
reflect 10 authorized billets with a breakout as follows: (1) USA 0-6; (2) USA 0-5; (4) USAF
& (1) USA 0-4; (1) USAF E-7 and (1) USA E-6 billets. How these personnel are utilized are a
function of Service fills and CSTC-A assignment.

CSTC-A Response G.I.a:
   A   CSTC-A CONCURS.

       We recommend sourcing an 0-6 to fill position #10653.

DOD IG Recommendation Gib: Commander, U.S. Central Command, in coordination with
the Commander, Combined Security Transition Command Afghanistan revise, updates, and
approves authorized positions in a new Joint Manning Document for the Combined Security
Transition Command Afghanistan security assistance office that reflects the scope of the security
assistance program in Afghanistan and provides sufficient personnel with the requisite skills and
experience levels.

USCENTCOM Response: Partially-concur. In addition to the Afghanistan SAO JTD as stated
above, the CSTC-A JMD (Mod 12-Jun 08) reflects an additional 514 billets. Twelve of these
514 billets have remarks as "SEC COOP PROM." These (12) augmentation billets breakout as:
   USN 0-5; (7) 0-4s (3-USAF, 2-USA, 1-USMC & 1-USN); (2) 0-3 (1-USAF & 1-USA); and
   USAF E-5 billets. CCJ1 and CCJ5 are working with CSTC-A to improve their SAO/FMS
capability as required.

CSTC-A Response G.1.b:

       CSTC-A CONCURS.




                                             193 

DOD IG Recommendation G.2.a: Chairman of the Joint Chiefs of Staff and the Commander,
U.S. Central Command expedite: approval of the revised Combined Security Transition
Command Afghanistan Joint Manning Document.

USCENTCOM Response: Concur. Once inputs are received from CSTC-A, CCJI-MPA will
expedite the JMD process.

CSTC-A Response G.2.a:

        CSTC-A CONCURS.

DOD IG Recommendation G.2.b: Chairtnan of the Joint Chiefs of Staff and the Commander,
U.S. Central Command assign personnel with the requisite skills, experience levels, and rank to
fill positions designated in the revised Joint Manning Document for the Combined Security
Transition Command-Afghanistan security assistance office.

USCENTCOM Response: Concur. While it is the responsibility of Joint Forces Command
and the services to assign personnel with the requisite skills, experience levels, and rank to fill
these positions, we are in direct coordination with the JFCOM, JS, and the Services to ensure
maximum sourcing for the Afghan JMDs.

CSTC-A Response G.2.b:

        CSTC-A CONCURS.

        Tour lengths for all SAO personnel should be one year. Inbound personnel must attend
        the Defense International Security Assistance Management (DISAM) course en-route or
        prior to deployment.

DOD IG Recommendation G.3: Director, Defense Security Cooperation Agency, in
coordination with the Assistant Secretary of the Navy (Manpower and Reserve Affairs) and the
Assistant Secretary of the Air Force for Manpower and Reserve Affairs, establish appropriate
tour length policies for personnel assigned to the security assistance office in Afghanistan that
provide the operational commander the personnel and resources necessary to perform the
security assistance mission. Specifically, establish one year tours for Navy and Air Force
security personnel assigned to the Combined Security Transition Command Afghanistan security
assistance office or establish an alternate rotation policy (discussed in this observation) similar to
that developed by the United States Army Security Assistance Command for Army security
assistance personnel.

CSTC-A Response 6.3:

        CSTC-A CONCURS.

DOD IC Recommendation G.4: Chairman of the Joint Chiefs of Staff, the Director, Defense
Security Cooperation Agency, the Assistant Secretary of the Army for Manpower and Reserve
Affairs, the Assistant Secretary of the Navy (Manpower and Reserve Affairs), and the Assistant
Secretary of the Air Force for Manpower and Reserve Affairs ensure that personnel assigned to
security assistance positions in Afghanistan receive adequate security assistance training before
deployment, but at a minimum they attend the Defense Institute of Security Assistance
Management course.

CSTC-A Response G4:




                                         194

       CSTC-A CONCURS.



                             Part III LoKistics Sustainabilitv
                      (Supporting documents attached at end of section)
DOD IC Observation H: FMS standard case processing time standards for the pseudo-FMS
cases used to equip the ANSF were inadequate for wartime contingency operations in
Afghanistan and were not meeting the train and equip requirements of CSTC-A and ANSF.
Further, USCENTCOM and CSTC-A do not have sufficient visibility of FMS case processing to

enable managers to monitor and react to program metrics. This has occurred because the 120-day
case processing time standard has not been adjusted for wartime operations in Afghanistan.
Further, a Common Operating Picture report was not established for the use of the security
assistance function within CSTC-A. As a result, CSTC-A is hindered in efficiently and
effectively achieving its train and equip mission for the ANSF.

DOD 1G Recommendation HA: The Under Secretary of Defense for Policy, in coordination
with the Director, Defense Security Cooperation Agency establish a security assistance policy, in
DoD 5105.38-M, "Security Assistance Management Manual," October 3, 2003, for Foreign
Military Sales case processing times that applies to wartime and contingency operations and, in
this case, specifically to Afghanistan.

CSTC-A Response H.1:

       CSTC-A CONCURS.

       CSTC-A is currently paying for above standard level service ($5.8M).

       DoD 5105.38-M currently does not contain wartime service timelines.

       Currently operating with average case development time of 50 days with an average
       contracting cycle of 45 days. This level of support is adequate.

DOD IG Recommendation H.2: The Under Secretary of Defense for Policy, in coordination
with the Director, Defense Security Cooperation Agency develop a plan to provide the necessary
personnel support and funding within the security assistance community to implement and
process Foreign Military Sales cases at the established wartime standards for contingency
operations in Afghanistan.

CSTC-A Response H.2:

       CSTC-A CONCURS.

DOD 1G Recommendation H.3: The Under Secretary of Defense for Policy, in coordination
with the Director, Defense Security Cooperation Agency develop a common operating picture
report for the Foreign Military Sales program in Afghanistan and ensure that the report is
provided to senior officials in the Office of the Secretary of Defense and the Combined Security
Transition Command Afghanistan on a recurring basis.

CSTC-A Response 11.3:

       CSTC-A CONCURS.




                                            195 

DOD 1G Observation 1: The plans for development of ANSF did not provide a clearly defined
path to achieving an end state in which MOD, MOI and the ANSE will be capable of
independently carrying out military and police logistics operations on a sustainable basis.
Further, CSTC-A did not have formal approved plans for the development of ANSF logistics
sustainability.

Specifically, the plans for development of ANSF logistics sustainment were not clearly linked in
a single integrated plan, and did not provide a time-phased conditions-based approach for
accomplishing end state objectives. Rather, the plans in many cases defined only broadly-stated
objectives and milestones. Further, the plans generally did not identify a specific person or
office responsible for the execution of specific tasks. Moreover, it was not clear in the plans the
extent to which the Afghan ministries and security forces were directly engaged in the process of
planning the establishment of their logistics system.

DOD 1G Recommendation 1.1: Commander, Combined Security Transition Command
Afghanistan develop a single integrated logistics sustainment plan, in coordination with the
Ministries of Defense and Interior, for each level of the ministries and Afghan National Security
Forces with functional responsibility for supporting the logistics process.

CSTC-A Response LI:

       CSTC-A CONCURS with comment on corrective action ongoing.

       The CSTC-A Campaign Plan was signed 29 January 2008. Additionally, it is currently
       under review as part of a periodic revision. The update campaign plan is expected to be
       signed Sept 2008. In the "Develop the Force" line of operation, the plan includes a
       specified Objective (3.3) that states "Efficient logistics systems capable of identifying
       acquiring and distribution required resources to the ANA and ANP without external
       assistance." The updated plan also places added emphasis on sustainment during Phase
       I. Field/Generate the Afghan National Security Capability, and Phase 2 Development of
       the Afghan National Security Capability. The long term goal for logistics remains as
       stated in Annex A, Inter-Ministerial Issues," Establishment of a joint national logistics
       center with responsibilities for contract management, maintenance support, and the
       management of the strategic logistics assets and critical commodities." The Campaign
       Plan is supported by Ministerial Development plans that include logistics development
       plans for both ANA and ANT'. These Development plans will be reviewed in October
       2008 as part of our periodic campaign plan assessment. In addition to the ministerial
       development plans, Logistics Management and Acquisitions & Procurement have been
       identified as systems to be developed across staff boundaries of the MoD and MoI.
       Estimated completion is December 2008.

DOD 1G Recommendation 1.2: Commander, Combined Security Transition Command
Afghanistan ensure that future logistics sustainability plans link tasks, milestones, and metrics;
identify specific accountable offices of primary responsibility for each action; and be made final
and officially promulgated.

CSTC-A Response L2:

       CSTC-A CONCURS with comment on significant action ongoing.

       A Sustainment Annex will be included in the CSTC-A OPORD, Authorization,
       Organization and Conduct of Operations, which is being updated for FY2009 and will be
       published in Oct 08. Additionally the Ministerial Development Plan and Action Plans




                                          196

       were approved by the CSTC-A DCG after the necessary concurrence from the Afghan
       MoD and MoI in spring 08 and continue to be used for development. Assessments are
       made monthly, reported to the DCG and the Ministerial Development Boards in formal
       briefings and submitted to the Joint Staff J5. The Ministerial Development plans will be
       reviewed in Oct/Nov 2008 as part of the Campaign Plan review and assessment process
       defined in Annex D to the Campaign Plan.

DOD IG Observation J: The commander of the Logistics Command reported that his
organization had little or no formal visibility over equipment fielding plans and actions, assets,
documentation, and types and quantities of equipment being provided to the ANA fielded force.
The commander also asserted that decisions regarding the equipping of war fighting units
(Corps, Brigades, and Kandalcs) had been made without Logistics Command coordination.

DOD IG Recommendation J.1: Commander, Combined Security Transition Command
Afghanistan ensure the Afghan Logistics Command and Afghan National Army General Staff
leadership are provided supply information concerning fielding plans and actions, assets,
documentation, and types and quantities of equipment being provided to field and equip the
Afghan National Artny that is sufficient for the Logistics Command to accomplish its logistics
mission; and, that this logistics information is provided to Logistics Command by the Ministry of
Defense and the Afghan National Army leadership on a timely and ongoing basis.
CSTC-A Response Ji:
       CSTC-A NON-CONCURS.
       MoD representatives attend weekly meetings at CSTC-A where they are provided all the
       information necessary to perform their mission. Poor horizontal and vertical
       communications within the MoD are the primary barriers to more effective performance
       and greater situational awareness throughout the MoD and Logistics Command.

       The assignments of both the ANA and AN? LNOs have made a significant impact on our
       ability to both support and synchronize plans and operations. The CJ4

       Requirements/Logistics Plans section has integrated two Afghan National Army (ANA)
       LN0s, a Captain with excellent English skills and a Colonel, who are on the GS G4 staff
       and works directly for LTG Azzizudin. This has synergized the link between the C.I4 and
       GS G4 staffs, which provides a consistent flow of logistics information between the two
       staffs.

       Also, we collaborate with these LNOs in order to solidify both our 18-month fielding
       plan and our 3-month equipment distribution plan. In addition, CJ4 Operations now
       created and distribute MoD 14s to the LSOC and Logistics Command mentors to give the
       ANA visibility over fielding plans. All of these documents are in Dan i and English.
       There is also an Afghan Lt Colonel liaison at Depot I who is fully aware of all fielding
       and push plans and meets with Logistics Command once a week to go over distribution.
   a   The MoI has assigned a Lt Colonel with excellent English skills who is empowered to
       work directly with MoI staff General Officers and other leaders within the AN?. This
       LNO has a desk in the same office as our AN? Requirements planners and has real-time
       access to planning and fielding information CJ4 Requirements/Logistics Plans shop
       initiated a weekly meeting involving the CJ4 Operations section, Logistics
       Command/LSOC ETTs, and the Central Movement




                                              197 

        Agency (CMA) in order to facilitate the exchange of distribution timelines with regard to
        fielding plans, priority alignment, and current operations limiting factors. The meeting
        occurs weekly on days that the ANA LNOs are present so that they are able to project
        ANA issues that are high on the GS G4 priority list.

DOD IG Recommendation J.2: Commander, Combined Security Transition Command
Afghanistan accelerate development of a functional, networked logistics information system that
provides asset visibility and requisition and replenishment status to the appropriate logistics
nodes within the Ministry of Defense, the General Staff, including the Logistics Command.


CSTC-A Response J2:
        CSTC-A PARTIALLY CONCURS.

       Implementation and expansion of CORE-IMS and LRAT will assist the ANA in
       understanding the value and accuracy of utilizing automation for logistics management.
       CSTC-A CJ4 concurs with the goal of a functional, networked logistics information
       system however, severe limiting factors exist across Afghanistan.

       Consistent and reliable power, coupled with lack of communication equipment,
       information technology architecture/backbone and literacy rates make it extremely
       difficult to develop any type of networked logistics system beyond the Kabul region.
       CORE-1MS will provide an interim solution at the National Depots for the ANA until
       infrastructure improves and a more permanent solution set is researched, programmed,
       and implemented.

       Because of the previously mentioned factors CSTC-A developed and implemented
       through the ANA, corps level and below, a completely manual supply system and
       outlined those procedures in the logistics Decrees. A UPR proposal to upgrade or expand
       CORE-IMS to Depots 0, 1 and 2 and the four Forward Support Depots is currently being
       staffed.

DOD IC Observation K: Combined Security Transition Command Afghanistan did not have a
unified strategy for mentoring MOD and General Staff logistics organizations to achieve
integrated logistics sustainability. Further, military logistics mentors were insufficiently trained
for their logistics mentoring mission or in the Afghan logistics systems. In addition, a -
disconnect existed between senior mentors at ministerial levels and trainers at the operational
levels in information sharing and coordination and also between the trainers assigned to MOD
and to MOI.

This occurred because CSTC-A had not prepared or formally issued a unified strategy with
detailed implementing guidance for mentoring the MOD, General Staff, and MOI logistics
organizations in achieving an integrated logistics capability.

USCENTCOM and North Atlantic Treaty Organization-International Security Assistance Force
(ISAF) had not established the requirement for, nor had the U. S. Army Chief of Staff developed,
comprehensive pre-deployment training in logistics mentoring for Afghanistan and the Afghan
logistics systems. Further, CSTC-A had not developed an in-country mentoring orientation
program for logistics ETT or PMT personnel.

CSTC-A had not developed a venue or methodologies to interact and exchange information,
ideas, experiences, and best practices and to coordinate between and among senior mentors at
ministerial levels and trainers at the operational levels and also between the mentors and trainers




                                            198

assigned to MOD and to MO! to achieve integration, common purpose, and sustainability of
effolt.

DOD IG Recommendation K.1: Commander, U.S. Central Command, in coordination with the
Commander, North Atlantic Treaty Organization-International Security Assistance Force and the
Chairman of the Joint Chiefs of Staff, establish a requirement for comprehensive logistics and in-
country training for the logistics mentors supporting Coalition efforts in Afghanistan to include
Afghan logistics systems.

USCENTCOM Response: Concur. We will work with CSTC-A and NATO to establish the
appropriate training requirement and ensure standardized training occurs for all mentor
personnel. CSTC-A will complete development of a unified strategy for ANA logistics
mentorship by December 2008. From this strategy will evolve a detailed implementation and
training plan to improve the quality of mentorship at all levels.

CSTC-A Response Kl:
       CSTC-A CONCURS.
DOD IG Recommendation K.2: The Under Secretary of Defense for Acquisition, Technology,
and Logistics, in coordination with the Under Secretary of Defense for Personnel and Readiness,
develop and implement comprehensive logistics training for the logistics mentors deploying to
Afghanistan that meets the requirements of the Commander, U.S. Central Command.

USCENTCOM Response: Partially concur. It is the responsibility of U.S. Joint Forces
Command and the services to ensure that assigned mentors receive adequate training for their
mission.

CSTC-A Response IC2:
       CSTC-A CONCURS.

DOD 1G Recommendation K.3: The Secretary of the Army, through the Commander,
1St Infantry Division, implement the logistics pre-deployment training developed by the Under
Secretary of Defense for Acquisition, Technology, and Logistics for the logistics mentors
deploying to Afghanistan.

CSTC-A Response K3:
       CSTC-A CONCURS.

DOD IG Recommendation K.4.a: Commander, Combined Security Transition Command
Afghanistan develop and issue a formal, unified strategy with detailed implementing guidance
for mentoring the Ministry of Defense, General Staff, and Ministry of Interior logistics
organizations in achieving integrated logistics sustainability.

CSTC-A Response K.4.a:

       CSTC-A CONCURS with comment on corrective action ongoing.
       CSTC-A will complete development of a unified strategy for ANA logistics mentorship
       by December 2008. From this strategy will evolve a detailed implementation and
       training plan to improve the quality of mentors.hip at all levels. Development of an
       equivalent Mol mentorship strategy will follow. To ensure standardization across




                                               199 

       ANA/ANP lines, mentors will use the basic construct, processes, and methods of the
       ANA plans and processes to begin development of an ANP logistics mentor strategy.
       Similarity between the two systems will facilitate the eventual transformation of the two
       supply chains into a single ANSF supply chain.

       Although there are ministerial development plans to guide senior logistics mentors and
       handbooks to guide unit-level mentors on logistics functions, a strategy for linking
       mentorship at tactical, operational, and strategic levels is still in its infancy. The CSTC-
       A FRAGO 08-047, Command and Control Realignment of CSTC-A ANSF Logistics
       Advisors defining the relationship between tactical and strategic logistics mentors was
       followed by data collection to determine logistics functions in Afghanistan to facilitate
       better communication and coordination.

       Mentors at all echelons continuously work together to facilitate logistics operations and
       implement procedures. CSTC-A is coordinating with CHF Phoenix 33 regarding a
       logistics course for all logistics ETTs/PMTs who arrive in country. The Afghan logistics
       system is based on a U.S. Army model and fundamental concepts, processes and
       terminology are based on US Army doctrine. A baseline understanding is required for
       personnel from all services to efficiently mentor in Afghanistan. The bi-weekly
       publication of a logistics newsletter, the Log-O-Gram, increases cross-talk and
       information flow. Finally, an Eli mobile training team ensures unity of effort from
       national level logistics organizations to the tactical level.

DOD IG Recommendation K.4.b: Commander, Combined Security Transition Command
Afghanistan develop a venue and methodologies for logistics mentors and trainers to interact and
exchange information, ideas, experiences, and best practices and to coordinate between and
among senior mentors at ministerial levels and trainers at the operational levels and also between
the mentors and trainers assigned to the Ministry of Defense and the Ministry of Interior to
achieve integration, common purpose, and sustainability of effort.

CSTC-A Response K.4.b:

       CSTC-A CONCURS with comment on corrective action ongoing.

       CSTC-A issued a FRAGO 08-047, Command and Control Realignment of CSTC-A
       ANSF Logistics Advisors aligning command and control of ANSF logistics mentors
       across Afghanistan. MoD and MoI Integrated Process Teams were established and meet
       weekly with representatives from national level logistics organizations, tactical level
       units and the CSTC-A staff to address logistics issues and ensure a common operating
       picture for all echelons.

       Additionally, CSTC-A and IF Phoenix have initiated a bi-weekly newsletter (Logogram)
       to inform mentors at all echelons, highlight policy changes and increase coordination.
       CSTC-A is currently coordinating with Task Force Phoenix 33 regarding a logistics
       course for Embedded Training Teams and Police Mentoring Teams. National level
       ETTs/PMTs also travel to Corps areas to provide training and gather feedback.

DOD IG Observation L: There were insufficient numbers of logistics mentors assigned to
Errs that advised ANA and PMTs that advised ANP. This has occurred because the
requirements for PMT mentors identified in Request for Forces (RFF) 620 Modification 2
(approved by the Joint Staff in February 2007) had not been sourced.




                                          200

DOD IG Recommendation L: The Chairman of the Joint Chiefs of Staff and the Commander,
U.S. Central Command expedite the assignment of personnel with the requisite skills, experience
levels, and rank to fill positions designated in the Combined Security Transition Command
Afghanistan Request for Forces 620 Modification 2 for Embedded Training Teams and Police
Mentoring Teams logistics mentors.

USCENTCOM Response: Concur. U.S. Central Command has submitted its request for forces
for additional trainers in Afghanistan. While it is up to the Joint Forces Command and the
services to provide the personnel with the requisite skills, experience levels, and rank to fill the
positions, we are in direct coordination with the IFCOM, JS, and the Services to ensure
maximum sourcing for the Afghan IMDs.

CSTC-A Response L:
       CSTC-A CONCURS.

DOD IG Observation M: Central Movement Agency (CMA) management was unaware of how
many trucks were operational, how many were down for maintenance, or the status for repair
parts or maintenance work. Further, CMA unit-level truck maintenance was sporadic, not
performed to standards, and inadequate. In addition, CMA management was unaware of how
many vehicles were on the premises or how many had been transferred to forward support
depots.

This occurred because CMA had no reliable, accurate, internal tracking system that identified the
readiness or supply status for vehicles. Further, the organization lacked an effective equipment
maintenance schedule and established maintenance practices for vehicles, or a sufficient number
of trained maintenance technicians, tools and equipment, and spare parts. In addition, CMA had
not established a fleet parking plan or a tracking system to provide visibility of current vehicle
location and status.

DOD IG Recommendation M.1: Commander, Combined Security Transition Command
Afghanistan advised and assist appropriate officials at the Ministry of Defense, Logistics
Command, and Central Movement Agency to establish a reliable and accurate internal tracking
system that identifies the readiness and supply status for Central Movement Agency vehicles.

CSTC-A Response M.1:

       CSTC-A PARTIALLY CONCURS with comment on corrective action ongoing.
       Implementation of the Logistics Readiness Assessment Tool (LRAT) will provide a
       readiness snapshot to ANA and MoD senior leadership, which may encourage additional
       leadership focus.

       LRAT is a logistics performance reporting system, managed exclusively by the ANA,
       which enables key leaders to make sound supply chain management decisions thereby
       enhancing available combat power. Each critical node will collect and analyze stock
       status and logistics performance measure data at their level, and will submit a
       consolidated report to the next higher echelon of command. The reporting system will
       initially focus attention only on select critical line items (Shoot, Move, Communicate,
       food, Fuel, etc.) as well as key performance measures which will vary from critical node
       to another depending on customer / provider perspectives.




                                              201 

       Approximately two years ago CMA adopted the process of assigning a vehicle to an
       individual operator. CMA personnel are not well educated or proficient in maintenance
       tasks, and vehicle inspections standards are not stringent or rigorously enforced.

       Vehicle status is difficult to obtain under this system.

       The CMA Property Book Officer (PBO) has a good accountability of their assigned
       vehicles, the Movement Control Center (MCC) has a complete grasp of vehicles assigned
       on convoys, and the Company Commanders have visibility over vehicles in for
       maintenance. ETTs will work with CMA leadership to merge these into a single
       comprehensive system.

DOD IG Recommendation M.2: Commander, Combined Security Transition Command
Afghanistan advise and assist appropriate officials at the Ministry, Logistics Command, and
Central Movement Agency to establish effective equipment maintenance schedules and practices
for vehicles.

CSTC-A Response M.2:

       CSTC-A CONCURS with comment on corrective action ongoing.

       The current system gives little centralized awareness of fleet maintenance status and does
       not allow the maintenance section to determine stock supply requirements early enough
       to order expendables. The ANA supply system opposes stocking items in adequate
       quantities to allow timely servicing of vehicles. Previously noted lack of enforcement of
       individual operator maintenance combined with lack of parts availability leads to greater
       down time when vehicles are turned in, reinforcing a resistance to preventative
       maintenance.

       A maintenance schedule for vehicles reported by company commanders would allow
       better fleet availability and supply requirements forecasting. Operator maintenance is 10-
       level maintenance responsibility. CSTC-A is developing an operator maintenance SOP
       with an ECD of Nov 08. ETTs will further develop a mentorship plan to ensure that
       operators understand maintenance requirements.

DOD IC Recommendation M.3: Commander, Combined Security Transition Command
Afghanistan advise and assist appropriate officials at the Ministry, Logistics Command, and
Central Movement Agency to obtain a sufficient number of trained maintenance technicians,
maintenance tools and equipment, and spare parts to adequately maintain the vehicles.

CSTC-A Response M.3:

       CSTC-A PARTIALLY CONCURS.

       Operator maintenance is sporadic and not to standards.

       Secondary maintenance is difficult to access.

       A previously noted lack of parts supplies, as well as extremely long lead times to get
       parts discourages users from turning an otherwise operational vehicle in for cosmetic or
       minor repairs. This leads to cumulative damages that reduce the safety of operation and
       results in premature wear and tear that will require extended maintenance of the vehicle.




                                           202

        CMA has 105 vehicle maintenance authorizations on its 1388 Tashkil which are divided
        equally between the five Companies. CMA's maintenance capability is designed to
        perform scheduled and operator-level maintenance, e.g. oil changes, light bulb
        replacements, brake pad replacements. Vehicles requiring repairs beyond this level are to
        be turned into the Central Workshop Vehicle Maintenance facility which is co-located on
        the CMA compound. The Central Workshop will repair the vehicle or turn the vehicle
        into RM Asia (vehicle maintenance contractor) for maintenance functions beyond their
        capability.

        RM Asia moved into a new facility on the CMA compound in May 08. In addition to
        providing vehicle maintenance RM Asia has been contracted to provide maintenance
        apprenticeship training. This training is primarily for Central Workshop personnel but
        slots have been reserved for CMA personnel.
        CMA also had 12 personnel graduate from the Anham LLC Contract Vehicle
        Maintenance School in Apr 08. These personnel are being utilized as trainers in the
        CMA vehicle maintenance facility. The ANA Logistics Branch School will be the long
        term solution for pipeline training of vehicle mechanics. The school is scheduled to
        reach initial operating capability in Jan 09, but has begun initial mechanics training.
DOD IC- Recommendation M.4: Commander, Combined Security Transition Command
Afghanistan advise and assist appropriate officials at the Ministry, Logistics Command, and
Central Movement Agency to establish a fleet parking plan and tracking system to provide
visibility of current vehicle location and status.
CSTC-A Response M.4:
    2   CSTC-A CONCURS with comment on corrective action ongoing.
        As previously noted, individual sections have tracking systems and visibility, however,
        no one office has a complete vehicle picture. ETTs will work with ANA leadership to
        merge these into a single comprehensive system. Additionally, logistics ETTs will
        develop a parking plan/tracking SOP.
        Parking space is also an issue. A fuel station construction project has reduced the amount
        of available space to organize and park tractor/trailers. CMA has submitted a request to
        obtain the land immediately east of their current compound. This area would serve two
        important purposes for CMA: 1) it would provide a secure area to conduct driver's
        training, both internal and advisor-led, and 2) would provide an area to stage convoys
        prior to departure to the applicable Regional Corps location.
        Log ETT advisors have submitted a request through CJ-ENG to initiate a Right of Entry
        survey on this land which is believed to be owned by the Ministry of Energy. Once land
        rights are obtained, CJ-ENG security funds can be utilized to complete a partially existing
        stone security wall and complete land grading on the area.
DOD 16 Observation N: CMA had trained only 120 of 677 authorized drives. This occurred
because insufficient numbers of drivers had received formal driver training through the German
Driver and Mechanics School at the Kabul Military Training Center or from other qualified
sources.
DOD 16 Recommendation N.1: Commander, Combined Security Transition Command
Afghanistan, in coordination with appropriate U.S. forces organizations, the North Atlantic




                                                203 

Treaty Organization-International Security Assistance Force, and the Ministry of Defense assess
the driver-training requirements against the resources available to provide that training.

CSTC-A Response Ni:.

        CSTC-A CONCURS.

        Current number of trained drivers is 180 of 519 drivers (35%) on the 1388 Tashltil.

    9   Fifty drivers are currently enrolled in the German Driving School class which runs
        through Sep 08.

        We will encourage ANSE to send CMA drivers to the maximum extent possible. This
        course trains licensed drivers up to the Medium Tactical Vehicle level.

        Additional training is required for tractor/trailer and convoy operations.

        A team of fifteen USAF vehicle operators were tasked to perform driver's familiarization
        to increase successful driver completion rates from the German Driving School and to
        build on the foundation of the German Driving School curriculum and develop lesson
        plans for convoy operations after a driver's graduation. They have been limited by 1) a
        lack of lesson plans and 2) a lack of a secure/safe area to conduct the driver's training.
        These lesson plans will be used as the basis for a future organic CMA training section.

DOD IG Recommendation N.2: Commander Combined Security Transition Command
Afghanistan, in coordination with appropriate U.S. forces organizations, the North Atlantic
Treaty Organization-International Security Assistance Force, and the Ministry of Defense
ensures that adequate professional driver training is provided for Central Movement Agency
drivers to eliminate qualification shortfalls.

CSTC-A Response N.2:

        CSTC-A CONCURS.

        Refer to CSTC-A Response N.1.


DOD IG Recommendation N.3: Commander Combined Security Transition Command
Afghanistan in coordination with appropriate U.S. forces organizations, the North Atlantic
Treaty Organization-International Security Assistance Force, and the Ministry of Defense
develop a plan of action to increase the number of trained and qualified drivers to 100 percent of
the Tashkil authorization.

CSTC-A Response N.3:

        CSTC-A CONCURS.

        Refer to CSTC-A Response N.1.

DOD IC Observation 0: Formal logistics specialty training within ANA did not exist in
Afghan military professional development schools. Further, ANA personnel working in logistics
billets were not fully trained, although some functional training was provided to enlisted
personnel.




                                            204

DOD IG Recommendation 0: Commander, Combined Security Transition Command-
Afghanistan, in coordination with the Ministry of Defense and the Afghan National Army,
develop and initiate formal logistics specialty training programs within the Afghan National
Army that lead to formal designation of officers, noncommissioned officers, and enlisted
personnel as logistics specialists.

CSTC-A Response 0:
       CSTC-A CONCURS.
        Initial operational capability of the national logistics school is scheduled for Jan 2009
        with full-operational capability scheduled for 2012.GAFTAG reports to the Combined
       Training Advisory Group (CSTC-A CTAG) and coordinate through CSTC-A CJ7
       Training and Education. CSTC-A CJ4 provides overall policy and programming
       guidance and assistance for the logistics school stand-up. CSTC-A CJ4
       developed/validated over 15,000 logistics positions for the Solar Year 1388 tashIcil,
       building career path and duty descriptions for six MOSs and over 30 ASIs for officers,
       NC0s, and enlisted personnel, nesting career paths for each respective MOS.
DOD IG Observation P: Guidance clearly describing the logistics policies, processes, and
procedures for MOI and ANP had not been developed and issued. This occurred because CSTC-
A logistics mentors for MOT had not placed sufficient emphasis on assisting senior MOI and
ANP leadership in developing and implementing systematic logistics directives and decrees that
clearly described the polices, processes, and procedures for accomplishing the logistics functions
within MOI and ANP. As a result, the logistics capability development for MOI and ANP has
been delayed.

DOD IG Recommendation P: Commander, Combined Security Transition Command
Afghanistan, in coordination with the Ministry of Interior and the Afghan National Police,
expedite development and publication of detailed logistics directives and decrees that clearly
describe the policies, processes, and procedures for accomplishing the logistics functions within
the Ministry of Interior and the Afghan National Police.
CSTC-A Response P:
   a   CSTC-A NON-CONCURS.

       Deputy Assistant Minister for Administration and Support (Lt Gen equivalent) signed the
       Ministry of Interior Policies for logistics, transportation and maintenance in July.
       Mass reproduction of policies conducted in August 08.

       MoI conducted Senior Leader Logistics Seminar in August 08 to introduce the new
       policies and educate many of the new procedures for a demand based logistics system.
       CJ4 Log ETT Mentors/Advisors will facilitate another Log Seminar in September 08 to
       educate senior MOI Logisticians.

DOD IG Observation 0: Formal logistics and acquisition specialty training within MOI has
been insufficient to develop a self-sustaining logistics capability. This occurred because
comprehensive programs of instruction leading to the development of logistics and acquisition
expertise for MOI officials and ANP police officers had not been established. Further, MOI
organizational restructuring hampered the planning and delivery of needed logistics training.




                                               205 

DOD 1G Recommendation 0: Commander, Combined Security Transition Command
Afghanistan, in coordination with the Ministry of Interior and the Afghan National Police,
develop and initiate logistics and acquisition specialty training programs to enable Ministry of
Interior officials and Afghan National Police officers performing logistics and acquisition
functions at the national, regional, and district levels to perform their missions effectively.

CSTC-A Response 0:

       CSTC-A CONCURS with corrective actions ongoing.

       Acquisition training will occur in Nov 2008 when Defense Acquisition University arrives
       and conducts certification training with MoD and MoI.

       Initial planning and development of more institutional logistics training can begin with
       approval of the logistics policies in July 2008 and the addition of contract and military
       mentors at the ministerial levels.

       In Aug 2008, CSTC-A received confirmation of the formal approval to begin NATO
       Codification in Afghanistan- This will allow MoI and MoD acquisition agencies to
       procure directly from the NATO catalogue.


                             PART IV Medical Sustainabilitv
                      (Supporting documents attached at end of section)

DOD 1G Observation R: The mentoring of ANSF medical personnel by coalition ETT, PMT,
and ISAF OMLT personnel was seriously hampered by their inadequate training. This occurred
because USCENTCOM and ISAF had not established the requirement for, nor had the U.S.
Army Chief of Staff developed, comprehensive pre-deployment training in medical mentoring
that emphasized, among other issue areas, the cross-cultural context in Afghanistan. Further,
CSTC-A had not developed an in-country mentoring orientation program for medical FIT and
PMT personnel.

DOD IG Recommendation R.1: Commander, U.S. Central Command and the Chairman of the
Joint Chiefs of Staff, in Coordination with the Commander, North Atlantic Treaty Organization-
International Security Assistance Force, establish a requirement for the comprehensive medical
pre-deployment and in-country training for the medical mentors supporting Coalition efforts in
Afghanistan.

USCENTCOM Response: Concur. The pre-deployment and in country training and transition
programs for US medical ETT Forces are currently established at Fort Riley and further
implemented via a right seat/left seat policy upon deployment in Afghanistan with CSTC-A
Command Surgeon oversight. There is now a full day of medical ETT and PMT training with
curriculum developed by CDHAM and approved by CDR. CSTC-A at Fort Riley.


CSTC-A Response R.1:

       CSTC-A CONCURS.

DOD 1G Recommendation R.2: The Assistant Secretary of Defense for Health Affairs, in
coordination with the Under Secretary of Defense for Personnel and Readiness and using the
assets of the Military Health System and Center for Disaster and Humanitarian Assistance
Medicine at the Uniformed Services University for the Health Sciences, develop and implement




                                         206

comprehensive medical pre-deployment training for the medical mentors deploying to
Afghanistan that meets the requirements of the Commander, U.S. Central Command

USCENTCOM Response: Concur.
CSTC-A Response R.2:

       CSTC-A CONCURS.

DOD IG Recommendation R.3: The Secretary for the Anny, through the Commander, ls'
Infantry Division, implements the medical pre-deployment training developed by the Assistant
Secretary of Defense for Health Affairs for the medical mentors deploying to Afghanistan.

USCENTCOM Response: Concur. CDR CSTC-A in coordination with CSTC-A Surgeon and
Commander l' Infantry Division and CDHAM has developed a comprehensive training program
for deploying Afghanistan ETTs.

CSTC-A Response R.3:

       CSTC-A CONCURS with comments on corrective actions taken.

DOD IG Recommendation R.4: Commander, Combined Security Transition Command
Afghanistan, develop and implement an in-country mentoring orientation for medical mentors
that describes and clarifies current mentoring practices, the Afghan National Security Forces
medical development objectives and priorities, and meets the requirements of the Commander,
U.S. Central Command.

USCENTCOM Response: Concur with CSTC-A Response.
CSTC-A Response:

       CSTC-A PARTIALLY CONCUR.

       CSTC-A Command Surgeon established an ongoing full day of training which has been
       injected into the curriculum at Fort Riley. This program began 2 months ago and will
       recur with each graduating class. The training was outlined by the Command Surgeon's
       office, curriculum was developed by CDHAM, and the instructors are both past Afghan
       mentors (one PMT, and one Eli).

       An ETT teleconference concerning logistics, finance and other issues is held every other
       week for training and as a venue for questions.

       An ETT strategic teleconference is held for ETT leads is held every other week (on the
       alternate week of the preceding topic).

       The Surgeon General will perform his own orientation process for incoming ETT's.

       CSTC-A Command Surgeon has been successful in mandating alto 10 day overlap in
       incoming and outgoing ETr's as the single most important determinant in continuation of
       continued mentoring success and prevention of loss of momentum.

       CSTC-A Command Surgeon developed a doctrinal Eli' handbook which is distributed to
       each incoming ETT.




                                          207 

       Each outgoing ETT member is tasked with constructing an exhaustive continuity book
       for provision to his replacement.

       CSTC-A has instituted an ETT sponsorship program between incoming ET T members
       and their outgoing counterparts.

       CSTC-A Command Surgeon and Deputy Surgeon visit each regional hospital ETT on a
       quarterly basis for training and supervision.

       Institution of quarterly traveling week long trauma seminar to the four regional hospitals
       consisting of NMH ETT specialists (General Surgery, Emergency Medicine,
       Anesthesiology, Critical Care) who will travel and teach with their Afghan mentees.
       First such seminar was two months ago.

       CSTC-A Command Surgeon also instituted a biannual 4 day ANA Leadership
       Conference (last one Feb 2008, next one planned for early October). The Team Leads
       and Chief Nurses from the regional hospitals as well as the ANA Corps Surgeon mentors
       from each of the 5 regions (along with their mentees) come to Kabul for training and
       cross pollination of ideas.

DOD IG Observation S: U.S. Navy and U.S. Air Force medical personnel practices in
Afghanistan restrict relocation of medical ETT and PMT personnel assigned in ad-hoc status
(formally known as "in-lieu-of') from the location and functional billet to which each service
member was originally assigned. Further, many medical mentoring teams were not fully
manned, particularly those assigned to work with ANP.

This occurred because U.S. Navy and U.S. Air force medical personnel practices have not
evolved to meet the changing situation in Afghanistan and CSTC-A has requested Joint Staff and
the U.S. Joint forces Command to move slowly in filling PMT medical mentoring billets.

DOD IG Recommendation S.1: The Surgeon General of the Navy change Joint Force and Ad-
hoc medical personnel practices within the U.S. Navy to ensure that the Combined Security
Transition Command-Afghanistan Command Surgeon has the maximum flexibility necessary to
assign Naval personnel where needed to accomplish the medical mentoring mission in
Afghanistan.

USCENTCOM Response: Concur.
CSTC-A Response S1 :

       CSTC-A CONCURS.

DOD IC Recommendation S.2 : The Surgeon General of the Air Force change the Joint Force
and Ad-hoc medical personnel practices within the U.S. Air Force to ensure that the Combined
Security Transition command-Afghanistan Command Surgeon has the maximum flexibility
necessary to assign Air Force personnel where needed to accomplish the medical mentoring
mission in Afghanistan.

USCENTCOM Response: Concur.
CSTC-A Response S.2:

       CSTC-A CONCURS.




                                          208

DOD IC Recommendation S.3.a: Commander, Combined Security Transition Command-
Afghanistan develop and implement an in-country tracking system to identify medical mentor
personnel that are not appropriately trained and utilized and billets that are not filled in medical
Embedded Training teams and Police Mentoring Teams.

USCENTCOM Response: CSTC-A corrective action has been taken. In addition there is
an unsourced RFF for Police Mentor Teams across all functional lines of operation, this is
not specific to medical personnel.
CSTC-A Response S.3.a:

       CSTC-A PARTIALLY CONCURS with comments on corrective action taken.
       As noted in our last response the CSTC-A Surgeon's office is tracking its ETT personnel.
       An Operations Officer was added to our staff approximately one month ago which will
       further increase the fidelity of this tracking. Except for JMD and the ETT's associated
       with the Central and the 4 regional hospitals, all other ETT's are mentoring at the Corps
       and below level.

DOD IG Recommendation S.3.b: Commander, Combined Security Transition Command
Afghanistan informs the U.S. Central Command of deficiencies identified by the tracking system
and request appropriate remedies.

USCENTCOM Staff Response: Concur with CSTC-A comments below.
CSTC-A Response S.3.b:
       CSTC-A CONCURS.

       CSTC-A participates in monthly CENTCOM VTC.

        CSTC-A has added a new Army 0-6 (August of 08) who has been tasked with tracking
       and optimizing the status of our mentors. He has established contact with the offices in
       charge of request for forces (RFT) for each service and retains close contact with each
       office.

DOD IG Observation T: Specific, prioritized medical objectives had not been developed for
providing mentoring support to ANA and ANP. In addition, it was not evident that mentoring
priorities had been synchronized with the appropriate levels of ANA and ANP medical
leadership and actionable information had been developed on the difficulties with medical
logistics, manpower, training, and readiness.

This occurred because the CSTC-A Command Surgeon has not developed a comprehensive,
detailed, and integrated multi-year medical mentoring plan that prioritizes and synchronizes
mentoring efforts; coordinates those efforts within CSTC-a, between CSTC-a and Task Force
Phoenix, and between CSTC-A and ISAF; and links together strategic, operational, and tactical
mentoring steps required in the mentoring plan.

DOD IG Recommendation T.1: Commander, Combined Security Transition Command-
Afghanistan develop and implement a comprehensive, detailed and integrated multi-year
medical mentoring plan that prioritizes and synchronizes mentoring efforts; coordinates those
efforts within the Combined Security Transition Command-Afghanistan, between the Combined
Security Command-Afghanistan and Task Force Phoenix, and between the Combined Security
Transition Command-Afghanistan and the North Atlantic Treaty Organization-International




                                              209 

Security Force; and links together strategic, operational, and tactical mentoring steps required in
the mentoring plan.

USCENTCOM Resnonse: Concur with CSTC-A comments below. Challenges remain that
are inherent in the NATO command construct with multiple national caveats and
command authorities that constrain CSTC-A's ability to direct priorities and training
standards within the ISAF deployed forces. The CSTC-A Campaign Plan is published for
all to synchronize their lines of operation, priorities, engagement and training efforts with
regards to ANSF.
CSTC-A Response T.1:

        CSTC-A CONCURS with comments on corrective actions ongoing.
        CSTC-A strategic planning offsite scheduled for 15 September 2008.

        CSTC-A CJ-Med has conducted weekly planning sessions for the last two years with
        North Atlantic Treaty Organization-International Security Force medical teams.

        CSTC-A participates and presents at biannual North Atlantic Treaty Organization-
        International Security Force medical team strategic planning conference. The last
        conference was held in JUL 2008.

       CSTC-A participates in monthly CSTC-A/TF 101 (includes IF Phoenix) synchronization
       and strategic planning meeting.

        Weekly tactical contact with Task Force Phoenix instituted July 2008.

       In accordance with its operational order and other directives, CSTC-A Surgeon's Office
       utilizes the Program Management Plan (PM?) compiled by CDHAM to aid in planning.

       This 133 page document looks extensively at 3, 5, and 10 year Afghan healthcare
       mentoring goals and potential strategies for their attainment - will be completed 15
       September 2008.

DOD IG Recommendation Ti: Conunander, Combined Security Transition Command-
Afghanistan share this medical mentoring plan with the North Atlantic Treaty Organization-
International Security Force, and in coordination with the Commander, United States Central
Command, with the North Atlantic Treaty Organization Allied Command Operations to develop
synchronized medical mentoring between Combined Security Transition Command-Afghanistan

Embedded Training Teams and Police Mentoring Teams and the North Atlantic Treaty
Organization-International Security Assistance Force Operational Mentoring and Liaison Teams.

USCENTCOM Response: Concur. The establishment of COMUSFOR future will further
synchronize ISAF unity of effort.
CSTC-A Response T.2:
       CSTC-A CONCURS.

DOD IG Recommendation T.3: Commander, Combined Security Transition Command-
Afghanistan establish internal coordination and synchronization procedures on a weekly basis
within the Combined Security Transition Command-Afghanistan, between the Combined




                                            210

Security Transition Command-Afghanistan and Task Force Phoenix, and between the Combined
Security Transition Command-Afghanistan and the North Atlantic Treaty Organization-
International Security Assistance Force to achieve unity of effort during the implementation of
the mentoring plan.

USCENTCOM Response: Ongoing.
CSTC-A Response T.3:

       CSTC-A CONCURS.

DOD IC Recommendation T.4: Commander Combined Security Transition Command-
Afghanistan establish a process by which the Afghan National Army and the Afghan National
Police report medical readiness results and issues within their organizations, and coordinate the
results with the Combined Security Transition Command-Afghanistan, Task Force Phoenix, and
the North Atlantic Treaty Organization-International Security Assistance Force to identify and
correct Afghan National Army and Afghan National Police medical problems.

USCENTCOM Response: Concur. Ongoing efforts by the ANSF medical leadership in
synchronization with CSTC-A SG.
CSTC-A Response T.4:

       CSTC-A CONCURS with comments on corrective action taken.
      Daily reports of readiness data (i.e. bed status, blood available, etc.) are received from the
      regional hospitals (RH), collated and reviewed at a weekly (since June 2008) MEDCOM
      emergency operations center (EOC) meeting. This information is forwarded to the
      Afghan National Military Command Center (NMCC). This process will be much further
      improved by the planned implementation this year of the health information management
      system (HC Standard) between NMH and the RH's. CSTC-A personnel an present at all
      of these briefings. HC Standard also has the capability to generate reports which can be
      forwarded to CSTC-A, ISAF, CENTCOM. Reported information can be tailored to
      address medical readiness objectives in accordance with the SY Action Plan and the
      Program Management Plan (PMP).

DOD IG Observation U: The ANA Logistics Command (a non-medical organization) has not
demonstrated effective requisition and delivery capacity necessary to support ANA medical
logistics support for combat operations. This occurred because the ANA Logistics Command
has not yet developed adequate effectiveness in the management of logistics functions.

DOD IC Recommendation U: Commander, Combined Security Transition Command
Afghanistan advise the Ministry of Defense and the Afghanistan National Army General Staff
that Supply Class VIII medical logistics should remain under the control of the Afghanistan
National Army Surgeon General.

USCENTCOM Response: Non-concur. Afghanistan leadership decision now inculcated
into the strategic framework and development plan.
CSTC-A Response U:

       CSTC-A NON-CONCURS.




                                             211 

       Ministry of Defense leadership decided to employ one single logistics framework,
       through which all logistics, including medical special supplies, pharmaceuticals and
       equipment will have a supply channel. This reflects the desire of Afghan MoD to focus
       efforts on the development of one capable logistics system that is more mature than a
       separate medical logistical system.

DOD IG Observation V: ANSF medical leadership was not clear as to the CSTC-A policy on
the integration of ANA and ANP medical functions into a common ANSF medical corps.
Further, ANSF force structures were not conducive to providing effective health care within an
integrated ANSF health care system.

This occurred because CSTC-A had not established and conveyed a clear position on the
integration of medical functions within ANA and AN? into a common ANSF medical corps, and
because CSTC-A, the Ministry of Defense, and the Ministry of Interior had not concurred on a
common position.

DOD IC Recommendation V.I: Commander, Combined Security Transition Command-
Afghanistan develop and implement a comprehensive integration and implementation plan to

establish a common Afghan National Security Forces medical corps comprised of the medical
functions of the Afghan National Army and the Afghan National Police. This plan should be
based on the elements developed by the Center for Disaster and Humanitarian Assistance
Medicine, and should include facility construction, logistical support, and civilian partnerships
for stalling and management. United States government funds should be expended to support
only an integrated health care system, as opposed to separate Army and Police systems.

USCENTCOM Response: Concur.
CSTC-A Response V.I:

        CSTC-A PARTIALLY CONCURS.
SY 1386 Contributions
      CJ Surgeon will continue to oversee the development of both the ANA and ANP medical
      functions.

        CSTC-A agrees that a single ANSF Healthcare System is desirable, however cannot
        accomplish this without a full court press on Afghan political leadership by the United
        States government and the International Community.

DOD IC Recommendation V.2: Commander, Combined Security Transition Command
Afghanistan develop and implement a medical mentoring plan to advise and assist the Ministries
of Defense and Interior, and the Surgeons General of the Afghan National Army and Afghan
National Police on the strategy, effectiveness, sustainability, and economic benefits of unified
force structures for providing effective health care and for building an integrated Afghan
National Security Forces Medical corps.

USCENTCOM Response: Concur.
CSTC-A Response V.2:

       CSTC-A CONCURS.




                                           212

        Readdress the need for one ANSF Healthcare System with Senior MOD and MOI
        leadership.

       In the last answers to this DoD IG it was noted that the AN? Surgeon General Leadership
       was ineffective, non-responsive to mentoring and focused on providing clinical care to
       his one clinic beneficiary population versus serving as the leader of a healthcare system.
       Three months ago he was replaced with a new SG who appears to be much more
       interested in integration, and more receptive to mentoring.

DOD IG Recommendation V.3: Commander, Combined Security Transition Command
Afghanistan develop and implement procedures to collect and track Afghan National Army and

Afghan National Police battle casualties from the point of wounding through rehabilitation and
return to duty. These procedures should include all patients admitted to all Afghan National
Army hospitals by beneficiary category to ensure Afghan National Police personnel have access
to appropriate care. They should also clarify the degree of shared facility use between the
Afghan National Army and the Afghan National Police.

USCENTCOM Response: Concur with CSTC-A actions below.
CSTC-A Response V.3:

       CSTC-A CONCURS with corrective actions taken.
CSTC-A has adopted a three phased multi-year approach to this recommendation:
    I. Three years ago CSTC-A began to collect data on admission and disposition of ANSE
       patients broken down by service (ANA, AN?, civilians), type of injury/illness, and
       medical treatment facility. This research in support of systems development and force
       structure requirements is ongoing.

       Fielded (or in the process of being fielded) systems in support of the above analysis
       include implementation of communications (radios, automated systems) with the military
       health care system this year. Additionally the ANA has fielded initial medevac capability
       (first mission 6 months ago) and is currently fielding a ground ambulance fleet (over
       1000 urban and tactical ambulances. 100 have been distributed thus far. The remainders
       are scheduled for delivery by January of 2009).

       Associated doctrine, policies and training to govern the above process have been or are
       currently being written for final completion this fiscal year.

DOD IG Observation W: Inadequate long-term joint planning, coordination and engagement by
the U.S. Mission Kabul, CSTC-A and ISAF is limiting the development of key Afghan civilian
health care system capabilities needed to support the ANSF. Some planning in this area had
been developed by DoD elements, but implementation of these plans has been limited. Further,
U.S. Government resources have not been effectively marshaled to build partnershiOps between
Afghan civilian and military institutions in the health care sector.

This occurred because USCENTCOM and CSTC-A have not developed a comprehensive,
integrated, multi-year plan, in coordination with the U.S. Mission-Kabul, ISAF, and the relevant
Afghan ministries, to build strategic medical partnerships that support broad reconstruction of
the health sector. In addition, there is no single focal point for accomplishing U.S. government
health care goals in Afghanistan, and an interagency forum to coordinate the implementation of
U.S. government health sector reconstruction activities has not been formed.




                                            213 

DOD IG Recommendation W.l.a: The Commander, U.S. Central Command, in cooperation
with the U.S. Mission-Kabul; the Assistant Secretary of Defense for Health Affairs; the
Commander, Combined Security Transition Command-Afghanistan; and the North Atlantic
Treaty Organization-International Security Assistance Force develop and implement a
comprehensive, integrated, multi-year plan to build strategic partnerships. These would be
forged with other U.S. Government agencies, academic partners, international and non-
governmental organizations, and key Afghan government ministries with the goal of fostering
the development of an integrated Afghanistan National Security Forces health care system and
civilian health care system capabilities that adequately complement the Afghanistan National
Security Forces health care system.

USCENTCOM Response: Concur. The ASD (114) in concert with the CENTCOM
Surgeon recommended the establishment of a health attaché position at U.S. Mission-
Kabul to synchronize and focus the interagency health sector activities in support of the
civilian health care system Afghanistan. The US Ambassador, Afghanistan did not
support. Recommend U.S. Embassy Kabul re evaluate the decision on the health attaché
position and be given the lead for all U.S. sponsored civilian health care development with
regards to the MoPH in Afghanistan.
CSTC-A Response W.1.2:
       CSTC-A CONCURS.

DOD IG Recommendation W.l.b: The Commander, U.S. Central Command, in coordination
with the U.S. Mission Kabul; the Assistant Secretary of Defense for Health Affairs; the
Commander, Combined Security Transition command Afghanistan; and the North Atlantic
Treaty Organization-International Security Assistance Force develop and implement a multiyear
plan to increase collaborative interaction with the Ministries of Public Health and Higher
Education to plan and implement new training programs for nurses, enlisted technicians, and
medical specialties needed within the Afghanistan National Security Forces medical corps, and
to leverage U.S., North Atlantic Treaty Organization-International Security Force partner
county and Afghanistan-based training

USCENTCOM Response: Concur with CSTC-A action plan.
CSTC-A Response W.l.b:
       CSTC-A CONCURS.

      C.1 Surgeon has crafted a 1-year advance medical technician (licensed professional nurse)
      program for 30-45 students to increase the nursing pool within ANA. This program, the
      Allied Health Professional Institute (AHPI) is scheduled to begin its first class on 1
      October 2008. The curriculum has been developed. All materials have been translated
      into Dari. All equipment has been purchased and is undergoing installation.

      Temporary housing has been provided which is managed by the ANA. Permanent
      billeting is scheduled (construction planned to begin next spring).

      Continue work on Tashlcil per CSTC-A Tashldl tasker. Refine TashIcil to match
      education, growth, training and specialty need annually (revisions takes force at the
      beginning of the solar year in March).




                                          214

DOD 1G Recommendation W.l.c: The Commander, U.S. Central Command, in coordination
with the U.S. Mission Kabul; the Assistant Secretary of Defense for Health Affairs; the
Commander, Combined Security Transition command Afghanistan; and the North Atlantic
Treaty Organization-International Security Assistance Force identify, access, and leverage
subject matter experts and existing DoD efforts and those of other U.S. Government,
international, and private sector organizations (such as the Department of State, the Department
of Health and Human Services, and the U.S. Agency for International Development) to promote:

        Development of a sustainable integrated Afghanistan National Security Forces health
        care system

        Improved civilian medical education and public health systems

        Development of civilian health care system capabilities that adequately complement the
        Afghanistan National Security Forces health care system

        U.S. Mission-Kabul, Combined Security Transition Command-Afghanistan Command
        Surgeon, and North Atlantic Treaty Organization-International Security Assistance Force
        efforts to implement these goals

USCENTCOM Response: Concur with the CSTC-A action plan with further emphasis
placed on the development of training programs for anesthesiologists, and psychiatrists
within the ANSF Healthcare System Mission.
CSTC-A Response W.I.c:

       CSTC-A CONCURS with comment on corrective actions taken.

       ANSF Allied Health Professions Institute is under development. Radiology, Laboratory,
       Ultra-sound and Advanced Medical Technicians programs are targeted.

       Curriculum developments are completed as of July 08. Future collaborations with
       MOPH and MOE pending.

   i   First develop AHPI for ANSF then review opportunities to collaborate with other
       agencies.

       ANA and Kabul Medical University (Ministry of Higher Education) has a current
       medical education partnering agreement with students actively attending medical school
       and ANA MEDCOM residencies.

       As noted in the last IG response, there is yet no training programs for
       Obstetricians/Gynecologists, anesthesiologists, and psychiatrists in Afghanistan. Out of
       scope for the ANSF Healthcare System Mission of CSTC-A.

DOD IG Recommendation W.2 .a: The Assistant Secretary of Defense for Health Affairs
prepare, in coordination with the Under Secretary of Defense for Policy, the Under Secretary of
Defense (Comptroller)/Chief Financial Officer, and the Assistant Secretary of the Army
(Financial Management & Comptroller), an Afghanistan Security Forces Fund spending plan that
includes a separate medical budget category and submit to the United States Congress to request
appropriated funding for building and improving civilian Afghan health care systems that
adequately complement and support the Afghanistan National Security Forces health care
system.




                                            215 

USCENTCOM Response: Non-concur. Recommend this be a DOS lead effort vice DOD.
Civilian health care is not in the scope of the CSTC-A mission.
CSTC-A Response W.2.a:

        CSTC-A PARTICALLY CONCURS.
        Civilian Health Care is out of scope of CSTC-A mission.

DOD IG Recommendation W.2 .b: The Assistant Secretary of Defense for Health Affairs
develop a U.S. based health sector reach back support office within the Department of Defense,
in coordination with the Chairman of the Joint Chiefs of Staff and the Commander, United States
Central Command, to identify, access, and leverage subject matter experts and future DoD
efforts and those of other U.S. Government, international, and private sector organizations (such
as the Department of State, the Department of Health and Human Services, and the U.S. Agency
for International Development) to promote:

        Development of a sustainable integrated Afghanistan National Security Forces Care
        system

        Improved civilian medical education and public health system care

       Development of civilian health care system capabilities that will support the Afghanistan
       National Security Forces health care system development

       U.S. Mission-Kabul, Combined Security Transition Command-Afghanistan Command
       Surgeon, and North Atlantic Treaty Organization-International Security Assistance Force
       efforts to implement these goals

USCENTCOM Response: Concur within the scope of the DoD mission.
CSTC-A Response W.2.b:

       CSTC-A PARTIALLY CONCURS.

       Civilian Health Care out of scope of CSTC-A mission.

DOD IG Recommendation W.2.c: The Assistant Secretary of Defense for Health Affairs
recommend to interagency counterparts the establishment of a U.S.-based health sector reach

back support office which would coordinate all U.S. government health sector reconstruction
activities in Afghanistan.

USCENTCOM Response: Concur.
CSTC-A Response W.2.c:

       CSTC-A CONCURS.

DOD IG Recommendation W.3 .a: Commander, Combined Security Transition Command-
Afghanistan develop and implement a tracking system, in coordination with the Ministers of
Defense and Interior, to ensure Afghanistan National Security Forces medical personnel trained
for specialty medical tasks are appropriately utilized in Afghanistan National Security Forces
health care positions.




                                           216

USCENTCOM Response: Concurs if implemented within the scope of the CSTC-A
mission. The ANA and AN!' Surgeons duties and responsibilities must be recognized and
the Afghanistan leadership empowered.
CSTC-A Response W.3.a:
        CSTC-A CONCURS with comment on corrective actions ongoing.
        The MoD has identified combat medic as an intensively managed MOS. In August of
        2007, the Surgeon General, secondary to CSTC-A rnentoring, reported problems with
        inappropriate use of trained personnel to the MoD. A subsequent directive (December
        2007) from the MoD stated that this MOS must not be mal-assigned and tasked his Chief
        of Staff (CoS) to periodically monitor the situation to assure compliance.

       Similarly, CSTC-A is supporting staff development visits within the MOI to periodically
       assess appropriate assignment of trained Trauma Assistance Personnel (TAP)combat
       medic equivalent

       In March 2008 CSTC-A conducted 100% inventory of authorizations of ANA medical
       personnel

       CSTC-A subsequently evaluated and redefined all medical occupational specialties
       (MOS, AS!)

       Plan for SY 1308 is to formulate a management plan for each medical specialty within
       the ANA

DOD IC Recommendation W.3.b: Commander, Combined Security Transition Command-
Afghanistan alert Minister of Defense and Minister of Interior medical leadership when medical
personnel trained for specialty medical tasks are not being appropriately utilized in Afghanistan
National Security Forces health care positions and Advise that these practices be curtailed.
USCENTCOM Response: Concur.
CSTC-A Response W.3.b:
       CSTC-A CONCURS.

                                   GENERAL COMMENTS
Please change all references to CJTF-101 which are shown as Joint Task Force to
Combined Joint Task Force. There is a huge difference between these two designations
and the only way 101 should be referred to in AFG is as the Combined Joint Task Force
101.




                                           217 

This Page Intentionally Left Blank




               218

Appendix I. Report Distribution

Office of the Secretary of Defense
     Secretary of Defense

     Deputy Secretary of Defense

     Chairman of the Joint Chiefs of Staff* 

     Under Secretary of Defense for Acquisition, Technology and Logistics*

     Under Secretary of Defense for Policy*

     Under Secretary of Defense (Comptroller)/Chief Financial Officer* 

        Deputy Chief Financial Officer
        Deputy Comptroller (Program/Budget) 

     Under Secretary of Defense for Personnel and Readiness

     Deputy Comptroller (Program/Budget) 

     Under Secretary of Defense for Personnel and Readiness*

     Assistant Secretary of Defense (Health Affairs)*

     Assistant Secretary of Defense (Reserve Affairs)

     Under Secretary of Defense for Intelligence* 

     Vice Chairman of the Joint Chiefs of Staff 

     Assistant Secretary of Defense (Legislative Affairs)

     Assistant Secretary of Defense (Public Affairs)

     Director, Program Analysis and Evaluation 

     Director, Defense Procurement and Acquisition Policy 

     Director, Joint Staff 

        Director, Manpower and Personnel (J-1)

        Director, Operations (J-3)

        Director, Strategic Plans and Policy (J-5) 


Department of the Army
     Secretary of the Army* 

     Assistant Secretary of the Army for Acquisition, Logistics and Technology 

     Deputy Assistant Secretary of the Army for Defense Exports and Cooperation 

     Assistant Secretary of the Army for Financial Management and Comptroller* 

     Assistant Secretary of the Army for Manpower and Reserve Affairs* 

     Commander, U.S. Army Materiel Command* 

         Commander, U.S. Army Security Assistance Command
         Commander, U.S. Army Materiel Command Logistics Support Activity*
     Surgeon General of the Army*
     Inspector General of the Army
     Auditor General, Department of the Army

Department of the Navy
     Assistant Secretary of the Navy (Manpower and Reserve Affairs)*

     Assistant Secretary of the Navy (Research, Development and Acquisition) 

     Deputy Assistant Secretary of the Navy (International Programs) 

     Surgeon General of the Navy*

     Naval Inspector General 


                                   219 

       Deputy Naval Inspector General for Marine Corps Matters

Department of the Air Force
    Commander, Air Force Materiel Command
    Commander, Air Force Security Assistance Center
    Deputy Under Secretary of the Air Force for International Affairs
    Principal Assistant Deputy Under Secretary of the Air Force (International
        Affairs)
    Assistant Secretary of the Air Force for Financial Management and
        Comptroller
    Assistant Secretary of the Air Force for Manpower and Reserve Affairs*
    Surgeon General of the Air Force*
    Inspector General of the Air Force

Combatant Commands
    Commander, U.S. Central Command*
      Commander, Multi-National Force-Iraq
      Commander, Multi-National Corps-Iraq
      Commander, Multi-National Security Transition Command-Iraq
      Commander, Combined Security Transition Command-Afghanistan*
      Commander, Combined Joint Task Force 101*
    Commander, U.S. Joint Forces Command 

    Commander, U.S. Transportation Command 


Department of State
    Secretary of State
    U.S. Ambassador to Afghanistan* 

    Assistant Secretary of State for Political-Military Affairs 

    Inspector General, Department of State


Other Defense Organizations
    Director, Defense Contract Audit Agency
    Director, Defense Logistics Agency
    Director, Defense Security Cooperation Agency*
    The Special Inspector General for Afghanistan Reconstruction
    The Special Inspector General for Iraq Reconstruction
    President, Uniformed Services University of the Health Sciences

Other Non-Defense Federal Organizations
    Secretary of Health and Human Services 

    Comptroller of the United States 

    Office of Management and Budget 

    Administrator, U.S. Agency for International Development 




                                     220

North Atlantic Treaty Organization
     Commander, North Atlantic Treaty Organization-International Security
     Assistance Force

Congressional Committees and Subcommittees, Chairman
and Ranking Minority Member
     Senate Committee on Appropriations
     Senate Subcommittee on Defense, Committee on Appropriations
     Senate Committee on Armed Services
     Senate Committee on Foreign Relations
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
     House Subcommittee on Defense, Committee on Appropriations
     House Committee on Armed Services
     House Committee on Oversight and Government Reform
     House Subcommittee on Government Management, Organization, and
        Procurement
     House Subcommittee on National Security and Foreign Affairs
     House Committee on International Relations

     * Recipient of the draft report.




                                        221 

Team Members
The Department of Defense, Office of the Inspector General, Assessment Team on
Munitions Accountability prepared this report. Personnel of the Department of Defense,
Office of Inspector General, who contributed to the report, are listed below.

   Thomas F. Gimble, Principal Deputy Inspector General
   Kenneth P. Moorefield, Assistant Inspector General
   Robert M. Murrell
   Stanley E. Meyer
   Joe A. Baker
   Colonel Donald F. Thompson, USAF
   Lieutenant Colonel Lewis P. Goodwin, USA
   Lieutenant Colonel John E. Taylor, USA
   Lieutenant Commander William Jackson, USN
   Major David Spangler, USMC
   Albert T. Hervey
   David Corn
   Walter Carney
   John Furutani
   Peter G. Bliley
   Martin Radtke




                                      222

                           DEPARTMENT OF DEFENSE
                          OFFICE OF INSPECTOR GENERAL




                                MISSION STATEMENT




The Office of the Inspector General promotes integrity, accountability, and improvement of
          Department of Defense personnel, programs and operations to support
                  the Department's mission and to serve the public interest.




                                                                                             D E PA R T M E N T O F D E F E N S E
                                                                                                                                    To report fraud, waste, mismanagement, and abuse of authority.


                                                                                             hot line                               Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
                                                                                                                                    Phone: 800.424.9098         e-mail: hotline@dodig.mil       www.dodig.mil/hotline
Report No. IE-2007-006        September 28, 2007




      Safety and Occupational Health Accountability
                    In DoD Individual
             Performance Evaluation Reports
